<html>
<title> - COVID-19'S EFFECTS ON U.S. AVIATION AND THE FLIGHTPATH TO RECOVERY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  COVID-19'S EFFECTS ON U.S. AVIATION AND THE 
                         FLIGHTPATH TO RECOVERY

=======================================================================

                                (117-5)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-274 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy

                        Subcommittee on Aviation

  RICK LARSEN, Washington, Chair
GARRET GRAVES, Louisiana             STEVE COHEN, Tennessee
DON YOUNG, Alaska                    ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              SHARICE DAVIDS, Kansas
SCOTT PERRY, Pennsylvania            KAIALI`I KAHELE, Hawaii
JOHN KATKO, New York                 NIKEMA WILLIAMS, Georgia
BRIAN J. MAST, Florida               HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE GALLAGHER, Wisconsin            Georgia
BRIAN K. FITZPATRICK, Pennsylvania   DINA TITUS, Nevada
TROY BALDERSON, Ohio                 SEAN PATRICK MALONEY, New York
PETE STAUBER, Minnesota              JULIA BROWNLEY, California
TIM BURCHETT, Tennessee              DONALD M. PAYNE, Jr., New Jersey
JEFFERSON VAN DREW, New Jersey       MARK DeSAULNIER, California
TROY E. NEHLS, Texas                 STEPHEN F. LYNCH, Massachusetts
NANCY MACE, South Carolina           ANTHONY G. BROWN, Maryland
BETH VAN DUYNE, Texas                GREG STANTON, Arizona
CARLOS A. GIMENEZ, Florida           COLIN Z. ALLRED, Texas
MICHELLE STEEL, California           CONOR LAMB, Pennsylvania
SAM GRAVES, Missouri (Ex Officio)    ELEANOR HOLMES NORTON,
                                       District of Columbia
                                     EDDIE BERNICE JOHNSON, Texas
                                     JOHN GARAMENDI, California
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chair, Subcommittee on Aviation:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     7
    Prepared statement...........................................     8
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    93
Hon. Steve Cohen, a Representative in Congress from the State of 
  Tennessee, prepared statement..................................    93
Hon. Michelle Steel, a Representative in Congress from the State 
  of California, prepared statement..............................    94

                               WITNESSES

Heather Krause, Director, Physical Infrastructure, U.S. 
  Government Accountability Office:

    Oral statement...............................................    10
    Prepared statement...........................................    11
Nicholas E. Calio, President and Chief Executive Officer, 
  Airlines for America:

    Oral statement...............................................    18
    Prepared statement...........................................    20
Captain Joseph G. DePete, President, Air Line Pilots Association, 
  International:

    Oral statement...............................................    25
    Prepared statement...........................................    26
Peter J. Bunce, President and Chief Executive Officer, General 
  Aviation Manufacturers Association:

    Oral statement...............................................    31
    Prepared statement...........................................    32
Lance Lyttle, Managing Director, Seattle-Tacoma International 
  Airport, on behalf of the American Association of Airport 
  Executives:

    Oral statement...............................................    37
    Prepared statement...........................................    39
Edward M. Bolen, President and Chief Executive Officer, National 
  Business Aviation Association:

    Oral statement...............................................    48
    Prepared statement...........................................    49

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Garret Graves of Louisiana:

    Letter of June 2, 2020, to the U.S. Government Accountability 
      Office from Ranking Members of the House Committee on 
      Transportation and Infrastructure and Subcommittee on 
      Aviation...................................................    57
    Statement of the American Car Rental Association.............    58
Submissions for the Record by Hon. Rick Larsen:

    Statement of Faye Malarkey Black, President and CEO, Regional 
      Airline Association........................................    94
    Statement of the Travel Management Coalition.................   100
    Letter of March 2, 2021, from Scott Kirby, Chief Executive 
      Officer, United Airlines...................................   101

                                APPENDIX

Questions to Heather Krause, Director, Physical Infrastructure, 
  U.S. Government Accountability Office, from:

    Hon. Garret Graves...........................................   103
    Hon. Mike Gallagher..........................................   106
Questions to Nicholas E. Calio, President and Chief Executive 
  Officer, Airlines for America, from:

    Hon. Steve Cohen.............................................   106
    Hon. Garret Graves...........................................   107
Questions from Hon. Garret Graves to Captain Joseph G. DePete, 
  President, Air Line Pilots Association, International..........   109
Questions to Peter J. Bunce, President and Chief Executive 
  Officer, General Aviation Manufacturers Association, from:

    Hon. Garret Graves...........................................   110
    Hon. Sam Graves..............................................   112
Questions from Hon. Garret Graves to Lance Lyttle, Managing 
  Director, Seattle-Tacoma International Airport, on behalf of 
  the American Association of Airport Executives.................   113
Questions to Edward M. Bolen, President and Chief Executive 
  Officer, National Business Aviation Association, from:

    Hon. Garret Graves...........................................   115
    Hon. Sam Graves..............................................   117

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             March 2, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Aviation
    FROM:  LStaff, Subcommittee on Aviation
    RE:      LSubcommittee Hearing on ``COVID-19's Effects on 
U.S. Aviation and the Flightpath to Recovery''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Aviation will meet on Tuesday, March 2, 
2021, at 10:00 a.m. (EST) in 2167 Rayburn House Office Building 
and virtually via Cisco WebEx to hold a hearing titled, 
``COVID-19's Effects on U.S. Aviation and the Flightpath to 
Recovery.'' The purpose of the hearing is to examine the 
continuing effects of the COVID-19 pandemic on the U.S. 
aerospace industry, what the industry will look like post-
pandemic, and how best to aid in the recovery. The Subcommittee 
will receive testimony from representatives of the Government 
Accountability Office (GAO); Airlines for America (A4A); Air 
Line Pilots Association (ALPA); American Association of Airport 
Executives (AAAE); General Aviation Manufacturers Association 
(GAMA); and National Business Aviation Association (NBAA).

                               BACKGROUND

I. COVID-19 TRANSMISSIBILITY

    The Centers for Disease Control and Prevention (CDC) states 
that COVID-19 is most commonly spread during close contact; 
individuals who are physically near (within 6 feet) a person 
with COVID-19 or have direct contact with that person are at 
greatest risk of infection.\1\ Some infections can be spread by 
exposure to the virus through small droplets and particles that 
can linger in the air for minutes to hours. These particles can 
infect people who are further than 6 feet away from an infected 
individual or after that individual has left the space. This 
kind of spread is referred to as airborne transmission.\2\ 
Although less common, COVID-19 can also be spread when a person 
touches a contaminated surface where respiratory droplets have 
landed, and then touches their own mouth, nose, or eyes.\3\
---------------------------------------------------------------------------
    \1\ How COVID-19 Spreads, Ctr. for Disease Control (Updated: Oct. 
28, 2020) available at https://www.cdc.gov/coronavirus/2019-ncov/
prevent-getting-sick/how-covid-spreads.html.
    \2\ Id.
    \3\ Id.
---------------------------------------------------------------------------
    In September 2020, the CDC reported that it had 
investigated 1,600 cases of passengers flying commercial 
airlines while COVID-19 positive and found nearly 11,000 people 
may have been exposed; however, due to incomplete contact 
tracing data, the CDC was unable to confirm any case of viral 
transmission.\4\ However, in March 2020, a separate CDC 
analysis found that a woman traveling from London to Vietnam, a 
more than 10-hour flight, infected 15 other passengers on a 
commercial flight prior to airline mask mandates.\5\ Other 
studies have demonstrated the potential for the spread of 
coronavirus during long duration flights as well.\6\
---------------------------------------------------------------------------
    \4\ Joseph Guzman, CDC says nearly 11,000 people may have been 
exposed to COVID-19 on flights, The Hill, Sept. 22, 2020, available at 
https://thehill.com/changing-america/well-being/
longevity/517566-cdc-says-nearly-11000-people-may-have-been-exposed-to.
    \5\ Khanh N, Thai P, Quach H, Thi N, Dinh P, Duong T, et al., 
Transmission of SARS-CoV 2 During Long-Haul Flight, Vol. 26 No. 11 
Emerging Infectious Diseases 2617-2624 (Nov. 2020) available at https:/
/dx.doi.org/10.3201/eid2611.203299.
    \6\ Benedict Carey, One 18-Hour Flight, Four Coronavirus 
Infections, N.Y. Times, Jan.7, 2021 (Updated: Jan. 26, 2021), available 
at https://www.nytimes.com/2021/01/07/health/coronavirus-
airline-passengers-outbreak.html.
---------------------------------------------------------------------------
    As such, the CDC recommends people delay travel and stay 
home as much as possible during the pandemic, to protect 
themselves and others from COVID-19.\7\ Consequently, the 
aviation industry has been severely affected by the significant 
decline in air travel.
---------------------------------------------------------------------------
    \7\ Traveling During COVID-19, Ctr. for Disease Control (Updated: 
Feb. 16, 2021), available at https://www.cdc.gov/coronavirus/2019-ncov/
travelers/travel-during-covid19.html.
---------------------------------------------------------------------------

II. COVID-19 EFFECTS ON THE AEROSPACE INDUSTRY

    The COVID-19 pandemic has had a devastating effect on the 
U.S. aerospace industry. Demand for commercial air travel 
plummeted last spring as the coronavirus cases surged, and it 
continues to be far below typical levels. The most recent 
airline traffic data showed a 61 percent decrease in passenger 
traffic for November 2020 over November 2019.\8\ In January 
2021, total traveler throughput at Transportation Security 
Administration (TSA) checkpoints dropped by, on average, more 
than 60 percent compared to the same period in 2020.\9\ The 
International Air Transport Association (IATA) estimated in 
October 2020 that global airlines were burning more than $13 
billion in cash each month.\10\ IATA also predicts the airline 
industry will not fully recover until 2024 at the earliest.\11\ 
Aerospace manufacturing has also been hit hard; by the end of 
2020, it was expected that global civil aircraft production 
would drop by nearly 50 percent, affecting the entire supply 
chain and repair infrastructure.\12\
---------------------------------------------------------------------------
    \8\ U.S. Airlines November 2020 Passengers Decreased 61% from 
November 2019 (Preliminary), Bureau of Transp. Statistics, Jan. 12, 
2021, available at https://www.bts.gov/newsroom/us-
airlines-november-2020-passengers-decreased-61-november-2019-
preliminary.
    \9\ TSA checkpoint travel numbers (current year(s) versus prior 
year/same weekday), Transp. Sec. Admin. (Feb. 19, 2021), available at 
https://www.tsa.gov/coronavirus/passenger-throughput.
    \10\ Airlines continue to burn through cash, Int'l Air Transport 
Assoc., Oct. 8, 2020, available at https://airlines.iata.org/news/
airlines-continue-to-burn-through-cash.
    \11\ Recovery Delayed as International Travel Remains Locked Down, 
Int'l Air Transport Assoc., July 28, 2020, available at https://
airlines.iata.org/news/airlines-continue-to-burn-through-cash.
    \12\ Eric Fanning, It's time for Congress to act: Save jobs and 
stabilize the aerospace industry, The Hill, Nov. 16, 2020, available at 
https://thehill.com/blogs/congress-blog/economy-budget/
526245-its-time-for-congress-to-act-save-jobs-and-stabilize-the?rl=1.
---------------------------------------------------------------------------
    The reduction in U.S. air travel has also reduced the flow 
of aviation-related excise tax revenues into the Airport and 
Airway Trust Fund (AATF), the major source of funding for 
Federal aviation programs, including airport infrastructure 
grants, aviation safety programs, and air traffic control 
operations.\13\ The Coronavirus Aid, Relief, and Economic 
Security (CARES) Act (Pub. L. 116-136) suspended the collection 
of most aviation excise taxes through calendar year 2020.\14\ 
Due to the suspension of such taxes, the balance of the Federal 
Aviation Administration's (FAA's) AATF rapidly declined during 
the pandemic, according to FAA staff, including a revised 
projection of $571 million in downward Treasury adjustments and 
a projected $2.4 billion reduction to the Trust Fund cash 
balance.\15\ Therefore, the Continuing Appropriations Act, 2021 
and Other Extensions Act (Pub. L. 116-159), included a $14 
billion general fund transfer to shore up the AATF to ensure 
funding stability for Federal aviation programs.\16\
---------------------------------------------------------------------------
    \13\ Airport and Airway Trust Fund (AATF) Fact Sheet, FAA (Updated: 
April 2020), available at https://www.faa.gov/about/budget/aatf/media/
AATF_Fact_Sheet.pdf.
    \14\ Coronavirus Aid, Relief, and Economic Security (CARES) Act, 
Pub. L. No. 116-136 Sec.  4007 (2020).
    \15\ FAA briefing for staff of the Committee on Transportation and 
Infrastructure, April 21, 2020.
    \16\ Continuing Appropriations Act, 2021 and Other Extensions Act, 
Pub. L. 116-159 (2020).
---------------------------------------------------------------------------

III. COVID-19 EFFECTS ON THE AEROSPACE WORKFORCE

    More than 750,000 workers are employed by U.S. passenger 
and cargo airlines,\17\ with a large number of these workers 
facing the prospect of furlough as a result of substantially 
reduced demand. According to recent industry analysis, an 
estimated 100,000 aerospace manufacturing workers have already 
lost their jobs nationwide and 220,000 additional jobs are at 
risk of furlough.\18\
---------------------------------------------------------------------------
    \17\ Airline Employment Data by Month, Bureau of Transp. 
Statistics, (Visited: May 29, 2020), available at https://
www.transtats.bts.gov/Employment/.
    \18\ David Shepardson and Eric M. Johnson, U.S. lawmakers consider 
aid for aerospace workers in COVID-19 bill, Reuters, Dec. 18, 2020.
---------------------------------------------------------------------------

A. PAYROLL SUPPORT PROGRAM

    Recognizing the immediate need to save airline jobs, 
Congress passed the CARES Act, which included the Payroll 
Support Program (PSP)--a $32 billion program to preserve the 
jobs of employees of U.S. airlines and certain airline 
contractors through September 30, 2020.\19\ The assistance 
provided was conditioned on companies not involuntarily 
furloughing or reducing the pay rates or benefits of workers, 
refraining from stock buybacks, limiting executive 
compensation, and other conditions. Every major airline signed 
an agreement with the U.S. Treasury to receive PSP grants.\20\
---------------------------------------------------------------------------
    \19\ CARES Act, Pub. L. No. 116-136 Sec.  4112-20 (2020).
    \20\ Payroll Support Program Payments, U.S. Treas., (Updated: Feb. 
9, 2021) available at https://home.treasury.gov/policy-issues/cares/
preserving-jobs-for-american-industry/
payroll-support-program-payments.
---------------------------------------------------------------------------
    Unfortunately, airlines struggled to remain solvent in the 
face of declining revenues, furloughing tens of thousands of 
flight attendants, pilots, and other workers after the PSP 
program and the prohibition on involuntary furloughs expired on 
September 30, 2020. While a second round of PSP funding was 
approved in December 2020 as part of a larger COVID-19 relief 
package, with the condition that air carriers recall any 
furloughed employees, the process to recall such employees is 
proved extraordinarily complex and expensive.\21\ The recent 
December 2020 PSP extension provided a total of $15 billion in 
payroll grant funding for airlines and certain airline 
contractors through March 31, 2021.\22\
---------------------------------------------------------------------------
    \21\ Consolidated Appropriations Act, 2021, Pub. L. 116-260 (2020); 
CNBC, Airlines Begin Complex Process of Calling Back More Than 32,000 
Furloughed Workers (Visited: January 15, 2021) available at https://
www.cnbc.com/2020/12/23/coronavirus-stimulus-gives-airlines-15-billion-
to-call-back-furloughed-workers.html.
    \22\ Consolidated Appropriations Act, 2021, Pub. L. 116-260 (2020).
---------------------------------------------------------------------------

B. WORKER HEALTH AND SAFETY

    Aviation workers face significant risks of being exposed to 
COVID-19. Throughout the pandemic, flight attendants, pilots, 
gate agents, and service workers have had to deal with some 
travelers who refuse to follow airline mask requirements, have 
not been screened for the virus, and are unable to follow 
social distancing precautions both in the air and on the 
ground.\23\ There have been numerous reports of airline 
passengers verbally abusing and taunting flight attendants as 
they have tried to enforce airline mask requirements and of 
passengers exploiting food and drink mask exceptions for 
prolonged periods to avoid mask wearing.\24\ Moreover, these 
disturbances have safety implications beyond even spreading the 
virus, with at least one report of an airline captain being so 
distracted by a mask-related problem with a passenger that the 
captain mistakenly descended to the wrong altitude.\25\ While 
an executive order now mandates passengers and crew wear face 
coverings in airports and on flights, including during check-in 
and boarding,\26\ many personnel still have concerns regarding 
their safety, including mask enforcement, contact tracing, and 
whether they can miss work without repercussions.\27\
---------------------------------------------------------------------------
    \23\ Harmeet Kaur and Natalia V. Osipova, For flight attendants, 
getting people to wear masks is now one of the hardest parts of the 
job, CNN, Jan. 21, 2021, available at https://www.cnn.com/
travel/article/flight-attendants-unruly-passengers-masks-trnd/
index.html.
    \24\ Michael Laris, Sneezed on, cussed at, ignored: Airline workers 
battle mask resistance with scant governmental backup, Wash. Post, 
January 1, 2021, available at https://www.washingtonpost.com/local/
trafficandcommuting/coronavirus-mask-airplanes/
2020/12/31/09c12d52-4565-11eb-975c-d17b8815a66d_story.html.
    \25\ Id.
    \26\ Exec. Order No. 13998, 86 FR 7205, Jan. 21, 2021.
    \27\ Johanna Read, `It's definitely not easy.' How flight 
attendants are handling travel during COVID-19., Nat'l Geographic, Jan. 
26, 2021 available at https://www.nationalgeographic.com/
travel/article/heres-what-flight-attendants-want-you-to-know-about-
flying-during-covid.
---------------------------------------------------------------------------

IV. CONGRESSIONAL RESPONSE

A. THE CARES ACT

    In response to the pandemic, on March 27, 2020, Congress 
passed the bipartisan CARES Act.\28\ This sweeping law provided 
economy-wide relief to individuals and businesses. In addition 
to authorizing the aforementioned PSP, providing $32 billion in 
payroll assistance to U.S. airlines and certain contractors 
conditioned on certain employer assurances, the CARES Act 
authorized $29 billion in Federal loans to airlines and a 
separate loan fund designed for businesses critical to 
maintaining national security.\29\
---------------------------------------------------------------------------
    \28\ CARES Act, Pub. L. No. 116-136 (2020).
    \29\ Id. at Sec.  4003.
---------------------------------------------------------------------------
    The CARES Act also provided $10 billion in emergency aid 
for airports to address the effects of the pandemic.\30\ In 
exchange for receiving these Federal funds, small, medium, and 
large hub airports were required to retain at least 90 percent 
of their workforce as of March 27, 2020, through December 31, 
2020. The measure also provided $100 million directly to 
general aviation airports and $500 million to help airports 
cover the non-Federal cost share of any Airport Improvement 
Program (AIP) grant received in fiscal year 2020.\31\
---------------------------------------------------------------------------
    \30\ Id. at tit. XII, 134 Stat. 596.
    \31\ Id.
---------------------------------------------------------------------------

B. THE CONSOLIDATED APPROPRIATIONS ACT, 2021

    On December 27, 2020, the bipartisan Consolidated 
Appropriations Act of 2021 (Pub. L. 116-260) became law.\32\ In 
the Act, the PSP was extended, authorizing an additional $16 
billion for the program--$15 billion for air carriers and $1 
billion for air carrier contractors. As such, it extended many 
of the conditions on employer acceptance of financial 
assistance through March 31, 2021.\33\ The Act also included 
measures for airports similar to those included the CARES Act, 
providing $2 billion in emergency aid for airports to help them 
prepare for, mitigate, and respond to the effects of the COVID-
19 pandemic.\34\ Finally, the Act expanded the eligibility of 
the loan fund designed for businesses critical to maintaining 
national security created under the CARES Act to specifically 
include aerospace suppliers.\35\
---------------------------------------------------------------------------
    \32\ Consolidated Appropriations Act, 2021, Pub. L. 116-260 (2020).
    \33\ Id.
    \34\ Id.
    \35\ Id.
---------------------------------------------------------------------------

C. BUDGET RECONCILIATION FOR FISCAL YEAR 2021

    The reconciliation bill currently moving through the House 
would provide $15 billion to extend the PSP to fund payroll 
support for airline workers and related contract workers.\36\ 
As with the original PSP authorization and its first extension, 
this second extension would prohibit air carriers and 
contractors from involuntarily furloughing or reducing pay 
rates or benefits of their workers until September 30, 2021, or 
on the date on which the assistance they receive is exhausted, 
whichever is later.\37\ The extension includes similar 
restrictions on executive compensation and capital 
distributions, such as dividend payments, and taxpayer 
protections, as provided in the original program.\38\
---------------------------------------------------------------------------
    \36\ The American Rescue Plan of 2021, H.R. 1319, 117th Cong. 
(2021).
    \37\ Id.
    \38\ Id.
---------------------------------------------------------------------------
    The bill also provides a total of $8 billion in emergency 
aid for primary airports, non-primary airports, and airport 
concessions.\39\ Of this amount, $6.4 billion would be 
distributed to primary airports for costs related to 
operations, personnel, debt service payments, and combating the 
spread of pathogens at airports, among other things.\40\ In 
exchange for receiving these Federal funds, small, medium, and 
large hub airports are required to continue to retain at least 
90 percent of their workforce as of March 27, 2020, through the 
end of this fiscal year.\41\ Additionally, it would provide 
$100 million to non-primary airports to help address costs 
related to the current pandemic and more than $600 million to 
help ensure all airports receive a 100 percent Federal cost 
share for any AIP grant awarded to them in fiscal year 
2021.\42\ The measure would allocate $800 million to airport 
concessions at primary airports in the form of relief from rent 
and minimum annual guarantee obligations.\43\ Of this $800 
million allocation, 80 percent would be targeted toward small 
businesses and minority-owned firms and 20 percent would be 
provided to large concessionaires.\44\
---------------------------------------------------------------------------
    \39\ Id.
    \40\ Id.
    \41\ Id.
    \42\ Id.
    \43\ Id.
    \44\ Id.
---------------------------------------------------------------------------
    Finally, the bill establishes a $3 billion payroll support 
program for aerospace manufacturers. Administered by the U.S. 
Department of Transportation (DOT), it would provide a 50 
percent Federal share to eligible U.S. aerospace manufacturing 
companies--those that involuntarily furloughed at least 10 
percent of their workforce or experienced at least a 15 percent 
decline in revenues in 2020 and have a majority of their 
aviation employees based in the United States--to help cover 
the wages, salaries, and benefits of manufacturing employees 
most at risk of being furloughed and to facilitate the recall 
or rehire of such employees furloughed during the COVID-19 
pandemic.\45\ The assistance is also specifically targeted at 
workers making less than $200,000 annually. Moreover, while 
receiving Federal funds, a manufacturer recipient is prohibited 
from conducting involuntary furloughs or reducing the pay rates 
and benefits of its eligible employee groups.
---------------------------------------------------------------------------
    \45\ Id.
---------------------------------------------------------------------------

V. COMBATING COVID-19 TRANSMISSION IN AIR TRAVEL_CURRENT AND PROPOSED 
                    MITIGATION STRATEGIES TO INCREASE SAFETY AND 
                    RECOVERY

A. VOLUNTARY SYMPTOM SELF-SCREENING

    People infected with COVID-19 should not travel.\46\ Since 
the easiest way to suspect a COVID-19 infection is with active 
symptoms, the CDC and airlines currently ask passengers not to 
fly if they have symptoms. Unfortunately, a recent CDC study 
modeled that 59% of COVID-19 transmission came from people who 
were asymptomatic.\47\ As such, self-screening is just the 
first of many methods used to ensure public safety.
---------------------------------------------------------------------------
    \46\ Traveling During COVID-19, Ctr. for Disease Control (Updated: 
Feb. 16, 2021), available at https://www.cdc.gov/coronavirus/2019-ncov/
travelers/travel-during-covid19.html.
    \47\ Ben Guarino, People without symptoms spread virus in more than 
half of cases, CDC model finds, Wash. Post, Jan. 7, 2021, available at 
https://www.washingtonpost.com/science/2021/
01/07/covid-asymptomatic-spread/. Please note, this article is 
referring to the general population and is not specific to airline 
passengers.
---------------------------------------------------------------------------

B. MASKS AND FACE COVERINGS

    Wearing masks on any high-density public transport, if worn 
correctly, substantially reduces transmission. Masks protect 
both the wearer and others by containing the illness at its 
source and, if it is a specific type of mask (e.g., N95), by 
filtering the air the person breathes in. While the efficacy of 
the mask greatly depends on material, fit, and 
construction,\48\ masks and face coverings in the aggregate 
have proven to be one of the most cost effective and minimally 
intrusive measures to mitigate transmission.\49\
---------------------------------------------------------------------------
    \48\ Abrar A. Chughtai, Holly Seale, and C. Raina Macintyre, 
Effectiveness of Cloth Masks for Protection Against Severe Acute 
Respiratory Syndrome Coronavirus 2, Vol. 26 No. 10 Emerging Infectious 
Diseases 3201 (Oct. 2020) available at https://wwwnc.cdc.gov/eid/
article/26/10/20-0948_article.
    \49\ Deborah Netburn, New forecasts show why masks are the 
easiest--and cheapest--way to save U.S. lives, L.A. Times, Oct. 23, 
2020 available at https://www.latimes.com/science/story/
2020-10-23/if-americans-would-just-wear-masks-we-could-save-more-than-
671-000-lives.
---------------------------------------------------------------------------
    Initially, the FAA declined to require airlines to block 
seats or to require passengers to wear masks on board 
commercial aircraft. However, many major airlines began 
independently requiring passengers and flight attendants to 
wear masks or other protective face coverings on board their 
aircraft. Unfortunately, once in the air, most airlines relied 
heavily on customer compliance rather than enforcement.\50\ 
Seeing the need for stronger enforcement in view of belligerent 
passengers, airlines began independently banning passengers for 
non-compliance. In October 2020, it was reported that more than 
900 passengers had been banned from airlines for refusing to 
wear a mask.\51\ On January 13, 2021, citing increased 
disruptive behavior by airplane passengers stemming from 
refusal to wear masks, the FAA issued a zero-tolerance policy 
by which the agency committed to taking enforcement action 
against unruly passengers, including fines up to $35,000 and 
possible jail time, as opposed to first using counseling and 
warnings.\52\ The policy is currently in effect through March 
30, 2021.
---------------------------------------------------------------------------
    \50\ Pete Muntean, Airlines Are Having Trouble Enforcing Their Face 
Mask Policies, CNN, May 14, 2020, available at https://www.cnn.com/
2020/05/13/business/airlines-mask-policy-
enforcement/index.html.
    \51\ Shannon McMahon, Delta, United and Alaska Airlines have banned 
more than 900 passengers for not wearing masks, Wash. Post, Oct. 26, 
2020, available at https://www.washingtonpost.com/travel/2020/10/26/
airlines-banning-passengers-masks/.
    \52\ David Shepardson, Exclusive: U.S. FAA chief orders `zero 
tolerance' for disruptive airline passengers, possibly jail, Reuters, 
January 13, 2021, available at https://www.reuters.com/article/
us-usa-election-aviation-exclusive/exclusive-u-s-faa-chief-orders-zero-
tolerance-for-disruptive-
airline-passengers-possibly-jail-idUSKBN29I302; See also FAA, Press 
Release--Federal Aviation Administration Adopts Stricter Unruly 
Passenger Policy, January 13, 2021, available at https://www.faa.gov/
news/press_releases/news_story.cfm?newsId=25621.
---------------------------------------------------------------------------
    On January 21, 2021, President Biden issued an Executive 
Order (EO) mandating masks to be worn on all forms of public 
transportation, including in airports and on commercial 
airplanes.\53\ The EO confers, upon agency heads, significant 
discretion to authorize broad exceptions to the mask 
requirement.\54\ The TSA has since announced that it will begin 
fining travelers in the United States who refuse to wear a mask 
in airports. The first time they fail to do so, the fine will 
be $250. Repeated offenses will be fines of up to $1,500. Based 
on substantial aggravating or mitigating factors, the TSA may 
seek a sanction amount that falls outside these ranges.\55\ All 
passengers over the age of two must wear a mask. Passengers who 
refuse to wear a mask at the security check-in area will not be 
allowed to enter the secure area of the airport, including the 
terminal and gate area.\56\ Airlines have also revised their 
language on masks to reflect CDC requirements and have pushed 
such information out to passengers through a variety of 
electronic communications.\57\ The DOT also issued a Notice of 
Enforcement on February 5, 2021, to remind U.S. and foreign air 
carriers of their legal obligation to accommodate passengers 
with disabilities when implementing the Federal mask 
mandate.\58\ According to a briefing from the TSA, passengers 
have nearly universally complied with this mandate with little 
to zero prompting from TSA officers.\59\
---------------------------------------------------------------------------
    \53\ Exec. Order No. 13998, 86 FR 7205, Jan. 21, 2021.
    \54\ Id.
    \55\ Press Release, TSA to implement Executive Order regarding face 
masks at airport security checkpoints and throughout the transportation 
network, Transp. Sec. Admin. (Jan 31, 2021), available at https://
www.tsa.gov/news/press/releases/2021/01/31/tsa-implement-executive-
order-regarding-face-masks-airport-security.
    \56\ Id.
    \57\ Donald Wood, New Government Mask Mandate for Airlines Now in 
Effect, Travel Pulse, Feb. 2, 2021, available at: https://
www.travelpulse.com/news/airlines/new-government-mask-
mandate-for-airlines-now-in-effect.html.
    \58\ Notice of Enforcement Policy: Accommodation by Carriers of 
Persons with Disabilities Who Are Unable to Wear or Safely Wear Masks 
While on Commercial Aircraft, Dept. of Transp. (Feb. 5, 2021), 
available at: https://www.transportation.gov/sites/dot.gov/files/2021-
02/Mask%20
Notice%20Issued%20on%20Feb%205.pdf.
    \59\ TSA briefing for Members of the Subcommittee on Transportation 
and Maritime Security, Committee on Homeland Security and some Members 
of the Committee on Transportation and Infrastructure, February 17, 
2021.
---------------------------------------------------------------------------

C. CLEANING

    Both public and private transportation services have 
explored innovations in disinfection and U.S. airlines have 
enhanced their airplane cleaning protocols since the onset of 
the pandemic. For example, United Airlines has used an 
antimicrobial coating called ``Zoono Microbe Shield'' that 
inhibits the growth of microbes by forming a long-lasting bond 
with surfaces, such as seats, trays, tables, and armrests.\60\ 
JetBlue has experimented with a machine from Honeywell that 
uses UV light to disinfect cabins.\61\ Nonetheless, the CDC 
still recommends frequent hand washing and use of hand 
sanitizer containing at least 60 percent alcohol.\62\ To help 
airplane passengers adhere to this recommendation, the TSA 
allows passengers to carry on one container of hand sanitizer 
up to 12 ounces.\63\
---------------------------------------------------------------------------
    \60\ Press Release, United Adds Antimicrobial Spray to Already 
Extensive Cabin-Cleaning Measures, United Airlines, September 16, 2020, 
available at https://hub.united.com/2020-09-16-
united-adds-antimicrobial-spray-to-already-extensive-cabin-cleaning-
measures-
2647678535.html.
    \61\ Cailey Rizzo, JetBlue Is Testing a Giant UV Light Machine That 
Could Disinfect Plane Cabins in Under 10 Minutes, Travel + Leisure, 
July 30, 2020, available at https://www.travelandleisure.com/airlines-
airports/jetblue/jetblue-airplane-cabin-disinfectant-
machine-coronavirus.
    \62\ How to Protect Yourself & Others, Ctr. for Disease Control 
(Updated: December 31, 2020) available at https://www.cdc.gov/
coronavirus/2019-ncov/prevent-getting-sick/prevention.html.
    \63\ Hand Sanitizers, Transp. Sec. Admin. (Visited: Feb. 21, 2021) 
available at https://www.tsa.gov/travel/security-screening/
whatcanibring/items/hand-sanitizers.
---------------------------------------------------------------------------

D. AIRFLOW AND FILTRATION

    If a virus is airborne--i.e., transmitted by aerosolized 
small droplets--intra-cabin airflow plays a critical role in 
its spread or lack thereof. For instance, while the cross-
sectional nature of circulation in the cabin (see image) limits 
airflow up and down the aisle, studies have shown that air is 
still shared a few rows to the front and back.\64\ Moreover, 
gaspers (personal air vents in the passenger service unit above 
your head) have the potential to drastically increase the 
possibility of droplet spread.\65\ While there have been a few 
recent studies on the topic, including one that was conducted 
jointly by the Department of Defense and United Airlines, most 
have not considered variables such as passenger movement, 
eating and drinking, lavatory use, and humidity.\66\
---------------------------------------------------------------------------
    \64\ Chen, McDevitt, et al., Infectious Disease Transmission in 
Airliner Cabins, Report No. RITE-ACER-CoE-2012-01, National Air 
Transportation Center of Excellence Research in the Intermodal 
Transport Environment (RITE), (Feb. 22, 2012) available at https://
www.faa.gov/
data_research/research/med_humanfacs/cer/media/
infectiousdiseasetransmission.pdf; see also Walkinshaw, Germs, 
Ventilation, Occupancy Density and Exposure Duration: A Thirteen 
Setting Pathogen Inhalation Comparison, American Society of Heating, 
Refrigerating and Air-Conditioning Engineers Indoor (ASHRAE) IAQ 
Conference Papers (2010); see also Walkinshaw, A Brief Introduction To 
Passenger Aircraft Cabin Air Quality, ASHRAE Journal, Oct. 2020 
available at https://www.ashrae.org/file%20library/
technical%20resources/covid-19/12-19_
walkinshaw.pdf.
    \65\ You, Chen, Lin et al., Investigating the impact of gaspers on 
cabin air quality in commercial airliners with a hybrid turbulence 
model, Vol. 111 Building and Environment, 110-122 (Jan. 2017); see also 
Darrah, Bennet, Jones et al., Infectious Passenger Isolation System for 
Aircraft, Vol. 125 Pt. 2 ASHRAE Transactions 288-296 (2020) available 
at https://www.ashrae.org/
file%20library/technical%20resources/covid-19/kc021.pdf.
    \66\ Gio Benitez and Sam Sweeney, Risk of COVID-19 exposure on 
planes `virtually nonexistent' when masked, study shows, abcNews, Oct. 
15, 2020, available at https://abcnews.go.com/Politics/
risk-covid-19-exposure-planes-virtually-nonexistent-masked/
story?id=73616599.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Most commercial airliners use high-efficiency particulate 
air (HEPA) filters and have a high air-exchange rate, including 
a mix of outdoor and recirculated air. Such HEPA filters play a 
critical role in reducing risks as they can filter out almost 
all airborne droplets that contain COVID-19.\67\ However, they 
are also limited. For instance, a HEPA filter affords no 
protection to an individual if they are exposed to the virus 
prior to it settling or reaching the circulation intake.\68\ As 
such, airborne particles generated by sneezing or coughing, 
remain in the cabin air until they enter the ventilation system 
and are effectively removed by HEPA filters or settle on common 
surfaces, creating potential exposure for disease 
transmission.\69\
---------------------------------------------------------------------------
    \67\ Johanna Read, How clean is the air on planes? Nat'l 
Geographic, Aug. 28, 2020 available at https://
www.nationalgeographic.com/travel/article/how-clean-is-the-air-on-your-
airplane-
coronavirus-cvd.
    \68\ Tim Heffernan, Can HEPA Air Purifiers Capture the Coronovirus, 
N.Y. Times, Updated: Nov. 18, 2020 available at https://
www.nytimes.com/wirecutter/blog/can-hepa-air-purifiers-
capture-coronavirus/.
    \69\ ACRP Report 91, Infectious Disease Mitigation in Airports and 
on Aircraft, Nat'l Acad. of Sci., 2013 available at http://nap.edu/
22512.
---------------------------------------------------------------------------

E. CONTACT TRACING

    Contact tracing is a resource intensive exercise dependent 
upon individuals with the right public health skills and access 
to laboratory testing facilities. However, it has been shown to 
be an effective measure to help control the spread of 
infectious diseases, including COVID-19.\70\ It is also an 
incredibly useful scientific tool to help public health 
professionals learn how the disease spreads, in what 
environments or work places, and what factors, or lack of 
protective measures, may help to augment the spread of the 
disease to others.
---------------------------------------------------------------------------
    \70\ Matt J. Keeling, T. Deirdre Hollingsworth, and Jonathan M. 
Read, Efficacy of contact tracing for the containment of the 2019 novel 
coronavirus (COVID-19), J. of Epidemiology and Cmty. Health, October 
2020, available at https://www.ncbi.nlm.nih.gov/pmc/articles/
PMC7307459/
#::text=In%20general%2C%20contact%20tracing%20is,transmission%20from%20
the
%20secondary%20cases.
---------------------------------------------------------------------------
    A study by researchers at Harvard and Stanford 
Universities, using a mathematical model, found that the most 
effective contact tracing programs could reduce the overall 
transmissions of COVID-19 infections by almost half.\71\ The 
United States does not have a cohesive Federal contact tracing 
program or plan.\72\ Instead, the Federal response has largely 
left COVID-19 contact tracing efforts up to State and local 
officials.
---------------------------------------------------------------------------
    \71\ Alyssa Bilinski, MS, Farzad Mostashari, MD and Joshua A. 
Salomon, PhD, Modeling Contact Tracing Strategies for COVID-19 in the 
Context of Relaxed Physical Distancing Measures, JAMA Network Open 
(Research Letter/Public Health), August 21, 2020, available at https://
jamanetwork.com/journals/jamanetworkopen/fullarticle/2769618.
    \72\ Beth Duff-Brown, Model shows potential contact tracing impact 
against COVID-19, News Center, Stanford Univ. School of Med., Aug. 24, 
2020, available at http://med.stanford.edu/news/
all-news/2020/08/model-shows-potential-contact-tracing-impact-against-
covid-19.html.
---------------------------------------------------------------------------
    In February, Airlines for America (A4A) announced that its 
major members would all begin voluntarily collecting 
information for contact tracing to turn over to the CDC.\73\ 
While, Delta and United have been engaging in this practice 
since December, American, Southwest, Alaska, JetBlue, and 
Hawaiian will now also ask passengers to make their names, 
phone numbers, email, and physical addresses available to the 
CDC.\74\
---------------------------------------------------------------------------
    \73\ Press Release, Major U.S. Airlines Announce Support for 
International Contact Tracing Program, Airlines for America (Feb. 19, 
2021) available at https://www.airlines.org/news/major-u-
s-airlines-announce-support-for-international-contact-tracing-program/.
    \74\ Airlines plan to ask passengers for contact-tracing details, 
Associated Press, Feb. 22, 2021, available at https://apnews.com/
article/public-health-airlines-united-states-coronavirus-
pandemic-edb4fdb3997a07ab02ad35c347cb0839.
---------------------------------------------------------------------------

F. NATIONAL AVIATION PREPAREDNESS PLAN

    Following the Ebola outbreak in 2014, the GAO recommended 
the U.S. Department of Transportation (DOT) develop a plan to 
limit the spread of pandemics through the aviation system. 
Specifically, the GAO issued following recommendation:

        To help improve the U.S. aviation sector's preparedness for 
        future communicable disease threats from abroad, the Secretary 
        of Transportation should work with relevant stakeholders, such 
        as the Department of Health and Human Services, to develop a 
        national aviation-preparedness plan for communicable disease 
        outbreaks. Such a plan could establish a mechanism for 
        coordination between the aviation and public health sectors and 
        provides clear and transparent planning assumptions for a 
        variety of types and levels of communicable disease 
        threats.\75\
---------------------------------------------------------------------------
    \75\ Gov't Accountability Office, Air Travel and Communicable 
Diseases: Comprehensive Federal Plan Needed for U.S. Aviation System's 
Preparedness 43, Rpt. No. GAO-16-127 (December 2015), available at 
https://www.gao.gov/assets/680/674224.pdf.

    According to the GAO, the DOT has not implemented this 
recommendation. The GAO found that had the DOT implemented such 
a plan, it ``could have improved coordination between public-
health and aviation sectors during COVID-19 to address issues 
like passenger screening.'' \76\ Moreover, the GAO found that 
since the time the 2015 report was published, the FAA had 
sponsored limited research on disease transmission within 
airplanes and airports.\77\
---------------------------------------------------------------------------
    \76\ Gov't Accountability Office, Air Travel and Communicable 
Diseases: Status of Research Efforts and Action Still Needed to Develop 
Federal Preparedness Plan, Rpt. No. GAO-20-655T (June 2020), available 
at https://www.gao.gov/assets/710/707757.pdf.
    \77\ Id.
---------------------------------------------------------------------------

G. TESTING REQUIREMENTS

    On January 21, 2021, the Biden Administration issued an 
Executive Order which requires travelers seeking to enter the 
United States from a foreign country to show proof of a recent 
negative COVID-19 test prior to entry; and comply with other 
applicable CDC guidelines concerning international travel, 
including recommended periods of self-quarantine or self-
isolation after entry into the United States.\78\ Other 
countries have put in place similar requirements.\79\
---------------------------------------------------------------------------
    \78\ Exec. Order No. 13998, 86 FR 7205, Jan. 21, 2021.
    \79\ COVID-19 Country Specific Information, U.S. Dept. of State--
Bureau of Consular Affairs (Visited: Feb, 24, 2021) available at: 
https://travel.state.gov/content/travel/en/traveladvisories/
COVID-19-Country-Specific-Information.html.
---------------------------------------------------------------------------
    In February 2021, there were media reports that the Biden 
Administration was considering mandating a pre-departure 
testing requirement of all passengers on domestic commercial 
flights.\80\ It is estimated that such a requirement would 
amount to approximately 900,000 tests per day (based on current 
passenger levels), or 27 million more tests per month,\81\ 
requiring a massive scale-up in testing capacity. Moreover, 
many experts agree that mitigation measures such as masks, hand 
sanitizers, social distancing, and proper ventilation would 
still need to be required, regardless of whether a passenger 
tests negative.\82\ As such, numerous organizations voiced 
their concerns that this could effectively lead to a ban on 
domestic air travel, devastating U.S. airlines, with limited 
benefit.\83\ On February 12, 2021, the Biden Administration 
announced that it would not be pursuing such a requirement at 
this time.\84\
---------------------------------------------------------------------------
    \80\ Marnie Hunter, US considers Covid-19 testing requirement for 
domestic air travel, CNN, Feb. 9 2021 available at https://www.cnn.com/
travel/article/us-domestic-
covid-19-test-considered-air-travel/index.html.
    \81\ TSA checkpoint travel numbers (current year(s) versus prior 
year/same weekday), Transp. Sec. Admin. (Feb. 19, 2021), available at 
https://www.tsa.gov/coronavirus/passenger-throughput.
    \82\ Holly Yan, Don't get a false sense of security with Covid-19 
testing. Here's why you can test negative but still be infected and 
contagious, CNN, Nov. 3, 2020, available at https://www.cnn.com/2020/
11/03/health/covid-test-negative-contagious-wellness/index.html.
    \83\ Airlines for America Letter to Mr. Jeffrey Zients, COVID-19 
Recovery Team Coordinator, The White House, A4A Joins Coalition in 
Letter to White House COVID-19 Recovery Team (Jan. 29, 2021) available 
at https://www.airlines.org/news/a4a-joins-coalition-in-letter-
to-white-house-covid-19-recovery-team/.
    \84\ Alison Sider and Sabrina Siddiqui, Covid-19 Testing Won't Be 
Required Before Domestic Flights, CDC Says, Wall St. J., Feb. 12, 2021, 
available at https://www.wsj.com/articles/covid-
19-testing-wont-be-required-before-domestic-flights-cdc-says-
11613183533.
---------------------------------------------------------------------------
    In a limited capacity, some airports and air carriers are 
pushing a scaled-down rollout of testing between specific 
destinations. This concept, otherwise known as ``safe travel 
corridors'', would require passengers to take rapid COVID-19 
tests before certain flights in exchange for removing the 
destination country's travel restrictions and quarantine 
requirements.\85\
---------------------------------------------------------------------------
    \85\ Hira Humayun, Delta's new travel corridor offers quarantine-
free access to the Netherlands, CNN, Dec. 15, 2020 available at https:/
/www.cnn.com/travel/article/delta-air-lines-
atlanta-amsterdam-corridor/index.html.
---------------------------------------------------------------------------

H. VACCINATIONS

    When Ebola exploded across West Africa in 2014, it took 
more than five years to get a vaccine approved.\86\ In 2020, `` 
. . . researchers were able to develop multiple protective 
coronavirus vaccines and get them authori[z]ed within 12 months 
of the virus being discovered.'' \87\ On December 11, 2020, the 
U.S. Food and Drug Administration (FDA) issued the first 
emergency use authorization (EUA) for a vaccine for COVID-19 in 
individuals 16 years of age and older.\88\ The EUA allows the 
Pfizer-BioNTech COVID-19 Vaccine to be distributed in the 
United States. A week later, on December 18, 2020, the FDA 
issued an EUA for the Moderna COVID-19 vaccine for use in 
individuals 18 years of age and older.\89\ On February 24, 
2021, the FDA announced that the Johnson & Johnson COVID-19 
vaccine had met the requirements for emergency use 
authorization.\90\ All three vaccines were developed and FDA 
approved in record time.
---------------------------------------------------------------------------
    \86\ Olivia Willis, How COVID-19 vaccines were developed in record 
time, without compromising safety, ABC Health & Wellbeing, Jan. 28, 
2021, available at https://www.abc.net.au/news/health/
2021-01-29/how-covid-vaccines-were-developed-in-record-time/13096682.
    \87\ Id.
    \88\ Pfizer-BioNTech COVID-19 Vaccine, Food and Drug 
Admin.(Visited: Feb. 24, 2021) available at https://www.fda.gov/
emergency-preparedness-and-response/coronavirus-disease-
2019-covid-19/pfizer-biontech-covid-19-vaccine.
    \89\ Moderna COVID-19 Vaccine, Food and Drug Admin. (Visited: Feb. 
24, 2021) available at https://www.fda.gov/emergency-preparedness-and-
response/coronavirus-disease-2019-
covid-19/moderna-covid-19-vaccine.
    \90\ Jen Christensen, FDA says Johnson & Johnson Covid-19 vaccine 
meets requirements for emergency use authorization, CNN, Feb. 24, 2021, 
available at https://www.cnn.com/2021/02/24/
health/johnson-vaccine-fda-analysis/index.html.
---------------------------------------------------------------------------
    According to the Department of Health and Human Services, 
``vaccines will help prevent the spread of COVID-19 and bring 
this pandemic to an end.'' \91\ COVID-19 vaccine availability 
is increasing rapidly in the United States; as of February 
24th, more than 13 percent of Americans had received at least 
one COVID-19 vaccine dose.\92\ President Biden recently pledged 
to make 600 million vaccine doses available by the end of July; 
this is effectively enough to vaccinate every American.\93\
---------------------------------------------------------------------------
    \91\ COVID-19 Vaccines, Dept. of Health and Human Services 
(Updated: Feb. 2021) available at https://www.hhs.gov/coronavirus/
covid-19-vaccines/index.html.
    \92\ Covid-19 Tracker, Bloomberg (Visited: Feb. 24, 2021) available 
at https://www.bloomberg.com/graphics/covid-vaccine-tracker-global-
distribution/.
    \93\ Zeke Miller Jonathan Lemire, Biden says US is securing 600 
million vaccine doses by July, Associated Press, Feb. 11, 2021 
available at https://apnews.com/article/vaccine-biden-600-million-
doses-july-b7845a7d0f709199265d9243598b629e.
---------------------------------------------------------------------------
    Airlines and analysts anticipate that increased vaccination 
rates will release ``pent up demand'' for domestic air travel 
in 2021.\94\ The belief is that the availability of vaccines 
and testing will give air travelers comfort again.\95\ Another 
analyst estimates that while travel was down by 50 percent last 
summer, this summer there will be a 70-80 percent return in 
leisure travel.\96\ As airline travel returns, hospitality, 
tourism, airports, and aerospace manufacturing, maintenance, 
and repair industries will also benefit.
---------------------------------------------------------------------------
    \94\ Mina Kaji and Amanda Maile, Experts say vaccine rollout, cheap 
fares may lead to more rapid air travel rebound, ABC News, January 12, 
2021 available at https://abcnews.go.com/
Politics/experts-vaccine-rollout-cheap-fares-lead-rapid-air/
story?id=75202169.
    \95\ Id.
    \96\ Id.
---------------------------------------------------------------------------

                               WITNESSES

    <bullet> LMs. Heather Krause, Director, Physical 
Infrastructure, U.S. Government Accountability Office
    <bullet> LMr. Nicholas E. Calio, President and Chief 
Executive Officer, Airlines for America
    <bullet> LCapt. Joe DePete, President, Air Line Pilots 
Association, International
    <bullet> LMr. Peter Bunce, President and Chief Executive 
Officer, General Aviation Manufacturers Association
    <bullet> LMr. Lance Lyttle, Managing Director, Aviation 
Division, Port of Seattle, on behalf of American Association of 
Airport Executives
    <bullet> LMr. Edward M. Bolen, President and Chief 
Executive Officer, National Business Aviation Association

 
  COVID-19'S EFFECTS ON U.S. AVIATION AND THE FLIGHTPATH TO RECOVERY

                              ----------                              


                         TUESDAY, MARCH 2, 2021

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room 2167 Rayburn House Office Building and via Cisco Webex, 
Hon. Rick Larsen (Chair of the subcommittee) presiding.
    Present in person: Representatives Larsen, DeFazio, Kahele, 
Lynch, Stanton, Garamendi, Graves of Louisiana, Massie, Perry, 
Mast, Stauber, Burchett, Nehls, Van Duyne, and Gimenez.
    Present remotely: Representatives Cohen, Carson, Davids, 
Johnson of Georgia, Titus, Brownley, Payne, DeSaulnier, Brown, 
Allred, Lamb, Delegate Norton, Johnson of Texas, Fitzpatrick, 
Balderson, Van Drew, and Steel.
    Mr. Larsen. The subcommittee will come to order.
    I ask unanimous consent that the chair be authorized to 
declare recess at any time during today's hearing.
    Without objection, so ordered.
    I would note that we are expecting votes today, the first 
votes between 11 o'clock and 11:30. We will be continuing the 
hearing during the votes. And I will have people sit in as 
chair, as necessary, so that people can vote from the committee 
room, get from the floor and back.
    For Members participating remotely, I want to remind you of 
key regulations from the House Committee on Rules. Members must 
be visible on video to be considered in attendance and to 
participate, unless experiencing connectivity issues.
    Members must also continue to use the video function for 
the remainder of the time they are attending this meeting and 
hearing, unless experiencing connectivity issues or other tech 
problems.
    If a Member is experiencing any connectivity issue or other 
technical problems, please inform committee staff as soon as 
possible so that you can receive assistance. A chat function is 
available for Members on the Cisco Webex platform for this 
purpose. Members can also call the committee's main line, 202-
225-4472, for technical assistance by phone.
    Members may not participate in more than one committee 
proceeding simultaneously. However, for security reasons, 
Members may maintain a connection to the software platform 
while not in attendance.
    It is the responsibility of each Member seeking recognition 
to unmute their microphone prior to speaking, and to keep their 
microphone muted when not speaking to avoid inadvertent 
background noise. Let me repeat that last phrase. It is your 
responsibility to keep your microphone muted when not speaking 
to avoid inadvertent background noise.
    As the chair of today's meeting and hearing, I will make a 
good-faith effort to provide every Member experiencing 
connectivity issues an opportunity to participate fully in the 
proceedings.
    And finally, to insert a document into the record, please 
have your staff email it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ce8aa1adbba3aba0babd9ae8878ea3afa7a2e0a6a1bbbdabe0a9a1b8e0">[email&#160;protected]</a>
    I will now start with my opening statement. I would ask 
unanimous consent for my opening statement be entered into the 
record in full.
    Without objection, so ordered.
    Because of our votes coming up, I will just give you a 
truncated version of my opening statement and move to a few of 
the things I want to hear from our hearing witnesses today.
    First, following the 2014 Ebola virus outbreak, the GAO 
recommended the Department of Transportation work with relevant 
Federal agencies to develop an aviation preparedness plan for 
communicable disease crises. Although these agencies did not 
dispute the GAO's recommendation, they took no significant 
action to develop a preparedness plan. So from Ms. Krause at 
the GAO I look forward to hearing about the benefits of a 
national aviation preparedness plan, and GAO's other 
recommendations to improve the safety of the traveling public, 
and to minimize disruptions to the national aviation system.
    Moreover, the COVID-19 pandemic has created fragmented 
travel requirements, resulting in a confusing system for 
passengers, U.S. airlines, and flightcrews to navigate. These 
challenges range from various acceptable COVID-19 test results 
to inconsistent quarantine periods. To address these issues, 
digital vaccine and testing passports are gaining popularity. 
And recently, major carriers such as United Airlines and 
American Airlines launched mobile apps which can enable 
passengers to show immunization records and recent testing 
results when traveling abroad.
    So, Mr. Calio from A4A, I am interested in learning more 
about U.S. carriers' efforts to develop these passports, and 
what standards are necessary to scale up deployment, if 
necessary.
    Further, I often say that the public health response will 
lead economic recovery. And since last December, the Food and 
Drug Administration has issued EUAs [emergency use 
authorizations] for three COVID-19 vaccinations. The President 
has recently pledged to make nearly 600 million doses available 
by the end of July. So, as we think about vaccine distribution 
and administration across the country, frontline aviation 
workers must be appropriately considered for access. So, 
Captain DePete from ALPA, I look forward to hearing more about 
the essential role of airline pilots in U.S. aviation's 
recovery, and how improving access to vaccinations is critical 
to ensuring the safety of flightcrews.
    And as the U.S. aviation industry embarks on a flightpath 
to recovery, the Nation needs a bold, FDR-like investment in 
infrastructure to drive local economies, to create jobs, and to 
fight climate change, something I think the full committee will 
be taking up very soon. So I am pleased that Mr. Lance Lyttle, 
the managing director of Seattle-Tacoma International Airport 
in my home State of Washington, is here today on the panel on 
behalf of AAAE. I look forward to hearing more about the 
importance of Federal investment in airports' growing 
infrastructure needs, and efforts to improve environmental 
sustainability.
    Also looking forward, the U.S. aviation system is 
undergoing a historic shift with the continued growth of 
unmanned aircraft and the emergence of new airspace entrants 
such as Advanced Air Mobility. So, while collaboration between 
the Federal Government, the aerospace industry, and other 
stakeholders is ongoing, the safe integration of new entrants 
is far from complete. And I know that Mr. Bunce from GAMA has 
comments in his written statement about those issues. And I 
would like to hear more from him about Congress' role to 
establish a comprehensive policy framework and investment 
necessary to foster innovation in the U.S. airspace, as we look 
forward to recovery.
    But a recovery is only possible with continued Federal 
support for the hard-working women and men of the aviation 
workforce and the next generation of engineers, pilots, 
mechanics, and technicians. So, Mr. Bolen from NBAA, I look 
forward to hearing more from you about ways to improve access 
to STEM-based apprenticeships, skills training, and career and 
tech education programs to diversify and grow the U.S. aviation 
pipeline, comments I know that you have included in your 
statement.
    So I will conclude there, just to say the American people 
are sacrificing greatly to combat COVID-19. We recognize that. 
They are counting on us in Congress to do our part to keep 
people safe and get the country to the other side of this 
pandemic. And I am confident that, with Congress' continued 
support, the U.S. aviation industry and workforce will be able 
to move toward long-term economic recovery.
    [Mr. Larsen's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
   from the State of Washington, and Chair, Subcommittee on Aviation
    Good morning and thank you to today's witnesses for joining the 
Subcommittee's first hearing of the 117th Congress on ``COVID-19's 
Effects on U.S. Aviation and the Flightpath to Recovery.'' Before we 
begin, I would like to thank my colleagues re-electing me to serve as 
Subcommittee Chair. I look forward to working with Ranking Member 
Garret Graves to address the pressing challenges and new opportunities 
facing U.S. aviation.
    The pandemic has tested the resiliency of the U.S. transportation 
network like never before, and the aviation sector is no exception. In 
my conversations with constituents and stakeholders, I hear about 
tragic loss, economic anxiety and profound challenges. I have heard 
from airports like Bellingham International in my district, which 
experienced a 71 percent decline in enplanements last year when 
compared to 2019, and is expecting a cumulative loss of nearly $11 
million in revenue. I have heard from local aerospace manufacturing 
suppliers like Hexcel Corporation in Burlington, struggling to keep its 
doors open and employees on payroll due to halted production and 
stalled deliveries. I have heard from a regional airline pilot from 
Marysville who is concerned about paying off his student loan debt, 
while caring for his growing family. While these issues in total may 
seem insurmountable, U.S. aviation, as it has done before, will 
persevere.
    Last week, the House passed the American Rescue Plan, a 
comprehensive aid package that gets more vaccines in arms, gives 
Americans a long overdue raise, enables working families to return to 
their jobs, and ensures communities can continue to maintain crucial 
services. The package also provides urgent relief to sustain U.S. 
aviation and aerospace during the pandemic, and protect workers and 
restore lost manufacturing jobs, including:
    <bullet>  A $15 billion extension of the successful Payroll Support 
Program through September 2021 to keep frontline aviation workers on 
payroll with benefits;
    <bullet>  $8 billion to help keep U.S. airports and airport 
concessionaires operational; and
    <bullet>  Language from my bipartisan bill, the Aerospace 
Manufacturing Jobs Protection Act, providing $3 billion to help retain 
and rehire aerospace supply chain workers.

    As the nation works to safely get to the other side of this 
pandemic, ensuring safety and restoring confidence in air travel is key 
to the nation's long-term economic recovery. Keeping the flying public 
healthy from COVID-19 is even more difficult because of the lack of 
coordinated federal leadership by the previous administration. The 
Biden administration has since taken actions to reinforce public 
health, including the requiring of masks on in airports and onboard 
commercial aircraft. I was also pleased the Federal Aviation 
Administration is taking a zero-tolerance enforcement policy against 
unruly passengers who disobey flight and cabin crew instructions during 
flight. However, the federal government can--and must--do more.
    A national aviation preparedness plan would ensure the safety of 
aviation crews and passengers in the event of a future public health 
crisis. Following the 2014 Ebola virus outbreak, the Government 
Accountability Office (GAO) recommended the Department of 
Transportation work with relevant federal agencies to develop such a 
plan for communicable disease crises. Although these federal agencies 
did not dispute GAO's recommendation, they took no significant action 
to develop a preparedness plan. Ms. Krause, I look forward to hearing 
about the benefits of a national aviation preparedness plan and GAO's 
other recommendations to improve the safety of the traveling public, 
and minimize disruptions to the national aviation system.
    Moreover, the COVID-19 pandemic has created fragmented travel 
requirements, resulting in a confusing system for passengers, U.S. 
airlines and flightcrews to navigate. These challenges range from 
various acceptable COVID-19 test results to inconsistent quarantine 
periods. To address these issues, digital vaccine and testing 
``passports'' are gaining popularity. Recently, major carriers such as 
United Airlines and American Airlines launched mobile apps which can 
enable passengers to show immunization records and recent testing 
results when traveling abroad. Mr. Calio, I am interested in learning 
more about U.S. carriers' efforts to develop these passports and what 
standards are necessary to scale up deployment.
    I often say that the public health response will lead economic 
recovery. Since last December, the Food and Drug Administration has 
issued emergency use authorizations for three COVID-19 vaccinations. 
President Biden recently pledged to make nearly 600 million doses 
available by the end of July. As COVID-19 vaccine distribution and 
administration continues across the country, frontline aviation workers 
must be appropriately considered for access. Captain DePete, I look 
forward to hearing more about the essential role of airline pilots in 
U.S. aviation's recovery and how improving access to vaccinations is 
critical to ensuring the safety of flightcrews.
    As U.S. aviation embarks on a ``flightpath to recovery,'' the 
nation needs a bold, FDR-like investment in infrastructure to drive 
local economies, create jobs and fight climate change. I am pleased Mr. 
Lance Lyttle, Managing Director of Seattle-Tacoma International Airport 
in my home state of Washington, is on today's witness panel on behalf 
of AAAE. Mr. Lyttle, I look forward to hearing more about the 
importance of federal investment in airports' growing infrastructure 
needs and efforts to improve environmental sustainability.
    U.S. aviation is also undergoing a historic shift with the 
continued growth of unmanned aircraft and the emergence of new airspace 
entrants such as Advanced Air Mobility, including electric aircraft 
which can help reduce traffic congestion by moving people and cargo at 
lower altitudes across regions. While collaboration between the federal 
government, aerospace industry and other key stakeholders is ongoing, 
the safe integration of new entrants is far from complete. Mr. Bunce, I 
would like to hear more from you about Congress' role to establish the 
comprehensive policy framework and investment necessary to foster 
innovation in U.S. airspace.
    However, full economic recovery is only possible with continued 
federal support for the hardworking women and men of the aviation 
workforce and the next generation of engineers, pilots, mechanics and 
technicians. Mr. Bolen, I look forward to hearing more about ways to 
improve access to STEM-based apprenticeships, skills training and 
career and technical education programs to diversify and grow the U.S. 
aviation pipeline.
    The American people are sacrificing greatly to combat COVID-19. 
They are counting on Congress to do its part to keep people safe and 
get the country to the other side of this pandemic. I am confident that 
with Congress's continued support, the U.S. aviation industry and 
workforce will be able to move toward long-term economic recovery. 
Thank you again to today's witnesses. I look forward to our discussion.

    Mr. Larsen. So I want to say thank you to today's 
witnesses, and turn to Representative Garret Graves of 
Louisiana for an opening comment.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman, and I 
want to thank all the witnesses for being here. I appreciate 
the opportunity to have this hearing today.
    This pandemic has been extraordinary, in terms of the 
impacts to everyday Americans. Everything from mental health 
challenges, an increase in suicides, an increase in opioid 
dependence, lost jobs, lost economic activity. Of course, folks 
in nursing homes unable to have their loved ones come visit, 
causing mental health as well as physical health problems.
    The good news, as the chairman noted, is that 130 million 
vaccines have already been prepared and available for Americans 
as of the end of this month. And we are on track right now to 
have access to vaccines by the summer for all Americans, which 
is great news.
    Mr. Chairman, as you well know, back in April of last year, 
passenger flights were down 95 percent--95 percent--year over 
year. Looking at 2019 to 2020, flights were down 60 percent. It 
is estimated that somewhere between $1.6 and $1.8 trillion in 
additional savings were realized as a result of the 
extraordinary drop in economic activity and in flights.
    Congress has stepped up and twice now provided the Payroll 
Support Program, supporting workers, because what is important 
is that we actually have the bandwidth, we have the capacity of 
our airline industry, we have the ability to have business and 
recreational travel, tourism travel available for when the 
economy picks back up again. And so those investments have gone 
to help ensure that we have that bandwidth, we have the 
capacity.
    We have also made investments in airports to ensure that 
the infrastructure is there, is ready, and ready to go. And I 
am going to say it again, this is absolutely integral to our 
economic recovery.
    Now, something else that we need to be thinking about and 
considering--and I am interested to hear from some of the 
witnesses on this--is the fact that, since airline passenger 
flights and travel has been down significantly, are we ready, 
in terms of a safety perspective, the equipment that has been 
in storage or mothballed, the pilots that aren't getting the 
number of hours that they normally get, the other airline 
support workers, flight attendants, and others, are we ready to 
go, and to do it safely, and to ramp back up quickly to 100 
percent capacity?
    As the chairman noted, we don't need to just get back to 
where we were before. We have had extraordinary challenges in 
the aviation industry with some of the safety issues associated 
with the 737 MAX, as well as all the statistics I just covered, 
including the 95-percent reduction in flights dating back to 
April of last year. But we have some amazing opportunities on 
the horizon within the aviation industry. And, of course, one 
of the biggest being unmanned systems and integration into our 
airspace.
    So I am looking forward to hearing the witnesses' 
testimony, and I just want to again reiterate what the chairman 
said in regard to helping us to think forward and project some 
of the needs out of this body to ensure that we are ready to go 
from a capacity and a safety perspective whenever the economy 
fully opens back up.
    Thank you, Mr. Chairman. I yield back.
    [Mr. Graves of Louisiana's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Garret Graves, a Representative in Congress 
   from the State of Louisiana, and Ranking Member, Subcommittee on 
                                Aviation
    Thank you, Mr. Chairman, and I want to thank all the witnesses for 
being here. I appreciate the opportunity to have this hearing today.
    This pandemic has been extraordinary in terms of its impacts--
everything from mental health challenges, increased suicides, increased 
opioids dependence, lost jobs, lost economic activity, and of course 
folks in nursing homes unable to have their loved ones come visit, 
causing mental health as well as physical health problems.
    Some good news, as the Chairman noted, is that 130 million vaccines 
have already been prepared and are available for Americans, as of the 
end of this month. And we're on track right now to have access to 
vaccines by the summer for all Americans, which is great news.
    Mr. Chairman, as you well know back in April of last year, 
passenger flights were down 95 percent. Ninety-five percent. Year to 
year, looking at 2019 to 2020, passenger counts were down 60 percent. 
It's estimated that somewhere between $1.6 and $1.8 trillion dollars in 
additional savings by Americans were realized as a result of the 
extraordinary drop in economic activity, including reduced flying.
    Congress has stepped up and twice provided the payroll support 
program--supporting workers--because what is important is that we 
actually maintain the capacity of our airline industry and the ability 
to have business, recreational, and tourism travel available for when 
the economy picks back up again.
    And so, those investments have gone to help ensure that we have 
that maintained capacity. We've also made investments in airports to 
ensure the infrastructure is there and ready to go.
    And I am going to say it again: this is absolutely integral to our 
economic recovery.
    Now something else that we need to be thinking about--and I am 
interested to hear from the witnesses on this--is that since airline 
passenger flights and travel have been down significantly: Are we 
ready? In terms of safety, are we ready? Equipment has been in storage; 
pilots aren't getting the number of hours they normally get; and what 
about other airline workers, flight attendants, and mechanics? Are we 
ready to go, to do it safely, and to ramp back up quickly to 100 
percent capacity?
    As the Chairman noted, we don't need to just get back to where we 
were before. We have had extraordinary challenges in the aviation 
industry with some of the safety issues associated with 737 MAX, as 
well as all the statistics I just covered, including the 95 percent 
reduction in flights dating back to April of last year.
    But we have some amazing opportunities on the horizon and within 
the aerospace industry. And of course, one of the biggest being 
unmanned systems and their integration into our airspace.
    I am looking forward to hearing the witnesses' testimony, and I 
just want to again reiterate what the Chairman said in regard to 
helping us to look forward and project what some of the needs might be 
from this body, to ensure that we are ready to go from a capacity and 
safety perspective whenever the economy fully opens back up.

    Mr. Larsen. Thank you, Representative Graves.
    Representative DeFazio, you are recognized for an opening 
statement.
    Mr. DeFazio. I thank the gentleman.
    It seems like we have been here before, about once every 10 
years. We had the Gulf War. We saw the failures of Pan Am and 
Eastern, and bankruptcy filings. We lost a lot of jobs. The 9/
11 terror attacks resulted in bankruptcies of numerous 
airlines, and a loss of a lot of jobs, and a lot of people lost 
their pensions and everything else.
    But this time, it is a little different. Congress rose to 
the occasion, and we created what I think is the most 
successful part of the CARES Act or anything we have done 
during the pandemic to support working Americans. The Payroll 
Support Program, totally scandal free, unlike the Paycheck 
Protection Program--where some major chains and others scammed 
the system and other problems with that. Not a penny went to 
the airlines; there were restrictions on executive pay, 
bonuses, stock buybacks, dividends; and we have saved, in the 
aggregate, I would say, tens of thousands or up to 100,000 
jobs, including contractors--and that kept people in their 
homes, kept their health insurance and other benefits.
    To be ready for the return of the aviation industry, which 
is beginning to look better and better--last April there were 3 
million passenger boardings in the month; in November, we were 
up to almost 30 million. I am hopeful, with this current 
program--which is included in this COVID package pending over 
in the dysfunctional Senate, with stupid rules written by 
Senators who have been dead for 10 years. But PSP is not 
challenged under the dead guy rule, so hopefully it will go 
through as written. I am hoping by September 30th we are not 
going to need another extension.
    There are ongoing concerns. We do not have comprehensive, 
long-term plans in place. They were first proposed by GAO to 
the Obama administration, to come up with comprehensive plans 
for modes of transportation. They didn't. Four years of the 
Trump administration didn't. I, numerous times, asked the FAA 
Administrator to impose a mask mandate, and he refused, saying, 
``Oh, you couldn't do that.''
    So we left it up to the airlines, who did come through. But 
it is one thing to have the airlines say, ``This is our rule,'' 
and it is another thing to have the announcements at the 
beginning, which are getting better. These need to be emphatic, 
particularly for the jerks who get on and suck on a lollipop or 
sip a bottle of water for 6 hours. They need to hear that you 
can remove your mask briefly--briefly--for food or drink or to 
take a medication. They need to hear about the fines that will 
be imposed if they don't follow the mask rule. They need to 
hear about being banned from flights by the airlines, which a 
number of the airlines took their own initiative to do. We have 
to be emphatic.
    And the chair and I introduced a comprehensive bill last 
year, the Healthy Flights Act of 2020. We will be informed by 
this hearing on changes, potential changes to that legislation. 
And I still think we need to put those strictures in place, 
because the FAA doesn't seem to take much initiative.
    And I have also been working with Homeland Security 
Committee Chair Thompson to get the TSA to strictly enforce the 
mask rule at the checkpoint. That is the best place, much 
better than getting to the gate and having the gate agents 
having to deal with unruly people. They still haven't gone as 
far as I want, which is to have posters that show people what 
they can and can't wear. We have to inform people that a lot of 
things people are using routinely are not allowed on airplanes. 
You can't have just a gaiter, a single layer, or you can't have 
a kerchief, and you have to actually cover your nose and mouth, 
which a lot of people don't quite seem to get.
    We don't want to move too quickly, as we recover, to remove 
these precautions. And we want to know that, long term, we have 
a strategy to keep people safe when they fly during this, the 
end of--hopefully--the end of the pandemic and in future 
pandemics.
    With that, Mr. Chair, I yield back the balance of my time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Larsen, for calling today's hearing on the 
aviation industry's recovery from the COVID-19 pandemic, and I welcome 
all of our witnesses.
    Last month this country passed the dreadful marker of half a 
million deaths from COVID-19. But now that we are starting to see the 
faint glow of a light at the end of the tunnel, it is appropriate to, 
even at this early stage of the Nation's emergence from the pandemic, 
start thinking about the aviation industry's recovery.
    As our witnesses know all too well, the aviation industry has 
suffered financial crises about once every 10 years since deregulation. 
In 1990 and 1991 we saw the failures of Pan Am and Eastern Air Lines, 
with numerous others filing for bankruptcy, amid a recession and the 
first Gulf War. Ten years later, the 9/11 terror attacks sparked a 
financial crisis that resulted in the loss of roughly 128,000 aviation 
jobs and the bankruptcies of United, Delta, Northwest, and US Airways, 
as well as the failures of several smaller airlines like Aloha. Shortly 
less than a decade later came the global financial crisis, when roughly 
25,000 airline workers lost their jobs.
    And now, unfortunately, here we are again.
    This time, however, Congress rose to the occasion by creating the 
Payroll Support Program: a pass-through program to pay airline workers' 
salaries, wages, and benefits, keeping them off unemployment lines 
during the first six months of the pandemic without a penny going into 
the pockets of company executives or shareholders. We extended this 
highly successful program in December through this month, and a further 
extension through the end of September is included in the ``American 
Rescue Plan Act of 2021,'' which the House passed and sent to the 
Senate early Saturday morning.
    Moreover, passenger traffic is recovering slowly but surely. While 
U.S. airlines reported a drop to only 3 million passenger boardings at 
the outset of the pandemic in April 2020, by November the number of 
boardings had rebounded to 29 million, although that's still less than 
half of the 73 million boardings recorded during the same time in the 
previous year. I'm hopeful that by September 30th when the pending 
Payroll Support Program expires, the airlines will find that 
sustainability is in sight, for the benefit of those who rely on them, 
including their workers.
    While the Payroll Support Program keeps airline workers on the 
payroll, those workers must occasionally deal with unruly passengers 
who refuse to wear masks.
    That's why last year, I along with Chair Larsen, introduced the 
``Healthy Flights Act of 2020,'' which, among numerous health and 
safety measures, explicitly gave the FAA Administrator the authority to 
require passengers to wear masks and also imposed a standalone mask 
requirement on board airplanes and in airports. Based in part on what 
we learn from today's hearing, I plan to reintroduce that legislation 
in the near term.
    Meanwhile, I want to commend the Biden administration for issuing 
Executive Orders requiring mask use in transportation, including air 
transportation. While I believe an express statutory mandate is 
appropriate, this was a necessary step to protect aviation workers and 
passengers.
    I, along with Homeland Security Chair Thompson, sent a letter last 
month calling on the Transportation Security Administration to strictly 
enforce the President's new order by denying entry at screening 
checkpoints of any travelers refusing to wear masks and calling on the 
FAA to work with U.S. airlines to ensure there's appropriate and 
proactive messaging about face masks well in advance of a flight, 
including at ticket purchase and during mobile check-in. I hope to hear 
from today's witnesses about how the Federal mandate has helped the 
airlines, airports, and aviation workers across the system.
    Separately, the FAA must continue to take strong enforcement action 
against passengers who become unruly when told they must wear masks 
while on board aircraft. Just last week, the FAA announced a $27,500 
fine against a Delta passenger who struck a flight attendant in the 
face after the passenger's companion refused to follow crewmember 
instructions and wear a mask. The FAA must continue to enforce a zero-
tolerance policy and use the regulations in its toolbox, such as the 
prohibition on interference with the duties of crewmembers, to go after 
people who recklessly endanger the lives of their fellow passengers.
    Finally, as vaccines become more prevalent and the country returns 
to a healthy state, we must ensure that the aviation industry has a 
plan in place to transition safely from current mitigation techniques 
to future ones. If the industry is too eager and moves too fast to 
remove certain precautions, the health and safety of workers and 
passengers could be negatively affected.
    Meanwhile, if issuance of new guidelines is too slow, we run the 
risk of perpetuating uncertainty and becoming the victim of a patchwork 
quilt of standard procedures. With mass vaccinations already underway, 
the Federal Government must utilize science and develop a strategy 
ahead of time, to ensure that regulations are uniform and our 
transition back to ``normal'' is a safe one.
    The aviation industry that emerges from this pandemic will not be 
the same industry that was flourishing on January 1, 2020. I look 
forward to hearing from our witnesses as to what that industry will 
look like, and how Congress can support the needs of workers and users 
of our air transportation system to ensure that more than 1 million 
aviation workers remain employed and that the risk of catching the 
coronavirus on an airplane is de minimis.
    Again, thank you, Chair Larsen, for calling today's hearing.

    Mr. Larsen. Thank you, Chair DeFazio.
    Before I go to witnesses, I just want to make one 
acknowledgment today. I want to acknowledge my senior 
legislative aide, Alexandra Menardy. Today is Alex's last 
Aviation Subcommittee hearing as a member of my personal staff. 
She is not going far. She is actually going to the professional 
staff for this subcommittee. So I want to thank Chair DeFazio 
for his wisdom in hiring her, and also I will send him the 
bill.
    Alex, though, has been a valued member of my staff for 
nearly 4 years on aviation policy, on energy policy, on Tribal 
and environmental policy in the Pacific Northwest. So I want to 
thank Alex for her hard work and dedication, and she will do a 
great job here, at the subcommittee.
    With that let's move to the witnesses. To save time, rather 
than to run through introductions and titles, we will just go 
one at a time. I think folks have the information about the 
individual witnesses. We are going to start with Ms. Heather 
Krause from the GAO.
    So, Ms. Krause, you are recognized for 5 minutes for an 
opening statement.

TESTIMONY OF HEATHER KRAUSE, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
   U.S. GOVERNMENT ACCOUNTABILITY OFFICE; NICHOLAS E. CALIO, 
 PRESIDENT AND CHIEF EXECUTIVE OFFICER, AIRLINES FOR AMERICA; 
     CAPTAIN JOSEPH G. DePETE, PRESIDENT, AIR LINE PILOTS 
ASSOCIATION, INTERNATIONAL; PETER J. BUNCE, PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, GENERAL AVIATION MANUFACTURERS ASSOCIATION; 
 LANCE LYTTLE, MANAGING DIRECTOR, SEATTLE-TACOMA INTERNATIONAL 
   AIRPORT, ON BEHALF OF THE AMERICAN ASSOCIATION OF AIRPORT 
EXECUTIVES; AND EDWARD M. BOLEN, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, NATIONAL BUSINESS AVIATION ASSOCIATION

    Ms. Krause. Chairman DeFazio, Chairman Larsen, Ranking 
Member Graves, and members of the subcommittee, thank you for 
the opportunity to discuss our ongoing work on the effects of 
the COVID-19 pandemic on the aviation industry.
    International flight restrictions, local stay-at-home 
orders, and a general fear of contracting and spreading COVID-
19 through air travel had a sudden and profound effect on all 
aspects of the aviation industry. According to the Department 
of Transportation statistics, as was noted, passenger traffic 
was down 60 percent systemwide in 2020, compared to traffic 
levels in 2019. The ripple effect from this unprecedented and 
sustained reduction in demand has affected airlines, 
industrywide employment, and the entire aviation supply chain.
    Congress and the administration have taken a number of 
actions to help the Nation's aviation industry respond to and 
recover from the economic effects of the pandemic, most notably 
providing over $100 billion in economic relief to aviation 
businesses. In return, recipients were required to generally 
maintain their employment levels, among other requirements.
    My testimony today is based on our continued work 
overseeing CARES Act and other funds to the aviation industry, 
and the industry's response to the pandemic. It focuses on 
three areas: one, actions that businesses across the aviation 
industry have taken to respond to reduced passenger demand; 
two, factors that may affect industry recovery; and three, 
considerations for any Federal actions.
    First, in response to reduced passenger demand, aviation 
businesses quickly built their cash reserves to weather the 
downturn and implemented measures to reduce their costs. These 
actions included leveraging Federal assistance; raising money 
in the private markets; and reducing labor, operating, and 
capital expenditures.
    For example, airlines, airports, and others leveraged 
Federal assistance provided in two Federal coronavirus relief 
laws to support payroll and other expenses. In addition, 
industry associations and credit rating agencies said that 
Federal assistance increased confidence in the aviation 
industry, enabling aviation businesses to raise money in 
private debt and equity markets to strengthen their cash 
reserves.
    Even with these and other actions, the U.S. aviation 
outlook remains uncertain. The industry's eventual recovery to 
prepandemic passenger levels is highly dependent on factors 
outside the industry's control. According to several industry 
forecasts, public health factors affecting the recovery include 
the success of COVID-19 vaccinations, the spread and impact of 
potential COVID variants, and public confidence in the safety 
of air travel, among others.
    In addition, recovery in some aviation sectors will depend 
on how the airline industry responds to the financial pressures 
and changes in demand associated with these uncertainties. For 
example, one aviation manufacturer we spoke with said airlines 
are likely to continue to postpone the delivery and purchases 
of long-haul aircraft over the next few years to better align 
with passenger demands. In turn, this would affect demand for 
aviation manufacturing and aircraft maintenance services.
    While many are optimistic for a postpandemic economic 
recovery, the speed and degree to which the aviation industry 
will be able to rebound is likely to vary across different 
sectors. For example, credit rating agencies told us that low-
cost, leisure-oriented airlines are likely to recover faster 
than network airlines that are more dependent on business and 
international travel.
    As we enter the second year of the pandemic and the pace 
and duration of the recovery becomes clearer, Congress may 
contemplate additional actions to support the industry's 
recovery. GAO has identified three fundamental principles that 
can serve as a framework for considering future assistance. 
They include, one, identifying and defining the problem; two, 
determining the national interests and setting clear goals and 
objectives that address the problem; and three, protecting the 
Government's interests.
    In applying these principles, some issues emerge that may 
help inform how best to design any response. For example, when 
addressing the longer term public health implications of the 
pandemic, the Federal Government plays an important role in 
working with the industry to mitigate the effects of the 
pandemic and understand how various technologies and processes 
could help protect the health of air travelers.
    In addition, the entire aviation industry could benefit 
from the development of a national aviation preparedness plan 
for communicable diseases; a recommendation, as was mentioned, 
we made to DOT in 2015, and have since urged Congress to 
require DOT to develop such a plan.
    In closing, the challenges facing the aviation sector are 
unprecedented, and many uncertainties remain as to the pace and 
extent of recovery. We will continue to support Congress in 
understanding and addressing these pressing issues.
    This concludes my statement. I look forward to answering 
your questions.
    [Ms. Krause's prepared statement follows:]

                                 <F-dash>
       Prepared Statement of Heather Krause, Director, Physical 
         Infrastructure, U.S. Government Accountability Office
    Chairman Larsen, Ranking Member Graves, and Members of the 
Subcommittee:
    I am pleased to be here today to discuss our ongoing work assessing 
the effects of the Coronavirus Disease 2019 (COVID-19) pandemic on the 
aviation industry.
    The COVID-19 pandemic has resulted in catastrophic loss of life and 
substantial damage to the global economy. International flight 
restrictions, local stay-at-home orders, and a general fear of 
contracting and spreading COVID-19 through air travel had a sudden and 
profound effect on passenger air carriers, airports, and the entire 
ecosystem of manufacturers, repair stations, and other businesses that 
comprise the U.S. commercial aviation industry. According to Department 
of Transportation (DOT) statistics, passenger traffic was down 60 
percent system-wide in 2020 compared to traffic levels in 2019. The 
ripple effect from this unprecedented and sustained reduction in demand 
has affected airline business models, employment, and the entire 
aviation supply chain. For example, according to the Bureau of Labor 
Statistics (BLS), as of November 2020, an estimated 122,600 jobs in the 
air transportation sector--over 23 percent--have been lost since peak 
employment levels of 516,900 in February 2020.\1\
---------------------------------------------------------------------------
    \1\ According to BLS, the air transportation sector includes 
scheduled air carriers that fly regular routes on regular schedules and 
operate even if flights are only partially loaded, and non-scheduled 
carriers that provide chartered air transportation of passengers, 
cargo, or specialty flying services and often operate at nonpeak time 
slots at busy airports. Among others, these numbers do not include 
activities such as airport operations and aerospace manufacturing or 
repair activities, if conducted by companies other than airlines.
---------------------------------------------------------------------------
    As an immediate response to the public health and economic crises, 
Congress and the administration took a number of actions to provide 
funds for pandemic relief to aviation businesses. Notably, in March 
2020, Congress passed, and the President signed into law, the CARES 
Act,\2\ which appropriated, among other things, $88 billion to help the 
nation's aviation industry and airports respond to and recover from the 
economic effects of the COVID-19 pandemic. This included:
---------------------------------------------------------------------------
    \2\ Pub. L. No. 116-136, 134 Stat. 281, 470.
---------------------------------------------------------------------------
    <bullet>  $32 billion in payroll support to passenger air carriers, 
cargo air carriers, and certain aviation contractors to continue paying 
employee wages, salaries, and benefits;
    <bullet>  Up to $46 billion for loans and loan guarantees to 
provide liquidity to aviation and other eligible businesses; and,
    <bullet>  $10 billion to support U.S. airports of all sizes 
experiencing severe economic disruption caused by the COVID-19 
pandemic.

    The Consolidated Appropriations Act, 2021 appropriates an 
additional $16 billion to the Department of the Treasury to provide 
payroll support for passenger air carriers and certain aviation 
contractors, and $2 billion for eligible airports and certain 
tenants.\3\ Together, the CARES Act and Consolidated Appropriations 
Act, 2021 provided certain parts of the aviation sector with economic 
relief and in return required recipients to generally maintain their 
employment levels, among other requirements.\4\
---------------------------------------------------------------------------
    \3\ Pub. L. No. 116-260, 134 Stat. 1182.
    \4\ GAO, COVID-19: Opportunities to Improve Federal Response and 
Recovery Efforts, GAO-20-625 (Washington, D.C.: June 25, 2020). 
Conditions of the two financial assistance programs include 
prohibitions against involuntary layoffs or furloughs. Some airlines 
took action to offer early retirement. In addition, through attrition 
and hiring freezes, airlines were able to reduce headcount. As 
authorized by the CARES Act and the Consolidated Appropriations Act, 
2021, DOT has required scheduled passenger air carriers receiving 
financial assistance to maintain minimum scheduled passenger service to 
points in the United States served prior to the pandemic, with some 
exceptions. Pub. L. No. 116-136, Sec.  4005, 134 Stat. at 477; Pub. L. 
No. 116-260, Sec.  407, 134 Stat. at 2058-59.
---------------------------------------------------------------------------
    At the beginning of 2021, the outlook for U.S. aviation remains 
uncertain. Demand for air travel remains far below pre-pandemic levels 
with the exception of certain leisure markets. Notably, the most 
profitable segments of the aviation industry--international and 
corporate air travel--have only minimally recovered. Leisure travelers 
have focused more on domestic and shorter-haul international 
destinations that are less profitable. Some businesses have relied more 
heavily on virtual meetings, which has led to a substantial reduction 
in business trips.
    Unlike past disruptive events in aviation, including September 11, 
2001, and the economic recession of 2008-2009, passenger airlines 
entered this crisis in a relatively strong financial position, with 10 
consecutive years of industry profit from 2010 through 2019.\5\ 
Nonetheless, some industry analysts have forecast a long, multi-year 
recovery before aviation passenger traffic returns to 2019 levels. 
According to several forecasts, multiple uncertainties--ranging from 
vaccine distribution to additional government-imposed restrictions as a 
result of new COVID variants--suggest that a return to 2019 traffic 
levels may not occur until 2023 or later.
---------------------------------------------------------------------------
    \5\ Prior to September 11, 2001, a weakening U.S. economy affected 
passenger airlines. Throughout the 2000s volatile fuel prices, among 
other things, also led to financial difficulties and some bankruptcies.
---------------------------------------------------------------------------
    My statement today is based on our ongoing examination of the 
effects of the COVID-19 pandemic on selected aviation sectors--
including airlines, airports, manufacturers, and repair stations--and 
on our extensive body of work on past financial assistance efforts, 
including those directed to the commercial aviation industry. This 
statement provides preliminary observations on the: (1) actions that 
businesses across the aviation industry have taken to respond to 
reduced passenger demand, (2) factors that may affect industry 
recovery, and (3) considerations for federal support to the aviation 
industry.
    As part of our ongoing work, we reviewed a range of aviation 
industry reports, financial data, government statistics from 2019-2020, 
and documentation from selected businesses. We also interviewed a range 
of entities, including representatives from domestic passenger, cargo, 
and regional airlines; large and medium hub airports; manufacturers of 
commercial and general aviation aircraft and engines; repair station 
operators that perform inspections and maintenance on aircraft; and 
multiple industry associations and labor groups representing a cross-
section of aviation interests. Interviews with selected businesses 
provided insights on the effects of the pandemic and the actions 
certain businesses and sectors have taken in response. Furthermore, we 
interviewed representatives from credit rating agencies and several 
industry analysts to gain insight on the uncertainties the industry 
faces as it looks toward recovery. The results of these interviews are 
not generalizable to the entire commercial aviation industry. When 
completed, our ongoing work will include actions DOT and the Federal 
Aviation Administration (FAA) have taken to help the industry respond 
to the pandemic and the effects of those actions on industry 
businesses, as well as aviation stakeholders' perspectives on the 
effects of the CARES Act. We plan to complete this work by summer 2021.
    The ongoing work on which this statement is based is being 
conducted in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
   Aviation Businesses Took a Range of Actions to Respond to Reduced 
                            Passenger Demand
    In response to reduced passenger demand brought by the COVID-
19pandemic, aviation businesses quickly implemented measures to reduce 
financial losses and position themselves for recovery to pre-pandemic 
levels. These actions included leveraging federal assistance, raising 
money in private markets, and reducing labor, operating, and capital 
expenditures.
    To obtain needed funding to respond to impacts from the pandemic, a 
wide range of aviation industry businesses leveraged the federal 
financial support from the CARES Act and the Consolidated 
Appropriations Act, 2021. According to representatives from airlines 
and credit rating agencies, the federal government's early support via 
the CARES Act helped to quickly provide stability to the aviation 
industry. For example:
    <bullet>  As of October 2020, Treasury provided $28.2 billion in 
financial assistance from the CARES Act Payroll Support Program to help 
airlines and contractors keep employees on their payroll. Treasury is 
currently providing another $16 billion in financial assistance for the 
Consolidated Appropriations Act, 2021 Payroll Support Program.\6\
---------------------------------------------------------------------------
    \6\ Treasury executed Payroll Support Program agreements with 352 
passenger air carriers, 38 cargo air carriers, and 220 aviation 
contractors. Total demand by cargo air carriers for these funds was far 
below the $4 billion authorized for these carriers, so about $3 billion 
of funds in this category were not awarded.
---------------------------------------------------------------------------
    <bullet>  Treasury executed loans totaling up to $21.2 billion that 
allowed 24 aviation-related businesses to bridge revenue declines and 
pay for ongoing expenses, including payroll and rent.\7\
---------------------------------------------------------------------------
    \7\ Of the $21.2 billion in loans, most of the loan assistance--
nearly $20.8 billion--was provided to seven major passenger air 
carriers.
---------------------------------------------------------------------------
    <bullet>  Airports received approximately $10 billion in grants 
under the CARES Act, and FAA is currently allocating another $2 billion 
provided under the Consolidated Appropriations Act, 2021.\8\ These 
grants allow airports to fund their operations and meet their ongoing 
debt payments.\9\
---------------------------------------------------------------------------
    \8\ Both the CARES Act and Division M of the Consolidated 
Appropriations Act, 2021--also known as the Coronavirus Response and 
Relief Supplemental Appropriations Act, 2021--give FAA the authority to 
retain up to 0.1 percent of the funds provided for Grants-in-Aid for 
Airports to fund the award and oversight by FAA of grants made under 
the respective Acts. Pub. L. No. 116-136, 134 Stat. at 597; Pub. L. No. 
116-260, div. M, tit. IV, 134 Stat. at 1941.
    \9\ FAA has begun to collect data from airports on general spending 
categories for CARES Act funding through grant close-out reports, but 
officials said that they have limited information until airport 
sponsors draw down all funds for reimbursed costs. While FAA collects 
these data, officials said airports are generally using CARES Act funds 
on payroll, utilities, minor maintenance, and debt service. Although 
FAA officials have not yet obligated or expended any Consolidated 
Appropriations Act, 2021 funding, airport associations said that 
airport sponsors generally plan to use these grants to pay for 
operational expenses and costs related to mitigating effects of the 
COVID-19 pandemic, such as cleaning and sanitation, social distancing 
measures, and upgrading heating and cooling systems.
---------------------------------------------------------------------------
    <bullet>  Some aviation businesses, such as air carriers and 
contractors, applied and were approved for Paycheck Protection Program 
loans to help sustain them through the period of decreased demand.\10\
---------------------------------------------------------------------------
    \10\ The CARES Act and the Paycheck Protection Program and Health 
Care Enhancement Act appropriated a total of $670 billion for the 
Paycheck Protection Program (PPP) under the Small Business 
Administration's 7(a) small business lending program. PPP loans are 
made at 1 percent interest and will be fully forgiven if certain 
conditions are met. These loans can be used for payroll and certain 
non-payroll costs. In general, small businesses with 500 or fewer 
employees, including tax-exempt nonprofit organizations, veteran's 
organizations, and tribal businesses were eligible. Businesses in 
certain industries with more than 500 employees were eligible for 
loans.

    Representatives from airlines and manufacturers also reported using 
the tax provisions in the CARES Act to bolster their liquidity.\11\ In 
addition, commercial aviation operators benefited from the CARES Act 
provision suspending certain commercial air transportation taxes, 
including those on passenger tickets, cargo, and fuel.\12\
---------------------------------------------------------------------------
    \11\ Airlines and aviation manufacturers reported using tax 
provisions of the CARES Act, including deferring employer payroll 
taxes, claiming employee retention credits, and carrying back five 
years net operating losses arising in tax years beginning in 2018, 
2019, and 2020. Pub. L. No. 116-136, Sec. Sec.  2301-2303, 134 Stat. at 
347-56. The Consolidated Appropriations Act, 2021 made a number of 
changes to these provisions, including extending the availability of 
credits, among other changes. Pub. L. No. 116-260, div. N, Sec. Sec.  
206-207, 134 Stat. at 3059-3066.
    \12\ Pub. L. No. 116-136, Sec.  4007, 134 Stat. at 477. In October 
2020, Congress moved $14 billion from the Treasury General Fund into 
the Airport and Airway Trust Fund. Continuing Appropriations Act, 2021 
and Other Extensions Act, Pub. L. No. 116-159, Sec.  1205, 134 Stat. 
709, 728.
---------------------------------------------------------------------------
    Industry associations and credit rating agencies told us that 
assistance from the CARES Act provided a degree of assurance in the 
stability of the market that enabled private lenders to invest in the 
aviation industry with greater confidence that they would be able to 
recoup their investments. For example, major U.S. passenger airlines 
added an estimated $59 billion in private and federal long-term debt by 
the end of 2020, with their expected interest expenses to more than 
double in the next few years, according to one industry association. In 
some cases, businesses pursued private refinancing instead of pursuing 
government financial support options. For example, Boeing was able to 
issue $25 billion in new long-term debt in April 2020 to bolster its 
liquidity and thus did not pursue any CARES Act loans.
    At the same time that some airlines and other aviation businesses 
were strengthening their cash reserves through federal support and 
private financing, they also implemented broad cost-cutting measures, 
including reducing their labor costs. Airlines and airports sought to 
reduce their payroll expenses by, among other things, offering early 
retirement and voluntary separation programs, voluntary unpaid leave 
programs, freezing non-essential hiring, reducing executive and 
management compensation, and in some cases, involuntary furloughs and 
layoffs. For example, Delta Air Lines reported that 50,000 employees 
took unpaid leaves of absence and approximately 18,000 employees 
participated in its early retirement and voluntary separation programs 
from April 1 through December 31, 2020. American Airlines reported 
reducing its management and support staff team by approximately 5,100 
positions (30 percent) and that more than 20,000 of its employees opted 
for an early retirement or long-term paid leave. Manufacturers and 
repair station operators have also reduced their workforces through 
reductions to employees' hours, layoffs, and furloughs, and in some 
cases, closing facilities. For example, one large manufacturer of 
airplane engines permanently reduced its global workforce by 
approximately 25 percent, while a general aviation aircraft 
manufacturer told us that more than 600 employees were impacted when it 
permanently closed a facility in California.
    Airlines also took actions to reduce non-labor operating 
expenditures as well as certain capital costs. For example, some 
passenger airlines quickly reduced their capacity and the reach of 
their networks by reducing flight frequencies, aircraft size, and the 
number of airports served.\13\ Airlines also accelerated the retirement 
of older aircraft to reduce maintenance costs and streamline their 
fleets. For example, American Airlines accelerated the retirement of a 
number of aircraft including certain Airbus A330, Boeing 757 and Boeing 
767 models, and certain regional aircraft. According to American 
Airlines' publicly available financial reports, these aircraft 
retirements provide cost savings and efficiencies associated with 
operating fewer aircraft types by removing complexity from the 
airline's operations. Airlines also placed aircraft in temporary 
storage. For example, representatives from one airline told us they 
parked 44 of their older Airbus A320 aircraft because they were less 
fuel efficient than other aircraft in their fleet. Airlines also 
delayed and deferred delivery of new aircraft. For example, according 
to company reports, Spirit Airlines deferred some of its aircraft 
deliveries originally scheduled for 2020 and 2021.
---------------------------------------------------------------------------
    \13\ As noted previously, as authorized by the CARES Act and the 
Consolidated Appropriations Act, 2021, DOT has required scheduled 
passenger air carriers receiving financial assistance to maintain 
minimum scheduled passenger service to points in the United States 
served prior to the pandemic, with some exceptions. For example, DOT 
has been exempting carriers from serving certain points where it is not 
reasonable or practicable to serve all points or all frequencies in 
their service obligations. Pub. L. No. 116-136, Sec.  4005, 134 Stat. 
at 477; Pub. L. No. 116-260, Sec.  407, 134 Stat. at 2058-59.
---------------------------------------------------------------------------
    In addition to airlines, other aviation entities took similar 
actions to reduce non-labor operating expenditures and capital costs. 
Many airports reported deferring or delaying capital development 
projects. For example, representatives from one medium hub airport told 
us the airport had paused a $1.5 billion expansion project that 
includes the addition of 16 new gates, a seven-story parking garage, 
new cargo facility, and several other improvements to the airport. 
Several airports accelerated the timeline of some capital projects to 
take advantage of project savings that could be realized as the result 
of reduced passenger traffic. Representatives from a large hub airport 
said that reduced passenger traffic allowed them to reduce costs and 
accelerate a taxiway replacement and runway projects because they did 
not have to pay overtime costs or costs for construction during the 
night. Some aircraft manufacturer representatives told us they reduced 
spending on research and development, marketing, and advertising, and 
deferred capital expenditures. Representatives from repair stations 
told us they closed facilities, delayed previously planned expansions, 
and deferred other capital expenditures.
   Aviation Industry Recovery Depends on the Public Response to the 
     Pandemic, Economic Recovery, and Industry Responses to these 
                             Uncertainties
    The aviation industry's recovery to pre-pandemic passenger levels 
depends on external factors, including pandemic-related public health 
outcomes and economic improvement, and how the aviation industry 
responds to the financial pressures and changes in demand associated 
with these uncertainties.
    As noted earlier, industry recovery is highly dependent on factors 
outside the aviation industry's control, most notably pandemic-related 
public health outcomes and the general recovery of the U.S. and global 
economies. According to several industry forecasts, public health 
factors include the pace and acceptance of COVID-19 vaccination; 
ongoing public adherence to measures to mitigate disease transmission, 
such as physical distancing and mask-wearing; the spread and impact of 
different variants of the virus that causes COVID-19; the ability to 
standardize international travel restrictions; and traveler sentiment 
and public confidence in the safety of air travel. Airline 
representatives are optimistic that air travel demand will pick up in 
the second half of this year as a significant portion of the flying 
public become vaccinated. Similarly, economists project that the 
economy will also recover in the second half of 2021 as employment 
levels, consumers' disposable income, business growth, and the 
associated demand for corporate travel all rebound.
    However, while many are optimistic for a post-pandemic economic 
recovery, the speed and degree to which the aviation industry will be 
able to rebound is likely to vary across different industry sectors. 
Credit rating agency representatives told us that low-cost, leisure-
oriented airlines are likely to recover faster than network airlines 
that rely more heavily on business and international travelers.
    Airlines' responses to financial pressures will also likely impact 
other aviation businesses, including potentially delaying demand for 
their services. For example, airlines are likely to continue to delay 
delivery and defer purchases of new aircraft, especially long-haul 
aircraft, to better align with anticipated demand for domestic travel 
over the next few years, according to representatives from an aviation 
manufacturer. According to the consulting firm Oliver Wyman, as many as 
4,700 aircraft that had been on the production schedule at the 
beginning of 2020 will no longer be built as scheduled, which will have 
a significant impact on the midsize and larger parts suppliers that 
supply larger airframe and engine manufacturers.
    Additionally, credit rating agency representatives told us that 
repair station operators will likely be affected as airlines may 
conserve cash by using up existing inventories of spare parts and 
managing their fleet where possible to limit maintenance requirements. 
Those representatives told us this could cause demand for repair 
station services and parts to lag a recovery in air travel.
    Representatives from an aviation manufacturer also told us that 
changes in demand for aircraft may result in the loss of key skill sets 
as manufacturing businesses reduce employment and skilled aviation 
workers migrate to other industries. We have previously reported on 
industry concerns that an insufficient supply of certain aviation 
professionals--including those involved in aviation manufacturing--
could develop as a result of retirements and a perception that fewer 
people are entering aviation professions.\14\
---------------------------------------------------------------------------
    \14\ GAO, Aviation Workforce: Current and Future Availability of 
Aviation Engineering and Maintenance Professionals, GAO-14-237 
(Washington, D.C.: Feb. 28, 2014).
---------------------------------------------------------------------------
  Considerations for the Federal Role in Assisting the Aviation Sector
    In response to past economic crises, we have recommended a 
framework for evaluating federal assistance to an industry; this 
framework may be useful to Congress in considering any future support 
to the aviation sector.\15\ We have identified three fundamental 
principles that should be considered when providing large-scale federal 
assistance.
---------------------------------------------------------------------------
    \15\ See, for example, GAO, Auto Industry: A Framework for 
Considering Federal Financial Assistance, GAO-09-247T (Washington, 
D.C.: Dec 5, 2008), Commercial Aviation: A Framework for Considering 
Federal Financial Assistance GAO-01-1163T, (Washington, D.C.: Sep 20, 
2001), Troubled Financial Institutions: Solutions to the Thrift 
Industry Problem, GAO/GGD-89-47 (Washington, D.C.: Feb. 21, 1989), 
Resolving the Savings and Loan Crisis, GAO/T-GGD-89-3 (Washington, 
D.C.: Jan. 26, 1989), Options For Dealing With Farm Credit System 
Problems GAO/T-GGD-87-11 (Washington, D.C.: April 7, 1987), Guidelines 
for Rescuing Large Failing Firms and Municipalities, GAO/GGD-84-34 
(Washington, D.C.: Mar. 29, 1984).
---------------------------------------------------------------------------
    <bullet>  Identify and define the problem. The government should 
clearly identify and define the specific problems confronting the 
industry--separating out those that require an immediate response from 
those structural challenges that will take more time to resolve.
    <bullet>  Determine national interests and set clear goals and 
objectives that address the problem. After defining the problem, 
Congress must determine whether a legislative solution best serves the 
national interest.
    <bullet>  Protect the government's interest. Because the pandemic 
assistance programs pose a significant financial risk to the federal 
government, appropriate oversight should continue to be included in any 
future federal program to ensure that policy objectives are achieved 
and to provide some level of protections for taxpayers.\16\
---------------------------------------------------------------------------
    \16\ With respect to Treasury's oversight of the Payroll Support 
Program, we recommended in November 2020 that Treasury develop and 
implement a compliance monitoring plan that identifies and responds to 
identified program risks and addresses potential fraud. Treasury 
neither agreed nor disagreed with our recommendation but committed to 
reviewing additional measures that may further enhance its compliance 
monitoring. See GAO, COVID-19: Urgent Actions Needed to Better Ensure 
an Effective Federal Response, GAO-21-191 (Washington, D.C.: Nov. 30, 
2020).

    As discussed earlier in this statement, the challenges facing the 
aviation sector are unprecedented and many uncertainties remain as to 
the pace and extent of recovery in the coming years. Congress has 
already determined that the benefits of immediate federal intervention 
exceed the costs of a potential industry collapse that could result in 
firm closures, layoffs of highly skilled aviation workers, and the loss 
of critical transportation infrastructure amid a pandemic. As we enter 
the second year of the pandemic and the pace and duration of recovery 
becomes clearer, Congress can use the principles outlined above as it 
considers any additional steps to assist the aviation industry. 
Evaluating the government's response against these principles can help 
structure a response that best supports the aviation industry, while 
simultaneously protecting taxpayers' interests.
    As Congress contemplates future support to aid the aviation 
industry's recovery, the following issues emerge in light of the three 
aforementioned principles and may help inform how best to design any 
response:
    <bullet>  Identifying the right type of assistance. Defining the 
goals and objectives for future assistance would help Congress and 
program administrators determine which tools are needed and most 
appropriate to support an aviation industry recovery following the 
pandemic. While Congress has already provided financial assistance in 
the form of grants, loans, loan guarantees, and cost sharing programs, 
other mechanisms could play a role in supporting the highly skilled 
U.S. aviation workforce depending on the nature of the recovery. For 
example, worker retention incentives, aviation workforce retraining, 
and efforts to strengthen the pipeline of new applicants for careers in 
aviation manufacturing and maintenance, among others, could help 
prepare the workforce to be ready as air travel demand returns. In 
addition, investing in research and development to support the 
competitiveness and sustainability of the aviation industry can help 
maintain U.S. leadership in civil aviation.
    <bullet>  Targeting assistance to sectors that have the greatest 
need. The pandemic has resulted in uneven effects across the commercial 
aviation industry with certain sectors faring better or worse depending 
on their business model, customers, and location. For example, domestic 
cargo airlines have experienced an increased demand for service 
compared to the decreased demand for passenger service. Recognizing 
this, Congress did not extend assistance to cargo airlines under the 
second round of aviation financial assistance. Furthermore, the pace of 
recovery for domestic passenger airlines has been uneven, with some 
low-cost airlines returning to profitability much faster than larger 
network airlines that rely more heavily on international and business 
passengers. These dynamics are also at play within the aviation supply 
chain as, according to one consulting firm, suppliers that provide 
services to other industries may have an advantage over those tied to 
aviation manufacturing. Suppliers with military business may also be in 
a comparatively better financial position. Finally, assistance should 
be directed to businesses or sectors directly impacted by the pandemic 
over those that experienced losses because of other unrelated events, 
such as safety problems or declining market share.
    <bullet>  Ensuring access to the national air transportation 
system. Communities of all sizes seek access to air service as a driver 
for attracting investment, generating employment, and providing 
mobility for citizens. However, small communities were collectively 
losing air service prior to the pandemic, and we have evaluated various 
changes to existing subsidy programs.\17\ As authorized by the CARES 
Act and Consolidated Appropriations Act, 2021, DOT has required air 
carriers receiving loans to maintain some service levels to small 
communities. In addition, the Consolidated Appropriations Act, 2021 
allocates up to $5 million of the $45 million appropriated for Grants-
in-Aid for Airports to carry out the Small Community Air Service 
Development Program, and directs DOT to prioritize allocating the 
funding to communities that have had air carrier service reduced or 
suspended as a result of the coronavirus pandemic.\18\ However, once 
the CARES Act-related assistance ends, some small communities may face 
a reduction in or complete loss of air service. Amid other concerns, 
Congress could consider some additional near term steps to preserve a 
minimum level of service to small communities until the airline 
industry more broadly recovers.
---------------------------------------------------------------------------
    \17\ GAO, Commercial Aviation: Effects of Changes to the Essential 
Air Service Program, and Stakeholders' Views on Benefits, Challenges, 
and Potential Reforms, GAO-20-74 (Washington, D.C.: Dec 10, 2019), 
Small Community Air Service Development: Process for Awarding Grants 
Could Be Improved, GAO-19-172 (Washington, D.C.: Mar 26, 2019), and 
Commercial Aviation: Status of Air Service to Small Communities and the 
Federal Programs Involved, GAO-14-454T (Washington, D.C.: Apr 30, 
2014).
    \18\ Pub. L. No. 116-260, div. M, tit. IV, 134 Stat. at 1941.
---------------------------------------------------------------------------
    <bullet>  Addressing the longer-term public health implication of 
the pandemic on aviation. As the aviation industry adjusts to current 
and near-term demand, the federal government has an important role to 
play in mitigating the effects of the pandemic and helping the industry 
plan for a ``new normal'' in the years ahead. Much remains uncertain at 
this point, but several airports we interviewed told us that they 
expect a range of new technologies and processes to be implemented 
across the air travel experience to make flying safer for the public, 
some of which could benefit from federal government evaluation and 
support. For example, airlines and airports have started--and are 
expected to continue--to introduce touchless technology to reduce 
opportunities for disease transmission at check-in and boarding. 
Airports are also expected to grapple with new consumer habits and 
expectations around social distancing that may have profound 
implications for the design of air terminals as well as concession 
businesses. The federal government is exploring the use of digital 
vaccine certificates for use in international travel, but the 
standards, solutions, and information security issues for digital 
health passports or other measures are not yet defined.\19\ Other 
aspects of the public health response to the pandemic have only begun, 
including efforts to develop robust contact tracing and data sharing 
between governments and airlines. Finally, the entire aviation industry 
could benefit from the development of a national aviation-preparedness 
plan for communicable diseases, a recommendation we made to the 
Department of Transportation in 2015 that has not been implemented.\20\
---------------------------------------------------------------------------
    \19\ Promoting COVID-19 Safety in Domestic and International 
Travel, Sec.  5(e), 86 Fed. Reg. 7205, 7207 (Jan. 26, 2021).
    \20\ In the absence of efforts to develop a national aviation 
preparedness plan, in June 2020, we urged Congress to take legislative 
action to require the Secretary of Transportation to work with relevant 
agencies and stakeholders to develop such a plan. See GAO-20-625 and 
Air Travel and Communicable Diseases: Comprehensive Federal Plan Needed 
for U.S. Aviation System's Preparedness, GAO-16-127 (Washington, D.C.: 
Dec 16, 2015).

    As part of our ongoing work, we will continue to assess how DOT and 
FAA are supporting industry recovery. This work includes examining how 
DOT and FAA are supporting research and development related to 
protecting the health of air travelers during pandemics while also 
maintaining aviation safety, security, and efficiency.
    Chairman Larsen, Ranking Member Graves, and Members of the 
Subcommittee, this completes my prepared remarks. We will continue to 
assess these issues as part of our ongoing work, including making 
recommendations as appropriate, and will be happy to assist the 
Subcommittee as you work to support the aviation industry's recovery 
from the pandemic. I would be pleased to respond to any questions that 
you or other Members of the Subcommittee may have at this time.
                 GAO Contact and Staff Acknowledgments
    If you or your staff have any questions about this statement, 
please contact me. Contact points for our Offices of Congressional 
Relations and Public Affairs may be found on the last page of this 
statement.
    GAO staff who made key contributions to this testimony are Jonathan 
Carver (Assistant Director), Amy Abramowitz, Sarah Arnett, Paul 
Aussendorf, Melissa Bodeau, Kim Bohnet, Jean Cook, Jessica Du, Camilo 
Flores, Joanie Lofgren, Gail Marnik, Justin Reed, April Yeaney, and 
Susan Zimmerman.

    Mr. Larsen. Thank you, Ms. Krause, and I want to commend 
you for taking 5 minutes, and only 5 minutes, to set a great 
example for not just the panel, but for Members of Congress. So 
thank you very much.
    Next up, Nick Calio with Airlines for America, you are 
recognized for 5 minutes.
    Mr. Calio. Thank you very much, Mr. Chairman. And thank 
you, Ranking Member Graves and Chairman DeFazio.
    I would like to start by acknowledging everything that this 
committee, led by the chairman, the two chairmen, and the 
ranking members have done for the aviation industry and the 
airline industry over the last year. You have been great 
partners, and we are forever in your debt. It is a model of the 
way things should work when help is needed.
    Right now, the state of the industry, it has been 
referenced, a year ago we were in the golden age of flying. We 
were flying 58,000 tons of cargo and 2\1/2\ million passengers 
a day. The bottom fell out very, very quickly.
    In April of last year, as Chairman Larsen pointed out, we 
were flying about 5 percent of the people that we had the year 
before. And domestic is doing better than international.
    Right now, we are still down significantly. We are flying 
about 40 percent of the passengers that we used to. We were 
hoping that it would be better by now, but it hasn't, and we 
have learned that you can plan with this virus, but you can't 
forecast very well.
    Currently, we are flying 50 percent fewer flights, which I 
am sure you have noticed, than we were a year ago. Booked 
revenue is down 80 percent. And most critically, we are still 
losing $150 million a day. That is a lot better than it was at 
points last year, but that is not sustainable as a business 
model. We hoped by now we would break even. We are hopeful 
that, by the end of the year, we will break even. That is going 
to depend on the cooperation of the virus, the vaccines, and 
many other factors.
    In the meantime, the PSP has been a lifeline to the 
industry. When it first happened last March, it gave us the 
ability to go to private markets, even though the money was 
passing through directly to our employees. And I agree with 
Chairman DeFazio, the PSP is the single most successful part of 
the CARES Act. The money has gone directly to employees to keep 
them on the payroll.
    By keeping them on the payroll, they continue to pay taxes, 
they are not in the unemployment lines, they continue to spend 
money. And most critically for our industry, they are ready to 
get back on the planes and fly when they can. And that is 
important in our industry, because of the training and 
certification requirements that are constantly ongoing in terms 
of how you can get on an airplane and be able to fly and 
protect the public.
    Throughout this pandemic we have worked hand in glove with 
our employees and with our labor partners. It has been a very 
good match, working with all of you to get this done. It hasn't 
been easy. We are very grateful that the House has moved to 
extend the Payroll Support Program. Again, things could look 
very different than they do now. It is not going to be a 
miracle cure, but it could look different come September 30th. 
So we hope that the Senate will pass that bill quickly. We saw 
last October what happens when you dawdle: tens of thousands of 
people can lose their jobs.
    The other thing is, throughout this, and in terms of, 
Chairman Larsen and Chairman DeFazio, your bills about airline 
preparedness, the changes that the airlines have made are going 
to stay in place forever. We took a lot of self-help measures 
early to protect ourselves. We cut executive compensation, even 
before the CARES Act was passed. We went to the private market. 
As the GAO has pointed out, we were able to raise over $70 
billion. We suspended capital return programs and, 
unfortunately, had to suspend a lot of capital investment 
programs. We sold or retired aircraft earlier than was 
expected, and we worked with our employees in terms of 
voluntary paid leave and early retirements. It kept the 
industry online.
    We are still struggling, however, and in dire straits.
    Throughout this, when you talk about measures that are 
going to stay in place, we leaned into the science very heavy. 
All of our member carriers hooked up with one clinic or 
another, or one university or another. We put in place enhanced 
cleaning and disinfection procedures. We imposed the face mask 
requirement, and we are glad that the Government now backs that 
up. We required health declarations before you get on the 
airplane. We made announcements, we enforced, and a lot of 
people are not flying our airlines now because they wouldn't 
comply with the requirements.
    Most importantly, we tried to educate the public about the 
air filtration systems on aircraft, which give you hospital-
grade air and make it safer to fly, to be on an airplane than 
it is to be in a grocery store, a bar, a restaurant, or in your 
own home, actually. And I just want to say a word about that. 
USTRANSCOM did a study about seated people seated next to each 
other and the risk of transmission, if you were wearing a face 
mask, given the air filtration system: .003 percent risk of 
transmission.
    We thought what we were doing was good. But we knew if we 
said it, it wouldn't be credible. So with some other aviation 
stakeholders, we engaged the Harvard School of Public Health. 
We told them they had free rein. They gave us some 
recommendations. They were independent. They gave us some 
recommendations, which are now in place, in terms of air 
filtration during boarding and deplaning, and boarding and 
deplaning procedures. Every one of our----
    Mr. Larsen. Mr. Calio, I am going to have to ask you to 
wrap.
    Mr. Calio. OK. In wrapping it up, I just want to say thank 
you again to this committee.
    Chairman DeFazio, I just wanted to, on a personal note--and 
this is a compliment--you have worked like a farm animal 
throughout this pandemic, plowing through on behalf of the 
industry.
    And we are grateful to you, Chairman Larsen, Ranking 
Members, and this entire committee. Thank you very much.
    [Mr. Calio's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Nicholas E. Calio, President and Chief Executive 
                     Officer, Airlines for America
                               Thank You
    Airlines for America (A4A) appreciates the opportunity to testify 
today to share with you the impact of the COVID-19 pandemic on the 
commercial aviation industry. At the outset, I would like to thank 
Congress, including many on this Committee, for your leadership and 
bipartisan support of the aviation worker payroll support program 
(PSP). The PSP was first established in the Coronavirus Aid, Relief, 
and Economic Security (CARES) Act and subsequently extended in the 
COVID Relief package passed in December. Those provisions have 
supplemented the U.S. airline industry's ability to make payroll and 
exclusively protect the jobs of flight attendants, pilots, gate agents, 
mechanics and others. Without the PSP, the economic impacts of the 
pandemic would have been even more devastating to our workforce.
    Given the effectiveness of the PSP and its material benefit to our 
workforce, we are hopeful the extension of the program that is 
currently under consideration is enacted into law. We appreciate that 
Congress has recognized that our employees are the backbone of the 
industry and its greatest resource, along with being an important 
component of any broader U.S. economic recovery.
    Congress has truly been a champion of the U.S. aviation worker and 
we sincerely thank you.
                        What Is Past is Prologue
    This is the most challenging period in aviation history, but prior 
to the pandemic we were experiencing what many have called the ``Golden 
Age'' of air travel. U.S. airlines were flying 2.5 million passengers 
and more than 58,000 tons of cargo each day. In 2019, U.S. airlines 
carried an all-time high 927 million passengers in scheduled service. 
Those record numbers were in large part because of two main factors: 
affordability and accessibility. Accounting for inflation, and 
including ancillary services, average domestic ticket prices fell 15 
percent from 2014-2019, 22 percent from 2000-2019 and 44 percent from 
1979-2019--the 40-year period following the Airline Deregulation Act of 
1978. Those lower fares made commercial air travel accessible to nearly 
all Americans. In fact, 42 percent of Americans who flew in 2019 had 
family incomes under $75,000. Further, in 1971 only 49 percent of 
Americans had ever flown commercially; by 2019, that figure had climbed 
to 86 percent.
    In February 2020, before the onset of the pandemic, U.S. passenger 
and cargo airlines directly employed 757,000 workers and commercial 
aviation supported 10 million U.S. jobs and drove over five percent of 
the U.S. gross domestic product.
    Air travel was opening doors and connecting loved ones across all 
walks of life and economic circumstances, not just an affluent few. It 
was also providing well-paying professional-level careers for hundreds 
of thousands of employees, all dedicated to an industry that is truly a 
modern-day indispensable manifestation of freedom and mobility. Our 
industry is working every day to rebuild the foundation necessary to 
restore and recover, but much has passed over the course of the last 
year.
                The Ides of March--Economic Devastation
    Almost overnight, in March 2020, the COVID-19 pandemic hit the U.S. 
and the bottom fell out of the airline industry. As travel restrictions 
and stay-at-home orders were implemented, demand for air travel 
declined sharply and suddenly. Though air cargo volumes have held, the 
pandemic eviscerated passenger air travel. Coming off all-time highs in 
2019, passenger traffic on U.S. airlines rose five percent in the first 
two months of 2020 only to fall by 96 percent six weeks later, to a 
level not seen since the dawn of the jet age in the 1950s. There was a 
slight uptick over the summer and into the fall, but passenger levels 
remain 60 percent below year-ago levels.
    Years of work to strengthen balance sheets--recognized widely by 
analysts and investors--were reversed overnight by COVID-19, as 
evidenced by a series of downgrades by the major rating agencies. After 
10 consecutive years of modest profitability, U.S. passenger carriers 
reported $46 billion in pretax losses in 2020, with analysts currently 
projecting $18 billion more in 2021. To put it into perspective, 2018 
and 2019 were two years of modest profit for the industry. However, 
when combined with 2020 and 2021, the cumulative pre-tax losses for 
that four-year period are expected to exceed $30 billion. Quite simply, 
the losses have been swift and profound.
    Collectively, U.S. airlines are hoping to achieve breakeven cash 
flow at some point in late 2021. To survive, they have worked at a 
furious pace to shed operating costs and trim capital expenditures. 
More alarmingly, they have been forced to sell assets and take on 
massive amounts of debt, up an estimated $59 billion from year-end 2019 
to year-end 2020. This giant increase in debt translates to projected 
interest expense of $5 billion annually in 2021, 2022 and 2023--two-
and-a-half times the amounts paid in 2018 and 2019.
    Given the economic maelstrom, the U.S. airline industry will remain 
smaller for years to come. It took 10 years--from April 2010 to March 
2020--for U.S. passenger airlines to add 83,000 workers to their 
payrolls. Sadly, it took just 10 months--from March to November--to 
shed 93,000 jobs. Rebuilding will take time. The return of demand, 
particularly from corporate travelers, will be key to that timeline.
          Payroll Support Program for Aviation Labor Workforce
    On behalf of our employees, we remain eternally grateful to 
Congress for their role in establishing the PSP at the U.S. Treasury 
Department. However, I do feel compelled to clarify the practical and 
factual realities around what the PSP is and what the PSP is not, as 
some have erroneously referred to the program as an airline bailout. 
This simply is not true.
    The PSP is, as the CARES Act and subsequent extensions clearly 
state, financial assistance provided to eligible air carriers that is 
``exclusively for the continuation of payment of employee wages, 
salaries, and benefit'' for employees defined as individuals at those 
carriers that are not corporate officers. More simply, PSP funds are a 
pass-through to airline workers.
    These aviation workforce funds are truly an investment in our 
economy. In fact, PSP could be used as an example of a government 
program that works, as it has effectively met the goals and intended 
purpose of the program to preserve jobs. The program also has the 
downstream benefit of helping federal/state/local income tax revenues, 
along with Social Security and Medicare tax contributions. The program 
also helps avoid billions of dollars' worth of unemployment claims at 
both the state and federal level. Finally, the PSP also supports 
multiple billions of economic spending in the U.S. economy--as every 
dollar spent of airline wages generates additional spending as the 
recipients spend that income in their local economy.
    However, PSP is neither an airline bailout nor a panacea for 
addressing the economic impacts of the pandemic. As opposed to almost 
all other relief measures in the CARES Act, the PSP funds, under the 
auspices of being 'grants', came with significant eligibility 
requirements including workforce retention commitments, air service 
obligations, compensation restrictions, a repayment requirement of 29 
percent of the funds with interest to Treasury, and the issuance of 
warrants to Treasury. Air carriers, despite only serving as simple 
pass-throughs of the funds, agreed to these terms in an on-going effort 
to support their labor workforce. Participation in the program comes at 
a price; for the nine largest passenger airlines--after deducting the 
amount repayable to the U.S. Treasury--the PSP funds covered 82 percent 
of payroll expenses, leaving them with a $3.7 billion shortfall for the 
applicable six-month period.
    We mention this not to complain, but instead to explain and level-
set what the PSP program has meant to airline ledgers. The same logic 
holds true for all iterations of PSP including the $14 billion 
currently under Congressional consideration. While the extension would 
be a welcome and needed respite for our workers, it is estimated to 
cover 60 percent of the industry's projected six-month full-employment 
payroll costs.
    The fact of the matter is, without that supplemental relief, tens 
of thousands of aviation workers will lose their jobs--or experience 
reductions to wages and benefits--effective April 1. Support of PSP 
funding is an explicit recognition that the industry remains in dire 
straits, even before factoring in the certainty that it will be 
inundated with debt for years to come, some directly undertaken to 
support and maintain our labor workforces. PSP funds are an investment 
in our labor workforce, and they provide solace to tens of thousands of 
aviation workers who would otherwise lose their jobs or experience 
reductions to wages and benefits, as experienced by the temporary lapse 
last fall.
    We appreciate your consideration of the program extension and hope 
there can be a universal understanding of the PSP and an agreed upon 
set of facts to drive future discussion of the inclusion of punitive 
measures on funds intended to be grants for our workers. Saddling air 
carriers with additional debt and making them suffer the loss of much 
needed management talent runs counter to the goals of recovery and 
international competitiveness of U.S. airlines.
                            CARES Act Loans
    U.S. passenger carriers have also drawn down $19 billion in CARES 
Act loans. As opposed to the PSP financial assistance for workers, the 
loans are intended to help airlines continue operations while demand 
remains significantly impaired. Notably, and on top of the warrants 
issued on PSP funds, Treasury will also receive warrants to purchase 
common stock equal to ten percent of the total loan amount for each 
participating air carrier. Combined with the PSP funds, the federal 
loan eligibility came at a time when carriers were in most need of 
immediate flexibility to deal with the lightning speed at which the 
pandemic decimated demand for air travel. No carrier covets taking 
federal loans, but the industry is sincerely appreciative of the timely 
relief put forward at the beginning of this unrivaled global economic 
crisis.
                Self-Help Measures and Private Financing
    Air carriers have also engaged in significant self-help measures to 
bolster their liquidity which will be critical to survive this 
unparalleled economic event. These self-help measures include, but are 
not limited to:
    <bullet>  Accessing outside sources of cash such as, but not 
limited to, unsecured or secured loans amounting to more than $70 
billion since late February 2020;
    <bullet>  Restructuring aircraft order books through negotiations 
with manufacturers;
    <bullet>  Announcing the accelerated retirement of more than 600 
aircraft, more than half of which exited the fleet in 2020;
    <bullet>  Halting almost all discretionary (not operationally 
critical) capital projects;
    <bullet>  Trimming unprofitable flying;
    <bullet>  Redeploying some passenger aircraft to provide essential 
cargo-only service to transport medical supplies;
    <bullet>  Negotiating with vendors and airport partners to secure 
relief on payment terms and timing; and
    <bullet>  Securing voluntary unpaid leaves of absence or salary 
reductions.

    To the last point, we are grateful for the strong collaboration 
between labor and management to address the realities of this crisis. 
In fact, to date, approximately 80,000 employees have opted for some 
form of compensation adjustment or early retirement which has brought 
much needed flexibility. We appreciate all employees who have dedicated 
their lives to the U.S. airline industry and are helping the industry 
to survive this public health crisis.
 COVID + PSP + CARES Loans + Self-Help Measures + Private Financing = 
                        $150 Million Daily Loss
    Even with all the public and private actions previously outlined, 
U.S. carriers are currently burning an estimated $150 million of cash 
every day, surviving only by taking on massive sums of debt that will 
burden the industry for several years. Despite significant reductions 
in operating costs and capital expenditures and despite federal 
assistance to preserve airline jobs and their wages and benefits, 
analysts are projecting daily cash-burn rates of $90 million per day in 
the second quarter and $80 million per day in the third quarter of 
2021. Though it is too early to project the fall, it appears that the 
industry will continue to hemorrhage cash through the end of the year. 
For most, breaking even would mark success.
                              Perseverance
    Since the April 2020 low-water mark, demand has seen a slow climb, 
with the shape of recovery best described as a reclining ``L'' and 
bookings for the highly coveted corporate air travel segment down a 
staggering 86 percent from 2019 levels. In the most recent week, 
transatlantic air travel was down 90 percent, while transpacific and 
U.S.-Canada air travel are down 94 percent and 96 percent, 
respectively. While the advent of multiple vaccines is encouraging, we 
do not expect volumes to return to pre-pandemic levels before 2024, at 
the earliest. As traffic recovery eventually leads to revenue recovery, 
shoring up our financial condition will be paramount. Carriers will 
need to retire the massive sums of debt they have taken on to cope with 
the evaporation of demand and consequent depletion of cash reserves. It 
will take years, not months, to pay off that debt. Until that time, we 
will see a much smaller industry with fewer operations, aircraft and 
workers and scarce funds available for investment in their products.
    The economic contribution of international travel and tourism 
cannot be overstated. According to the World Travel and Tourism 
Council, the U.S. is set to lose $155 billion from the economy due to 
the collapse of international travel. A strong and stable aviation 
industry is a key building block for a global recovery from the COVID-
19 pandemic. In 2019, international travel imports totaled $196 
billion, creating a $59 billion travel trade surplus. Importantly, 
international travel spending directly supported about 1.2 million U.S. 
jobs and $33.6 billion in wages.
                                Recovery
    Our industry has a history of being resilient. The financial 
priorities for airlines are clear: reduce cash burn, restore 
profitability and repair balance sheets. And given the freedom to do 
so, U.S. airlines they will do just that; but the hurdle will be higher 
this time. Prior to COVID-19, the rule of thumb was to have a cash 
cushion that could withstand an event three times the magnitude of 9/
11. With the reality of a pandemic now painfully apparent, boardrooms, 
workers and investors will all expect even stronger airline balance 
sheets than before, allowing these companies to tap capital markets 
fully and swiftly in the future--without depending on federal 
assistance--while avoiding extreme distress and painful cuts for 
employees. Time and again, our industry has proven its resilience and 
agility. With that in mind, we have every reason to believe that our 
nation's airlines will emerge from this crisis even stronger than 
before, in a way that helps empower the recovery of the U.S. economy 
and allows friends, family and businesspeople to meet face-to-face in a 
matter of hours once again.
                            Applied Science
    As the devastating impact outlined above makes clear, the aviation 
industry understands we must get the virus under control in order to 
restore travel, preserve jobs and reignite the economic contributions 
driven by commercial aviation.
    Since the beginning of this crisis, U.S. airlines have relied on 
science to help guide decisions as they continuously reevaluate and 
update their processes, procedures and protocols. U.S. airlines have 
implemented multiple layers of measures aimed at preventing virus 
transmission onboard the aircraft, including strict face covering 
requirements, pre-flight health forms, enhanced disinfection protocols, 
hospital-grade filtration systems, air exchanges onboard aircraft that 
remove viruses, and new boarding and deplaning procedures.
    Research has also shown that this layered approach makes the risk 
of virus transmission onboard aircraft very low, specifically:
    <bullet>  US TRANSCOM released a study showing the low risk of 
COVID-19 transmission on commercial aircraft. Technicians ran 300 tests 
over six months with mannequins to reproduce breathing and coughing to 
determine how particles moved within the cabin when a mask was on or 
off. The study concluded that when masks are worn, there is a 0.003 
percent chance that particles from a passenger can enter the breathing 
space of passengers sitting next to them.
    <bullet>  Harvard T.H. Chan School of Public Health's Aviation 
(APHI) further affirmed that the risk of onboard transmission is low. 
The Harvard APHI research was the first to evaluate the entire inflight 
experience including boarding and deplaning. The results confirmed 
that--due to the multiple layers of protection noted above--the risk of 
transmission on an airplane is ``very low'' and that being on an 
airplane is ``as safe if not significantly safer'' than routine 
activities such as going to the grocery store and eating at a 
restaurant. Further, the Harvard researchers concluded that this multi-
layered approach is so effective that the possibility of exposure to 
COVID-19 is reduced to a point so low that it ``effectively counters 
the proximity travelers are subject to during flights.''

    The Harvard research team also published results from a second 
phase of their research in February. While the first phase of research 
focused on the ``gate to gate'' experience, the second phase broadened 
the scope to include the ``curb to curb'' experience at airports. The 
key takeaways of the second phase are also insightful, namely that 
airports have been proactive in implementing measures to combat the 
COVID-19 pandemic and that the application of a multi-layered approach 
significantly contributes to risk reduction.
    If there is any silver lining to this pandemic, it is the fact that 
industrywide, from manufacturers to air carriers, we have come to 
together to share information and tackle issues head-on with science 
and data at a level unseen before. This experience has honed a focus on 
a common goal that will lead us out of this pandemic and provide the 
science and data to address future challenges.
                               Air Cargo
    In a year filled with layers of struggle and financial loss, and 
despite the devastating impacts of COVID-19 across global economies, 
the pandemic has shown the indispensable role that passenger carriers 
and all-cargo air carriers play in both the domestic and global supply 
chain. Domestic air cargo tons enplaned rose 13 percent in November and 
9 percent through the first 11 months of 2020. U.S. airline 
international air cargo tons enplaned rose 10 percent in November--the 
fifth consecutive year-over-year increase.
    Through close coordination with the healthcare community and 
federal, state and local governments, the cargo industry has delivered 
a staggering amount of personal protective equipment, diagnostic test 
kits, essential medical supplies, humanitarian aid and vaccines across 
the globe. They have played an outsized role during the pandemic and 
will most certainly be critical to paving the way toward global herd 
immunity and a return to a modicum of normalcy. Until one steps back to 
fully appreciate the logistical effectiveness and efficiency of our 
all-cargo operators, it is easy to take them for granted and thoroughly 
recognize the incredible contribution they make to our daily lives. 
Pandemic, or no pandemic, they are vital to our standard of living, but 
this crisis has shown the pivotal role they play in saving lives.
                               Do No Harm
    Over the course of the pandemic our industry has needed to remain 
nimble and vigilant to many well-intended, but sometimes unnecessary, 
misguided and/or untimely, legislative and regulatory proposals. As we 
continue to face the challenges of today and drive toward a time when 
we can cross the long precipice to actual recovery and growth, we 
respectfully request that policymakers restrain from adopting punitive 
policies such as tax or fee increases or onerous rules and regulations 
that will otherwise cause harm to our debilitated industry. Doing so 
will only hamstring our ability to recover and undermine the basic 
underpinnings and purpose of the relief provided to our labor 
workforce. This crisis was not caused or brought on by the airlines and 
should not be used for convenient legislative opportunism to reregulate 
or refashion what was a highly competitive and burgeoning well-paid job 
creator prior to the pandemic.
                               Conclusion
    U.S. airlines have always been critical to our nation's economy and 
infrastructure. Now, as our nation looks toward the future, and resumes 
connecting American communities, families and businesses with each 
other and with the rest of the world, A4A and our member carriers stand 
ready to work with Congress and the new Administration to help speed 
the recovery of our industry, the nation and the world from the COVID-
19 pandemic. Now, more than ever, the U.S. commercial aviation industry 
wants to lead the way to economic recovery.

    Mr. DeFazio. What kind of farm animal? We will get to that 
later.
    Mr. Calio. A good, friendly one, Peter.
    Mr. Larsen. A good, friendly one. I think it is best to 
just take the compliment, and we will move to the next 
panelist.
    Captain Joe DePete with ALPA, you are recognized for 5 
minutes.
    Mr. DePete. OK, thank you, Chairman Larsen, Ranking Member 
Graves, and the members of the subcommittee. I am Captain Joe 
DePete, president of the Air Line Pilots Association, 
International, which represents more than 59,000 pilots, and is 
the world's largest airline pilot union and nongovernmental 
aviation safety organization.
    Since the pandemic began, airline pilots have been on the 
front lines in the fight against COVID-19. We have kept supply 
chains flowing, and the global economy connected. We have 
transported medical personnel, PPE, and life-saving vaccines, 
and we have worked to ensure that aviation can fulfill its 
critical role in the Nation's economic recovery, once the 
pandemic and public health crisis is behind us.
    ALPA pilots have not allowed the pandemic to distract us 
from what is always our highest priority, and that is safety. 
For years, ALPA pilots have advocated a data-driven, risk-based 
approach to safety. During COVID-19, pilots have instituted a 
proactive safety culture on every flight. We got the data to 
identify the effects of the pandemic, and informed 
decisionmakers how to protect the traveling public. Backed by 
the data, ALPA was among the first to call for uniform, 
mandatory guidelines for cleaning and disinfecting aircraft, 
employee exposure notification, and the use of face masks.
    We appreciate this subcommittee's support of these 
measures, and we are pleased that the Biden administration has 
mandated masks for public transportation, something that should 
have been done a long, long time ago.
    In addition, ALPA has called for airline pilots to receive 
priority access to vaccines to ensure that they continue to 
support the public health response and economic recovery. 
Flightcrews are already deemed essential workers by the 
Cybersecurity and Infrastructure Security Agency, and they 
should be deemed essential workers regarding vaccine 
prioritization, as well.
    Internationally, some countries have established COVID-19 
policies that have disturbing consequences for U.S. pilots. 
ALPA urges our Government to ensure that U.S. citizens can be 
safely evacuated from any location, if necessary, and that we 
preserve the dignity of work by ensuring U.S. pilots are not 
subjected to unacceptable conditions related to the pandemic.
    Research shows that a layered public health precaution has 
created very low risks of virus transmission on airplanes. 
Despite this evidence, the number of U.S. passenger flights is 
currently down 50 percent from prepandemic levels. DCA, for 
example, has experienced a 67-percent decline in scheduled 
passenger flights from 2 years ago.
    Similar drop-offs across the country have resulted in 
shuttered airlines and aviation worker layoffs. Three ALPA 
carriers, Trans States Airlines, Compass Airlines, and 
ExpressJet have ceased operations, and their pilots are now 
jobless. Because airlines may seek reorganization, Congress 
must reform the broken chapter 11 process to protect collective 
bargaining agreements. And in the meantime, ALPA pilots have 
stepped up to weather this storm by negotiating more than 100 
agreements with our airlines to help stabilize our companies 
and fuel the recovery.
    The COVID-19 crisis is unprecedented in its speed, 
magnitude, and duration. By passing a CARES Act Payroll Support 
Program, Congress kept tens of thousands of aviation workers on 
the payroll and connected to healthcare. ALPA pilots are 
indebted to Chairman DeFazio and Chairman Larsen and others for 
developing and extending the PSP.
    And while the PSP has been a historic success, our industry 
remains in a precarious position. Many ALPA members and other 
aviation workers have received notices of furlough as soon as 
March 31st. Putting furloughed pilots back on the flight deck 
isn't as simple as flipping a switch. Airline pilots are 
subject to training requirements and medical certifications 
that take time to requalify. Keeping a strong U.S. pilot 
workforce is critical to our recovery.
    Recently the importance of a strong pilot workforce and our 
Nation having two qualified, trained, and experienced pilots on 
board its airliners became clear once again, when a United 
flightcrew made a safe emergency landing following an engine 
failure on a flight from Denver to Honolulu.
    With the hopeful trends in virus containment and vaccine 
rollout, and our collective work to position the pilot 
workforce and the airline industry for a successful rebound, we 
are cautiously optimistic about recovery. With continued 
leadership from Congress, we can make certain that the United 
States and its passengers and cargo shippers can count on a 
strong pilot workforce now and in the future.
    Thank you.
    [Mr. DePete's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Captain Joseph G. DePete, President, Air Line 
                   Pilots Association, International
    On behalf of the Air Line Pilots Association, International (ALPA), 
I want to thank you, Chairman Larsen and Ranking Member Graves, for 
inviting me to testify on COVID-19's effects on U.S. aviation and the 
flightpath to recovery. My name is Captain Joe DePete, and I serve as 
the president of ALPA. ALPA is the largest airline pilot union in the 
world, as well as the largest nongovernmental aviation safety 
organization in the world, with a history of safety advocacy spanning 
90 years.
    The airline industry is notoriously fickle. In good times, it is 
conspicuously cyclical and asset heavy, burdened by the vicissitudes of 
fuel expenses. Yet, in early 2020 the industry was in the midst of a 
banner year. Collectively, U.S. scheduled passenger airlines posted 
their 10th consecutive year of profitability, and passenger travel, 
both domestically and between the U.S. and abroad, was at all-time 
highs. Crucially, pilots and other airline personnel, who have 
historically borne a disproportionate share of industry burdens, were 
finally reaping the benefits of this success and stability, with 
employee wages and benefits at last recovering from post-9/11 carrier 
bankruptcies and the Great Recession. All the while, employment rose to 
more than 458,000 full-time equivalent employees in early 2020, an 18-
year high. With the industry on firm footing, industry growth and 
employee morale looked to continue apace.
    COVID-19's shocking arrival in the United States shattered this 
trend, as passenger volumes suddenly plunged 96 percent, demand for air 
travel virtually disappeared, and much of the nation shut down to 
mitigate virus transmission. This crisis is like nothing the industry 
has seen before. The speed, magnitude, and duration substantially 
dwarfed the financial fallout of the industry after the tragic events 
of 9/11, which primarily affected domestic and transatlantic markets 
rather than the entire globe. Fortunately, Congress responded 
immediately with the most proworker industry relief package in the 
nation's history through the Coronavirus, Aid, Relief, and Economic 
Security (CARES) Act's Payroll Support Program (PSP).
                      The Payroll Support Program
    In the modern era, every congressionally authorized industry or 
company-specific relief package has, intentionally or otherwise, 
resulted in harm to employees or to their collectively bargained 
contracts and rights. From the 1979 Chrysler bailout to the 
restructuring of the so-called Big 3 automakers and, most notably, the 
post-9/11 airline relief program, employees and collective bargaining 
have been either major targets or collateral damage in such efforts. 
For example, after 9/11, Congress passed the Airline Transportation 
Safety and Stabilization Act (ATSSA), which provided cash, loans, loan 
guarantees, and insurance--among other tools--to help stabilize the 
airline industry under the auspices of the government-run Air 
Transportation Stabilization Board. The law contained no employee 
protections, as the carriers who were able to access assistance paid 
off their shareholders while essentially no money flowed through to 
frontline employees. Ominously, the Board used its credit instruments 
to wrest disproportionate wage and benefit concessions from workers, 
effectively entering the government into private sector collective 
bargaining to change labor contracts. The improperly drawn package was 
a major failure, dangerously intervening in collective bargaining and 
haphazardly distributing loans. Ultimately, most carriers went bankrupt 
in the ensuing years, with massive attendant employee harm.
    Borne of this experience, ALPA and our labor allies worked with 
this Committee to completely change this antiworker dynamic through the 
PSP. The program is a three-legged stool in which collective bargaining 
is walled off from government interference, financial aid is 
exclusively subscribed to employee payroll and benefits, and strong 
furlough prohibitions maintain employment. As a result, despite the 
worst year in airline history, roughly 83 percent of employees remain 
in the industry; pilots and other personnel have ensured the continuity 
of vaccine distribution and travel; and a broader economic fallout, 
including to knock-on industries, has been blunted. Importantly, if not 
for this unprecedented program, the airline industry would be in 
tatters; this hearing would instead be about industry bankruptcies, 
devastating challenges to cargo and passenger throughput, and the 
potentially hundreds of thousands of unemployed pilots and other 
airline employees who would be unable to respond to eventual demand. 
ALPA, our labor allies, and the airline industry owe this Committee, 
its members, staff, and the rest of Congress an incredible debt of 
gratitude for the PSP and its successors. It has been a lifeline to 
workers, communities, and the economy. It shows the power of worker-
centered industry relief and should serve as a template moving forward.
                    Industry and Employment Outlook
    While the PSP has been an invaluable success, the industry remains 
in a precarious position. U.S. carriers posted huge losses in 2020, as 
revenue dropped by 62 percent and demand remains down by about 64 
percent. Currently, we do not expect to see meaningful profitability in 
the passenger airline industry to return until at least 2022. For these 
reasons, we are deeply appreciative of the ongoing efforts of this 
Committee to include a third round of PSP in the American Rescue Plan 
Act of 2021. ALPA members at numerous carriers, in addition to the tens 
of thousands of notices sent to employees at other airlines, have 
received WARN Act notices of impending furloughs beginning on March 31. 
We estimate current employee payroll for the passenger industry at 
approximately $3.7 billion a month based on industry filings, with 
adjustments made for returning employees per the recall provisions of 
the PSP 2. PSP 2's precedent-setting provisions for recalling 
furloughed employees are succeeding, with the Bureau of Transportation 
Statistics reporting a December increase of 12,000 employees returning 
to payroll, suggesting a trend as the data lag and implementation of 
the recall continues. As such, the $14 billion in PSP 3 funds should 
last until approximately August; however, given the potential for 
increased demand and profitability later in the year, we hope the aid 
lasts through the program's scheduled September 30 date.
    While the industry is on firmer footing, the economic dangers posed 
by COVID-19 remain. Three ALPA carriers have shut down as a result of 
the pandemic, causing incredible hardship for our members, their 
families and other airline employees. Historically, airlines have 
grossly abused the bankruptcy process with the consent of the courts, 
despite there being clear evidence that Congress never intended for 
this outcome. As just one example, after 9/11, 50 air carriers sought 
protection from the bankruptcy code. Because of the courts' 
misapplication of the law, airlines were able squeeze $83.5 billion in 
wage and benefit reductions, the dissolution of nearly every defined 
benefit pension plan, and in some cases dictate 50 percent pay cuts and 
7-year contracts in order to cement long-term employee losses. These 
draconian cuts were grossly disproportionate in substance and duration, 
far outlasting the immediate need to successfully reorganize, and did 
not reflect economic circumstances. Prior to COVID-19, these wage cuts 
were just beginning to recover while benefits did not. To prevent any 
replay of this, it is long past due for Congress to reform Chapter 11 
of the bankruptcy code to protect airline collective bargaining 
agreements and retirement plans to prevent further judicial perversion 
of congressional intent. Specifically, we call on Congress to pass the 
bicameral Protecting Employees and Retirees in Business Bankruptcies 
Act of 2020.
                Pilot Availability and Training Capacity
    Central to the rationale for the PSP is keeping pilots and other 
mission-critical employees available to respond quickly as demand 
returns to the industry. Pilots cannot simply return from unemployment 
to operate airline aircraft; they are subject to recency training 
requirements and medical approvals, and security clearances. Further, 
returning pilots from furlough or an inactive status triggers a 
complicated reallocation of labor, as employees are redistributed 
across aircraft types and even between captain and first officer 
ranks--all of which requires extensive training and, in some cases, 
moves to different bases. These frictional costs are expensive, and if 
you are an airline, the last thing you would want in the midst of the 
largest downturn in the history of the industry is not being able to 
fully satisfy a recovery in passenger demand because you cannot train 
pilots fast enough.
    Right now, dismal long-term booking commitments and the near 
absence of business travel demand is leaving some carriers with too 
little certainty to reactivate and retrain furloughed or otherwise 
inactive pilots. Thus, pilot training may potentially serve as a 
constraining variable to an accelerated recovery in passenger demand. 
ALPA is closely monitoring the demand for pilot services, and we plan 
to help get pilots back into training as soon as necessary. Getting 
furloughed and inactive pilots fully qualified ahead of an accelerated 
demand curve will help mitigate the impacts from any potential 
chokepoints in the training process and ensure the speediest return to 
service.
                           Health and Safety
    Airline pilots have been on the front lines of fighting the 
pandemic--and still are today. Since the beginning of the crisis, ALPA 
members at passenger and cargo carriers have been transporting 
essential workers, personal protective equipment, and other supplies 
and are now flying the vaccine from manufacturing plants to locations 
across the United States and around the world. At the same time, 
airline pilots are working to keep supply chains open and stabilize our 
industry to help stop the spread of the virus and ensure our industry 
continues to contribute to the recovery.
    The COVID-19 crisis has forced our industry to continually adapt to 
and mitigate aviation risks and hazards, and the continuous, iterative 
process has helped make air travel safe. In collaborative partnerships 
with Federal agencies, airline and aviation unions, aircraft 
manufacturers and other nonaviation entities, the industry has 
developed and implemented policies and procedures to provide multiple 
layers of protection to ensure the traveling public is safe and 
confident about travel. In order to ensure capacity to provide a fully 
functioning air transportation system, the aviation industry has worked 
together with federal agencies to obtain exemptions from certain 
aspects of training, extensions for medical certification, and an 
increase in the required altitude when crewmembers must don oxygen 
masks when one pilot is on the flight deck.
    The process has not always been simple or easy. Dating to early 
2020, ALPA was one of the first organizations to call for a federal 
mask mandate and related mitigations to stop virus spread and help 
restore confidence in air travel. It was clear that masks mitigate 
transmission, the Federal Aviation Administration (FAA) possessed the 
statutory authority and responsibility to issue clear and mandatory 
guidelines, and noncompulsory standards were confusing and 
insufficient. While carrier policies eventually were implemented, 
coordinated government leadership and support was necessary to set 
clear standards and help crewmembers swiftly handle noncompliant 
passengers before any potential in-flight issues arise. We are thankful 
the Biden Administration immediately issued the Executive Order on 
Promoting COVID-19 Safety in Domestic and International Travel to 
finally and formally provide long-overdue leadership and certainty for 
the industry, passengers, and employees. Mr. Chairman, I also want to 
thank you for your leadership and your support for precursory 
legislation, like the Healthy Flights Act, and long-term, strategic 
planning bills, such as the National Aviation Preparedness Plan Act, 
which are crucial to this success as well as future industry 
preparedness.
                Industry Mitigation Tools and Strategies
    As a globally interconnected industry with leisure, business, and 
cargo demand exposure, the industry has previous, relevant experience 
with health events and crises that have enabled aviation to quickly 
implement or get ahead of pharmaceutical interventions. From the 
implementation of mask wearing and hygiene protocols to airflow 
management and filtration, the industry has quickly responded to COVID-
19 to ensure air travel remains operational, safe, nimble, and 
responsive to passenger and cargo needs.
                           Filtration Systems
    Through the use of ventilation, filtration, and outflow, the 
airline industry is able to create a healthy cabin environment on 
aircraft. With manufacturers building ventilation systems that 
recirculate cabin air on commercial aircraft since the 1980s, the 
industry has had considerable time and experience to perfect such 
systems prior to COVID-19. As a result, the environmental control 
systems that filter the airflow on aircraft use hospital-grade High-
Efficiency Particulate Air (HEPA) filters that are capable of 
eliminating pathogens and are effective against viruses and bacteria. 
Similarly, the use of aircraft outflow valves, which control the 
pressure inside the cabin, to the maximum extent possible ensure our 
aircraft are continuously resupplied with fresh air every 90 seconds to 
2 minutes.
    A November 2020 Harvard Aviation Public Health Initiative study 
supports the positive effects that HEPA filters have in aviation. The 
study notes that air travel is as safe as--or substantially safer 
than--other routine activities, such as grocery shopping. One reason is 
because the air exchange rates are higher on aircraft versus many 
indoor occupied spaces, meaning that the air supplied to the cabin is 
recirculated multiple times through the HEPA filter.
               Activities to Ensure Continued Safe Travel
    Recognizing the importance of data, at the onset of the pandemic 
ALPA implemented a Data Action Report program to specifically collect 
reports on COVID health, security, training, and jumpseat concerns. 
These reports allowed ALPA to use a data-driven approach to identify 
for the FAA, TSA, and airlines where changes were needed. Following the 
initial reports, ALPA saw dramatic improvements in airlines' compliance 
with government guidelines.
    The FAA has developed several iterations of a Safety Alert for 
Operators (SAFO) on COVID-19. This SAFO provides guidance for airlines 
related to aircraft airworthiness and crewmember and passenger 
protections during operations. Each iteration of the document has been 
developed in close coordination with the Centers for Disease Control 
and Prevention. The FAA and industry, in an effort to ensure the 
aircraft environment is adequately cleaned, sanitized, and disinfected, 
worked within the nonprofit public-private partnership RTCA Special 
Committee (SC-241) to develop guidance on the benefits and hazards of 
disinfecting products and procedures for their use. The result was RTCA 
DO-388 guidance around chemical and nonchemical disinfection of 
aircraft for use by aircraft operators and service providers to make 
air travel safe during this and any future pandemics.
    Similarly, the International Civil Aviation Organization (ICAO), on 
March 9, 2020, established the ICAO Council Aviation Recovery Task 
Force (CART) tasked to identify and recommend strategic priorities and 
policies. CART focused on three areas: coping with COVID-19 challenges; 
ensuring aviation operations are facilitated in a safe, secure, and 
sustainable manner taking into consideration evolution of the pandemic 
and decisions by public health authorities; and finally, building a 
more resilient aviation system in the longer term. ICAO CART work 
continues to be updated as we learn more.
    The aircraft manufacturers have also been working on their own 
COVID initiatives. Boeing has developed its ``Confident Travel'' 
initiative, while Airbus has developed its own ``Keep Trust in Air 
Travel'' program to provide passengers and crews a safe and healthy 
travel experience. ALPA has been communicating and coordinating with 
both manufacturers throughout the pandemic and both were instrumental 
in the work accomplished by the RTCA SC-241.
          Research Related to Disease Transmission in Aircraft
    In total, governmental sources and industry information show that 
mitigations in place have been effective. U.S. Transportation Command 
supported by Defense Advanced Research Projects Agency, Boeing, and 
United Airlines conducted one of the largest aircraft aerosol 
experimental tests to date. The study concluded that when masks are 
worn, aerosol exposure of particles exhaled by a passenger into the 
breathing space of passengers sitting next to them showed a minimum 
reduction of 99.7% of aerosol exposure. Similarly, data published by 
the International Air Transport Association shows that of the 1.2 
billion airline passengers who traveled since the beginning of 2020, 
only 44 cases of in-flight COVID-19 transmission have been reported. In 
fact, the vast majority of cases occurred before face coverings were 
universally required.
                            Domestic Testing
    Given the evidence of the safety of the airline industry, we are 
appreciative of the Biden Administration's thoughtful approach to 
travel, as provided in the mask mandate executive order and by the 
decision to forgo unnecessary and likely complicated domestic testing 
requirements. Testing provides only a snapshot at one point in time, 
and such a requirement would likely create meaningful logistical 
challenges and divert testing from more obviously necessary public 
health priorities. Additionally, with domestic departures approximately 
17 times greater than international, the likely drop in air travel 
would be substantial. For example, since the international travel 
restriction went into effect, there has been a 47 percent reduction in 
the volume of tickets sold. A drop of similar magnitude in domestic 
ticket sales would precipitate a real crisis for industry employment.
                           COVID-19 Vaccines
    ALPA urges Congress and the Administration to recognize the 
essential role of airline pilots in the supply chain. Flightcrews have 
already been deemed essential workers by the Cybersecurity and 
Infrastructure Security Agency. It is critical that, following the 
initial distribution, which has been mostly complete, airline pilots 
are provided priority access to the vaccine as well. Ensuring this 
prioritization will allow the logistical component of transporting the 
vaccine to continue unencumbered.
                        International Challenges
    While operations have continued to improve domestically, 
internationally our members continue to face significant challenges. 
Each country during the pandemic has created its own rules and 
policies, which has proved to be very difficult for airlines and crews 
to manage. For example, our crews who have flown through Hong Kong have 
faced uncertainties every time they layover. Crews are tested upon 
entry, and if they test positive, they are sent to a hospital or taken 
to an open bay facility at the Asia World-Expo, which has been 
described as deplorable. COVID-positive pilots have also been placed in 
the hospital settings in which they are locked in a room with another 
COVID-positive individual, although they were asymptomatic. The rest of 
the flightcrew are detained in substandard government quarantine 
facilities for in excess of 24-48 hours. Efforts to evacuate these 
crewmembers through an air ambulance have proven in many cases to be 
unsuccessful. Some of our members who have tested positive have been 
detained for more than three weeks. Work must continue to ensure that 
U.S. citizens are able to be safely evacuated from anywhere in the 
world and not be subjected to these unacceptable conditions. The U.S. 
government needs to intercede on behalf of these airline pilots who are 
transporting critical health supplies and vaccines to help the world 
recover.
                               Conclusion
    ALPA stands by as a committed, willing partner as we continue to 
chart a path through the pandemic. We appreciate your recognition of 
the unique and critical role played by pilots and all airline workers 
to safely maintain our air transportation system, support our national 
economy, and position the industry for a seamless rebound when demand 
returns. Thank you for the trust you place in us and your commitment to 
preserving our industry and its workers.

    Mr. Larsen. Thank you, Captain DePete. I want to recognize 
now Mr. Peter Bunce.
    You are recognized for 5 minutes.
    [Pause.]
    Mr. Larsen. Mr. Bunce, you need to unmute yourself.
    Mr. Bunce. Chair Larsen, Ranking Member Graves, Chair 
DeFazio, thank you for letting me be with you today. We have 
talked previously about the aviation industry being one large 
ecosystem. And all working together, we can solve problems for 
the entire industry. The fortunes of what happens on the 
commercial side impacts those in business and general aviation 
greatly, especially our very fragile and interconnected supply 
chain.
    When we were all together a year ago, we couldn't have 
anticipated that some of our manufacturing facilities would be 
shuttered for over a month as we worked on the local 
restrictions. And when we were able to bring workers back, we 
had to pivot, like we read about they did in World War II. Like 
the auto industry pivoted to making aircraft, we pivoted to 
making PPE gear, ventilator equipment, things like that 
because, basically, the supply chain was so disrupted that we 
didn't have the parts and pieces that we needed to either fix 
aircraft on the maintenance side of the house, or build new 
ones.
    So what did that translate to? That was, according to our 
sister manufacturing association, about a 110,000-member job 
loss in this very highly skilled workforce that I know Ms. 
Krause and some of the work that was done with the GAO 
recognized how unique our aerospace workforce is, and how we 
cannot have these workers leave to other industries because of 
their very specific skill set.
    How it affected us and business in general aviation is 
every one of our aircraft segments were down last year. We just 
reported on the numbers last week. Whether it is piston, 
turboprop, jet airplanes, or on the rotorcraft side, piston and 
turbine and rotorcraft, everyone was down. And that translated 
to about a $5 billion decrease in revenue, in billings, during 
2020.
    And during this whole time, the health and safety of our 
workers within our factory and those in our supply chain have 
been first and foremost. So we have had a lot of innovative 
workforce actions within our factories that we have been able 
to bring back some production to be able to separate workers, 
put them on teams, spread out the shifts, and be able to have 
them work safely at their workstations together.
    When we look at what the Government can do to help our 
industry, there are several things. And the first I would like 
to start with, to compliment Chair Larsen and the work he has 
done with Representative Estes in being able to advocate for 
this 50/50 cost share, to help us bring back some of those 
workers, or not lay off, continue to lay off other workers, and 
have this cost share partnership translate to being able to 
make sure that those workers do not filter over time into some 
other industry, and bring them off of unemployment so they have 
the healthcare that we offer. So we are in strong support, and 
we thank this committee very much, and the House for passing 
that, and we hope that the Senate does, as well as 
reconciliation.
    On the level of Federal agencies, we are very complimentary 
of what the FAA has done with video inspections and different 
work-arounds that have happened during the pandemic that have 
actually allowed us to keep business functioning. But we do 
need the DOT to help us by allowing the FAA to have some of the 
regulatory roadblocks and backlog that filtered up to DOT 
during the last administration now get pushed back down to 
where the expertise lies within the FAA to be able to allow us 
to have the regulations to be able to build product. Versus 
other industries, we have to have regulations to be able to do 
things in aviation because of just the safety concerns that are 
involved. So that would be of tremendous help to us.
    In addition, the National Interest Exception is a program 
that is administered by the Federal Government, and we have 
asked the FAA--and they have been very helpful with us--to be 
able to get all of the disparate views that the State 
Department takes at different embassies around to allow foreign 
nationals to come to the U.S. and train. We know we do the best 
pilot training in the world, also maintenance training in the 
world, and we need to facilitate them coming here to get that 
training, but also to accept new production aircraft that we 
put out.
    And in the sustainability arena, we have got great efforts 
going on with sustainable aviation fuel. Congress can help us 
out with bio or blending credit that supplements the biodiesel 
tax credit. And I know we can talk about that later.
    And then, Chair Larsen, you were talking about this new 
area of aviation that I think is just as exciting as the dawn 
of the jet age must have been in urban air mobility. And we are 
very complimentary of what Representative Davids has done, 
along with Ranking Member Graves, to be able to push this new 
legislation forward which will coalesce Federal agencies.
    So I look forward to your questions.
    [Mr. Bunce's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Peter J. Bunce, President and Chief Executive 
          Officer, General Aviation Manufacturers Association
    Chair Larsen and Ranking Member Graves, on behalf of the General 
Aviation Manufacturers Association (GAMA) and its member companies, 
thank you for convening this hearing today which will be vital to 
understanding the impact of the COVID-19 pandemic on the aviation 
industry and what policies and initiatives can be undertaken to foster 
the recovery of business and general aviation manufacturing companies 
and maintenance providers.
    We look forward to working with you, House Transportation and 
Infrastructure Chair DeFazio and Ranking Member Graves, members of the 
House Aviation Subcommittee, and the membership of the committee at 
large, on issues of critical importance to the future strength of our 
nation's aviation and transportation system.
    I want to state the deep appreciation we have for this Committee 
and Congress for taking actions to support the aviation industry during 
this crisis.
    GAMA represents more than 120 of the world's leading manufacturers 
of general aviation airplanes, rotorcraft, engines, avionics, 
components, and related services and technologies. GAMA members are 
also providers of maintenance and repair services, fixed-based 
operations, pilot and maintenance training, and aircraft management. 
Additionally, GAMA represents companies in the emerging sector of 
advanced air mobility, which includes the development of vertical take-
off and landing aircraft as well as electric propulsion and autonomous 
systems for civil purposes. GAMA companies have facilities in 47 U.S. 
states and 15 countries. A recent economic impact study determined that 
the general aviation industry supports $247 billion in economic output 
and 1.2 million jobs in the U.S.\1\
---------------------------------------------------------------------------
    \1\ General Aviation's Contributions to the U.S. Economy, 2018 
Price Waterhouse Coopers Study on behalf of Aircraft Electronics 
Association (AEA), Aircraft Owners and Pilots Association (AOPA), 
Experimental Aircraft Association (EAA), General Aviation Manufacturers 
Association (GAMA), Helicopter Association International (HAI), 
National Air Transportation Association (NATA), and National Business 
Aviation Association (NBAA), February 19, 2020
---------------------------------------------------------------------------
    I appreciate the opportunity to highlight the impacts this pandemic 
has had on the aviation manufacturing and maintenance sectors. In 
addition to detailing the impacts, I would like to depict what can be 
done in the near-term and long-term to mitigate these effects and lead 
to a broader recovery in these sectors. I hope to portray the ways we 
can work with this Subcommittee, the Administration, other 
policymakers, and stakeholders to facilitate the sector's rebound, 
recovery, and reinvigoration through technological innovation and 
investments in sustainability.
    At the outset, I also want to make it clear that GAMA recognizes 
these impacts go far beyond our critical sector of the aviation 
industry. We appreciate and respect the work of all our partners in the 
aviation ecosystem. Previously, I have stated before this committee 
that a crisis for one part of this industry typically has implications 
for all--unfortunately the COVID-19 pandemic has reinforced this 
assertion. Throughout this process, GAMA has supported efforts by all 
these aviation sectors to mitigate the effects of the pandemic.
   The Pandemic Impacts on Manufacturers, Maintenance Providers, and 
                                Training
    Prior to the pandemic, the outlook for the industry looked 
encouraging, particularly given that in 2019 piston airplane and 
business jet shipments reached decade highs.\2\ The future of the 
industry looked even more promising, given ongoing development and 
innovations in manufacturing methods, aircraft design, avionics, 
automation, and propulsion systems.
---------------------------------------------------------------------------
    \2\ General Aviation Manufacturers Association 2019 Databook, 
General Aviation Manufacturers Association, March 2020
---------------------------------------------------------------------------
    Last week, GAMA released its 2020 year-end report of the shipments 
and billings of general aviation aircraft.\3\ As expected, the COVID-19 
pandemic negatively impacted general aviation and stifled the 
industry's growth. The value of aircraft deliveries decreased by 16% 
from 2019. Each segment of the industry suffered losses, some more than 
others. Piston airplanes fared the best as they only saw a 0.9% decline 
in shipments and a 7.3% decline in billings. Turboprop airplane 
deliveries saw a 15.6% decline in shipments and a 17.7% decline in 
billings. Business jet deliveries saw its lowest production since the 
great recession with a 20.4% decline in shipments and a 14.4% decline 
in billings. Preliminary civil-commercial turbine helicopters saw a 
16.9% decline in shipments and a 16.2% decline in billings. Piston 
helicopters saw a 20.7% decline in deliveries and a 21.2% decline in 
billings. Despite the pandemic-related setbacks, the industry is very 
resilient, and we remain optimistic given the talent and strength of 
our phenomenal workforce and the history of industry leaders and its 
employees responding to challenges.
---------------------------------------------------------------------------
    \3\ GAMA Announces 2020 Year End Aircraft Billing and Shipment 
Numbers, Press Release by General Aviation Manufacturers Association, 
February 24, 2021
---------------------------------------------------------------------------
    In the U.S., aviation manufacturing, maintenance and repair 
operations were deemed essential, enabling many to continue at some 
level of production throughout the shutdowns. Companies rapidly 
implemented a wide range of health and safety protocols in accordance 
with local, regional, and national level guidance. Unfortunately, this 
``essential industry'' designation did not extend worldwide, and unique 
nation by nation health and travel restrictions put in place to respond 
to the pandemic, including the U.S., significantly impeded global 
operations, supply chains, sales, and deliveries.
    Throughout the course of the COVID-19 pandemic, GAMA has sought to 
understand the impacts across our broad membership. While a survey is 
only a partial picture of the pandemic hardship, we thought it might be 
useful to highlight some key findings for the Subcommittee:
    <bullet>  Due to the pandemic, over 70% of the respondents had to 
undertake action regarding their workforce, including pay and/or hour 
reductions, furloughs and/or closure of operations. Just over half of 
the respondents indicated that additional workforce measures may still 
be needed, depending on the progress of relief and recovery efforts.
    <bullet>  Nearly 50% of the respondents indicated that they had to 
either limit or shut down operations due to national/regional/state/
local decisions or for economic reasons. Several respondents indicated 
that international business relations were severely hampered due to 
international travel restrictions.
    <bullet>  Losses in revenue were reported by 86% of the 
respondents. On average, losses tended to be estimated around 24%, with 
some estimating losses as high as 50% and as low as 4%.
    <bullet>  Nearly 70% of the respondents reported experiencing 
supply chain issues, causing slowdowns in production and deliveries. 
Supply chain issues appeared at the outset of the pandemic and they 
have continued to persist, particularly with critical parts and 
equipment.
General Aviation Supporting Communities
    Our industry has a rich history of quickly pivoting and adapting to 
help communities in times of crisis. Throughout the pandemic, the 
general and business aviation industry has played an integral role in 
the fight against COVID-19. Companies across the globe have 
supplemented ongoing activities to assist with the relief efforts 
through the production of masks, shields, gowns, and ventilator parts, 
while others have transported medical personnel and supplies for front 
line health care workers. We have also seen companies working with 
their supply chain partners to provide information about financial 
assistance opportunities as well as best business practices in areas 
like procurement.
     Key Steps for the Initial Recovery of Aviation Manufacturing, 
                       Maintenance, and Training
    As we continue to navigate the pandemic, I want to express 
appreciation for FAA Administrator Dickson and the FAA for quickly 
responding to immediate challenges that threatened to shut down U.S. 
manufacturing and maintenance activities. For example, FAA enabled 
implementation and expanded use of technology for inspections, test, 
and oversight. Without these collaborative efforts, the challenges 
faced by manufacturers, maintenance, and training providers would have 
been compounded exponentially. It is our belief that the use of remote 
technologies will have lasting benefits for the effectiveness of 
regulatory oversight.
Aviation Manufacturing Jobs Initiatives
    As discussed earlier, the pandemic has had a profound impact on the 
workforce of the business and general aviation community. Overall, in 
the aerospace industry, according to a study commissioned by the 
Aerospace Industries Association (AIA), it is estimated that 100,000 
workers have already lost their jobs, and 220,000 additional jobs 
remain at risk of furlough or layoff.\4\
---------------------------------------------------------------------------
    \4\ AIA COVID-19 Road to Recovery, Avascent, Boston Consulting 
Group, and McKinsey & Company for the Aerospace Industries Association, 
July 31, 2020.
---------------------------------------------------------------------------
    Given these challenges, we are grateful for the action your 
Committee took on February 11, 2021 to provide $3 billion in support 
for aviation manufacturing employees as part of the budget 
reconciliation package. The provision is based on legislation 
introduced by Chairman Larsen and Congressman Ron Estes to create a 
temporary and targeted 50-50 cost share program between government and 
industry to retain, recall, or rehire aviation manufacturing employees. 
The funds can only be used to support the compensation of these 
employees. Senators Maria Cantwell, Jerry Moran, and Mark Warner have 
worked on similar legislation in the Senate and we have appreciated the 
strong bipartisan support we have received throughout Congress. 
Aviation stakeholders including GAMA, AIA, the Aeronautical Repair 
Station Association, and the National Defense Industrial Association 
have all endorsed this framework, and the legislation also earned 
strong support from the International Association of Machinists and 
Aerospace Workers, which represents workers and their families.
    If enacted, we look forward to working with the Department of 
Transportation (DOT) and the Committee on ensuring successful 
implementation of this vital program for aviation manufacturing 
workers.
National Interest Exception
    There is an urgent need for clear policy guidance from the 
Administration confirming that the Department of State will issue the 
National Interest Exception (NIE) waiver when travel by a foreign 
person to the U.S. is required to support business activities of 
businesses that are ``Critical Infrastructure'' (as defined by the DHS 
Cyber & Industrial Security Agency), including general aviation. Many 
aerospace companies have been attempting to handle these situations for 
the past year with mixed results and inconsistent interpretation and 
application.
    Clear and workable guidance will help reverse a growing concern 
about the lack of proficiency training for foreign pilots operating in 
U.S. and global airspace, supporting the safety of U.S. state of design 
aircraft, and avoiding further economic damage to the U.S. aviation 
industry and its highly skilled workforce. Given the type of economic 
activity being undertaken, combined with the required COVID-19 testing 
and related safety protocols, this presents an extremely low risk to 
public health.
    The types of activity of activity which will be supported by such 
policy guidance include:
    <bullet>  The delivery of new aircraft and continued safe operation 
of aircraft manufactured in the U.S. requires initial pilot type 
training and regular recurrent training of pilots and maintenance 
personnel (as required by U.S. and international aviation safety 
regulators). This training is primarily conducted at facilities located 
in the U.S., including for foreign nationals, who purchase and operate 
U.S.-manufactured aircraft.
    <bullet>  Aircraft are routinely flown to the U.S. for maintenance. 
Flightcrews and maintenance technicians travel to the U.S. as 
passengers to pick up aircraft after maintenance is complete or observe 
maintenance activities performed on their aircraft. Travel restrictions 
have impacted the ability of aircraft owners worldwide to get their 
aircraft maintenance and safety checks completed at U.S. maintenance 
facilities.
    <bullet>  The worldwide export of aircraft manufactured in the U.S. 
requires the travel of small groups of foreign nationals to the 
manufacturer to inspect, take delivery, and fly the aircraft back to 
the country in which the airline or operator is based.

    The use of NIE is essential to maintaining aviation safety during 
the challenges of the pandemic. Appropriately tailored safety protocols 
can help ensure that foreign travelers pose an extremely low risk to 
public health, especially since the number of travelers is relatively 
low. The current travel restrictions are having a significant negative 
impact on U.S. general aviation given the importance of international 
customers to U.S. manufacturers, and maintenance and training 
providers.
Regulatory Review and Implementation of Key Priorities
    Actions taken in recent years have put in place procedural 
requirements for rulemaking and guidance that impose additional layers 
of bureaucratic review and substantially delay the FAA's issuance of 
regulatory guidance critical to aviation innovation and safety 
enhancing technologies in aircraft and equipment. It is essential that 
DOT and FAA work together to improve the effectiveness and efficiency 
of procedures to issue regulatory documents in such a way that the 
authority for review and approval rests once again with the appropriate 
technical and safety expertise at FAA. Achieving a more effective and 
efficient process for the FAA to promulgate new and updated guidance 
and accept consensus standards for compliance will encourage safety 
improvements in aviation, keep pace with rapidly evolving technology, 
and spur innovation while also providing the regulatory framework for 
industry recovery through new products coming to market.
              Opportunities and Investments for the Future
    As the general aviation industry looks to the future, there are key 
areas that need leadership and collaboration from both industry and 
government. Making these investments now will strengthen the industry 
as it emerges from the pandemic and moves forward.
Sustainability
    Our industry's commitment to sustainability is a long-standing one. 
In 2009, general aviation industry leaders established the Business 
Aviation Commitment on Climate Change. The goals of this commitment are 
threefold: 1) improve fuel efficiency 2% per year from 2010 to 2020; 2) 
achieve carbon neutral growth from 2020; and 3) reduce CO2 emissions 
50% by 2050 relative to 2005.\5\
---------------------------------------------------------------------------
    \5\ GAMA and IBAC Joint Position on Business Aviation Tackling 
Climate Change, General Aviation Manufacturers Association and 
International Business Aviation Council, 2009
---------------------------------------------------------------------------
    To meet these goals, GAMA members have led the way for many years 
in designing, developing, testing, and manufacturing airframes, 
engines, aircraft components, and materials which produce improvements 
in fuel efficiency. Our members will continue to make upgrades to 
manufacturing processes and facilities including ones powered by clean 
energy as well as by using more sustainable materials.
    The Environmental Protection Agency's (EPA) adoption of the first 
ever CO2 emissions standards for aircraft developed at the 
International Civil Aviation Organization (ICAO) was an important 
milestone. The standards will contribute to environmental progress, 
help ensure all global manufacturers have the same efficiency rules and 
affirm the centrality of multilateral collaboration in making these 
decisions. We ask the FAA to move forward in developing regulations 
this year to enable the certification of aircraft meeting these global 
standards.
    Our industry remains committed to investing and developing new 
technologies to help reduce emissions. Congress can assist through 
robust funding of Research and Development (R&D) efforts for FAA's 
Continuous Lower Energy, Emissions and Noise (CLEEN) Program as well as 
the National Aeronautics and Space Administration's (NASA) Aeronautics 
programs which will help accelerate the development of new aircraft and 
propulsion technologies.
    GAMA, along with other industry leaders, is also promoting the 
increased production, distribution, and uptake of Sustainable Aviation 
Fuels (SAF) given its potential importance in meeting the aviation 
industry's climate commitments. In the past two years alone, GAMA and 
other associations worked to promote the use of SAF through events in 
the U.S. and Europe and by publishing a comprehensive SAF Guide. 
Individual GAMA members have been using SAF in daily operations 
including flight-test programs, offering initial tanks to be filled 
with SAF for delivery, and announced agreements with fuel producers to 
establish a permanent supply of low emission fuel at key business 
aviation airports.
    Despite these initiatives, SAF supply is currently inadequate to 
meet the growing demand and the price of SAF is still significantly 
more expensive than conventional jet fuel. Congress can take several 
steps to promote the wider production and distribution of SAF for 
aviation through a SAF Blender's Tax Credit and other financial 
incentives. Strong research and development funding for the FAA's 
Aviation Sustainability Center (ASCENT), which is exploring ways to 
produce sustainable aviation fuels at commercial scale, would also be 
welcomed.
Advanced Air Mobility
    As we recover from the pandemic, we need to consider areas of 
opportunity that can add jobs and a renewed enthusiasm to the aviation 
sector. Advanced Air Mobility (AAM) is an emerging sector of the 
aviation industry which uses electric airplanes and electric vertical 
take-off and landing (eVTOL) aircraft to transport passengers or cargo 
at low/medium altitudes in urban, suburban, rural, and regional 
environments. This next frontier of aviation will facilitate better 
transportation options, advance environmental sustainability, and 
foster sustainable transportation, generate increased economic 
activity, and support natural disaster and emergency response services.
    While the industry is working with the FAA on aircraft 
certification and initial flight operations to ensure safety, AAM 
stakeholders are also focused on addressing physical and digital 
security issues; leveraging existing infrastructure and facilitating 
targeted and coordinated investment; and supporting initiatives to 
achieve and build public awareness of the economic, transportation, and 
environmental benefits of AAM.
    Given the potential of this industry, we want to commend U.S. 
Representatives Sharice Davids and Garret Graves for introducing H.R. 
1339, the Advanced Air Mobility Coordination and Leadership Act, which 
will ensure the federal government is effectively engaged and 
coordinated internally with industry and other stakeholders to support 
the evolution of AAM. This bill authorizes the Secretary of 
Transportation to establish an interagency working group to plan for 
and coordinate efforts for the advancement of operating AAM aircraft. 
The working group will be tasked to review and make recommendations for 
the federal role in the AAM sector, beyond the initial critical stage 
of aircraft certification and operations which FAA is currently 
working, with a focus on economic and workforce opportunities, 
potential physical and digital security risks and mitigations, 
infrastructure development, and maturing AAM aircraft operations and 
concepts past initial operations. It will help leverage critical 
expertise and resources through the government to maximize the 
potential of this vital and exciting industry sector and take it to the 
next level.
    We hope that other Committee members will join Reps. Davids and 
Graves in this effort and look forward on other initiatives to advance 
this exciting new and transformative industry.
                Global Collaboration and Aviation Safety
    As we move forward, international regulatory cooperation will be 
even more important in raising the level of aviation safety and dealing 
with challenges like the pandemic. The U.S.-European Union (EU) 
bilateral and other arrangements are global cornerstones of 
international aviation safety cooperation and focus on promoting and 
improving safety and addressing potential hazards in the exchange of 
aviation products, parts, repairs, maintenance, and pilot training. We 
must ensure that these agreements continue to work effectively. There 
is increasing European Union Aviation Safety Agency (EASA) involvement 
in validations to re-review or recertify the FAA's work, particularly 
in areas focused on system safety assessment and human factors. The FAA 
is also increasing involvement on EASA validations in these same areas. 
These actions comply with procedures under the US-EU bilateral for 
involvement in safety critical and new/novel design or technologies. 
However, regulators must ensure that such involvement focuses only in 
these areas to the extent necessary to resolve technical issues and 
build confidence in their respective safety systems in accordance with 
the bilateral agreement. It is essential that this involvement does not 
migrate to all validation activities, which would squander safety 
resources and add unnecessary costs and delays to the process. Despite 
any public rhetoric, at the working certification directorate level, 
there is a good relationship and strong commitment between the FAA and 
EASA for continued cooperation and collaboration under the EU-US 
bilateral. GAMA and our member companies will continue to work with 
FAA, EASA and regulators globally to facilitate safety cooperation for 
the safe and effective certification of aviation products.
                               Conclusion
    I appreciate the opportunity to testify today on the impact of the 
pandemic and what can be done to recover and build back the industry. 
Your Committee and Congress is already taking steps to spur this 
recovery and we are grateful for those efforts. We also look forward to 
working with you, in a bipartisan manner, to address these 
opportunities, and to build a stronger and more sustainable aviation 
community. Thank you, Chair Larsen, and Ranking Member Graves for 
convening this important hearing and for the other members who are 
participating and giving us their valuable time.

    Mr. Larsen. Thank you, Mr. Bunce, I appreciate that.
    And now I turn to Mr. Lance Lyttle.
    You are recognized for 5 minutes, and we will note you are 
speaking on behalf of the American Association of Airport 
Executives. Lance?
    Mr. Lyttle. Good morning. Thank you, Chair Larsen, Chair 
DeFazio, Ranking Member Sam Graves, and Garret Graves, and 
subcommittee members for the opportunity to testify today. 
While my testimony today highlights the unprecedented hardship 
that aviation continues to face during the pandemic, I am proud 
of the incredible efforts undertaken by our industry to keep 
passengers and workers safe and healthy, and to restore 
traveler confidence.
    Clearly, the passenger and revenue declines have been 
historic at airports of all sizes, nationwide. Revenues and PFC 
collections are already off by more than $20 billion, with tens 
of billions in additional losses projected. At the same time, 
the airport's fixed costs remain, and the pandemic has required 
investments in enhanced public health. In response, SEA and 
other airports have taken steps to cut costs where possible. 
This includes pay freezes, hiring freezes, and project 
deferrals.
    However, the levers that can be pulled are relatively 
limited. That is where carriers and the other Federal 
assistance have been critical. I can honestly say that we would 
not have been able to continue our operations and serve our 
customers without that significant and timely Federal support.
    Businesses at airports have been significantly impacted, 
and SEA has taken decisive actions to help. We have deferred 
rent and fees, renegotiated leases, and accelerated payments to 
airlines to help with cash flow. We are grateful that Congress 
has provided critical direct airport concessions relief.
    I remain incredibly optimistic about our future and believe 
airports will emerge even stronger and more resilient than 
before, thanks to the help that this subcommittee and Congress 
has provided over the past year. Over the last year, airports 
have taken meaningful steps to enhance public health. A new 
Harvard study found that the probability of being infected at 
an airport is very low because of the consistent and impressive 
commitment airports have made to reduce the risk of 
transmission.
    At SEA, we have increased cleaning, added hand sanitizer 
stations throughout the terminals; we have invested in 
innovative technologies for touchless travel, installed 
protective barriers, and contracted for traveler testing 
services. We also mandated mask wearing, airportwide, since 
last spring. Our goal at SEA is to prepare for and accommodate 
our passengers with 21st-century customer service. This 
includes improved facilities and new technologies to enhance 
airport experience. We are also committed to continuously 
enhanced health protocols.
    Further investigation about the widespread use of health 
passport is worth additional discussion, as well. We deeply 
appreciate House passage of the American Rescue Plan, including 
additional relief for airports, airlines, and airport 
concessionaires. Moving forward, let me highlight a few 
additional areas where we hope to partner with you.
    First, coordinate with us to prepare for and respond to 
public health emergencies such as through the National Aviation 
Preparedness Plan Act.
    Second, resist new travel restrictions or domestic testing 
requirements, which we believe are unworkable and would impact 
the industry's ability to recover.
    Third, restore customer confidence in air travel, which 
includes communicating broadly about our efforts to keep 
travelers healthy.
    Fourth, maximize positive impacts of aviation industry, 
such as scaling sustainable aviation fuels, supporting small 
and diverse businesses, increasing workforce development, and 
continued noise mitigation efforts.
    Finally, I urge Congress to pass a comprehensive 
infrastructure bill. It may seem strange for me to talk about 
upgrading and expanding airports after a 60-percent passenger 
decline. But when passenger levels inevitably return, we want 
to be ready to accommodate them, especially if upgraded 
facilities designed for touchless technologies and additional 
room for social distancing continues to be required.
    Specifically, Congress should provide a path to sustainable 
airport investment through a long-overdue adjustment to the 
Federal cap on local PFCs.
    Members of the subcommittee, we are in the midst of 
challenging times. But with your continued support, I believe 
we can emerge even stronger than before. Thank you for the 
opportunity to testify.
    [Mr. Lyttle's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Lance Lyttle, Managing Director, Seattle-Tacoma 
International Airport, on behalf of the American Association of Airport 
                               Executives
    Chair DeFazio, Ranking Member Graves, Chair Larsen, Ranking Member 
Graves, and members of the subcommittee, thank you for your leadership 
during the coronavirus pandemic and for inviting me to testify at this 
hearing on ``COVID-19's effect on U.S. Aviation and the Flightpath to 
Recovery.'' It is an honor for me to be back with you today.
    My name is Lance Lyttle, and I am the Managing Director of the 
Seattle-Tacoma International Airport (SEA). I am appearing on behalf of 
the American Association of Airport Executives (AAAE) in my capacity as 
the Association's Federal Affairs Committee Chair. AAAE is the world's 
largest professional organization representing individuals who manage 
and operate at more than 850 public-use commercial and general aviation 
airports.
    It is quite appropriate for me to be speaking to you today on this 
topic before Chair Larsen's subcommittee because we are both tied 
closely to this pandemic in so many ways. In mid-January of last year, 
a man returned from a trip to Wuhan, China through our airport, and 
traveled to his home in Chair Larsen's district--becoming the first 
confirmed case of COVID-19 in the United States. None of us could have 
prepared for such an event or known what was to come, but it is truly 
amazing to realize that we are now more than a year later and still 
struggling through the devastating impacts of this pandemic on the 
aviation industry, the country, and the world.
    Prior to the pandemic, SEA was the 8th busiest airport in the 
United States based on passenger volume and the 19th busiest cargo 
airport in the country. At full capacity, SEA is the 9th biggest 
employment center in the State of Washington with over 19,000 employees 
contributing $22.5 billion in total business revenue. We also support 
an ecosystem of many other businesses--from airlines and 
concessionaires to taxis, hotels and warehousing.
    Today, I look forward to providing you with a perspective on not 
only the unprecedented challenges the pandemic has created for airports 
but also the incredible efforts undertaken by SEA employees and their 
peers throughout the country to keep passengers and workers safe and 
healthy and to restoring traveler confidence in aviation. While my 
testimony today makes clear that airports and our partners across the 
aviation industry continue to face significant hardships in the wake of 
the pandemic, I also want to emphasize that I remain incredibly 
optimistic about our future and the coming recovery.
    We will survive and rebuild in no small measure thanks to the help 
that this subcommittee and your colleagues in Congress have provided to 
airports over the past year. The CARES Act and the Coronavirus Relief 
and Recovery Supplemental Appropriations Act have provided a critical 
lifeline that has allowed SEA and other airports to weather the storm 
of the past year.
    Airports are grateful for the funding in those two coronavirus 
relief bills and for the additional funding to support our airport 
tenants and concessionaires. We also deeply appreciate the additional 
funding that the Transportation and Infrastructure Committee approved 
as part of the pending budget reconciliation legislation. Chair Larsen, 
this much-needed assistance will allow airports to not only maintain 
our operations but also support our tenants and partners as we work 
toward recovery, and we thank you, Chair DeFazio, and other committee 
members for your strong support.
    Like my colleagues at SEA, the men and women who work at our 
nation's airports care deeply about this industry and are committed to 
working with you to chart a path forward. This industry survived the 
terrorist attacks on 9/11, it survived the Great Recession in 2008 and 
2009, and I am convinced it will come out of this pandemic even 
stronger and more resilient than before--with better knowledge, better 
training, improved facilities, enhanced public health measures, and a 
stronger working relationship between government and industry that will 
help us overcome future challenges.
        How the Coronavirus is Impacting SEA and Other Airports
    The pandemic is continuing to have a devastating impact on 
airports, our concessionaires, our airline partners and the entire 
aviation system. But we have seen signs of gradual improvement over the 
last six months. With the acceleration of the coronavirus vaccination 
rate and falling case counts, SEA saw its highest passenger volumes 
since the start of the pandemic over this most recent President's Day 
holiday. Of course, new variants and a resurgence of coronavirus cases 
could slow progress, but I think we're headed in the right direction.
    The Dramatic Drop in Passenger Levels: Passenger levels declined 
dramatically after the pandemic hit early last year. On April 14, 2020, 
fewer than 88,000 passengers traveled through security checkpoints 
nationally--a 96 percent reduction from the same date in 2019 and the 
low point during the pandemic. In fact, that month represented the 
fewest passengers through SEA since 1967.
    We have seen a gradual uptick in the number of passengers traveling 
through our nation's airports since then. The Transportation Security 
Administration (TSA) screened more than 1 million passengers on several 
days during the past few months. But the agency also reported less than 
469,000 passengers on January 27--the lowest number of travelers in six 
months.
    Even with increased holiday traffic at the end of last year, 
passenger levels in November and December were significantly less than 
the same time period in 2019. According to the Department of 
Transportation's Bureau of Transportation Statistics (BTS), passenger 
levels were down almost 61 percent in November and about 62 percent 
December of 2020 compared to the same months in 2019. Overall, 
passenger levels nationally were down 60.1 percent in 2020, and 61.3 
percent at SEA specifically. The last time our annual passenger numbers 
were this low was in 1994--26 years ago.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    International Traffic Craters: International traffic has fared even 
worse during the past year. After experiencing slight gains in January 
and February of last year, international traffic all but evaporated due 
to COVID-19 and travel restrictions. According to BTS, the number of 
international passengers on U.S. carriers dropped more than 99 percent 
in April 2020 compared to the same month in 2019.
    The holidays helped to boost international traffic somewhat toward 
the end of the year. But the number of international passengers on U.S. 
carriers still declined from 9.5 million during the month of December 
2019 to 3.2 million in the month of December 2020--a 66 percent drop. 
Even after you factor in positive numbers in January and February, 
international traffic for the full year in 2020 was down more than 70 
percent compared to 2019.
    SEA experienced a similar decline with our international passenger 
traffic--down 76.1 percent in 2020. The dramatic drop in international 
traffic has had an enormous financial impact on SEA and other gateway 
airports that traditionally welcome large numbers of international 
passengers throughout the year.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Negative COVID-19 Testing Requirements: The fragility of 
international travel became even more evident in the fall of 2020 when 
new and more infectious coronavirus variants began to emerge in the 
United Kingdom, South Africa, and Brazil. These variants prompted new 
international border closures and additional testing requirements for 
international travelers.
    Many countries, including the United States, prohibit the entry of 
non-citizens unless they are traveling for essential business, have 
proof a negative COVID-19 test result within a certain window of time, 
and/or quarantine for an extended period of time. These requirements 
tend to be inconsistent from country to country and change frequently, 
resulting in confusion for international travelers.
    The Centers for Disease Control and Prevention (CDC) on January 12, 
2021 announced an order requiring all air international passengers 
arriving in the United States to ``get tested no more than 3 days 
before their flight departs and to present the negative result or 
documentation of having recovered from COVID-19 to the airline before 
boarding the flight.'' This order went into effect on January 26. We of 
course fully support efforts to defeat the pandemic and take necessary 
precautions to reduce the spread of dangerous new COVID strains, but 
these efforts have real world consequences on the economics of our 
industry.
    Similar Declines in Airport Revenue: With unprecedented reductions 
in domestic and international travel, fewer passengers mean 
significantly lower revenues from aeronautical and nonaeronautical 
revenue and from Passenger Facility Charge (PFC) collections. Airports 
Council International--North America (ACI-NA) estimates airport losses 
of at least $40 billion from March 2020 through March 2022: $23 billion 
in the last year and $17 billion in the year ahead.
    Airports have responded by cutting costs where they can. Among 
other things, airports have closed or consolidated non-essential 
facilities; instituted hiring, pay, and benefit freezes; reduced travel 
and training budgets; limited expenses to only those deemed essential; 
and deployed energy saving initiatives.
    The loss of revenue is also having an impact on construction 
projects, with some airports having to resort to delaying or canceling 
projects. According to the FAA, airports collected less than $1.3 
billion revenue from PFCs last year, a 66.2 percent drop from the more 
than $3.6 billion that airports collected from PFCs in 2019.
    SEA generated approximately $350 million less revenue in 2020 than 
in 2019, and we faced millions of dollars in increased expenses as we 
implemented new health and safety measures. To compensate, we cut costs 
by reducing our 2021 budget by 10 percent and froze the hiring of 103 
full-time equivalent positions.
    We also tried to assist our airline partners by accelerating cost-
sharing payments to help with cash flow, reducing our airline 
settlement to close to zero and lowering landing fees. In fact, overall 
airline costs will be lower in 2021 than in 2020, despite the new 
expenses that SEA will incur from opening two major new facilities this 
year. Again, I can honestly say that we would not have been able to 
continue our operations and serve our customers without the incredibly 
generous and timely federal support that we received in the last two 
coronavirus relief bills.
    A number of airports have also taken steps to assist the businesses 
that operate at their facilities, including concessionaires. We 
recognize that our tenants are key to the airport experience for our 
customers, and that it is significantly more expensive to replace a 
concessionaire than it is to help sustain them during this difficult 
period. At SEA, we have taken decisive actions to support these 
businesses, including deferring rent and fees and adjusted leases. We 
are incredibly grateful to our Congressional delegation and other 
leaders in Washington, DC for including airport concessionaire relief 
in both the last relief bill and the American Rescue Plan. This funding 
will allow us to provide rent and minimum annual guarantee relief to 
our airport partners.
    Airports Making Significant Investments to Keep Passengers and 
                             Employees Safe
    As I mentioned earlier, airports have also made significant 
investments in public health enhancements over the last year to protect 
workers and passengers at their facilities, and to restore confidence 
in air travel. These measures include cleaning and sanitization 
improvements, such as better worker training and the utilization of UV 
technology, self-sanitization applications, and electrostatic sprayers; 
HVAC and air filtration upgrades; social distancing floor stickers, 
signage and announcements; and the deployment of touchless technology. 
Airports have also been active in encouraging the use of masks 
throughout their facilities.
    SEA is proud of the work we have done to ensure the health and 
safety of travelers through our airport. We launched our <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="53153f2a1b36323f273b2a13001612">[email&#160;protected]</a> 
program, a series of operational changes and communications efforts in 
partnership with our airlines and tenants. As part of that effort we:
    <bullet>  Doubled down on cleaning at SEA with frequent 
disinfection with medical-grade cleaning products;
    <bullet>  Secured accreditations for cleaning practices;
    <bullet>  Required passengers, visitors, and workers to wear face 
coverings in the public areas of SEA in spring 2020, well before the 
federal mask mandate went into effect;
    <bullet>  Added over 280 hand sanitizer stations throughout the 
terminal;
    <bullet>  Invested in a wide variety of innovative technologies for 
seamless, contact-free travel;
    <bullet>  Installed nearly 650 plastic protective barriers that 
buffer interactions between travelers and airport employees;
    <bullet>  Displayed 8,000 signs to remind passengers of physical 
distancing; and
    <bullet>  Opened an on-site COVID-19 testing location for non-
symptomatic travel testing needs.

    AAAE has partnered with the Global Biorisk Advisory Council (GBAC) 
to encourage airports to pursue and achieve the GBAC STAR Facility 
Accreditation. This performance-based designation helps facilities 
establish a comprehensive system of cleaning, disinfection, and 
infectious disease prevention, which relies on GBAC's comprehensive 
training on protocols, correct disinfection techniques, and cleaning 
best practices for biohazard situations like the novel coronavirus. 
Sixty-three airports participate in GBAC, and 27 airports--including 
SEA--have received GBAC STAR accreditation.
    These and other efforts at airports are having a marked impact. On 
February 11, Harvard's Aviation Public Health Initiative issued a 
comprehensive report about the risk of coronavirus transmission in 
airports. Researchers found the probability of being infected at an 
airport is very low because of the ``consistent and impressive 
commitments'' airports are proactively making to reduce the risk of 
disease transmission between passengers, employees, concessionaires, 
contractors, and visitors.
    These multi-layered strategies cited by Harvard include enhanced 
cleaning and frequent sanitization efforts; the adoption of various 
means to ensure proper distancing (e.g., floor decals, barriers, 
signage, communication); the use of masks or face coverings throughout 
the facility; upgraded ventilation and air handling systems; 
investments in touchless technology; and other innovations to protect 
traveler and worker health and improve the airport experience.
    The Harvard report made clear that there is no one-size-fits-all 
approach that works in all instances, given the nature of the virus and 
the complexity and diversity of airports across the country. SEA and 
other airports are committed to using these and other protective 
mitigation efforts to continue to ensure passengers and workers are as 
safe as possible.
Coronavirus Relief Bills: Providing a Lifeline for Airports in the Near 
                                  Term
    Chair Larsen, I would like to thank you and your colleagues for 
quickly passing the CARES Act in March and the Coronavirus Response and 
Relief Supplemental Appropriations Act in December. Considering the 
dramatic drop in passengers and revenue over the past year, both bills 
are providing a lifeline to airports, concessionaires, airlines, 
aviation workers and so many others in the aviation industry.
    Airports are truly grateful for the federal assistance during these 
unprecedented times. We realize that the $12 billion that Congress has 
already approved for airports and concessionaires is a significant 
investment. But those crucial funds have made the difference in our 
ability to maintain operations, support our tenants and partners, and 
play our essential role in helping to lead a sustainable and equitable 
economic recovery.
    As you know, airports often rely on bonds to help finance critical 
and costly infrastructure projects. Airports at the end of 2019 held 
$107 billion in debt, and they had $7 billion in debt payments due in 
2020 with little revenue coming in. Funding in the two coronavirus 
relief packages included welcome flexibility to allow airports to use 
those federal funds to pay for debt service and to ensure that airports 
did not default on their bonds.
    At SEA, we have focused our CARES Act funding on debt service 
payments because we believe it is the best way for our airport to meet 
its current obligations and maximize benefits to the airport in the 
short-term. It also allows us to maintain our competitiveness in the 
bond markets so that we will be able to invest in future projects to 
build our capacity when air travel returns.
    We also decided that the most prudent use of our CARES Act dollars 
was to split them over a two-year period, especially since additional 
federal relief was uncertain at the time. We did not want to use up all 
of our grant dollars in 2020 and then find ourselves unprepared for any 
unexpected coronavirus impacts this year. I should also point out that 
the FAA established a reimbursement program in which airports must 
incur an expense and submit receipts before drawing down funds; this 
system creates a reimbursement delay because airports submit 
reimbursements based on payroll cycles, debt payment cycles, and 
accumulation of various other expenses. As a result of the 
reimbursement mode, the FAA asked airports to map out a multi-year plan 
for how they intended to use their CARES Act allocations.
    We have already spent approximately 77 percent of our CARES Act 
grants and have budgeted the remainder for this year. We are in the 
process of reviewing the newly released FAA guidance on the December 
relief package and plan to make decisions very quickly--particularly in 
order to help our tenants who are struggling to keep their doors open.
             Looking Forward: Significant Challenges Remain
    It's unclear how long the coronavirus crisis will last, when 
passenger levels will return to pre-COVID levels, or the time it will 
take for airports and airlines to get back to the ``new normal.'' Based 
on our previous experiences after 9/11 and the Great Recession, we 
expect the road to recovery will take years rather than months. It will 
also take substantial investment during the uncertain transition 
period.
    I am optimistic on the long-term outlook for airports and the 
entire aviation industry. In the near term, however, the significant 
financial challenges that airports continue to face coupled with a 
great deal of uncertainty surrounding COVID-19 could make the road to 
recovery rocky and unpredictable. The spread of more contagious 
variants could also slow progress and increase calls for travel 
restrictions and quarantines.
    Moody's on December 1, 2020 highlighted some of the challenges that 
airports and our airline partners face in the year ahead. Its 2021 
outlook points out that ``enplanement recovery remains uncertain 
because of the potential for renewed travel restrictions or weakened 
consumer demand as COVID-19 cases increase.''
    The rating agency predicts that enplanements could be down between 
55 to 75 percent in the first half of the year compared to 2019. With 
so many unknowns, Moody's acknowledges that the outlook for the year is 
``highly uncertain.'' But it is slightly more upbeat for the rest of 
the year and estimates that enplanements will be down between 40 to 60 
percent in 2021 compared to the pre-pandemic levels in 2019.
    ``Worsening virus spread in much of the U.S. poses threats to the 
nascent travel recovery in the first half of 2021 before any potential 
widespread vaccinations in the second half of the year,'' Moody's 
noted. ``Lower passenger volumes will reduce nonairline revenue at U.S. 
airports and also put further credit stress on U.S. airlines.''
    The report, which the rating agency published before Congress 
passed the last coronavirus relief package and before the recent 
decline in coronavirus cases, also underscores the intense financial 
pressures on large hub airports with significant numbers of 
international travelers. Moody's indicates that ``large hub airports 
with normally high international and business traffic will struggle the 
most in 2021 and will exhaust CARES Act grant allocations.''
    Between new testing requirements for international travelers, 
ongoing travel restrictions, vaccine shortages and the spread of new 
COVID variants, we have revised SEA's 2021 passenger projections down 
to between 30-40 percent of 2019 levels in 2021. This is still an 
increase from 2020, but we have a long way to go to return to pre-COVID 
passenger levels.
    Yet, as I mentioned earlier, I feel confident that those passenger 
levels will ultimately return, even if it takes 3-5 years. Despite 
ongoing health concerns, tightening corporate travel budgets and the 
impact of new videoconferencing technology, people want to travel, to 
see friends and family, to explore the world and to build personal and 
professional connections that a computer screen will never truly be 
able to offer.
Flightpath to Recovery: Recommendations to Further Assist Airports and 
                         Our Industry Partners
    I have stated several times already how deeply appreciative we are 
of the support we have received over the last year from Congress and 
our other federal partners. It is truly amazing how well we have 
weathered the storm, compared to how bad it could have been, and thank 
you again so much for your ongoing commitment to our industry. However, 
there are some additional investments and policies that we ask you to 
consider as we continue to work together to rebuild aviation and 
restore confidence in air travel.
Key Areas of Support in The American Rescue Plan of 2021:
    <bullet>  Providing Additional Funding to Help Airports Respond to 
COVID-19: AAAE, ACI-NA, and airports around the county have been urging 
Congress and the administration to approve additional relief to help 
airports through the coronavirus crisis during the next year. As the 
pandemic continues, airports face new operating demands and growing 
strains on their outstanding debt as they make major investments in 
public-health improvements and establish distribution hubs for the 
COVID-19 vaccine. These added costs, plus their reduced revenue, has 
created budget nightmares for airports that put some in significant 
financial peril. Many airports have exhausted their initial CARES Act 
funding.
         Getting more federal funds out the door and into local 
communities as quickly as possible will ensure airports can continue to 
keep airport staff employed, respond to new operational demands, afford 
debt service on their bond payments, and maintain their critical safety 
and security projects. We are grateful that the Transportation and 
Infrastructure Committee recently approved $8 billion for airports and 
concessionaires as part of the American Rescue Plan Act that lawmakers 
are currently debating. That proposed funding level will go a long way 
to ensuring airports and concessionaires have the resources they need 
to help offset some of their expected revenue losses and to continue to 
combat COVID-19.
    <bullet>  Extending the 100% Federal Share: I would also like to 
thank the full committee for taking steps to eliminate the local match 
requirement for capital projects funded from the Airport Improvement 
Program (AIP). This is a big issue for airports of all sizes and 
especially smaller facilities that often rely on PFC revenue to help 
pay their local match. The CARES Act included $500 million to cover the 
local match requirement for those AIP projects funded in FY20, and the 
American Rescue Plan includes slightly more than $600 million to 
eliminate the local match requirement for AIP projects funded in FY20 
and FY21. With traditional revenue sources so low, it is exceptionally 
challenging for many airports to come up with a local match during the 
current crisis. I urge Congress to maintain the 100 percent federal 
share language as part of the coronavirus relief package that lawmakers 
are currently debating.
    <bullet>  Continuing to Assist Concessionaires: Airport 
concessionaires have experienced severe financial losses during the 
past year. As I mentioned, SEA and other airports have been trying to 
help our partners by providing relief from rents and minimum annual 
guarantees during the pandemic. The previous coronavirus relief package 
included $200 million to help airport concessionaires during these 
challenging times, and the budget resolution includes an additional 
$800 million with a focus on small businesses.
    <bullet>  Extending the Payroll Protection Program: Airports 
strongly support provisions in the American Rescue Plan that would 
extend the Payroll Support Program for the airline industry. 
Specifically, the package includes $14 billion to extend the PSP 
through September 30 for airline workers and another $1 billion for 
contractors.
Helping Small Airports and Small Communities Impacted by COVID-19:
    <bullet>  Preserve Small Community Air Service: With the decline in 
passenger levels, carriers have reduced or eliminated commercial air 
service to small communities during the pandemic. Continuing support 
and increased funding for the Essential Air Service and Small Community 
Air Service Development Programs are more critical than ever to ensure 
that people in small communities and less populated areas have access 
to the national airspace system.
    <bullet>  Provide Additional Assistance to Help Nonprimary 
Commercial Service and General Aviation Airports Impacted by COVID-19: 
There are approximately 3,000 nonprimary commercial service and general 
aviation (GA) airports throughout the country that play a key role in 
our aviation system. The last two coronavirus relief packages included 
$145 million to help those smaller airports during the pandemic. Those 
funding levels are a welcome step in the right direction. But we urge 
Congress to do more to ensure that the thousands of nonprimary 
commercial service and GA airports--including those that traditionally 
have significant operations--have the resources they need to respond to 
the pandemic.
    <bullet>  Help Airports that Participate in FAA Contract Tower 
Program: I would like to thank members of this subcommittee for their 
longstanding support of the FAA's Contract Tower Program, which 
enhances aviation safety at 257 airports around the country. I would 
particularly like to commend Representatives Julia Brownley and Rodney 
Davis for recently introducing the CONTRACT Act, a bipartisan and 
bicameral bill that would address staffing challenges at contract 
towers by making it easier for retired federal controllers to continue 
working at contract towers. When the COVID-19 recovery takes off, it 
will be more important that we ensure that contract towers are fully 
staffed with experienced and highly qualified controllers. I urge the 
Transportation and Infrastructure Committee to approve this commonsense 
approach.
Recommendations Impacting our Federal Partners and Other Opportunities 
                            to Aid Recovery
    Finally, I would like to share some thoughts on ways that we can 
partner with you and the federal government on key policies and 
programs to bring back aviation to pre-COVID heights, and to help us be 
even more resilient, sustainable, and impactful than before.
    <bullet>  Ensuring our Federal Partners Have the Resources They 
Need: I am optimistic that we will begin to see many more travelers as 
the vaccination rate continues to increase. It is critical that the TSA 
and U.S. Customs and Border Protection (CBP) have the staffing and 
resources they need to accommodate additional passengers when travel 
begins to pick back up. I am encouraged by TSA's recent announcement 
that it plans to hire 6,000 Transportation Security Officers (TSOs) by 
this summer. We need to ensure that there are enough well-trained TSOs, 
passenger screening canine teams, CBP officers, and innovative 
technologies to handle pent-up demand expeditiously to prevent long 
lines at security checkpoints and international arrival halls.
         TSA and CBP have faced substantial declines in their user fee 
revenues due to the steep decline in travel. For example, CBP estimates 
a $2 billion user fee shortfall in 2020 and 2021. These fees account 
for 40 percent of the resources used to hire and train CBP officers 
that work at airports and other ports of entry. Similarly, the aviation 
security fee passengers pay as part of their ticket covers about one-
third of TSA's expenses. We cannot afford to have steep spending 
reductions to either of these agencies just when travel begins to 
rebound. Looking forward, we ask members of this subcommittee to work 
with your colleagues on the Appropriations Committee on ways to ensure 
that airports are as fully staffed as possible.
    <bullet>  Helping Airports and other Stakeholders Prepare for 
Public Health Emergencies: Chair Larsen, I would like to thank you and 
Representative Don Beyer for introducing the National Aviation 
Preparedness Plan Act. Your bill (H.R. 884) would require the Federal 
government to consult with airports, airlines, and other aviation 
stakeholders on ways to help prevent the spread of communicable disease 
outbreaks in the aviation system. The coronavirus pandemic has made 
clear that this type of commonsense and collaborative approach, which 
you first proposed in 2015, is long overdue. Better coordination 
between the federal government and aviation stakeholder would help make 
our nation's aviation system safer for passengers and workers alike.
         As I mentioned previously, we have implemented a wide range of 
new FlyHealthy initiatives at SEA. But the lack of consistent, 
enforceable national protocols throughout the entire air travel system 
has led to confusion and missed opportunities. It is imperative that we 
capture and incorporate the lessons from COVID-19 into federal 
guidance, and the Port of Seattle looks forward to working with you, 
DOT and other federal agencies to complete this important work.
         I would also like to emphasize the need to continue to focus 
on ensuring access to vaccines and personal protective equipment (PPE) 
for aviation workers. I realize that the vaccine issue is largely up to 
state governments, but states like Washington have not yet prioritized 
critical frontline transportation workers for vaccination. Hopefully 
this issue will be addressed as supplies quickly increase, but your 
attention to this important need is very welcome.
    <bullet>  Restoring Confidence in Air Travel: Our goal at SEA is 
not just to get back to 2019 traveler numbers, but also to be even 
better prepared to accommodate our passengers with 21st century 
customer service. To us, that goal means improved facilities; new 
technologies to smooth and speed the airport experience; and a 
permanent commitment to enhanced health protocols. It also means 
renewed efforts to restore customer confidence in air travel, which is 
a mix of the actual steps we take to keep travelers healthy as well as 
communicating those steps to our customers. It will take an industry-
wide effort to share information, data and studies about the 
effectiveness of our work to keep travelers healthy and safe, and we 
welcome the opportunity to partner with Congress and the federal 
government on that work. Further investigation about the widespread use 
of a health pass is worthy of additional discussion as well.
    <bullet>  Avoiding Domestic Testing Requirements and Other Domestic 
Air Travel Restrictions: As you know, the CDC has been considering a 
widescale domestic pre-departure testing requirement. We appreciate 
that many members of the committee have been critical of this proposal, 
calling it ``impractical and unworkable.'' Airports agree and believe 
that such a requirement does not make sense and would have lasting 
economic repercussions on the aviation industry--just as Congress and 
the administration are trying to find ways of assisting the industry. 
At a time where the number of cases is declining, face mask usage is 
mandatory, the number of people vaccinated is growing, and U.S. airport 
and airlines have instituted extraordinary precautions to ensure air 
travel is safe during the pandemic, we were gratified to learn that CDC 
decided in mid-February that a domestic pre-flight testing requirement 
did not make sense ``at this time.'' We urge the committee to continue 
to communicate to the Administration your concerns about moving forward 
with a domestic pre-departure testing requirement or any other domestic 
air travel restrictions.
    <bullet>  Investing in Our Nation's Infrastructure: Chair Larsen, 
almost four years ago to the day, I testified before this subcommittee 
and discussed the need to provide airports with the tools they need to 
fix aging facilities and accommodate rising demand. During that session 
I described the importance of the AIP and the need to raise the 
outdated federal cap on local PFCs.
         I reiterate that message again today and urge you and your 
colleagues to pass a comprehensive infrastructure bill that will help 
airports prepare for the eventual return of passenger levels. It may 
seem strange for me to be talking about upgrading and expanding airport 
facilities after a year of 60 percent passenger declines, but now is 
actually the perfect time to invest in our nation's infrastructure. 
Building back better will support good-paying jobs and fix our 
crumbling infrastructure at time when interest rates are exceptionally 
low. As I have stated, we believe deeply that passenger levels will 
return to 2019 levels, and we want to be ready to accommodate them when 
they do--especially if upgraded facilities designed for touchless 
technologies and additional room for social distancing continue to be 
required.
         With guidance from leaders on the committee, the House took a 
great first step last year when it passed H.R. 2, the Moving Forward 
Act. If enacted into law, this proposal would go a long way toward 
helping airports pay for critical infrastructure projects in the years 
ahead, while focusing on resiliency and lowering greenhouse gas 
emissions.
         The House-passed bill proposed to increase the annual 
authorization level for the traditional AIP program to $4 billion. It 
also called for providing airports with up to $4 billion in 
supplemental funding every year and much-needed flexibility to allow 
airports to use those funds for PFC-eligible projects such as terminals 
and debt service.
         We deeply appreciate the provisions in the bill that would 
increase federal funding for airports in the near term. However, 
adjusting the outdated and arbitrary PFC cap would create a 
sustainable, long-term funding source to help pay for critical capital 
projects when there may not be enough federal funding to go around.
         At SEA, we will celebrate the opening of two of our biggest 
capital projects in 2021: our new International Arrivals Facility and 
our modernized North Satellite. Despite the unexpected disruptions 
caused by the pandemic, we are thrilled that these projects are coming 
on-line after years of hard work and more than $1.5 billion in 
investment.
         In the immediate term, these facilities will give us the space 
we need to offer more physical distancing during the pandemic. These 
projects will also provide SEA with additional capacity when passenger 
levels begin to rebound. We were already overcapacity in 2019, and we 
simply cannot wait for a full recovery of passenger levels to start 
planning for the future.
         Part of our future plans include our Sustainable Airport 
Master Plan (SAMP). The SAMP near-term projects (NTP), including a new 
multi-billion terminal project, are a blueprint for changes that we 
need to make at SEA to accommodate future demand; the NTP are currently 
undergoing federal environmental review, and I'm pleased to report that 
we will release our draft environmental assessment this year. However, 
considering the significant declines in PFC revenue due to COVID-19 and 
our other cash flow challenges, we will need to find new ways to fund 
these projects.
    <bullet>  Increasing Environmental Sustainability: In terms of 
environmental sustainability, we are proud of our goals to become a 
carbon-neutral airport, and we have been leading innovators on 
everything from pre-conditioned air at all of our gates to 
electrification of ground service equipment and transitioning our 
ground transportation buses to renewable natural gas.
         But our biggest environmental initiative is our goal is to 
fuel every flight out of our airport with at least a 10 percent blend 
of Sustainable Aviation Fuel (SAF). We believe that full implementation 
of SAF has the potential to lower our airport's carbon footprint by as 
much as 80 percent, which is why we strongly support provisions in the 
Moving Forward Act that call for investing in SAF.
         SAF is a proven fuel alternative that is safe and plug-in 
ready. Now we must work together to figure out how to scale this 
industry so that SAF is plentiful and affordable. We believe that the 
federal government can help speed this outcome with infrastructure 
investments in refining, blending and pipeline facilities; support for 
farmers and other feedstock producers; incentives like a $2 per gallon 
blenders' tax credit; and other market-making efforts--such as 
increased utilization by the U.S. Department of Defense.
    <bullet>  Enhancing Airport Communities and Shared Economic 
Prosperity: Finally, we want to be sure that we are maximizing the 
benefit of the airport to the community. At SEA, we have been 
particularly focused on increasing our women and minority owned 
business participation, whether it be for dining and retail 
concessions, construction projects or janitorial contracts. Our 2019 
Diversity in Contracting report shows that we're making progress on 
this front, but there is still much more that we can and must do. 
Similarly, we believe that we can do more to help people from a wide 
variety of backgrounds gain the skills to join the aviation workforce. 
Finally, we want to make sure that businesses and residents near the 
airport are thriving, whether it be through helping attract more 
travelers to stay in nearby hotels or continuing to invest more in 
residential noise insulation and air quality improvements. We welcome 
opportunities to work with Congress to find new ways to achieve these 
goals.

    Chair DeFazio, Ranking Member Graves, Chair Larsen, Ranking Member 
Graves, and members of the subcommittee, thank you for inviting me to 
participate in today's hearing. I look forward to working with you as 
we continue to respond to the coronavirus crisis, make our facilities 
as safe as possible for passengers and employees, and turn our 
attention to recovery.

    Mr. Larsen. Thank you, Mr. Lyttle.
    And before I introduce Mr. Ed Bolen I just would note, 
without objection, our witnesses' full statements will be 
included in the record today.
    So without objection.
    So I now recognize Mr. Ed Bolen for 5 minutes.
    Mr. Bolen?
    Mr. Bolen. Well, thank you, Chairman Larsen. I appreciate 
the opportunity to be here today representing the National 
Business Aviation Association.
    As everyone on this committee knows, business aviation is 
the use of general aviation aircraft for business purposes. In 
the United States, thousands of companies rely on business 
aviation to get products and people where they need to be when 
they need to be there. Business aviation is an industry that 
generates an enormous amount of jobs and economic development. 
It is an industry that helps foster productivity and 
efficiency. It also flies humanitarian flights. And during the 
COVID crisis we have flown an enormous amount of personal 
protective equipment and COVID tests.
    Two thousand twenty has been an epically challenging year 
for our industry. At times, business aviation flights were down 
as much as 75 percent. Even today, at Teterboro, gateway 
airport for New York, flights are down 50 percent. But 
oftentimes, when things are at their worst, we have an 
opportunity to demonstrate our best. And I think that 
ecosystem, that aviation ecosystem that my colleague, Pete 
Bunce, talked about, has been on full display during the COVID 
crisis.
    Congress' prompt action with the CARES Act was essential in 
providing critical help to our industry. Your investments 
allowed us to retain pilots, technicians, and other 
professionals in the aviation industry. You helped us find ways 
to come together and operate safely in a rugged environment 
that at times included ATC Zero operations. In short, we have 
come together to find our way forward consistent with our value 
of safety.
    We are determined to not just survive this crisis, but to 
emerge stronger. On-demand air mobility, the ability to move 
people where they need to be when they need to be there, is one 
of America's great strengths, and we hope to emerge stronger. 
The COVID crisis gave us a view of the abyss, but we are 
focused on a vision for the future, a vision for the future 
that includes enhanced sustainability.
    As my friend, Pete Bunce, said, we are focused on 
sustainable aviation fuel. It gives us an opportunity to 
dramatically reduce our emissions footprint. It is an 
opportunity for us to find a way forward together with 
Government help, including a blender's tax credit.
    We are also working hard to bring new technologies to 
reality, to receive the benefit of new propulsion systems, 
hydrogen propulsion, electric propulsion, hybrid propulsion. We 
need an infrastructure that is capable of sustaining these 
operations, taking the magnificent airport infrastructure that 
we developed during World War II, and building for the future, 
creating the type of charging stations and operational 
environments that will allow the Advanced Air Mobility 
operations to thrive.
    We also know that it is important for us to continue to 
invest in our human infrastructure, to be able to attract the 
best and the brightest, and that makes a requirement that we be 
diverse and we be inclusive. I know this committee has been 
supportive of PSAs to attract people to our industry. It has 
been supportive in the FAA Reauthorization Act at creating a 
Women in Aviation Advisory Board that NBAA is proud to have two 
members of its board of directors serve on.
    It is imperative: for us to realize the future, we have to 
be diverse, we have to be inclusive, we have to be sustainable, 
and we have to take advantage of the technologies that are 
working their way through the certification system. And we need 
to create an operating environment that can get us there.
    We are grateful for the leadership that has been 
demonstrated by this committee, by this Congress, and by the 
FAA to help us through a challenging time. But we want to set 
our sights forward. And we want to realize the full potential 
of aviation, moving forward. Thank you.
    [Mr. Bolen's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Edward M. Bolen, President and Chief Executive 
            Officer, National Business Aviation Association
    Chairman Larsen, Subcommittee Ranking Member Graves, and members of 
the Subcommittee on Aviation thank you for holding this hearing to 
discuss the significant challenges business aviation is facing due to 
the COVID-19 pandemic and how we are progressing on our path to 
recovery. On behalf of the National Business Aviation Association 
(NBAA) and our 11,000 member companies, we appreciate the opportunity 
to testify at this critical hearing.
    The United States general aviation industry, including business 
aviation, supports 1.2 million jobs and $247 billion in economic 
impact. Across the country, thousands of small businesses that generate 
$77 billion in labor income are facing unprecedented challenges due to 
the pandemic. In addition, the companies that utilize business 
aviation, 85% of which are small and mid-sized businesses continue to 
face significant challenges.
    Beginning in late February 2020, the GA industry began to suffer 
significant impacts due to COVID-19 related travel restrictions and 
shutdowns. During the depths of the pandemic last spring, GA aircraft 
operations dropped by an unprecedented 75% based on an analysis of 
FlightAware data. These substantial declines continue for our industry 
due to a sharp decline in business travel.
    This severe and unprecedented reduction in flight activity had 
devastating consequences from fixed-based operators (FBOs) to 
maintenance shops, charter operators, and GA airports. For example, the 
U.S. aircraft maintenance industry has lost 50,000 jobs, and more than 
80% of companies have seen revenue declines compared with 2019. At 
Hutchinson Regional Airport (KHUT) in Kansas, operations suddenly 
dropped by 80% last spring, and fuel sales declined by nearly 90%. The 
airport provides $20 million in economic impact to the community, and 
many of its small business tenants took out loans to survive.
    At Teterboro Airport (KTEB) in New Jersey, a critical business 
aviation gateway, GA aircraft operations dropped by more than 65% in 
June 2020. Through the end of last year, fuel sales and operations were 
still down 50% from pre-pandemic levels. Teterboro supports nearly 
5,000 jobs and generates more than $1 billion in economic impact, so 
these sharp reductions directly impacted families, small businesses, 
and the local community.
    Despite these unrelenting challenges, the GA community continues 
its commitment to COVID-19 relief efforts. While the commercial 
airlines serve only about 500 airports, GA can reach more than 5,000 
airports and communities, providing a critical link for pandemic 
relief. For example, GA pilots are flying COVID-19 test specimens from 
rural medical facilities to labs, cutting the wait time for results in 
half. In Vermont, business aircraft transported 600 test specimens a 
day to laboratories through a partnership with local hospitals.
    One of the largest U.S. laboratories, Quest Diagnostics, relies on 
a fleet of 23 business aircraft to transport specimens to its labs 
across the country. The diverse fleet includes Beechcraft Baron piston 
twins and Embraer Phenom 100 light jets that can access a wide variety 
of GA airports. With the demand for COVID-19 testing, the company used 
its fleet and focused on logistics to increase efficiency and provide 
much-needed testing capacity.
    More recently, organizations such as Patient AirLift Services were 
again able to provide volunteer medical flights and free patient air 
transportation with new COVID-19 safety protocols. As we continue to 
emerge from the pandemic, GA stands ready to expand our humanitarian 
efforts, use our connections to small communities to assist with 
vaccine distribution and perform other missions to help communities 
across the country.
                 CARES Act Provided Much-Needed Relief
    We applaud this Subcommittee's continued leadership in providing 
targeted relief for business aviation as we recover from the pandemic. 
Your work to quickly pass the CARES Act last March provided a critical 
lifeline for our community, and we continue to access relief programs 
today. Leading up to the CARES Act passage, NBAA worked with members of 
the Subcommittee to make sure that GA commercial operators were 
eligible for the same relief programs as the major airlines. Thousands 
of small air charter operators that do not have access to capital 
markets were in desperate need of relief, and thanks to your 
leadership, the Payroll Support Program (PSP) passed as part of the 
CARES Act covered GA commercial operators.
    In addition to PSP, many of our members are still in business 
today, thanks to the Paycheck Protection Program (PPP). Along with your 
quick action on Capitol Hill, we applaud the dedicated employees at the 
Department of the Treasury, Small Business Administration, and other 
agencies that rapidly stood up these relief programs and worked with 
our members to answer questions in real-time.
    While the vast majority of PSP funds provide critical support to 
the major airlines, many GA commercial operators received support that 
kept their businesses going and prevented layoffs. Early on in the 
program, we worked with the Treasury Department to develop streamlined 
requirements for small air carriers, most of which requested less than 
$10 million in support. These requirements protected taxpayers while 
recognizing that small air charter operators often do not own any 
aircraft and do not have access to capital like the major airlines.
    There are hundreds of stories about how PSP and PPP preserved GA 
jobs, but innovative charter, fractional, and aircraft management 
operator Airshare in Lenexa, Kansas, demonstrates the importance of 
these programs. Before the pandemic, Airshare was doing well, with 
around 200 employees and 50 GA aircraft. However, last March, the 
company realized the scale of its challenges and took decisive actions 
to adapt its business to ensure it could retain all of its highly 
skilled workforce. However, since business travel is a significant 
focus of Airshare's operations and immediately declined by almost 90%, 
the company needed additional relief.
    Reasons behind the decrease in business travel are varied, but 
companies that own and operate business aircraft to transport their 
employees also feel the impact. For example, OFS, a family-owned 
furniture manufacturer headquartered in Huntingburg, Indiana, that 
operates a King Air 200 and King Air 350 turboprop, experienced 
significant business travel disruptions. In a typical year, the company 
flies more than 1,500 potential clients to its headquarters. The COVID-
19 pandemic has profoundly impacted the company, with sales been down 
by more than 25%. Although OFS has been able to cut its expenses and 
adapt, flight operations have been virtually shut down due to travel 
restrictions and business challenges since March of last year.
    With assistance from the PSP and PPP programs, charter fractional, 
and aircraft management operator Airshare did not layoff any employees 
and is looking towards the future. While there has been a recovery from 
the pandemic's depths, the company is still experiencing a sharp 
decline in business travel which is clouding the future.
    In addition to connecting small towns and communities, air charter 
operators often perform critical and complex missions to transport 
human organs for transplant. For example, around 30 to 40% of the 
business for Ventura Air Services, a charter operator located at 
Republic Airport (KFRG) in Farmingdale, New York, involves transporting 
organs. When the pandemic hit, demand for other on-demand flights 
quickly declined, and Ventura struggled to retain the highly skilled 
workforce needed to perform organ transport flights. With support from 
PSP and PPP to get through the crisis, the company continued to perform 
its critical missions and is currently adding two additional aircraft 
to its charter certificate.
    Unfortunately, many air charter operators are continuing to face a 
decline in business travel, so we appreciate PSP and PPP's extension 
through the Consolidated Appropriations Act of 2021 to provide 
continued relief. While our members understand challenges for the 
Treasury Department in administering PSP, we have experienced 
significant delays in the second round of funding. Although many large 
airlines have received the relief, small operators are still waiting, 
and we respectfully request that this Subcommittee works with Treasury 
officials to expedite the process.
    Along with charter providers and small businesses, FBOs provide a 
diverse range of services from aircraft fueling to maintenance at GA 
airports and have been negatively impacted by the pandemic. Many of 
these are family-owned businesses, like Epps Aviation located at 
DeKalb-Peachtree Airport (KPDK) in Atlanta. Founded in 1965 by Georgia 
aviation legend Pat Epps, the company has grown to around 150 employees 
at DeKalb-Peachtree, which is one of the top ten GA airports in the 
country.
    Beginning last March, Epps experienced a significant decline in 
traffic at the airport, which has still not recovered to pre-pandemic 
levels. Revenues declined by nearly 60%, and fuel sales which are a key 
driver of revenue were down 30%. The company obtained PPP relief, 
allowing it to maintain its highly skilled workforce, but they remain 
very concerned about the decline in business travel, which makes up 70% 
of their traffic.
    Thanks to your actions, many GA businesses have avoided layoffs, 
but the future is uncertain, and additional relief may be necessary. 
For example, operations are still down significantly at Charles B. 
Wheeler Downtown Airport (KMKC), a key GA airport in Kansas City that 
supports nearly 700 jobs. At New Orleans International Airport (KMSY) 
and King County International Airport--Boeing Field (KBFI) in Seattle, 
general aviation traffic continues to be down by 30%. The ongoing 
reductions in business travel and the potential for additional COVID-
related restrictions creates significant uncertainty for our community, 
and we appreciate your consideration of future GA relief needs.
    For example, NBAA and a broad coalition of GA groups have requested 
a temporary suspension of aviation fuel taxes to incentivize demand. 
Congress temporarily suspended the 7.5% tax on commercial air 
transportation but did not take similar action for the non-commercial 
GA fuel tax. As you consider additional relief measures, we believe 
that temporarily suspending the GA fuel tax remains an important 
policy. For small airports and FBOs that rely on fuel sales for a 
significant portion of revenues, the suspension of non-commercial fuel 
taxes would help reduce costs for operators, provide longer-term 
relief, and be consistent with commercial aviation policy.
    In addition to relief for operators, we applaud Committee Ranking 
Member and House GA Caucus Co-Chair Sam Graves' leadership in 
championing dedicated relief for GA airports. Under the CARES Act and 
Consolidated Appropriations measure, GA airports received $145 million 
in relief, allowing them to continue operating safely through the 
pandemic.
               Regulatory Challenges During the Pandemic
    For every NBAA member, safety is the number one concern that drives 
all aspects of the flight operation. This commitment includes careful 
compliance with FAA-mandated training events, medical examinations, and 
other regulatory requirements. However, early in the pandemic, we 
realized there were significant health and safety barriers to complying 
with these regulations.
    Working with the FAA, its dedicated staff, and the entire GA 
community, we developed Special Federal Aviation Regulation (SFAR) 118. 
This regulation is a comprehensive, safety-driven set of mitigations 
that reduced the risk of COVID-19 exposure while providing additional 
time to meet FAA requirements. The innovative regulatory approach 
facilitated needed relief while ensuring continued compliance with 
essential standards. Tens of thousands of pilots and hundreds of 
operators benefitted from this risk-based, collaborative approach that 
allowed the industry to adjust and implement additional safety measures 
without compromising standards.
    The temporary relief granted under SFAR 118 will expire on April 
30, and we appreciate the FAA's willingness to offer this relief. The 
FAA has indicated it will consider additional measures depending on how 
recovery from the pandemic proceeds. We understand the Subcommittee's 
interest and support of SFAR 118 and will keep in close communication 
on any future relief needed over the coming months.
                    Concern over Future Restrictions
    Through leveraging relief opportunities and adapting business 
models, business aviation continues to be incredibly resilient during 
the pandemic. With airlines cutting service to many small communities, 
like Dubuque, Iowa, and Lake Charles, Louisiana, we have been able to 
fill part of the void and provide a potential travel option. This 
possible new business is helpful, but we remain concerned that future 
restrictions or COVID-19 testing requirements could be harmful.
    Regarding domestic testing for air travelers, we believe that 
current testing protocols will not support on-demand flights, which are 
a vital part of business aviation's value proposition. NBAA members 
often fly to support critical infrastructure such as telecommunications 
networks and hospitals, meaning that delaying travel 24-48 hours to 
comply with potential COVID-19 testing requirements would have 
significant negative consequences. We support reasonable and science-
based recommendations to control the spread of COVID-19 but urge a 
focus on improving the availability and turn-around time for testing 
before further discussions on this issue.
    During the initial discussion of the domestic aviation testing 
requirement, we appreciated Chairman DeFazio's leadership in raising 
questions about the feasibility and effectiveness of such a 
requirement. Recently, it appears that the administration has paused 
its discussions on this policy, and we thank the Committee for its 
continued engagement.
                      GA Priorities for the Future
    The remarkable development of effective COVID-19 vaccines provides 
a potential path forward for business aviation, even as we continue to 
deal with day-to-day pandemic-related challenges. With that in mind, we 
are looking to the future with a focus on advanced technology, 
sustainability, and diversity. This positive future will bring our 
country closer together and generate high-skill, good-paying jobs right 
here in the United States.
    In a recent Deloitte study, the market for advanced air mobility 
(AAM) is estimated to reach $115 billion annually by 2035, with the 
potential to create nearly 300,000 jobs. Since at least as far back as 
World War II, we have been able to leverage an incomparable 
infrastructure of airports, airspace, technologies, and personnel to 
bring commerce and humanitarian services to over 5,000 communities. On-
demand AAM provides a path for the U.S. to maintain its position as the 
world leader in civil aviation, and there are significant opportunities 
for GA and our talented workforce to fly people and products where they 
need to be when they need to be there. To that end, NBAA actively 
supports numerous FAA working groups tasked with integrating AAM 
operations into the National Airspace System and looks forward to 
continued collaboration with the agency.
    To realize the full potential of AAM, including congestion relief, 
a reduced environmental footprint, and enhanced mobility, we must look 
towards the next generation of infrastructure needs. As this Committee 
considers infrastructure investments, we respectfully request that 
future investments for AAM operations are considered in terms of 
eligibility for funding and programs.
    For example, as Congress reviews infrastructure grant programs such 
as BUILD, consideration should be given to multimodal investments that 
include AAM. Although funding through these programs might not be 
needed today, AAM companies are nearing aircraft certification, meaning 
that we should take advantage of this historic discussion on 
infrastructure to make forward-looking changes that position us for the 
future.
    In addition to the sustainability benefits of AAM, GA is committed 
to reducing the environmental footprint of existing flight operations. 
Increasing the availability of Sustainable Aviation Fuel (SAF) is 
critical to achieving the aviation industry's goal of carbon-neutral 
growth from 2020 and a 50% net reduction in CO2 emissions in 2050 as 
electrification is not yet an option for many types of aircraft.
    As a ``drop-in'' fuel, biomass-based SAF can be safely used in any 
turbine aircraft and is blended with conventional jet fuel. Studies 
indicate that SAF has the potential to reduce lifecycle greenhouse gas 
emissions by 80%. However, to achieve this potential, the fuel must be 
widely available at a competitive cost.
    NBAA and a broad coalition of airlines, fuel producers, and 
industry groups believe that a $2.00 per gallon SAF blender's tax 
credit over 10-years would spur increased production. This credit would 
encourage fuel producers to invest in additional capacity, increasing 
the supply of SAF and driving down costs for operators. The existing 
$1.00 per gallon biodiesel tax credit does apply to some SAF pathways 
but will expire in 2022. While the biodiesel credit is helpful, its 
limitations and limited duration do not provide the long-term 
incentives needed to boost SAF production. Should the $2.00 credit 
become law, SAF would no longer qualify under the existing biodiesel 
credit.
    Recently, the House Select Committee on the Climate Crisis and the 
Atlantic Council endorsed the need for a targeted incentive to assist 
with overcoming the challenges of increasing supply and availability of 
SAF. To achieve those goals, we hope to see the introduction of 
legislation on the $2.00 per gallon blenders credit in the coming 
months and look forward to working with the Subcommittee on building 
support for this important policy.
    While we understand this is not in the Subcommittee's jurisdiction, 
we want to underscore the importance of immediate expensing, also known 
as bonus depreciation, passed as part of the Tax Cuts and Jobs Act. 
This pro-growth tax policy allows taxpayers placing qualifying property 
into service, including business aircraft, the ability to deduct the 
full cost of their investment in new and used equipment in the first 
year of operation. Businesses can then deploy that capital to make 
other investments and grow their operations. In talking with aircraft 
brokers and manufacturers, we know that immediate expensing 
incentivizes aircraft purchases, leading to U.S. manufacturing jobs.
    Unfortunately, starting in 2023, taxpayers will no longer be able 
to deduct the full cost of capital investments, and the incentive will 
end in 2027. The Tax Foundation has found that making full immediate 
expensing permanent would result in more than 170,000 additional full-
time jobs. That is why NBAA supports legislation like the ALIGN Act, 
introduced in the last Congress by Senator Toomey and Representative 
Arrington to make immediate expensing a permanent part of the tax code.
    In the areas of diversity and the aviation workforce, we continue 
to leverage NBAA's ability to bring together the GA community to make 
advancements. With leadership from Chairman Larsen and Congressman Don 
Young, we look forward to re-introducing the Promoting Service in 
Transportation Act during this Congress. This legislation would 
authorize the Department of Transportation to develop a series of 
broadcast, digital and print public service announcements to promote 
career opportunities and increase diversity in the transportation 
workforce.
    Through these public service announcements, we will raise awareness 
of careers across all transportation modes, including aviation. There 
will also be synergies with efforts to grow the STEM workforce and 
related educational opportunities. While momentum around the future 
STEM workforce is vital, aircraft pilot and aviation technician careers 
are often not considered by students. That is why the legislation is 
critical, as it will help address these challenges by building linkages 
between STEM programs and the significant career opportunities for a 
diverse group of pilots and technicians.
    At our virtual events over this past year, and when we return to 
live events, NBAA offers targeted educational programs by providing 
student-focused programming to educate young people about the many 
business aviation career opportunities. Utilizing our events to 
introduce a diverse group of students to business aviation allows us to 
build networking opportunities and expand a dedicated mentoring 
program--all of which create valuable connections between students and 
industry professionals.
    During Black History Month, we featured stories of NBAA members 
that are using their careers and connections to their communities to 
increase diversity. For example, our members are reaching students of 
color through innovative programs like teaching middle school students 
how to fly and race drones. Through organizations such as the 
Experimental Aircraft Association and its Young Eagles program, the 
Organization of Black Aerospace Professionals, and its Aviation Career 
Education Academy, NBAA members volunteer their time and skills to 
build a more diverse business aviation industry. NBAA looks forward to 
partnering with the Subcommittee on similar initiatives around 
diversity, equity, and inclusion.
    NBAA is also honored to have two of our Board members serving on 
the U.S. Department of Transportation's newly formed Women in Aviation 
Advisory Board. The purpose of this group is to recommend strategies to 
encourage women to pursue aviation careers. The board also identifies 
opportunities for education, training, mentorship, outreach, and 
recruitment of women in the aviation industry. We thank this 
Subcommittee for creating this advisory board and other groups that 
promote diversity and the aviation workforce through the FAA 
Reauthorization Act of 2018.
    In closing, the COVID-19 pandemic has brought unprecedented 
challenges for business aviation and the entire GA community; however, 
it has also demonstrated our resiliency and critical importance to 
thousands of communities. From delivering test specimens to providing 
humanitarian flights, our industry continues to be a vital part of 
relief efforts. We thank members of this Subcommittee for recognizing 
the critical importance of business aviation when considering relief 
measures, and we look forward to continuing those discussions over the 
coming months. While there are certainly challenges on the horizon, we 
are optimistic about the future and thank this Subcommittee for its 
continuing commitment to all aviation industry sectors.

    Mr. Larsen. Thank you, Mr. Bolen, for your comments. And I 
think that your last comments really wrap up--maybe one of the 
themes coming out of today will be that, although we are not 
out of the woods, there is some light there at the end of the 
tunnel. There are some opportunities to start thinking about 
the future of aviation, very different than what we would have 
been talking about even 6 months ago. And we still have work to 
do to get through the pandemic.
    I would just remind people to mute, please. Everybody mute. 
Thank you very much. I appreciate that.
    So I now recognize Members for 5 minutes. I will start by 
recognizing myself, and my first question is for Ms. Krause.
    Also, I would recommend the Members to not ask questions 
generally of the panel, but to ask directly to panelists. It 
just makes it easier to manage the question time because of the 
technology.
    So my first question is for Ms. Krause. It is about the 
national aviation preparedness plan.
    Since 2015, following your agency's recommendation to 
create a national aviation preparedness plan to ensure all 
levels of Government, airlines, airports and frontline aviation 
workers are better equipped, we still don't have one. 
Representative Beyer and I have introduced H.R. 884 to direct 
the DOT to create a national aviation preparedness plan. Could 
you elaborate on the GAO's recommendation for such a plan, and 
what new issues should be addressed since your recommendation 
was released, Ms. Krause?
    Ms. Krause. Hi, this is Heather.
    No, we also agree and, as I have said in my opening 
statement, urge Congress to take action to require DOT to 
implement a plan.
    I think the COVID-19 pandemic illustrated some real 
challenges with coordination and communication. And a plan 
would, in designing one, you would want one that is scalable, 
adaptable, and has training built in, as well, so that you are 
prepared for future communicable diseases.
    I think it also allows airlines and airports individual 
preparedness plans to align up with that national plan and have 
a more coordinated response.
    Mr. Larsen. Great, thank you. And again, it is H.R. 884, if 
any Members are interested in cosponsoring that bill sponsored 
by Representative Beyer and myself.
    Mr. Bunce, you mentioned the Aviation Manufacturing Jobs 
Protection Act, which is a bill that Representative Estes and I 
cosponsored, and which Chair DeFazio helped get language in the 
reconciliation bill for its implementation; the idea being that 
we could ensure, in the long term, we have an aviation supply-
chain workforce to call upon when the recovery comes. Can you 
elaborate a little bit more on your comments with regards to 
the job losses in the supply-chain industry, and what is needed 
to bring them back, Mr. Bunce?
    Mr. Bunce. Thank you, Chair Larsen. That supply chain, as I 
mentioned, is global in nature. So, even if we come back in the 
United States and are able to have some of our suppliers 
working, you know the entire industry has transitioned to just-
in-time parts and pieces because of the quality of our delivery 
companies in this country. Around the rest of the world it is 
not quite the same. And our supply chain is very fragile, in 
that a lot of these countries have had lockdowns. And as you 
get further and further down the supply chain, that then 
ripples through the system.
    So what we have found lately is that our demand for 
aerospace products is actually forecast--is not only forecast, 
but we have orders that are extremely robust. But we have had 
to stretch out the delivery times, the anticipated delivery 
times, because of the fact that the supply chain is still very 
disrupted. So think about if airlines aren't flying, all that 
cargo that is below the floor is not able to be delivered. And 
we know that a lot of our cargo functions that are done by air 
are completely full with consumer goods, and goods that are 
ordered off of the big online stores. So we also have a 
capacity constraint, because we just don't have enough airline 
capacity in the air around the globe to move those parts and 
pieces. So that then translates to the loss of these jobs.
    And with this legislation that you have helped us with, we 
can retain some of those workers, or bring back some of those 
workers in this cost share and get them off unemployment. And 
by that means we can keep them from filtering to another 
industry, because their skills are very precious to aerospace.
    Mr. Larsen. Yes, thank you.
    So I have about 45 seconds left. Mr. Lyttle, could you 
address the issue of concessionaires at the airports, and the 
impact this has had on the folks who are running the shops at 
the airport, and what you are doing to assist them? And you 
have about 30 seconds, sorry.
    Mr. Lyttle. Thank you for that----
    Mr. Larsen. Your----
    Mr. Lyttle [continuing]. Mr. Larsen. Concessions at the 
airports rely heavily on passenger traffic coming through the 
airport. And passenger traffic significantly declined. We had a 
61-percent decline in traffic. So our concessions community has 
suffered with the pandemic.
    What we have done, we immediately responded by providing 
relief, both rent and relief, and we did that twice during the 
pandemic. And this allowed many of our concessionaires, 
particularly the small and minority- and women-owned 
businesses, to actually weather the storm and survive through 
the pandemic. And we are hoping that we will get additional 
relief with the next CARES package coming out, so we can 
continue to provide this type of support and relief for our 
concessionaires here at the airport.
    Mr. Larsen. Thank you. Thank you. With that I will turn to 
Representative Graves of Louisiana for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I would 
like to ask Mr. Lyttle, and perhaps Mr. Calio. There has been 
talk about a national preparedness plan. But I think, at this 
point, looking more toward a recovery plan might make the most 
sense. As discussed, we have carried a number of actions to try 
to help to sustain the capacity through this pandemic.
    So, again, Mr. Lyttle, Mr. Calio, if we were to talk about 
a national recovery plan, what would those metrics look like in 
your eyes, in terms of moving toward an actual recovered 
industry?
    Mr. Larsen. Mr. Lyttle, go first.
    Mr. Lyttle. OK. National recovery plan, I think the first 
thing that we would have to do is to ensure that we do 
everything as an industry to ensure that we restore traveler 
confidence. I think, with all good intent, the airlines are 
doing something, the airports are doing everything in their 
best effort, as well. And I think, though, we have to have a 
coordinated approach. So we have to have, for example, the 
Government participating with the airlines, participating with 
the airport to have a collaborative and coordinated approach to 
do everything within our power to restore customer confidence.
    So at the airport, for example, we will be doing the hand 
sanitizer stations, we will make sure we have social 
distancing. And the airlines, for example, will have mask 
mandates, et cetera. But I think we have to have a coordinated 
approach where--for example, the mask mandate is a very good 
example of that.
    We have to also ensure that we collaborate with the CDC, as 
an example, and the FAA, and the Department of Health to not 
implement measures such as the one that was recently being 
discussed, whereby--we are looking at, for example, providing 
or requiring testing for domestic travel. Because that, I 
think, would not meet the requirements or the intent, but it 
would actually devastate the industry. And I think we need to 
really collaborate more so--the CDC, as an example--to 
understand exactly what the impact will be on the travel 
industry.
    So, in my opinion, I really think we need to have a 
coordinated approach, where it is the Federal Government, the 
airlines, the airports that has a single plan, a single 
approach, similar to right after 9/11, where it was obvious 
that----
    Mr. Graves of Louisiana. OK, Mr. Lyttle, I am running out 
of time. I want to make sure we have an opportunity to get to 
Mr. Calio.
    Mr. Calio, could you give a quick answer? I have got a 
couple more questions.
    Mr. Calio. Yes. First of all, public education is 
important. That is why we went to Harvard and worked with the 
airports and with other airlines and manufacturers, everybody 
in the industry. That education has to continue and spread.
    We have to continue to create confidence by maintaining 
what we put in place to keep our passengers safe and the flying 
public safe. And that goes across the board. And I would 
recommend to everyone, look to the recommendations in the 
Harvard report.
    Basically, we have got to rely on science and data, in 
terms of opening the markets and going forward, and we have got 
to continue the partnership with the Government that we have 
had over the last 12 months, and make sure that whatever gets 
put in place is based on science and data, and will not have 
unintended consequences.
    Mr. Graves of Louisiana. Thank you, Mr. Calio.
    Captain DePete, there have been comments or questions 
about--and I mentioned in my opening statement--about whether 
pilots were feeling, I guess, rusty, as a result of the 
decrease in flights and passenger travel. Could you speak to 
that a little bit?
    Do you or your members have concerns about that, and could 
you talk about what you all are doing to help address that?
    Mr. DePete. Sure. Thank you, Ranking Member Graves.
    First off, I just want to say you helped solve that problem 
for us with the PSP. It has been--to say it is a historic 
lifeline, that it was a critical bridge to recovery, I mean, it 
is inherently a plan towards recovery you already built, and I 
thank you all for that.
    In terms of the training, I am fully 100 percent confident 
in the ability of our pilots. Here at ALPA, training is just 
ingrained in us. It is in our DNA. And so we have been working 
with all the stakeholders, with our companies, with our 
regulators to ensure that the training is consistently up to 
date as we bring these airplanes back awake, as we get into 
recovery. We have already got a plan in place to deal with 
that.
    The changes that we have had in our training have evolved 
over the many years since 1931, since the Air Line Pilots 
Association was first formed.
    But I will say this: everything good that happens in 
aviation is a result of collaboration. I think Nick said it, Ed 
Bolen has said it. We came together as a team, and----
    Mr. Larsen. Captain DePete, you need to wrap up.
    Mr. DePete. Oh, OK, sorry. I will just finish with that. I 
can't overemphasize the importance of PSP to remedy that 
situation.
    Mr. Larsen. Thanks.
    Representative Graves?
    Mr. Graves of Louisiana. Thank you. Mr. Chairman, on June 
2nd, Ranking Member Sam Graves and I requested GAO conduct a 
study to survey the aerospace stakeholders on COVID relief and 
recovery. We asked the GAO to have the preliminary results 
ready by March 2021, and the GAO will be discussing those 
results today, Chairman Larsen, and I ask unanimous consent to 
enter the request letter into the record.
    Mr. Larsen. Without objection.
    [The information follows:]

                                 <F-dash>
 Letter of June 2, 2020, to the U.S. Government Accountability Office 
   from Ranking Members of the House Committee on Transportation and 
 Infrastructure and Subcommittee on Aviation, Submitted for the Record 
                   by Hon. Garret Graves of Louisiana
    Committee on Transportation and Infrastructure,
                             U.S. House of Representatives,
                                      Washington, DC, June 2, 2020.
Hon. Gene L. Dodaro,
Comptroller General of the United States,
U.S. Government Accountability Office, 441 G St. NW, Room 7000, 
        Washington, DC 20548.

    Dear Comptroller General Dodaro:
    On March 27, 2020, the President signed the Coronavirus Aid, 
Relief, and Economic Security (CARES) Act (P.L. 116-136) into law to 
address the COVID-19 public health emergency. This law, among other 
things, establishes loan and payroll assistance programs for air 
carriers and the aviation industry, which are administered by the 
Department of Treasury (Treasury) in coordination with the Department 
of Transportation (DOT).\1\ As the Committee on Transportation and 
Infrastructure oversees the implementation of the CARES Act, and more 
importantly, considers the potential for additional assistance for the 
aviation industry, we are interested in having the Government 
Accountability Office (GAO) obtain information on the effectiveness of 
the CARES Act and in receiving your recommendations for possible 
further actions by Congress, Treasury, and/or the DOT.
---------------------------------------------------------------------------
    \1\ CARES Act, Pub. L. 116-136 (2020).
---------------------------------------------------------------------------
    As you know, the CARES Act provides a significant amount of 
assistance in the form of loans and payroll assistance to the aviation 
sector. CARES Act loans and loan guarantees include $25 billion for 
passenger air carriers, repair stations, and ticket agents; $4 billion 
for cargo carriers; and $17 billion for businesses critical to national 
security.\2\ The CARES Act aviation payroll assistance program makes 
available $25 billion to passenger air carriers; $4 billion to cargo 
air carriers; and $3 billion to airline contractors, including 
caterers, baggage handlers, and wheelchair pushers.\3\
---------------------------------------------------------------------------
    \2\ Id. at 4001 et. seq.
    \3\ Id. at 4111 et. seq.
---------------------------------------------------------------------------
    Given the amount of aviation-specific assistance provided, the 
desire to ensure taxpayer value on any investment made, and the depth 
of the impacts of COVID-19 on the aerospace sector, we are requesting 
that GAO survey aerospace stakeholders to gather lessons learned and 
recommendations to assist in the recovery efforts. We would like to 
hear from a wide range of stakeholders including aviation labor, 
airlines, airports, general aviation users, drone operators, commercial 
space companies, and part 135 operators. Therefore, we request that the 
GAO conduct a survey of aerospace stakeholders, and gather input from 
aerospace experts on the following questions:
    1.  What are stakeholder perspectives on the effectiveness of the 
CARES Act loan and payroll assistance programs? What do they believe 
was effective and what could have made the programs more effective?
    2.  What are stakeholder perspectives on actions that need to be 
taken by the aerospace sector as it turns to COVID-19 recovery?
    3.  What are stakeholder perspectives on key issues to consider for 
any potential future actions by Congress, Treasury, or the DOT to 
assist in the recovery effort?

    We appreciate your attention to this request. Should you have any 
questions or need additional information, please contact Holly Woodruff 
Lyons with the Subcommittee on Aviation staff.
        Sincerely,
                                                Sam Graves,
    Ranking Member, Committee on Transportation and Infrastructure.
                                             Garret Graves,
                          Ranking Member, Subcommittee on Aviation.

    Mr. Graves of Louisiana. Also testimony from the American 
Car Rental Association into the record for the hearing, as 
well.
    Mr. Larsen. Without objection.
    [The information follows:]

                                 <F-dash>
  Statement of the American Car Rental Association, Submitted for the 
               Record by Hon. Garret Graves of Louisiana
    The Board of Directors and members of the American Car Rental 
Association (ACRA) respectfully submit this statement to the Aviation 
Subcommittees' hearing on ``COVID-19's Effects on U.S. Aviation and the 
Flightpath to Recovery.'' ACRA asks that this statement be included in 
the official record of the hearing.
    ACRA thanks you--Chairmen DeFazio and Larsen and Ranking Members 
Sam Graves and Garret Graves--for convening this important hearing. 
ACRA's members look forward to working with you and your staff as our 
industry--and the nation--moves toward recovery from the most 
economically devastating crisis ever faced by the nation's airport 
ecosystem--an ecosystem in which car rental companies play an essential 
role.
    ACRA recently wrote to U.S. Department of Transportation Secretary 
Pete Buttigieg urging him to form an ``Aviation Recovery Commission'' 
to coordinate the recovery of the entire airport ecosystem--from 
airlines to caterers to airports to airport concessionaires such as car 
rental companies--from the massive, negative financial impacts of the 
COVID-19 pandemic. ACRA respectfully asked that a representative of the 
American car rental industry be named to that Commission. ACRA 
encourages the bi-partisan leadership of the House Transportation and 
Infrastructure Committee to support the creation of such a commission 
and to consider action on recommendations made to Congress from the 
commission.
                  The American Car Rental Association
    The American Car Rental Association is the national representative 
for over 98% of our nation's car rental industry. ACRA's membership is 
comprised of over 300 car rental companies, including all of the brands 
you would recognize such as Alamo, Avis, Budget, Dollar, Enterprise, 
Fox, Hertz, National, Sixt and Thrifty. ACRA members also include many 
system licensees and franchisees, mid-size, regional and independent 
car rental companies as well as smaller, ``mom & pop'' operators. ACRA 
members have almost 2 million registered vehicles in service in the 
United States, with fleets ranging in size from one million cars to ten 
cars.
         The Impact of the Pandemic on the Car Rental Industry
    The COVID-19 pandemic and its impact on domestic and international 
air travel has hit the car rental industry as hard as any industry in 
the United States. The following statistics graphically summarize that 
impact:
    <bullet>  Car rental company concession fees paid to airports in 
2020 were down 66 percent ($1.97 billion in 2019, $654 million in 
2020), according to data collected by the Federal Aviation 
Administration;
    <bullet>  Car rental company concession fees paid to airports are 
17.4 percent of non-aeronautical revenue at airports, according to the 
FAA;
    <bullet>  Car rentals at airport locations (which represent 
approximately 50 percent of all car rentals each year in the United 
States) in 2020 were down between 50 and 90 percent, depending on the 
location;
    <bullet>  ACRA members laid off or furloughed approximately 60,000 
individuals in 2020--approximately 38 percent of the industry's U.S. 
workforce;
    <bullet>  Two of the nation's top five car rental companies in 
terms of fleet size sought protection under Chapter 11 of the 
bankruptcy code in 2020 and other smaller ACRA members have taken 
similar actions; and,
    <bullet>  In 2019, ACRA member companies purchased one of every 
eight new cars sold in the United States, or 1.74 million vehicles; 
this number dropped to 811,000 in 2020 (a 55 percent decline); while it 
is too soon to forecast accurately the 2021 numbers, new car purchases 
by ACRA members may be reduced significantly in 2021--causing economic 
ripple effects through the entire U.S. economy.
                Federal Relief to Date for ACRA Members
    Four major COVID-19 relief bills have been enacted into law in the 
last 12 months. With respect to the airport ecosystem, the vast 
majority of economic relief included in these laws were directed at 
airlines and their employees and airports. Some ACRA members have been 
able to access the Paycheck Protection Act (PPP)program for small 
businesses initiated by the CARES Act in 2020. On paper, the $600 
billion Main Street Program (MSP) from the CARES Act should have 
provided relief to larger car rental companies, but the Federal Reserve 
Board made less than $4 billion in MSP loans to medium and large 
businesses--none of them to ACRA members--and Congress defunded MSP in 
December 2020.
    The Coronavirus Response and Relief Supplemental Appropriation Act 
(CRRSAA) enacted in December 2020 provided that $200 million of the $2 
billion in airport grants in CRRSAA be used to provide rent and minimum 
annual guarantees (MAGs) relief for airport concessionaires, including 
car rental companies. ACRA has worked with the Federal Aviation 
Administration (FAA) on the implementation of the concessionaire relief 
program and commends the care and speed exhibited by FAA in 
implementing the program.
    The CRRSAA also included a $2 billion grant program for 
``transportation service providers'' (knows as ``CERTS'') for which car 
rental companies are eligible--but as of the date of this letter 
neither DOT and the Department of the Treasury have provided guidelines 
to implement the CERTS program. Car rental companies are regulated 
directly by the National Highway Transportation Safety Administration 
(NHTSA) in several ways, including a federal law prohibiting ACRA 
members from renting vehicles with open safety recalls. As a result, 
ACRA has a strong interest in seeing the CERTS program implemented 
quickly and in a manner that provides an opportunity for ACRA members 
to apply for CERTS grants.
    President Biden's COVID recovery proposal, passed on February 27, 
2021 by the House of Representatives as the American Rescue Plan (ARP) 
(H.R. 1319) includes an additional $800 million in concessionaire rent 
and MAG relief funding recommended by this Committee. ACRA members 
large and small express their sincere appreciation for the support the 
members of this Committee have demonstrated for airport concessionaires 
in the past several months.
    While ACRA applauds the larger concessionaire allocation included 
in ARP, our members hope that in a final bill sent to President Biden 
will follow the same approach adopted in CRRSAA so that the full $800 
million is devoted to concessionaire rent and MAG relief--no matter the 
size of the concessionaire. The CRRSAA approach has proven 
comparatively easy for both the FAA and airports to administer and 
provides more certainty to both large and small concessionaires based 
on the revenues they contribute to our nation's airports.
                         Post-Pandemic Recovery
    As President Biden and this Committee look toward post-pandemic 
recovery for the airport ecosystem, ACRA believes that an Aviation 
Recovery Commission that includes all of the major stakeholders in the 
airport ecosystem will provide an excellent and productive forum for 
government, industry and other stakeholders to come together on 
consensus solutions and recovery plans. ACRA's members are the largest 
non-aeronautical contributors to the financial health of our nation's 
airports and must be included in such a commission.
    If members of the Committee or your staff have questions or need 
further information on ACRA and the American car rental industry, 
please do not hesitate to contact Greg Scott, ACRA's Government 
Relations Representative.
    In advance, thank you for your attention to the information in this 
statement.

    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Mr. Larsen. And before I call on Chair DeFazio, just a 
heads-up that Representative Perry and Representative Davids 
will follow Chair DeFazio. So Perry and Davids prepare, and the 
Chair recognizes Chair DeFazio for 5 minutes.
    Mr. DeFazio. Thanks, Mr. Chairman.
    Mr. Calio, as you noted, there are studies that show, if 
adjacent passengers are wearing masks on a plane, that the risk 
of transmission is very low. Have you heard from the airlines 
since the Biden administration adopted a mandatory rule, and 
are the airlines making announcements regarding that rule? Have 
compliance complaints and problems abated?
    Mr. Calio. Yes, Mr. Chairman, they have. As you know, we 
supported the Federal mandate to back up what we were trying to 
do. It puts it in a different perspective, and it has been very 
useful, and for--you know, in personal experience--and I know 
you have been flying a lot, as well--the quality of the 
announcements has gotten better. I think the quality of the 
enforcement has become easier, because it gives the flight 
attendants and the pilots another tool to talk to people who, 
as I think you put it earlier, like to put the lollipop in 
their mouth or sip on a bottle of water for 6 hours. And other 
passengers don't like that. So it has made a material 
difference.
    Mr. DeFazio. Yes, I wish Mr. Dickson had had the 
initiative, when we asked--about a year ago. But anyway, 
thanks.
    Mr. Lyttle, how about airport compliance after I made the 
request with Mr. Thompson to TSA? Do you feel that airport 
compliance is going well?
    Mr. Lyttle. Yes, and particularly at our airport, we are 
way above 95 percent compliance. And, from what I have heard in 
discussion with the other airports within the industry, 
compliance is extremely high. And people are, in general, 
adhering to the mask compliance. There are a few outliers, but 
that is very rare.
    Mr. DeFazio. Great. And Mr. Calio, your airlines have been 
attempting to begin voluntary contact tracing. How is that 
going with the legal issues and CDC?
    Mr. Calio. We are still in the nascent stages, Mr. 
Chairman, but it is going well. We think it is necessary and 
can work, as long as there is an understanding between us, CDC, 
and CBP about what it takes to make the program operate. And 
providing uniform standards in place, further information, and 
working out the privacy concerns, we think it will be very 
helpful to opening up international markets.
    Mr. DeFazio. OK, thank you. I am going to go off topic for 
a second.
    Mr. Bunce, I have been in touch with the new administration 
regarding the misguided steps of the FCC on the C-Band auction, 
which could lead to RF interference. You know, we might have a 
few planes falling out of the sky, but, hey, people are going 
to have faster access to streaming movies on their cell phones. 
So would you expand on that just briefly, and how critical you 
think it is that we have some action restricting that?
    Mr. Bunce. Absolutely, Chair DeFazio. Thank you for helping 
us call this to the attention of the FCC. Unfortunately, they 
weren't listening in the last Congress.
    And what we are asking for is some very comprehensive 
testing to the impacts, particularly to rare altimeters. We use 
those a lot, both in helicopters and in fixed-wing aircraft. 
And if you recall back to the LightSquared issue that we had 
many, many years ago, interference with the GPS, this is just a 
follow-on to that.
    And we all know spectrum is precious, and we all know it is 
valuable, and we want this country to be very forward-leaning 
with 5G technology and that, but for the safety of the flying 
public and all of us that do fly, we have got to ensure that 
our equipment is not negatively impacted.
    The FAA used to have a very robust frequency spectrum 
manager, who basically was the great authority. After a 
retirement and over time, that has kind of diffused into multi-
offices within the FAA.
    And so we are asking just for some very robust testing to 
be able to help us prove that we are not going to have problems 
with the altimeter equipment.
    Mr. DeFazio. Great. Maybe we should suggest to FAA that 
they appoint a point person on this very critical issue, and 
really get their act together, so we can make a case to a more 
receptive administration and FCC. Thank you, Mr. Chairman.
    Mr. Larsen. So noted. Thank you, Chair DeFazio. I now 
recognize Representative Perry of Pennsylvania for 5 minutes.
    Mr. Perry. I thank the chair.
    Mr. Calio, at one point the Federal assistance to airlines 
was to be contingent upon the airlines agreeing to fully offset 
carbon emissions by 2025--so that is 4 years--and reducing 
their own carbon emissions by 25 percent by 2035, and 50 
percent by 2050. Now, in my view, this appears to be the 
convenient legislative opportunism to re-regulate or refashion 
the airline industry in the wake of the pandemic that you 
raised concerns about in your testimony.
    So the one question is, or the first question is, if the 
Federal assistance was contingent upon such nonpandemic 
factors, how would it have impacted the ability of the airlines 
to weather the crisis?
    And would such a framework have impacted the number of 
employees able to keep their paychecks and health benefits over 
the past 12 months?
    Mr. Calio. Thank you, Mr. Perry. We think it would have 
negatively impacted the number of employees that we could keep 
on. We didn't think it had any place in COVID relief 
legislation that was designed to keep employees on the payroll, 
in which all the money was going directly to employees. And 
there is a place for everything, but putting these kinds of 
provisions--important, in some ways; extraneous in others--on 
that legislation would have had a negative impact.
    I would point out that we were able to successfully fend it 
off because the flight attendants, the pilots, the machinists, 
the airlines all agreed that this legislation was about keeping 
people's jobs, not about trying to make advances on the 
environment, which I have to point out airlines have been doing 
for years to a significant degree, and continue to do today.
    Mr. Perry. And I agree with your answer. Now let me 
continue on.
    Your testimony asks Congress to refrain from adopting 
punitive policies ``that will otherwise cause harm to our 
debilitated industry,'' noting that ``doing so will only 
hamstring our ability to recover and undermine the basic 
underpinnings and purpose of the relief provided to our labor 
workforce.''
    According to the Bureau of Transportation Statistics, fuel 
costs are one of the largest, most variable airline expenses, 
representing between 15 and 20 percent of total expenses. Now, 
given this large share of airline expenses, it would seem that 
punitive policies impact the price of jet fuel, and would have 
particularly devastating effects on the airline industry.
    Industry analysts are projecting that President Biden's 
policies to restrict domestic oil production will put 
inflationary pressures on the price of crude oil. Indeed, the 
WTI crude prices have already increased since the Biden 
administration imposed a moratorium on new oil and gas leases, 
translating into higher fuel costs for airlines.
    At the most extreme end of a potential hydraulic fracturing 
ban, as President Biden has called for in the campaign trail, 
it is projected to more than double the price per barrel of 
crude oil. Even less extreme options, such as extending the 
existing moratorium on new Federal drilling leases, would lead 
to a significant increase in crude oil prices over time.
    So alternatively, the imposition of a low-carbon aviation 
fuel standard or some other alternative aviation fuel 
requirement would misallocate airline resources to higher 
priced fuels, leading to higher overall fuel costs for 
airlines. These just mandates out of thin air, while the 
industry is not prepared to deal with or provide that low-
carbon fuel standard.
    So the next question, can you expand upon the reasons why 
these policies would be contradictory to the purpose of the 
significant amount of relief this committee has provided to the 
industry during the COVID pandemic, specifically focusing on 
the impact such policies would have on the airlines' ability to 
repay the debt incurred during the COVID pandemic, keeping 
existing workers on the payroll, and offering low-priced ticket 
options, as well as keeping existing services level?
    Mr. Calio. Mr. Perry, obviously, fuel costs and labor costs 
are our two most important items. We are sensitive to any 
variation in those prices. If prices of fuel are lower, we can 
do better, flying more people and all of that. So we watch what 
is going on.
    I am not sure that I am capable of forecasting what is 
going to happen, but anything that works to the detriment of 
keeping people in the air and keeping our employees on, has an 
impact. And we are at a--we, the airline industry and the 
aviation industry as a whole--are at a sensitive stage right 
now, a fragile stage. So, we are hoping that people will look 
at the impact of whatever they do, not only on the industry, 
but on the traveling public.
    Mr. Perry. I certainly thank the gentleman, and I yield 
back the balance.
    Mr. Larsen. Thank you. Before I recognize Representative 
Davids, just a heads-up for Representative Mast and 
Representative Titus--they will be next after Representative 
Davids from Kansas, who is now recognized for 5 minutes.
    Representative Davids?
    Ms. Davids. Thank you, Chairman. Well, I think today's 
hearing shows us just how important and wide-ranging the 
impacts of the aviation industry has on our country and the 
world. And, as the Representative from the Third Congressional 
District in Kansas, I have to tout that Kansas is the proud 
home of a very skilled aviation workforce, and that is 
throughout the supply chain, including companies like Garmin, 
Thales, Selex, Spirit AeroSystems, the list goes on; I only 
have a couple of minutes.
    I am really excited, as we look at this flightpath forward, 
about the prospects of burgeoning new sectors. And we heard 
that mentioned earlier during the hearing, particularly around 
Advanced Air Mobility, both because of the tremendous potential 
for new manufacturing in this country in places like Wichita, 
Kansas, and the potential to operate with low or zero 
emissions. And I am hoping that the bill that was also 
mentioned earlier that I am co-leading with Ranking Member 
Graves, H.R. 1339, will help set the foundation for how the 
Federal Government can help work with and promote Advanced Air 
Mobility.
    So I think one of the things I would like to hear about, 
Mr. Bunce, you discussed the importance of the international 
safety cooperation under aviation bilateral agreement. And you 
also expressed a bit of concern about how validation programs 
are working. And I was hoping you could share with the 
subcommittee a little bit more detail around what your concerns 
are, and how this impacts your membership, specifically.
    Mr. Bunce. Thank you, Representative Davids. Our lifeblood 
is to be able to validate products across the globe, and we 
have bilateral partnerships that we have established to trust 
the safety competencies of Europe, Brazil, and Canada, and very 
soon probably the U.K., as they stand back up their 
authorities.
    But when it bogs down--and we know there is going to be a 
natural reaction to all of the certification scrutiny that 
happened over the last year. But what is happening is 
specialists on all the authorities are now diving into things 
that are not new and novel, and that they actually trusted each 
other previously. And what that does is it just really hampers 
the ability to deliver product across the globe.
    And so what we have got to do, collectively, is we have got 
to build back that trust and confidence between the world's 
leading authorities, so that they can basically trust each 
other's work. And once we get that going again--because right 
now, our pathway for validation has been stalled, and we were 
seeing very good improvements up until 2020. And so this has 
been a setback, and we have got to work very diligently to 
bring it back to what it should be.
    Ms. Davids. Thank you, I appreciate that.
    And then I guess I wanted to kind of switch over to a 
little bit--when it comes to the pilot preparedness--and I know 
the requirements, the safety requirements, and that sort of 
thing that Captain DePete, that you had mentioned. I am curious 
about, just going forward, how you view some of the 
requirements that we are hearing about, and what somebody like 
myself, who is not a specialist, should be thinking about, and 
questions that I should be asking when I have the chance to sit 
down with folks from, let's say, the CDC or other public health 
professionals who are trying to come up with what we need to do 
to get people comfortable with flying.
    Mr. DePete. Well, thank you. Thank you, Representative 
Davids, for the question.
    You know, airline travel remains the safest form of 
transportation known to humankind in the history of humankind. 
When you think what we have accomplished--and we have all done 
it by collaborating, I keep hitting on that. And it is no 
different here.
    We have adopted a layered approach to handling the COVID 
crisis. I wish that there were earlier interventions on the 
part of Government to help us along, but when that didn't 
happen, we joined all together, and we created what we think is 
a really good series of mitigations.
    And when you look at possible transmission, say, in the 
instance of a virus, it is very--I mean, out of 1.2 billion 
flights--and this was prior, now, prior to masks being 
mandated--there were very--I mean, like, a minute number of 
transmissions. So we have done a remarkable job, and our 
industry has done a remarkable job of instituting new 
technologies. We have worked with----
    Mr. Larsen. Captain DePete, I need to ask you to wrap.
    Mr. DePete. OK, thank you. I am sorry.
    Ms. Davids. Thank you, Chairman.
    We will talk more about it, Captain. I yield back.
    Mr. Larsen. Thank you.
    Representative Mast from Florida, you are recognized for 5 
minutes.
    Mr. Mast. Thank you, Chairman.
    Mr. Bunce, I don't have a question for you. I just wanted 
to say please tell Megan and Ashley that I say hello. For those 
of you that don't know, he has two daughters that have done 
absolutely yeoman's work in helping injured servicemembers 
recover from their injuries. So just a truly patriotic family. 
I appreciate your work. Say hello to your daughters for me, if 
you would.
    I want to go to Mr. Calio and Mr. DePete for a couple of 
questions here. And this is a little bit of a general question. 
You touched on it just briefly, Mr. DePete, saying you wish 
there had been some interventions earlier. And I look back at 
what some other agencies have said, such as the World Health 
Organization, advising against any sort of travel, or trade 
restrictions, at one point. And I would ask you guys to go 
back, just go back exactly 12 months, so that we can look 
forward for the next time that something like this happens--God 
forbid it should ever happen again.
    Could we have prevented the distrust by traveling 
passengers to want to get on an airline?
    Could we have prevented the businesses not having people 
travel around the country or the world?
    Could we have prevented the $54 billion a year loss, if you 
do the math on what you were saying, $150 million a day, $54 
billion a year.
    What could have actually been done? Could that have been 
prevented, or only limited to some degree?
    I would ask you two to espouse on that a little bit, if you 
could, for----
    Mr. DePete. Thank you for that question, and a very 
important one. Yes, I absolutely would say yes. And that is why 
we support the National Aviation Preparedness Act. We did it in 
the 116th Congress. We are doing it again in the 117th, when it 
is, hopefully, reintroduced, because it is important for us to 
look back and see what we have learned and debrief this as we 
go forward.
    However, let me just say this. Without a standardized set 
of guidelines, it was very confusing, in my estimation, and the 
view of the Air Line Pilots Association, for the flying public. 
Right? Having one clear standard, I think, would have allowed 
us to build trust early, OK?
    And there was a lot of confusion. There was a lot of 
confusion, politically, about wearing a mask, and all these 
other associated problems that we dealt with. So the answer to 
your question is a most definite yes.
    And I think we will be able to do a debrief, once this is 
said and done and recovery is complete, and I think we will all 
be able to learn from it through collaboration and 
coordination. Thank you.
    Mr. Mast. Mr. Calio, I heard you speak. If you want to take 
about 30 seconds or a minute, I do have a few more questions, 
but please respond if you----
    Mr. Calio. Yes, I think we could have done better. There 
was a lot of confusion. It was a new issue, a new pandemic, so 
that is understandable in that regard. But right now, we are 
still sorting through that.
    We have so many different standards within the United 
States and across the world that somehow we need to focus on 
how to standardize this, so people are not confused about where 
they can go, what they can do when they get there, and how the 
rules apply. And that is a current problem. And we have to be 
prepared for that in the future, so we can avoid it, but we 
also need to sort through what is going on right now.
    Mr. Mast. Yes, thank you, sir. And I would go back to both 
of you on this.
    Now, there has been a lot of talk about requirements for 
testing, and I have heard various groups speak out against 
this. However, as you talk about this patchwork that exists 
around the country and largely around the world, whether pilots 
are being detained, or crew being detained for quarantine or 
other things, there are some airlines right now that are 
running apps--I believe Qatar, Emirates, a few others that are 
running apps right now--to verify whether passengers had a test 
or a vaccine.
    Now, let me go on record as saying I do not think that 
these should be requirements at all for travel, a test or a 
vaccine. But with some airlines running apps to track whether 
this has occurred, and talking about standardization at the 
same time, what do you see going on, in terms of the potential 
of a push for that across the aviation industry, which I do not 
want to see?
    Mr. Calio. I think it is something that we are looking at, 
Congressman, in an effort to open up markets and give people 
the freedom to fly. We have some of our members looking at 
apps. We have a set of criteria, which I will be happy to share 
with you offline, about if there is going to be such a thing, 
what kind of standards have to apply and how you would do it.
    All of these things are looking at limited timeframes in 
order to, again, deal with the current pandemic and to open 
markets so that people feel safe and are able to fly.
    Mr. Mast. Thank you, Mr. Chairman.
    Mr. Larsen. Thank you. Before I move to Representative 
Titus, a heads-up--the next two after that will be 
Representative Van Duyne and Representative Payne.
    I recognize Representative Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. I appreciate the 
hearing.
    Mr. Calio, it is nice to see you back in front of the 
committee. It is good to see you, have you here. You have 
talked about how domestic travel is having a relative recovery. 
Businesses and the industries and attractions are all adapting 
to the COVID protocols. But international travel remains 
anemic, due to the restrictions here in the U.S. and abroad. 
Just in my district alone, international travel is down 93 
percent from January of 2020. And I don't have to tell you how 
devastating that is to the economy.
    We know that, although international travelers make up a 
small percentage of the market, when they come, they stay 
longer and they spend more. So it is important. We are moving 
into a new phase of the recovery now, as the vaccines roll out. 
Places are opening up, the hospitality is advertising, ``Come 
back, we are back.''
    At some point, the international travel restrictions are 
going to ease, but I think we still have a public relations 
problem with international travel. We have had 4 years of a 
President who has alienated our allies and our business 
partners, trading partners, and then totally botched the COVID 
recovery. And now we are left here with a bad reputation and 
the worst death rate in the country.
    So I wonder about things like Brand U.S.A. That was created 
over a decade ago as a public-private partnership, and it has 
been very effective. I wonder if you could talk about that 
partnership, and also maybe some of the other ideas that your 
organization and the industry have in order to bring back 
international travel once we get over this situation with the 
virus.
    Mr. Calio. Thank you, Congresswoman. And it is good to be 
before the committee again. I am looking forward to the time 
when I can do it in person again.
    International travel is lagging terribly. And as you know, 
that is probably the most profitable part of our business. And 
so we have tried a number of things in terms of looking at 
testing, looking at contact tracing. We are working with the 
travel industry, in general. We are all working together to try 
to bring it back, to let people know that, at the appropriate 
time, it is safe to come here, and that you should come here.
    That again gets back to, though, this patchwork, 
internationally. We are in close touch with our partners in the 
EU. And within the EU there are all these different standards. 
So it is going to take all of us, with an education process, 
going forward and making people feel welcome.
    Ms. Titus. Thank you, and I think it is a challenge, so let 
us know how we can help with that, and see if we can't beef up 
Brand U.S.A. and other programs like that to get that message 
out.
    Mr. Calio. Thank you.
    Ms. Titus. Thank you.
    Mr. Bunce, I would like to ask you about general aviation. 
In Las Vegas, we depend a lot on general aviation. A lot of 
people come there for pleasure, or for business--or did. You 
mentioned in your talk that your sector is trying to be more 
responsive to your contributions to global climate change.
    One of the things that we have found, unfortunately, is 
kind of a chicken and an egg problem. The manufacturers will 
create a product that uses alternative energy, but then on the 
ground we don't have the infrastructure for refueling or 
recharging. I wonder if you could discuss what role things like 
sustainable aviation fuel and electric airplanes are playing, 
and if you have established a symbiotic relationship.
    Mr. Bunce. Representative Titus, you called it exactly. As 
we look out to the future--and reality gives us the fact that 
we will not have large cabin aircraft running on electric any 
time soon. NASA just released a picture of an aircraft about 
the size of a Q-400, so a large turboprop, and they are saying 
about 2035.
    So, if we are looking at larger aircraft, business jets and 
turboprops, but then on--in the commercial side, we have to 
have sustainable aviation fuel. And that is why your help in 
being able to spur supply for this product is very important.
    As Mr. Calio mentioned, the airlines are very price-
susceptible to that price of fuel. Our sector, in business 
aviation, there is a big effort right now on corporate 
responsibility and sustainability. So there is very high 
demand, and we are able to--although we use a small percentage 
compared to the commercial airlines, we are being leaders in 
the demand for this product, because we know our future is tied 
to being able to fly sustainably.
    And so we are seeing a push in Europe. We are seeing a push 
in the U.S. Demand is high, but supply is just not there, and 
that is where this----
    Mr. Larsen. Mr. Bunce, if you could, wrap up, please.
    Mr. Bunce. That is why that blender's credit is very 
important to us.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Mr. Larsen. Thank you. I want to recognize Representative 
Van Duyne from Texas, a new member of the full committee, and 
this being her first Aviation Subcommittee hearing.
    Welcome to the subcommittee.
    Ms. Van Duyne. Thank you very much, Chairman Larsen and 
Ranking Member Graves, for holding this necessary hearing 
today.
    The district I represent, Texas' 24th Congressional 
District, is home to DFW Airport. It is also home to American 
Airlines. And right outside the district is Southwest Airlines, 
having the largest number of aviation employees in any district 
in the country. DFW Airport is also the number-one economic 
driver for the State, and it became the busiest airport in the 
world during the pandemic. But make no mistake, COVID-19 still 
wreaked havoc on it.
    Two thousand twenty was the worst year for the DFW Airport 
in more than three decades. The 40 million passengers who 
traversed the airport last year were the fewest since 1985, and 
when planes aren't taking off and landing at the airport, it 
isn't just airline carriers being affected. The entire 
ecosystem supports the airport, but feels the pain, from the 
mechanics to the service workers, to the small businesses that 
depend on high passenger volume.
    And obviously, through no fault of their own, the aviation 
industry is hurting. And while the stop-go solutions Congress 
has enacted during the pandemic have been helpful, the only 
long-term solution is opening the skies back up for business.
    I am thankful for our witnesses being with us today, and I 
hope we can work together on this committee to support and not 
harm the industry as it rebuilds after this horrific pandemic.
    Over the last several years, Government regulations have 
really helped erode the passenger experience. We have all seen 
videos over time of families, coming back from Orlando and 
having screaming kids that are kicked off the plane because 
their 2-year-old won't wear their mask. People have a choice to 
travel. And if it is painful, they are going to decide not to 
do that.
    Mr. Calio, I am going to ask you. What effect do you 
believe that mandating flight attendants to enforce constantly 
changing pandemic requirements has had on these recovery 
efforts?
    And do you believe adding additional policing requirements, 
such as mandatory testing, will help or hurt the recovery 
efforts?
    Mr. Calio. Mandatory testing was an easy one, 
Congresswoman. That would be devastating to the domestic 
market.
    In terms of enforcing the face mask requirements, we think 
it is a necessity. And the videos that you see really represent 
a very small portion, a minute portion of what actually goes on 
in day-to-day flights. And there is a lot to every story. I 
can't speak to each one of those, but we do know that it is 
important for all of our passengers to uniformly enforce the 
face mask requirement.
    Getting back to mandatory testing, we are doing it in an 
effort to--because it is scalable, currently, on an 
international level. But if it were to be imposed on a domestic 
basis, it would bring the market to a flat halt.
    Ms. Van Duyne. What do you believe is an approximate 
timeline for a full return to normalcy for commercial airline 
passengers and passenger capacity and revenues?
    Mr. Calio. I would be in high demand if I could actually 
answer that.
    [Laughter.]
    Mr. Calio. But as one of my board members--in fact, Gary 
Kelly from Southwest--said to me the other day, we can plan, 
but we can't forecast. And what he means is the forecasts have 
all been wrong. It depends on so many different variables. Yet 
the airlines have to plan.
    So, you know, you are likely to see, probably, an excess--a 
number of seats in the market over the summer, in case people 
do come back. But if they don't get filled, that exacerbates 
the--I mean, we are thinking--we are hoping that there is going 
to be a significant uptick by the end of the summer and 
throughout the fall. We are not going to see anything close to 
2019, we don't think, until 2023 or 2024. We would like to see 
it earlier.
    You know, we need also--and part of that--leisure travel, 
domestically, will come back first. We need the international 
travel that Congresswoman Titus talked about to come back, and 
we need business travel to come back, where people will go 
again and sit down and cut a business deal face to face.
    Ms. Van Duyne. Excellent. Thank you very much.
    Mr. Calio. Thank you.
    Ms. Van Duyne. Mr. Bolen, like you, I am very concerned 
about the future of health-related regulations for airlines. In 
the full committee's markup on the budget reconciliation bill, 
I was proud to sponsor an amendment that didn't----
    [Audio malfunction.]
    Mr. Larsen. Mr. Bolen, could you mute until the question is 
over? We are just getting some feedback out of your microphone. 
Thank you very much.
    Ms. Van Duyne. Thank you. In the full committee's markup on 
the budget reconciliation bill, I was proud to sponsor an 
amendment that didn't allow funds in the act to go towards a 
program mandating that passengers provide a negative COVID test 
before domestic air travel.
    What are some other regulations we should be worried about, 
both in the short and long term?
    Mr. Bolen. Well, I think that is a good example where we 
were looking at a requirement that was really not something 
that we have an infrastructure to address. And so I think, 
going through this entire process, we have been working on 
things that we can do together, ways to move forward with that 
layered approach that Captain DePete talked about. So we are 
learning as we go.
    But I think it is important, when it comes to mandates and 
requirements, we make sure that we have an ability to actually 
go through with that. And that is why I think the testing 
requirements [inaudible] the domestic level are so important.
    Ms. Van Duyne. All right. Thank you very much.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Larsen. Thank you. And next I will recognize 
Representative Payne from New Jersey.
    Representative Payne, you are recognized for 5 minutes.
    [Pause.]
    Mr. Larsen. Yes, Representative Payne, you are recognized 
for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman. I apologize.
    [Pause.]
    Mr. Larsen. Sorry, Representative Payne, are----
    Mr. Payne. Let's see.
    Mr. Larsen. Yes.
    Mr. Payne. Yes, hello?
    Mr. Larsen. OK, great. Go ahead, yes. Five minutes.
    Mr. Payne. Thank you, sir.
    Mr. Calio, I am deeply concerned about the pandemic's 
effects on the workers at my district's Newark Liberty 
International Airport. These workers depend on the Payroll 
Support Program during this historic decrease in air travel 
over the past year.
    I am pleased that we have taken several steps to extend the 
PSP since the pandemic began, including funds in the American 
Rescue Plan that we passed last week. Can you please share with 
us how PSP has allowed companies to avoid massive layoffs?
    And what steps can we take to guarantee the money continues 
to support workers?
    Mr. Calio. Congressman, thank you. Again, PSP, we believe, 
is the most successful provision in the CARES Act. It has done 
exactly what it was intended to do: it has kept workers online 
and on the payroll. That means they are not collecting 
unemployment, they are paying taxes, paying Medicare taxes, as 
well as Social Security. The program has worked as intended.
    You know, if anything, if it could work better, it ended up 
being 70 percent grants, 30 percent loans. So it covered--you 
know, in the first tranche it covered probably about 70 percent 
of the airlines' costs and keeping their employees online.
    The simplest thing to do is have the Senate pass the 
extension. It will keep people online again until September 
30th, and it will avoid many, many layoffs. It is, again, 
successful at keeping people working and avoiding a lot of 
furloughs and layoffs that otherwise would have had to happen 
because of where demand is.
    Mr. Payne. Thank you.
    Mr. Lyttle, as you know, many of the workers that are 
employed by the airport and not one of the airlines, they can 
be forgotten when talk about financial support and job 
protection is spoken of. What specific supports are necessary 
for all the people who work at the airport and not just the 
airlines' employees?
    Mr. Lyttle. Thank you, Representative Payne. The industry, 
aviation industry, lost about $23 billion last year, and we are 
forecasted to lose $17 billion this year.
    The CARES Act monies that were afforded to us allowed us, 
for example, to provide relief to our concessionaires at the 
airport, but not only the airport concessionaires. That allowed 
us to provide relief to the airlines, to taxi operators, to all 
the concessionaires, basically, at the airport, rental car 
companies, et cetera. That allowed them not to have to lay off 
any employees or to provide furloughs for a lot of the 
employees.
    So it is critical that we continue to get this type of 
support so we can provide this relief to the other tenants here 
at the airport, because our survival actually depends on their 
survival, as well. So we lost about $350 million last year, and 
without the CARES Act we would have had to lay off people at 
our airport, as well, which, throughout the entire 2020, we did 
not have to do any layoffs.
    Mr. Payne. Thank you. And I would just like to remind my 
colleagues that this PSP program, really, it does benefit 
passengers, but it is there to benefit the working people at 
the airports. And let's continue to make sure that everyone is 
considered during this pandemic, and not just the airline 
workers, but everyone at the airport.
    With that, Mr. Chairman, I will yield back.
    Mr. Larsen. Thank you, Representative Payne. And I have got 
to tell you, not everyone can pull off a bow tie with a golf 
shirt, but you certainly can, sir.
    Two announcements: First off is that, in order, we will 
have Representative Stauber, Representative Brown, and 
Representative Balderson; and the second is, although votes 
have not yet been called, there was a note that votes would be 
called sometime between 11:30 and 11:45. Just a heads-up for 
the committee folks.
    So with that I will recognize Representative Stauber for 5 
minutes.
    Mr. Stauber. Thank you, Chair Larsen, thank you, Ranking 
Member Graves, for holding this hearing.
    You know, there are some concerns that that I have. And one 
of them is the CDC still recommends that people delay travel as 
much as possible.
    And then there is the Department of Defense study that 
found--in quotation marks--``overall exposure risk from 
coronavirus is very low''--end of quotation--and that you would 
have to sit next to a COVID-positive passenger for 54 hours to 
get infected with airborne COVID-19.
    Since this pandemic I have had the privilege to fly several 
airlines and out of my hometown of Duluth, Minnesota. I fly 
Delta. And I can tell you that I feel very, very comfortable, 
and not only in the airports, in the smaller airports that I 
frequent, but also boarding the plane.
    I think the airline industry has done a real, real good job 
under difficult circumstances to make sure that the passengers 
and those feel safe. And I can say that it has been almost a 
year now, and I think the airlines have been put in a difficult 
spot, but coming out of it. And I appreciate all the 
professionalism that you have shown.
    The HEPA filters, for example, these are the same filters 
that are in our hospital surgical rooms. And I think that it is 
important that we recognize the advancement made in not only 
aviation safety, but aviation air quality, as well.
    I would like to just make a comment to the fact--and this 
is to Nick. I will ask the question in just a moment, but I 
also want to add that, as Governors across the State, when they 
shut down their entire States, and the flying is limited or 
stated to delay your flying, that is also an economic hardship 
for those aviation workers. My colleague just mentioned the 
workers at the airports and the airlines, they get laid off. So 
there is a double whammy effect. You get laid off, you lose the 
income. So that is putting two negative things that happen. You 
get laid off, economy bad, you lose your income.
    And I think that it becomes a public health crisis, in that 
the secondary effect of a shutdown is poverty. So we have two 
crises going on, not only COVID, but the poverty, because you 
are taking their livelihood away, the ability to make a 
paycheck, which we call paycheck justice.
    I will say this to Nick. I just want to ask you something, 
and I may have talked to you before about this--and others. The 
wearing of the masks is extremely important while you are 
flying. Under the Americans with Disabilities Act and/or 
certain medical conditions--I am just going to give you an 
example. If you had a child who, for instance, has Down 
syndrome, a lower functioning child. Let's say the family goes 
on vacation, and the child can't wear this mask continuously 
because of the disability. How would most airlines respond to 
that, and how many cases has this happened?
    Because I am reading that sometimes with babies or 
whatever, or younger children can't keep them on. But can you 
tell me, if there is a disabled individual on the flights, how 
would you handle that?
    Mr. Calio. Thank you, Congressman. All of our members 
operate in their own way, they all operate within the 
guidelines that the Government has provided. We are in the 
midst of a pandemic, and we hope that it is not going to go on 
forever.
    But again, the members make their own determinations, and 
it is based on the science of mask-wearing, and what they can 
do. But there are guidelines from the Government, and we stay 
within those guidelines as we make a determination about who 
should and who should not wear a mask.
    Mr. Stauber. How about somebody who has a medical issue 
that actually can't put the mask over--let's say they have 
asthma, or something. Would the airlines association request 
that they not fly, or would there be any type of 
accommodations?
    Mr. Calio. Again, that is up to individual members. But for 
right now, I think many are saying that they should not fly. 
And the reason is because we have to protect the health of all 
our crews and all of our passengers. And the determination is 
that you need to wear a mask.
    There is also an aspect of it where other passengers get 
upset if somebody is not wearing a mask.
    Mr. Stauber. Thank you, Nick, and thanks for all the good 
work.
    And I yield back.
    Mr. Calio. Thank you very much, I appreciate it.
    Mr. Larsen. Thank you. I recognize Representative Brown of 
Maryland for 5 minutes.
    Mr. Brown. Thank you, Mr. Chairman. I want to thank our 
panelists for bringing your experience, your knowledge, your 
perspectives and observation to this committee today.
    Captain DePete, I have a question for you. In your 
testimony you mention--this is your written testimony--that 
``central to the rationale for the PSP is keeping pilots and 
other mission-critical employees available to respond quickly 
as demand returns to the industry.'' You say that ``pilots 
cannot simply return from unemployment to operate airline 
aircraft; they are subject to recency training requirements and 
medical approvals and safety clearances.''
    As a former Army pilot, I certainly appreciate and 
understand the idea, the concept of diminishing skills, and 
that time away from the cockpit can contribute to just that, 
and put at greater risk both pilot and crew and passengers in 
flight operations. So, Captain DePete, when a pilot is 
furloughed, how does that impact their ability to get back on 
the job once they are rehired? Kind of share with us a little 
bit about sort of diminishing skills, and why we need to keep 
pilots and aircrews flying.
    Mr. DePete. Thanks for the question, Representative Brown. 
Good to see you again. Great question.
    Thankfully, we can say that, through the hard work of this 
committee, with PSP, you have made that pretty easy for us. We 
haven't really had to deal with that too much. But, you know, 
if March 31st goes by and we don't have a solution, we may be 
looking at more of a problem there.
    But however, the way the training works and the 
certifications work is that, the longer you are out, right, the 
more the training is required to come back in. However, saying 
that, the training is exactly the same. You will be 100 percent 
ready to go and do it again. I mean, we train to the very 
highest standards.
    But I think that is the important thing to realize, is 
that, if we want a rapid recovery, it is so important that we 
get this next installment of the PSP so that we don't have to 
deal with those kinds of issues. Because the longer it takes to 
spool up, if we are faced with an accelerated curve here pretty 
soon, as we begin getting into recovery, we want to be ready 
for that.
    And I would say just ask yourself one question. If it 
wasn't for the PSP, and it wasn't for a healthy airline 
industry, what would COVID have really looked like? It was bad 
enough. But could you imagine if we didn't have the PPE, the 
ventilators, we didn't have those supplies coming in, moving 
healthcare workers left and right, and saving the holidays for 
people to be able to ship things, and food on shelves. I mean, 
it would have been disastrous.
    What I am trying to say, Representative Brown, is you did a 
great thing, and the committee needs to be rewarded for that. 
Hats off to you.
    Mr. Brown. Well, thank you. Thank you for your response. 
Let me go over to Mr. Calio.
    In your written testimony you mention that U.S. airlines 
have implemented multiple layers of measures aimed at 
preventing virus transmission aboard the aircraft. You also 
outlined a number of those today, including strict face 
covering requirements, preflight health forms, enhanced 
disinfection protocols, and hospital-grade filtration systems. 
Can you talk a little bit about the challenges that the 
airlines are facing in sort of implementing those safeguards 
and those measures?
    What has that experience been like?
    Who is primarily responsible for implementing those, and 
what has been the response from the flying public?
    Mr. Calio. I guess I would start at the end, Congressman 
Brown. The response from the flying public has been very good. 
We all know that some people don't like to wear masks, but the 
visibility of the enhanced cleaning procedures has been very 
well received. Knowledge about the HEPA filters has been 
extraordinarily well received, because most people didn't know 
that, or didn't understand that.
    And, you know, it takes more for us. It takes more--you 
know, using our employees more. It maybe takes a little longer 
to turn an airplane around. But these are all measures that we 
view as worthwhile, because of what they are producing in terms 
of the health and safety of our passengers and our crews.
    And like I said earlier, we have leaned very heavily into 
the science. And any decision that is made is based on data and 
science. When we engaged this Harvard study, we made sure it 
was independent. That wasn't always easy. But they made some 
recommendations about ventilation during boarding and 
deplaning. We all now do that now, what they recommended.
    In terms of how we board and how we deplane, we are 
trying--behavioral comes into that, because you can tell people 
to, you know, deplane by the row, but you still have people who 
want to get up and knock you over to get off the plane first. I 
can tell you that from personal experience, I am not that big a 
guy.
    So at any rate, it takes a lot more effort, but they are 
not going away. They are going to be in place forever, because 
they made the flying experience better and safer.
    Mr. Brown. Thank you.
    And thank you, Mr. Chairman. I yield back.
    Mr. Larsen. Thank you. I recognize Representative Balderson 
for 5 minutes.
    Mr. Balderson. Mr. Chairman, thank you very much.
    Thank you for our guests joining us today. My first 
question is for Mr. Bolen.
    How are small business owners and operators recovering from 
the pandemic, and how does their recovery look, going forward?
    Mr. Bolen. Well, I appreciate the question very much, 
because, as I said before, 85 percent of the companies that 
rely on business aviation are small and mid-sized companies. 
And our infrastructure is often in small towns, individual 
airports. And so it is a very fragile infrastructure.
    But the PSP program has been enormously important to us, 
the ability to keep general aviation airports with some degree 
of operational revenues coming in, the opportunity to keep 
aviation professionals who we have invested heavily in for 
their training, to keep them active, all of that has been 
fundamental to our ability to survive the COVID crisis.
    Going forward, though, we need business travel to come 
back. We need the economy to be strong. And we are hoping that 
the steps that we are taking now can get us there.
    Mr. Balderson. Thank you very much, Mr. Bolen. My next 
question is for Mr. Calio.
    Mr. Calio, thank you for being here. We have previously 
discussed the ongoing pilot shortage in the United States. Even 
with the pandemic-related downturn airlines have faced in the 
last year, Boeing predicts North America will need over 200,000 
new pilots by 2039. Do your member airlines remain concerned 
about a shortage of pilots and maintenance technicians?
    Mr. Calio. Thank you, Mr. Balderson. Right now, I would be 
candid and say that our main concern is survival. And the pilot 
shortage is not what it was, given the number of flights that 
are in the air.
    Hopefully flying comes back, and it will be, and there is a 
number of steps that have been taken and are being taken to 
ensure that that pilot supply is plentiful, and that is 
reaching down to schools and educating people about the 
advantages of becoming an airline pilot or a machinist. These 
are really good, good-paying jobs with really good benefits. 
And they last a long time. Our average pay, all the way down 
the line, for all of our employees, is higher than most other 
industries.
    I guess I would make kind of a comment that one thing that 
Congress could look at is, if you can get a student loan to 
become an accountant, why can't you get a loan, or why can't 
the Government back someone who wants to be a pilot? Pretty 
simple matter. Right now, it doesn't exist. So that may be 
something we can talk about that would help ease that pilot 
shortage, going forward.
    Mr. Balderson. A followup, how can the Federal Government 
and your airlines work together to ensure there is a pool of 
qualified individuals in the aviation industry in the future?
    And I think you just brought up a great point.
    Captain DePete, I would also--if you could extend your 
thoughts on that same issue, since Mr. Calio gave a really good 
thought.
    Mr. DePete. Sure. Thank you, Representative Balderson.
    No one is more invested in the future of the profession 
than the Air Line Pilots Association. We have a professional 
pilot development group that consists of our leadership, 
membership, and education committees. We have various LOAs with 
schools around the country to encourage people to come into the 
profession. And we are constantly building and protecting the 
profession to make sure that it is a profession that people 
want to come to. Because when we talk about the word 
``shortage,'' I think we need to ask ourselves a little 
question as to, when this is all said and done, as to why. 
Where are the choke points for that happening?
    When you look at what goes on in the smaller carriers right 
now, there is a tremendous amount of turmoil there. We have 
lost ExpressJet, we have lost Compass, we have lost Trans 
States. It is a very unstable entry point into the industry. So 
we think we need to really tackle some of the bigger issues as 
to what the real reasons for the shortage are.
    And then now, when we do get--how am I doing on time? OK. 
When we do get the recovery going, I think, with all the people 
who took voluntary outs to help their fellow pilots and 
companies to survive, we will need to look at that question. 
But together with what we are doing with professional 
development, our diversity and inclusion efforts here at the 
Air Line Pilots Association, I think we will be in pretty good 
shape.
    Mr. Balderson. OK, thank you very much.
    Mr. Chairman, I yield back.
    Mr. Kahele [presiding]. Great. Thank you, Mr. Balderson. 
The Chair now recognizes Mr. Stanton for 5 minutes.
    Mr. Stanton. All right, thank you very much, Mr. Chair. 
Thank you to each of the outstanding witnesses in today's 
hearing.
    In my home State of Arizona, the COVID-19 pandemic has had 
a major negative impact on two key economic engines for our 
State and region: Phoenix Sky Harbor International Airport, as 
well as Phoenix-Mesa Gateway Airport. After a year in which Sky 
Harbor had a record 46 million passengers, boardings in 2020 
dropped by more than half. We haven't seen that level of 
boardings in over 30 years.
    March is typically one of the busiest months in Sky Harbor. 
Yet with many major events delayed, or with limited attendance, 
recovery continues to be slow. Fewer passengers, of course, 
means less revenue from concessionaire sales and revenue from 
parking, as well as fees from companies operating at the 
airport. Just to break even in this challenging time, the 
airport must reach 80 percent of the passenger boardings it had 
in 2019.
    Even with the support provided to Sky Harbor and other 
airports under the CARES Act and the December COVID relief 
package, the airport has had to significantly trim costs, 
reducing its operating budget by $30 million this year and next 
in anticipation of sustained revenue losses.
    In addition, Sky Harbor has placed on hold 80 percent, or 
$800 million worth of capital projects that were planned for 
the next 5 years. This not only delays much-needed 
infrastructure improvements, but thousands of potential 
construction jobs, as well.
    Similarly, Phoenix-Mesa Gateway Airport has seen passenger 
boardings plummet, concessionaires operating on half capacity, 
and infrastructure projects delayed.
    I have a question for Mr. Lyttle.
    Mr. Lyttle, let's talk about infrastructure at airports for 
the moment. Can you discuss the importance of the additional 
airport funding in the American Rescue Plan to support current 
and future infrastructure projects at your airport and at 
airports across our country?
    Mr. Lyttle. Yes, thank you. The additional funding that we 
are hoping that we will get from the American Rescue Plan is 
going to go a long way to help us. We have a significant amount 
of debt service. These are fixed costs, debt service and 
operating costs, not only at my airport, but airports across 
the industry. We are really looking forward to getting, 
hopefully, that additional $8 billion for the industry.
    We still have infrastructure, major infrastructure 
projects, that we are undertaking right now. Even at my airport 
we have $3.7 billion worth of construction. And we expect that 
traffic will return. The industry has always been resilient, 
and we know that it might take longer for this one, but traffic 
will come back, and we have to make sure that we have the 
facilities in place in order to accommodate the traffic that is 
coming back.
    And so the American Rescue Plan additional funding that the 
airports will be getting will be sorely needed for us to 
continue our operations.
    Mr. Stanton. Thank you very much, and a quick question for 
Mr. Calio.
    As more COVID vaccines are administered, governments around 
the world are exploring the use of digital health passports to 
encourage travel and facilitate a return to normalcy. 
Congressmember Mast asked a similar question, but I wanted to 
follow up on that. What are your thoughts about a digital 
health pass, and what necessary safety elements need to be in 
place before current travel restrictions are lifted?
    Mr. Calio. Thank you. We think that verifiable testing and 
vaccination data is critical to the return of travel. We do 
believe that there are principles that should be applied across 
the board to make this workable and protect the rights of 
passengers.
    We would be happy to brief the committee on where we stand 
on this, because we have laid out a series of elements that we 
think ought to be in place to make these health passports both 
workable and as easy on passengers as possible.
    Mr. Stanton. OK, we will look forward to following up with 
you.
    Mr. Calio. We will do that.
    Mr. Stanton. And there may be an opportunity for you to 
brief this committee, because I think digital health passes 
provide some optimism about speeding up the process of 
returning to normalcy in the industry.
    I yield back.
    Mr. Kahele. OK, mahalo, Mr. Stanton. The Chair now 
recognizes Mr. Nehls for 5 minutes.
    Mr. Nehls. Thank you, Chair. My questions or comments are 
really geared towards Mr. DePete.
    And I want to thank you for what you do, representing the 
59,000 members in the airline industry. Your comments regarding 
this committee, this subcommittee, and the support that you 
have received with the PSP program, this is all about a 
partnership and doing everything we can to keep the airline 
industry and the American people flying.
    My comments or questions are more geared to your written 
testimony as it relates to international travel. And in your 
written testimony you talk about some of the airline employees, 
whether they are pilots or crewmembers. You reference Hong 
Kong, and the horrible conditions, the substandard conditions 
in some of the hospitals where the pilots that have tested 
positive for COVID are locked in some of these hospital rooms 
with other patients in deplorable, substandard--government 
orders for days, one of the employees being detained for 3 
weeks. And you mentioned in your written testimony that you 
believe that the Government should intervene or do something 
about this, and I wholeheartedly support that idea, that when 
American citizens--when your members, employees are in foreign 
countries, and they test positive for COVID, that we should try 
to find a way to help get those people safely evacuated back to 
the great U.S. of A.
    It is not only those that have tested positive for COVID, 
but some of the stories I am hearing regarding employees that 
are flying into foreign countries. An example--I am hearing 
stories about, you know, Tokyo and Seoul, where the pilots and 
crews are being escorted to their hotel, and then they are 
locked in their hotel. And it can be for days, because these 
layovers could be 3, 4, or 5 days.
    Even worse, I have heard a story--and whether--it is 
Sydney, Australia, where police are escorting the crew and the 
pilots to a hotel. They are locked in their hotel room without 
the key, and they can't leave their hotel room. And I can't 
imagine what it would be like to be in that condition for 3 or 
4 days, knowing that you are eventually going to have to take 
the flight back.
    How has this type of treatment overseas affected your 
members? Has it affected the morale, or maybe operations?
    Are you seeing more employees saying, ``I am calling in 
sick, there is no way I am going back to Sydney, Australia''?
    If you could, help me with that. And what can we do to help 
you?
    Mr. DePete. Thank you, Representative Nehls. That is a 
great question. And it is a problem. And you laid it out quite 
well.
    Upon entry of our crews, say, for instance in Hong Kong, 
for example, they are administered a test. If they come up 
positive, they are put in Asian World Expo Center for an 
unlimited time, mixed up with other people who are COVID-
positive. If they are in close contact with somebody who was 
COVID-positive, they are brought to Penny's Bay, another type 
of facility like that.
    There are often times that we have heard from our crews 
that the conditions are deplorable. I have pictures of them 
that you just wouldn't believe.
    In addition, if there is additional testing necessary, they 
are now drawing blood from these pilots, several vials, often, 
in a day.
    This strikes at the very heart and the dignity of work. And 
in terms of the effect on the pilots' morale, it has a 
deleterious effect. I mean, our pilots are now--every time they 
start to let down and enter the airspace, they are wondering if 
they are coming home again. And we do need help. We have been 
talking to our carriers to try to work out a solution. The 
solution is to just stop the layovers in Hong Kong, in that 
specific instance, until the situation improves. And we could 
use the help of the committee, for sure. We can use the help of 
our carriers to consider that, as well.
    But hopefully, in this new administration, we are looking 
for a glimmer of hope in this situation, because these are the 
very people who put themselves in harm's way to make sure that 
those PPE, ventilators, and healthcare equipment came back to 
us. So we do need the help, and I appreciate the question. I 
appreciate that.
    Mr. Nehls. Thank you, Mr. DePete, for that answer. And you 
have my attention, and I hope you have the attention of the 
other members of this committee. But thank you for being with 
us today.
    Mr. Kahele. OK, thank you. The Chair would now like to 
recognize Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you, Mr. Chair, and thank you to all the 
witnesses for joining us today. I want to start quickly, if we 
could--and I apologize if you covered this while I was off--the 
issue of vaccinations for frontline airport workers, in 
particular the TSA.
    I am aware that, at least in Pittsburgh International, 
where I represent, most of them have not had the opportunity to 
be vaccinated. I don't know if the picture looks different 
around the country, but, given the amount of contact that they 
have to have every day, and their importance to our national 
security--are you aware of how that process is going, overall, 
and anything we can do to speed it up, besides just increase 
the vaccine amount, which we, of course, are trying to do?
    And that is just a question for any witness that can tell 
us about progress or challenges.
    Mr. Calio. OK, Congressman, I will take a crack at that.
    TSA workers are, obviously, essential workers. They ought 
to be frontline, in terms of getting the vaccination, in our 
view, just as we believe that pilots and flight attendants and 
machinists should be, as well, because it is all part of an 
ecosystem. And it would be good to lend some rationality to who 
is and who is not a frontline worker. Given the demand for 
vaccination, you can understand the problems, but we do believe 
that we could do better, that the TSA workers ought to be 
frontline, as should our crews.
    Mr. Lamb. I agree. My hope is that, with the addition of 
Johnson & Johnson now, TSA in particular will be prioritized, 
the way the teachers are in some States that are getting those 
additional vaccines.
    My other main question--and there may be a couple of you 
that want to address this--is the area that I come from, 
represent, we still have a lot of steelmakers, a lot of people 
who split their business between defense work and aerospace 
work. And they have seen a big drop-off, obviously, in 
aerospace orders in the past year. My question is, I know that 
we have done a lot to try to support the payrolls of the 
airlines, to try to support the operations of the airports. 
Have we done enough to help companies continue to stimulate 
demand in aerospace manufacturing?
    So to get orders of replacement parts and maintenance back 
online, to get new aircraft back on line, have we done enough 
there, or is there more that you think we can do to help that 
part of the steel and manufacturing industry recover?
    Mr. Bunce. Well, Representative Lamb--this is Pete Bunce--I 
will start. I think if we can get through the reconciliation 
process, this Aviation Manufacturing Jobs Protection Act that 
Chair Larsen and Representative Estes has championed--and I 
know we have good sponsors in the Senate, as well--that will 
help a lot. Because anyone in that supply chain will be able to 
qualify to help bring back those workers. And that is really 
important. As you pointed out, that supply chain stretches all 
the way down to raw materials. And once you qualify as being on 
a certified aviation product, you would qualify for this 
assistance. So it is very important.
    Mr. Lamb. Thank you. Yes, I agree, that is a great piece of 
legislation by Chairman Larsen, and I hope we can get it 
through.
    Mr. DePete. Representative Lamb, this is Captain DePete. I 
didn't get to my mute button, but would you mind if I just 
added my opinion----
    Mr. Lamb. Please.
    Mr. DePete [continuing]. About your first question? It gets 
back to what I just described internationally. The very pilots 
who are tasked with bringing the vaccine home for us, and 
charting the path towards recovery, are not prioritized to get 
the vaccine in such a way. They should be higher, to protect 
the integrity of the effort to get it out to the public.
    So it is just something to consider. I never could quite 
understand how pilots being tasked with doing that are not able 
to be prioritized in higher priority to get the vaccine.
    Mr. Lamb. Yes, I agree that it is a big problem, and my 
hope is it is going to be fixed as the administration continues 
to add millions of doses a week that are being shipped out. But 
we will definitely keep our focus on it.
    Thank you all for testifying today, and I look forward to 
working with you going forward.
    Mr. Chair, I yield back.
    Mr. Larsen [presiding]. Thank you, Representative Lamb. The 
Chair recognizes Representative Massie. But before he is 
recognized--I am sorry--Delegate Norton and Representative 
Fitzpatrick will follow Representative Massie. Representative 
Massie is recognized for 5 minutes.
    Mr. Massie. It looks like my buttons--OK, it is just not 
illuminated. Thank you, Mr. Chairman.
    I want to offer this cautionary tale for anybody who is 
considering the misguided policy of requiring testing before 
boarding a plane domestically. I have some constituents who 
went to Cabo San Lucas. And before returning back to the United 
States, pursuant to the Executive order that went into place on 
January 26th, they took a COVID test. They were asymptomatic. 
They tested positive for COVID. They took another test. They 
took a third test after waiting some time. The family failed 
all three tests, and so they were told to quit testing and to 
wait 14 days.
    Now, this is a family who was able to do that. So they 
decided they would wait 14 days, and then try to board the 
flight back to the United States. But they couldn't get a 
doctor in Mexico to sign off on that. And the airline requested 
that they get a doctor to sign off on the fact that they had, 
pursuant to CDC guidelines, been quarantined for 14 days. So 
they flew to Tijuana, walked across the border to the United 
States, got on an airplane in San Diego, and then returned to 
Kentucky.
    Now, not every family or student or employee could afford 
to do that, but that is the kind of chaos that would ensue, I 
believe, if you had some kind of testing required for domestic 
flights. So I hope we don't do that. And I hope that some kind 
of common sense prevails in the face of this January 26th 
Executive order.
    Mr. Calio, do you have any ideas for how we could clarify 
that Executive order, or implement it so that, if it is going 
to be in place, it could be more workable?
    Mr. Calio. Well, the order that is in place is for 
international testing, and I know you are using it in 
international, but, you know, we support the international 
testing requirement. It is a means of opening up borders and 
making everyone feel, including the governments, more secure. 
But I think the patchwork of requirements makes it very 
difficult and very uneven in its application, and that is one 
of the things we talked about earlier in the need to try to get 
a handle on that, so that these kind of situations do not 
occur.
    Mr. Massie. Got it. Thank you. I hope there is not too much 
enthusiasm for this ``immunity passport'' as a requirement for 
traveling, because I think you made a good case here today that 
the likelihood of transmitting or receiving COVID on an 
airplane is less than being in a supermarket. So if you are 
going to make the case that you need this kind of passport for 
an airplane, then you are basically trying to make the case you 
need it everywhere, and I think that is misguided, especially 
since the CDC says that the vaccine doesn't necessarily imply 
that you won't transmit the virus, or have any sort of 
immunity. So I hope we abandon that idea, as well.
    Mr. Lyttle, I want to ask you about the effect of indoor 
dining bans on concessionaires at airports. Our Governor saw 
fit to ban indoor dining for awhile. And yet you have 
passengers who are in airports--it is not like they have a 
choice that they could go home and eat--who couldn't eat. The 
solution in that case was sort of ridiculous, it was to move 
the chairs and tables outside of the dining area and into the 
common area, and then to serve the airport passengers, and that 
they would eat it out in the common area. Long story short, 
nobody was going home, or not dining.
    Can you talk about the effect the indoor dining bans have 
had on the concessionaires who are already in an extreme 
hardship due to COVID, Mr. Lyttle? And maybe some solutions.
    Mr. Lyttle. Yes, thank you. The ban on indoor dining has 
been devastating. Thankfully, we are back to 25 percent right 
now.
    And what I think the States, for example, need to 
understand is that dining within an airport is different than 
dining outside. Indoor dining actually helps with social 
distancing because, what you are doing, you are actually 
providing an additional space within the restaurant for people 
to social distance. If you do not have indoor dining, but you 
are still selling food and beverages, then everybody actually 
congregates at the hold room area, and it is very hard to 
social distance. So because you are in an airport, you are 
confined. You can't go somewhere else, as if you are outside. 
And I think the States really need to understand that the 
airport dining and retail is really different from outside.
    So it is really devastating when you actually stop indoor 
dining, but it also defeats the purpose, because we are not 
able to do social distancing, because you have taken away a 
substantial portion of the airport that we actually need to 
facilitate social distancing.
    Mr. Massie. Thank you. And I hope the Governors will listen 
to you. I think the ban on dining is ridiculous to start with. 
And if it is meant to discourage people from congregating at 
restaurants, and the only place you can eat in an airport is at 
a restaurant, then it is going to discourage people from 
flying.
    Mr. Larsen. Thank you.
    Mr. Massie. I yield back to the chairman. Thank you.
    Mr. Larsen. I recognize Congresswoman Holmes Norton for 5 
minutes.
    Ms. Norton. Thank you, Mr. Chairman, and I appreciate this 
hearing on COVID's effects on airline travel. And my questions 
are worker-oriented.
    My first question is for Captain Joe DePete. I was 
concerned and actually a little surprised at the increase in 
pilot errors in the past few months. Now, I know it is 
important to keep pilots employed, and to keep them trained. 
Before COVID, what were the training requirements for pilots, 
and have there been any changes in the flying time requirements 
since the pandemic?
    Or how would you account for the increase in pilot errors, 
Captain DePete?
    Mr. DePete. Thank you, Representative Norton, for that 
question. You know, I had not seen the same statistics come 
across, other than a few anecdotal comments in the press from 
time to time.
    However, we have the highest training standards in the 
world, which has led to the safest national airspace ever known 
in the history of aviation. We are the envy of the world, and 
we have done that through constant examination, through a 
massive data collection that has allowed us to actually almost 
have a risk----
    Ms. Norton. Have there been any changes since the----
    Mr. DePete. No, ma'am.
    Ms. Norton [continuing]. Since the pandemic in training at 
all?
    Mr. DePete. No. Qualifications, ma'am, remain the same. And 
we are working with our carriers right now to ensure that we 
get the timely training we need, since there is less flying 
going on at the moment.
    This is of highest priority for us is to maintain our 
currency. And it is by law, I mean, it is by regulation that we 
have to maintain our currency. So----
    Ms. Norton. So the pilots are flying the same number of 
hours each week? I mean, they are not flying as often.
    Mr. DePete. Right.
    Ms. Norton. Now, how many hours would a typical pilot fly 
each week or each month?
    Mr. DePete. Well, they are flying less, overall, but they 
still have to meet the mandatory requirements of our recency of 
experience, so many takeoffs and landings in a given time 
period within 90 days. And it is up to the carrier to ensure 
that the training takes place, and they meet those recency 
requirements, or else we go uncurrent. So----
    Ms. Norton. Well, you say you haven't seen the data we have 
on pilot errors increase in the past few months.
    Mr. DePete. Right.
    Ms. Norton. I am going to ask the chairman to send you the 
data we have----
    Mr. DePete. OK.
    Ms. Norton [continuing]. So that we can have an explanation 
of why there would be an increase in pilot errors, particularly 
with fewer people flying at this time.
    Could I ask you another question, Captain DePete?
    Mr. DePete. Yes, sure, yes.
    Ms. Norton. I noticed in your testimony you touched briefly 
on the power of worker-centered industry relief, and said that 
was more important than corporate trickle-down relief that has 
been employed in previous crises. So I wanted you to elaborate 
on that.
    Would you mind sharing in greater detail why you think it 
is important to keep the workers affected by this crisis front 
and center?
    Mr. DePete. Yes, ma'am. I would gladly--and I will just 
start right there, because I know that the investment in the 
workers, in keeping aviation healthy, is the pathway to 
recovery.
    And to just juxtapose what it was before PSP, if you recall 
back in 9/11, the devastating effect that that had on the 
industry, when there wasn't a worker-forward, PSP-type package 
like the CARES Act provided initially, and the subsequent PSP 
payments, but the--back then, it was the Airline Transportation 
Safety Stabilization Act that formed a stabilization board. And 
the result of that exclusively being aimed at the industry and 
not at workers resulted in 50 bankruptcies and givebacks from 
workers--$83\1/2\ billion, including the very retirement 
security of many of those workers.
    So it was a colossal failure, and that is why I have to tip 
my hat to this committee to say that PSP is, without a doubt, 
the most historic worker-forward, critical bridge to recovery. 
I think it showed great thought and planning. And it is the 
road, because if we do not have a healthy----
    Ms. Norton. Could I get one more question in?
    Mr. DePete. Yes, ma'am.
    Ms. Norton. I was very concerned about what I read about 
traffic levels.
    Mr. Larsen. Congresswoman Norton, that is 5 minutes. If you 
want to ask the question, and we will take the answer----
    Ms. Norton. Yes. Actually, it is for Ms. Krause.
    Mr. Larsen. Unfortunately, we will have to take the answer 
for the record. So you can ask the question, we will take the 
answer for the record.
    Ms. Norton. OK, so let me get the question in, then. She 
testified that the levels may not occur--and I think this is 
very important, if this committee could find out--that traffic 
levels may not occur until 2023 or later. I think this 
committee needs to know how she came to that notion. We see 
already the progress that has been made--and that is 2 years 
from now for traffic levels in air travel. And I think this 
committee needs a response to that question. If you would 
submit that question to Ms. Krause, I would very much 
appreciate it.
    Mr. Larsen. Thank you very much. We will do that.
    Ms. Krause, you have that question for the record.
    And with that we will now move to Representative 
Fitzpatrick, followed by Representative Garamendi and 
Representative Burchett.
    Representative Fitzpatrick, you are recognized for 5 
minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman, for calling this 
very important hearing. Thank you for the panelists, for your 
time. My first question is for Captain DePete.
    Sir, I recently reintroduced H.R. 911. Congress had 
previously passed this legislation that--Congress passed a 
requirement for the installation of secondary barriers on new 
aircrafts, and my bipartisan bill seeks now to make all 
commercial passenger aircraft have this important safety 
measure. Are secondary barriers still a necessary security 
tool, in your opinion?
    As you know, sir, this was one of the 9/11 Commission 
recommendations [inaudible].
    Mr. DePete. Representative Fitzpatrick, thanks for that 
question. And thank you for your leadership on this issue over 
the years. I know you see the value of this.
    And, yes, we are extremely frustrated at the lack of 
progress. It is ever more important that we have secondary 
barriers to preserve the reactionary gap when that door is 
opened, to protect our flightcrews and the folks on the 
airplane. PIC has the responsibility for the safe and secure 
conduct of our flight.
    And when you consider that this was in the FAA 
Reauthorization Act of 2018, 115-254 was the Public Law, and we 
still--I remember being part of this re-examination to take a 
look at it again, where they basically started with, well, what 
do we mean by a secondary barrier? That is how bad it got.
    My hope is that--I think there are many that share this 
frustration--with this new administration, we can urge them to 
move forward and get this taken care of. I mean, it is a long 
time coming. Thank you.
    Mr. Fitzpatrick. Thank you, Captain DePete. And secondly, 
regarding the PSP, I am a big believer in the program and 
extending it. And if you, sir, could just state for the 
record--we may have covered this ground, but I want to make 
sure it is on the record----
    Mr. DePete. Sure.
    Mr. Fitzpatrick [continuing]. You know, how this program 
has helped and benefitted your pilots.
    Mr. DePete. Well, it has helped us by having a worker-
focused effort for payroll and benefits to keeping people 
connected with healthcare and off the unemployment insurance 
rolls, supporting and contributing still to the economy, and 
providing a pathway to recovery. Because there is no recovery 
without a healthy airline industry. And PSP, like I keep 
saying, it was just a historic lifeline, not only for workers, 
but for our country.
    Mr. Fitzpatrick. Thank you, Captain. Thank you for all you 
do to keep our airways safe. We appreciate your work, sir.
    One last question for Mr. Calio.
    Sir, if you could, also for the record talk about the PSP 
program, and what it has meant to the airline industry on the 
whole.
    Mr. Calio. Thank you, Congressman. The program was and is 
an unmitigated success. It allowed us to keep our workers on 
payroll. As Joe has indicated, it kept them out of the 
unemployment lines, paying taxes, spending money, and, most 
importantly, up to date and ready to help the recovery.
    The flightpath to recovery is going to require airline 
workers and airlines to be able to fly people and packages. 
And, you cannot overlook the fact also, as has been mentioned 
before, flying around the PPE, the vaccines, and all of that. 
So the program has gone to keep people on the payroll. The 
airlines were more than happy to act as the Federal 
Government's and the State and local government's unemployment 
office, because it was a lot better than the alternatives. And 
keeping these people on and happy and employed is critical to 
us, because they are the backbone of our industry.
    Mr. Fitzpatrick. Thank you, sir. Thank you to our 
panelists. We really appreciate all you have done for the 
industry. It is always a tough job you have. It has been 
especially challenging during COVID. So just know you are 
appreciated.
    I yield back, Mr. Chairman.
    Mr. Larsen. Thank you. We are waiting for Members to return 
from votes, but I want to ask if Representative Eddie Bernice 
Johnson from Texas is on.
    No? All right. Representative Johnson from Georgia?
    All right, we will go with, then, back to the GOP side, and 
Representative Gimenez from Florida, you are recognized for 5 
minutes.
    Mr. Gimenez. Thank you, Mr. Chairman. And I represent 
Miami-Dade County, and in Miami-Dade County, Miami 
International Airport is the number-one economic generator in 
Miami-Dade County. It supports probably over 300,000 direct 
jobs or indirect jobs. So aviation is vitally important to us. 
So I have got a question for Mr. Calio.
    From the height in 2019, what has been the drop-off in the 
number of flights around the country, percentagewise?
    Mr. Calio. Fifty percent.
    Mr. Gimenez. So we are now operating around 50 percent 
capacity?
    Mr. Calio. No, we are actually operating at less capacity, 
in terms of passengers who are flying. We are flying about 40 
percent of the passengers that we did in 2019. And we are 
operating at about 50 percent of the flights that we did in 
2019.
    Mr. Gimenez. And you expect us to be back to somewhat 
normal in 2023, 2024?
    Mr. Calio. We sure hope so. If it comes sooner, so much the 
better.
    Mr. Gimenez. OK, let's talk about--what percentage of your 
passengers in 2019 were actually business travelers?
    Mr. Calio. Congressman, I can get that to you. I don't have 
it off the top of my head. But significantly more than we see 
now. Business travel is off really substantially, as is 
international travel. A lot of the international travel was 
made up of business travelers. So that usually lags in past--
both after 9/11 and after the financial crisis, the business 
travel lagged leisure travel in coming back.
    Mr. Gimenez. Do you think that with--look, what we are 
doing right now, normally you would be sitting in this Chamber, 
but you are not. Do you see a significant drop-off in business 
travel just because the COVID-19 has changed the way that we do 
business? Do you see that as having an impact on the airline 
industry?
    Mr. Calio. Potentially, it can. Our hope is that it won't, 
because I think a lot of people--I personally think a lot of 
people still like to do business face to face. There is a lot 
of Zoom fatigue going on right now. And so I think that 
business travel will come back, it is just going to take time.
    Mr. Gimenez. Let's get back to international travel. At 
MIA, the airport that is in the county that I represent, 50 
percent of the air travel is international in nature. When do 
you expect that to start to come back?
    Mr. Calio. That depends on what happens with vaccinations 
and quarantines and international testing. Right now, we still 
face this patchwork. As I mentioned earlier, you can't get the 
countries within the EU to agree with the European Commission. 
We have our own--we are trying to do bilaterals to encourage 
people to go ahead and fly.
    You know, you have got to be able to fly somewhere and then 
have something to do and somewhere to stay. The notion you are 
going to fly and spend 7 to 10 days in a hotel without being 
able to go out is not very conducive to making the trip. So it 
remains to be seen.
    Again, hopefully, as we get the virus under control, as 
vaccines ramp up, things will get better. But we can't forecast 
when. We do expect it is going to be some time.
    Mr. Gimenez. Is the airline industry doing something on an 
international basis to try to get some sort of international 
accords on getting back to normal, what it would take for 
international travel to resume again from country to country? 
Say, does the United States have something with the European 
Union?
    I know, you told me right now, they are a little bit 
disjointed. Is there any way that we can help to try to unify 
this, and try to get a concerted strategy on how to get 
international travel started again?
    Mr. Calio. Well, the administration has been a willing 
partner, Congressman, and working on the testing and on health, 
for the vaccine requirements. And we think that is--starting, I 
guess, you know, you have--you need to start small, and that is 
on a bilateral basis, which we have done with the U.K., 
Germany, the Netherlands, so far, among others. And we are 
going to continue on that basis.
    And that is a matter of we, as the U.S. airline industry, 
are working with individual countries. We are working with the 
European Commission, and we are working with our Government. A 
concerted effort on the part of all those governments to work 
together to open up those markets safely is what is actually 
needed.
    Mr. Gimenez. And how can you accomplish that?
    Mr. Calio. Apparently, slowly. I would like to say 
otherwise, but it takes a lot of work because everybody is 
making their own decisions. It is just like within the United 
States, there are multiple jurisdictions with multiple 
quarantine requirements. There has to be a look at the whole 
picture. It is very difficult when----
    Mr. Gimenez. Thank you very much. I am out of time, and----
    Mr. Calio. OK, sir.
    Mr. Gimenez [continuing]. I yield back.
    Mr. Calio. Thank you for your questions.
    Mr. Larsen. And thank you, Representative Gimenez, and I 
wish every Member would respond like that to a gavel. I 
appreciate it.
    Mr. Gimenez. I try to follow the rules, sir.
    Mr. Larsen. I think we are still waiting for folks to come 
back from voting, but I believe Representative Van Drew from 
New Jersey, his camera is on. If Representative Van Drew is 
available----
    Mr. Van Drew. I am, I am here.
    Mr. Larsen. Great, Representative Van Drew, you are 
recognized for 5 minutes.
    Mr. Van Drew. Thank you, Chairman. COVID has decimated 
America's aviation industry. We, as a Nation, must make robust 
upgrades to airports and aircraft across the country. We must 
adapt to COVID and build a stronger air travel system that is 
more resilient to all communicable diseases. This process must 
be led by the industry, but the Federal Government has an 
important role to play in establishing clear, national 
standards.
    My Health Smart Air Travel Act establishes a program that 
will have the Federal Government work with industry 
stakeholders to test technologies, identify best practices, and 
clarify policies so that we can modernize air travel. My 
legislation has been carefully crafted and has broad industry 
support. If enacted, it will ensure worker safety, restore 
consumer confidence, and put American aviation on the pathway 
to recovery. I will be reintroducing the Health Smart Air 
Travel Act in the coming weeks. I urge my colleagues to support 
this legislation in a bipartisan way, and to get us flying 
again.
    To Director Krause, Director Krause, in your testimony you 
say several airports you interviewed told you that they expect 
a range of new technologies and processes to be implemented 
across the air travel experience to make flying safer for the 
public, some of which could benefit from Federal Government 
evaluation and Federal Government support. Would a Federal 
program designed around partnering with industry stakeholders 
to develop, test, and evaluate public health risk mitigation 
technologies in airports and aircraft help address the needs of 
the airports that you previously interviewed?
    Ms. Krause. Thanks for the question. Yes, we spoke to a 
number of airports, and they are pursuing or considering and 
implementing a number of different technologies, a lot of 
touchless options, biometrics, UV disinfection, as well as 
different ventilation systems. It is important that these 
technologies be evaluated and tested to ensure their 
effectiveness, and also their risk mitigation effectiveness, as 
well.
    You know, we are looking--to your question on the Federal 
role, we have some work ongoing for this committee, looking at 
DOT and FAA's role in supporting aviation or any research 
improving safety for the air travelers, as well as getting a 
sense of what R&D has been done, what R&D is needed, and what 
is FAA's capacity to support that research.
    Mr. Van Drew. OK, thank you very much.
    Chairman, I yield back.
    Mr. Larsen. Thank you, Representative Van Drew. Again, we 
are still waiting for Members to come back and have that 
opportunity to ask questions, so I will formally go into a 
second round of questions, because there are a few things I 
want to get asked on the record.
    First off for Ms. Krause, Congresswoman Holmes Norton asked 
a question earlier about the assumptions that GAO used to come 
up with its 2023-2024 timeframe for return to travel. Could 
you, for the record, discuss those assumptions now?
    Ms. Krause. That is based on a number of forecasts that we 
have seen. And that is really, when you talk about 2023-2024, 
that is to get to the prepandemic levels of 2019. A lot of that 
is driven by--I mean, certainly there has been some promising 
trends when it comes to domestic travel in some of those leader 
markets.
    But the big driver, as other panelists have discussed, is 
really on the international travel and business travel, and 
when that is coming back. And there are a number of factors 
that play into that, different nations' public health responses 
and increasing public confidence in making those types of 
trips.
    Mr. Larsen. Thank you.
    Mr. Calio, a question for you. There was a report that CEOs 
of several U.S. air carriers recently met with Gina McCarthy, 
the head of the National Climate Task Force, and other key 
administration officials to discuss your industry's efforts to 
combat climate change. We had some questions earlier about that 
issue, but what priorities do you think the A4A members, 
carriers, share with the current administration on reducing 
emissions in the aviation sector?
    And when I ask about the priorities, I don't necessarily 
mean goals. I guess I am focused more on the actions that you 
would share, Mr. Calio.
    Mr. Calio. Thank you. Thank you, Mr. Chairman. We have a 
sustainability climate as a very, very significant priority. We 
have for many years. We have made great progress over the last 
30 years, but we realize there is more progress to be made.
    What is interesting is that we have our board meeting 
actually this week, our March board meeting. And last year in 
March, March 2nd or 3rd, we had a half-day retreat with all of 
our board present, and spent the entire afternoon talking about 
our position on climate change, and what more we could do. 
Within a couple of days, the results of that retreat didn't go 
out the window, certainly, because our members have continued 
to work, as have we, but survival became a priority.
    We are refocused. We have, like I said, our board meeting 
this week. A very significant amount of time is going to be 
set. We did have that meeting last week. We thought it was a 
good meeting. Everybody is on the same page. And, as we told 
the administration, we want to be part of the solution, and we 
want to work with them.
    Mr. Larsen. Just to follow up on that, the EU has set some 
pretty aggressive goals on sustainability in aviation. Would 
your industry consider those efforts in Europe a challenge, a 
threat, or a folly, or something in between?
    Mr. Calio. I am having a little bit of difficulty spooling 
up exactly what they have done, Mr. Chairman. So, if I may, can 
I get back to you on that?
    Europe has been very aggressive, and--I am going to be 
really candid--in many ways they don't value air travel perhaps 
as much as we do, because of the distances between countries. 
So they have often pushed forward without consultation with the 
industry. And I think whatever you put in place ought to be 
something that you think can work and can be achievable.
    Mr. Larsen. Yes, thank you.
    Mr. Bolen, on the theme of sustainability and thinking 
about future recovery, you touched on this in your comments, as 
well as your written comments, about the role that Advanced Air 
Mobility plays in addressing issues of congestion and so on. 
Could you expand on that a little bit, and why that is 
important to you all, as NBAA, Mr. Bolen?
    Mr. Bolen. Well, certainly mobility, that ability to get 
people and products where they need to be, when they need to be 
there, is fundamental to our Nation's transportation system, 
and fundamental to our economy.
    I think there is a lot of excitement about the vehicles 
that utilize electric propulsion, hybrid propulsion, and 
perhaps hydrogen propulsion. I think the opportunities there 
require us to look at our infrastructure, which is a very 
strong airport infrastructure with over 5,000 public-use 
airports in the United States, but recognize that we want those 
to be available to accommodate future uses, and that includes 
air mobility aircraft, but it also includes ultra-long-range 
aircraft flown halfway around the world, consistently doing so 
in a more sustainable way and perhaps even at supersonic speeds 
in the future.
    So there is a lot of technology coming to the market. I 
think we have an infrastructure we can build on, but we want to 
make sure that we are building an infrastructure for the 
future.
    Mr. Larsen. Thank you very much. I will just ask if there 
is another Member on the GOP side available.
    Apparently, no. OK, then I am going to recognize for 5 
minutes Representative Kahele from Hawaii.
    Representative Kahele, you are recognized for 5 minutes.
    Mr. Kahele. Thank you so much, Chair, and I really 
appreciate, Chair, you holding this committee today. My 
question is for Captain DePete, and it expands on Captain 
DePete's testimony and also previous questions from other 
Members that I don't want to repeat again. And it touches on 
the Payroll Support Program.
    Because of the efforts of this committee and the previous 
Congress and what they have done for the industry, we have 
avoided mass furloughs and mass layoffs of the aviation 
industries, and specifically members of ALPA and the almost 
60,000 pilots that work for our U.S. domestic carriers.
    Now, many of those pilots have been able to keep their jobs 
and continue to receive their paychecks and their healthcare 
benefits for them and their families, and avoid extended leaves 
of absence or times when they wouldn't be able to fly because 
they have been granted a leave from the company. And obviously, 
from Mr. DePete's testimony, he talked about how difficult it 
is to bring a pilot back, to get them requalified, to get their 
security clearances, their badging, their currency, to get them 
flying again. And so the best thing we can do is continue to 
keep them with the company and on the payroll.
    But what ends up happening is PSP allows airlines to do 
that. But for the last, let's say, 9 to almost 12 months, many 
of those pilots who have continued to stay on the payroll 
haven't been able to fly. A small percentage of them have 
continued to fly, but many of them have not continued to fly, 
and have either maintained basic currency in a simulator or 
through their annual recurrency training requirements.
    So my question is what can we do to ensure that pilots that 
are on the books, continuing to be employed, but are unable to 
fly because we are just not flying airplanes, how can we, as a 
Congress, work with the industry to keep these pilots current 
and, more importantly, proficient?
    We know consistency is key to flying. You can't just get in 
a plane, after not having flown for a period of time and not 
lose some of those specific skills and training that we have. 
And so my question is for Captain DePete, what can we do for 
those pilots and the thousands of them across the country who 
are not flying, and are slowly losing some of those critical 
skills and technical skills that they have in the cockpit?
    Mr. DePete. Thank you, Representative Kahele. And it is 
great to see you in the seat. Congratulations, again. Great 
question.
    We hear from our pilots all the time about this. And ALPA 
is, as you know, actively involved in working with our carriers 
because, obviously, the training houses right now are pretty 
full, as we deal with the reshuffling as a result of some of 
the early outs that were taken.
    But we believe that as pilots, we are probably our own 
worst critics, right? We always want to stay at the top of our 
game. There is no substitute for the minimum of two well-
trained, experienced, well-rested pilots out there. But you are 
right, there are a lot of pilots who reach their own personal 
limit to say, you know what, I need to get back in the 
simulator again, or, I need to go out on a line, maybe with a 
line check airman again.
    And we have been working through our training council. We 
have a training council that actually has input from all our 34 
airlines. And we are working with our carriers to ensure that 
any pilot who wants to do more than just the normal check rides 
that we get, but wants to do more for proficiency, has access 
to be able to do that. So that is one of the areas, and we 
would like the support for that.
    Mr. Kahele. Great. Yes, like you said, Captain DePete, 
sometimes those three takeoff and landings every 90 days just 
doesn't cut it. And if we can get in the simulator more, or we 
can get a little bit more training, that will help. The most 
important thing for all of our airlines and America's aviation 
infrastructure, and that is safety.
    [Pause.]
    Mr. Larsen. The gentleman yields back?
    Mr. Kahele. Thank you, Chair.
    Mr. Larsen. Thank you. So with that, I think that is a 
great way to end this hearing on COVID-19's effects on U.S. 
aviation and the flightpath to recovery.
    I want to thank the panelists today, just for the sheer 
numbers of Members who were interested in participating. It 
shows that we have a keen interest on ensuring continued 
support for aviation and aerospace industry recovery. Recovery 
is multifaceted. It is likely to occur faster in some areas of 
aviation and the aerospace industry than in others, which means 
that we will need to continue to pay very close attention to 
the industry and to the women and men, importantly, who work in 
that industry.
    As well, we were able to discuss some of the future of 
aviation and what might be some of the next steps that we will 
need to take to be supportive of continuing job growth in this 
industry. And that is likely to be a subject of a future 
hearing, as well.
    So with that, no further questions from the Members?
    Seeing none, I want to thank the witnesses again for your 
testimony. Your comments have been informative. They have been 
very helpful.
    And I ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may have been submitted 
to them in writing.
    I also ask unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    And with that, the subcommittee now stands adjourned.
    [Whereupon, at 12:49 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              

  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Larsen and Ranking Member Graves, and thank you to 
our witnesses for being here today.
    The COVID pandemic over the last year has had widespread and long-
lasting effects, including a significant shutdown of the U.S. economy.
    Today's hearing will focus on the pandemic's impact on the aviation 
industry, what recovery will look like, and how Congress and industry 
can best support that recovery.
    Fortunately, it does appear that things are improving.
    But, as all of us are painfully aware, the country is still dealing 
with the pandemic, and air travel remains below last year's levels.
    Congress, in a bipartisan effort, authorized $113 billion over five 
different legislative packages to support different sectors of the 
transportation industry to ensure that workers stay on the job and that 
businesses stay afloat.
    This assistance included relief totaling $60 billion for airlines, 
airports, and aviation contractors.
    While Government assistance has been important to helping the 
aviation industry through this historic pandemic, recovery will take a 
significant amount of self-help and adjusting to the new, post-COVID 
realities.
    Many analysts believe that there is pent-up demand for travel. I 
couldn't agree more.
    We have all been shut in for a year now, and I am hopeful that with 
the increasing levels of vaccinations, the public will become 
comfortable with traveling again this summer.
    That will be key in the overall pandemic recovery.
    I am interested in hearing about what our witnesses think the 
industry's recovery is going to look like, what efforts they are making 
to remain resilient, and how we can work together towards a fast, but 
safe recovery in the coming months.
    Thank you, Chair Larsen. I yield back.

                                 <F-dash>
 Prepared Statement of Hon. Steve Cohen, a Representative in Congress 
                      from the State of Tennessee
    Thank you, Chairman Larsen and Ranking Member Graves, for putting 
together this important hearing, and thanks to all the witnesses for 
being here today.
    The aviation industry has been devastated by the significant 
decline in air travel because of COVID-19, and our Committee has 
responded to resuscitate the industry, providing billions of dollars in 
aid.
    As we begin to look at the flightpath to recovery, though, I 
believe it is critically important that we not overlook the industry's 
consumer: the flying public.
    Since the start of COVID-19 lockdowns, U.S. airlines' de facto 
policies have been to waive change fees and offer or extend vouchers. I 
believe that this has been woefully inadequate.
    Millions of Americans will no longer take trips they booked in good 
faith. Conferences, conventions, weddings, graduations, and family 
reunions were canceled, not postponed.
    In this economic crisis, consumers need the cash they extended to 
airlines, which have sat on more than $10 billion in interest-free 
loans for more than a year (in addition to taxpayer-funded relief).
    Existing USDOT refund regulations are insufficient and contain 
numerous loopholes.
    For instance, a refund is only issued when a person's flight is 
cancelled or significantly changed, not when an individual cancels 
because of COVID-19 concerns.
    Even worse, Consumer Reports' analysis of ten U.S. airline vouchers 
found nine different policies. The language is confusing, hard to find 
and often contradictory.
    And due to the federal preemption clause in the 1978 Airline 
Deregulation Act, the USDOT and Congress provide the ONLY protections 
for air travelers. State legislatures, state attorneys general, and 
even state courts cannot intervene on behalf of consumers.
    Last Congress, I introduced the Cash Refunds for Coronavirus 
Cancellations Act with Senator Markey and Representative Underwood.
    Our bill would offer full cash refunds for all cancelled tickets 
during the coronavirus pandemic, regardless of whether the airline 
cancelled an entire flight or the passenger cancelled their individual 
ticket.
    COVID-19 has not gone away--many people are still hesitant to fly 
and should not be punished or have their money withheld to protect 
their health and safety.
    It is clear that we need to continue working on this issue.

                                 <F-dash>
Prepared Statement of Hon. Michelle Steel, a Representative in Congress 
                      from the State of California
    Thank you, Chairman, Ranking Member, and the witnesses today.
    Orange County is home to some of our Nation's greatest community 
colleges, including Orange Coast College (OCC), located in Costa Mesa, 
CA.
    OCC has numerous distinguished opportunities for post-high school 
graduates to obtain a cost-effective degree and find employment 
thereafter.
    This college, located in my District, has many career-advantage 
programs in aviation including fields in aviation maintenance 
technology, aviation science, and airline travel careers.
    Unfortunately, our students, in general, have been struggling 
during COVID-19 to finish school and find employment opportunities.
    To help students complete their credits and graduate in ample time, 
as the Chairwoman of the Orange County Board of Supervisors, I helped 
reopen OCC's career advantage programs, especially in academics 
pertaining to aviation.
    I have continued down this path with my colleagues in Congress to 
ensure our schools safely reopen so our students have the proper tools 
and resources for long-term success.
    With this in mind, colleges like OCC, are continuing to diversify 
its career cluster programs.
    Gaps in the aviation workforce need to be addressed and additional 
partnerships between industry and educational institutions are 
necessary to ensure our students are on the right flightpath for 
success.
    I look forward to working with my colleagues in this subcommittee 
and the aviation community to ensure our businesses have the 
opportunity to grow and this includes bridging the skills gap.

                                 <F-dash>
 Statement of Faye Malarkey Black, President and CEO, Regional Airline 
       Association, Submitted for the Record by Hon. Rick Larsen
    The Regional Airline Association (RAA) thanks the U.S. House of 
Representatives Committee on Transportation and Infrastructure, 
Subcommittee on Aviation for holding the hearing titled, ``COVID-19's 
Effects on U.S. Aviation and the Flightpath to Recovery.'' RAA submits 
this statement for the record to inform the Committee on the status of 
the regional airline industry, share with it the actions the industry 
is taking to safeguard our crewmembers, passengers, and support 
partners in response to the COVID-19 pandemic and highlight some of the 
actions we believe will be critical to preserving air service to our 
nation's smaller communities.
    At the beginning of 2020, US regional airlines employed nearly 
70,000 workers and operated about 40 percent of our nation's 
departures. Most importantly, regional airlines provided the only 
source of scheduled, commercial airline service to more than two-thirds 
of our nation's airports. Without regional airlines, these airports 
would lose their connection to the global air transportation network. 
Before the onset of the global pandemic, regional airlines had moved 
from a period of industry contraction into a period of growth, and by 
the end of 2019 were operating more departures and carrying more 
passengers than ever before. Alongside this regional airline industry 
growth, smaller communities were gaining or restoring air service. This 
is not surprising, as the health of regional airlines and that of the 
small communities they serve is closely interconnected. Unfortunately, 
regional airlines are among the many businesses the pandemic has hit 
especially hard, and as a result, small community air service is at 
risk.
    On behalf of our membership, I want to thank this Committee, along 
with the Senate Commerce, Science, and Transportation Committee and 
House and Senate party leaders for their leadership in providing over 
$75 billion in relief for air carriers in the Coronavirus Aid, Relief, 
And Economic Security (CARES) Act and the Consolidated Appropriations 
Act, 2021. Additionally, we are grateful that H.R. 1319, American 
Rescue Plan Act of 2021, contains $15 billion for air carrier and 
contractor worker support. To date, such funds have played a key role 
in helping to preserve jobs and support air service.
    We particularly appreciate this Committee's support during the 
initial design of the CARES Act, in ensuring regional airlines could 
access payroll support grant programs. This crucial support has been a 
lifeline for tens of thousands of regional airline workers. The 
program, which came in the form of payroll assistance, has helped 
regional airlines meet the critical priorities of protecting their 
workers and maintaining safe connectivity for smaller communities. 
However, some carriers, including several regional airlines, saw a 
substantial portion of those grants turn into surprise loans, which 
they must repay. This means carriers surviving the pandemic will emerge 
weaker on the other side, with strained resources. Additionally, most 
regional airlines still have no access to programs outside of PSP to 
support their operating costs. Although the CARES Act created another 
program to meet this need--the Air Carrier Loan Program--most regional 
airlines were unable to use that program. Regional airlines' unique 
business models, which involve long-term, fixed contracts with major 
air carriers, limit the ability to generate excess cash flow to 
extinguish debt. Additionally, many regional airlines lease or sublease 
equipment and do not have substantial unencumbered assets with which to 
collateralize loans. Despite this Committee's clear directive to 
protect small community air service, the Department of Treasury (USDT) 
declined to utilize its authority under the CARES Act to make unsecured 
loans so that smaller carriers could participate. For these reasons, 
most regional airlines were unable to access the Air Carrier Loan 
Program to help save their businesses. Unfortunately, five regional 
airlines ceased operating last year under the pandemic's influence and 
without the ability to access the more diverse range of support 
accessible to larger air carriers. This inequity, which threatens small 
community air service and has decreased competition, has yet to be 
addressed.
    At the same time, business harm continues under the pandemic. Last 
month, Airlines for America, the trade association for the major 
airlines, announced that for the week starting January 31st, revenue 
from airline bookings was down 82 percent compared to the same week in 
2019. Where major airlines lose revenue through decreased passenger 
bookings; regional airlines lose revenue through reduced block hours. 
Block hours is industry parlance for how much an operator's aircraft 
are being utilized on behalf of their partner. When block hours are 
down, revenues are way down. In 2020, regional airline block hours 
plunged to a nadir, with some carriers down 90 percent. Although block 
hours were ticking back up more recently, carriers saw additional sharp 
decreases as the virus surged in December and beyond. In addition to 
reduced block hours, the same routes are now less efficient and more 
costly to operate. With fewer passengers traveling, regionals are being 
called upon to take extraordinary measures to tailor supply to demand 
more precisely than ever. The dynamic schedule swings that characterize 
the current market come with a heavy labor and cash toll; airlines are 
paying higher crew costs while seeing reduced aircraft utilization. 
Aircraft are not making money when they are on the ground waiting for 
the next tranche of passengers, or when they are being repositioned 
from one airport to another, which is costly.
    The regional airline industry has been one of the hardest hit 
segments of air carriers during the pandemic. RAA members specialize in 
serving smaller communities that lack the passenger volume to support 
sustainable air service by larger airlines. Regional airlines serve 
these communities by partnering with larger carriers to help them reach 
passengers they could not otherwise serve, using smaller aircraft that 
are rightsized for markets with fewer passengers. These smaller markets 
happen to have some of the thinnest margins. There are far fewer 
passengers over which to amortize demand fluctuations or cost 
increases. This is why small community air service can be fragile and 
these markets are often hardest hit when network carriers are forced to 
retract service. Unlike large carriers, the vast majority of regional 
airlines are not publicly traded, and their business practices have 
more in common with a small business than a large multinational 
company. Most regional airlines do not have access to expansive outside 
lending while they wait for additional aid. Furthermore, small carriers 
who do not file reports with the Department of Transportation pursuant 
to Part 241 received underfunded payroll support awards under the CARES 
Act relative to larger air carriers due to inequitable criteria applied 
to their award calculation. As a result, small carriers have had to 
make do with less aid for longer than their much larger counterparts.
    We are grateful that other inequities in assistance have since been 
partially addressed; however, more action is needed. We are 
particularly grateful to this Committee's support, though the 
Consolidated Appropriations Act, 2021, in directing a technical 
correction to the Payroll Support Program (PSP), to address the 
inadvertent underfunding of certain small carriers, which occurred when 
a more limited calculation formula was applied to smaller carriers than 
to larger carriers. Under the CARES Act, small air carriers who did not 
file with DOT pursuant to Part 241 were directed to exclude certain 
salaries and crew benefit information that were included in the 
standardized calculation of PSP awards of larger air carriers who filed 
with DOT pursuant to Part 241. As a result of this calculation 
discrepancy, smaller air carriers were underfunded in initial PSP 
awards, relative to larger carriers. The Consolidated Appropriations 
Act, 2021 contained a technical correction to align air carrier 
compensation award calculations with the exact standards and criteria 
applied to air carriers who report to DOT pursuant to Part 241 and 
provided a true-up provision for carriers who were undercompensated 
under the previous calculation discrepancy. Unfortunately, the 
shortfall still remains because the prorate that was subsequently 
applied by the Department of Treasury to the PSP2 awards was applied to 
this correction. Under the American Rescue Plan Act, this shortfall 
will finally be fully addressed. Your staff worked tirelessly and 
closely with RAA to advance this solution, and we are deeply 
appreciative of your efforts to ensure regional airlines can more fully 
support their workforce.
    Given the risk to small community air service, we are very grateful 
for the Committee's continued support of small community air service 
during the pandemic through supplemental investments in the Essential 
Air Service (EAS) and Small Community Air Service Development Programs. 
Additionally, the inclusion of minimum air service requirements in the 
second COVID relief package helped to ensure that small communities 
were not completely disconnected from the country's air transportation 
system. We likewise appreciate the Department of Transportation's 
thoughtful implementation of these minimum air service guarantees, 
balancing community needs and carrier health. Lastly, we appreciate 
your including eligibility requirement waivers for FY2020 and FY2021, 
to ensure that EAS communities experiencing passenger decline under the 
pandemic need not fear being removed from the program due to 
circumstances outside their control.
 Department of Treasury's Administration of the Payroll Support Program
    Recognizing that harm has touched families, businesses and 
communities throughout the pandemic, RAA strongly supports the proposal 
for additional payroll aid through the American Rescue Plan that the 
Congress is currently considering. Simultaneously, we have substantive 
concerns with the Department of Treasury's current administration of 
PSP that is today jeopardizing the full recovery of a number of 
regional airlines. One enormous problem ongoing to this day is USDT's 
lack of communication and persistent delay in providing PSP2 payroll 
awards to small regional carriers--some of whom have had no 
communication from Treasury in over eight weeks despite filing well in 
advance of the early application deadline. Under the Consolidated 
Appropriations Act, 2021, USDT had ten days following the December 27th 
enactment to make initial payments to air carriers. The deadline for 
early consideration applications was January 14th. Prior to the 
deadline, the Department was in contact with twelve large carriers to 
ensure that their applications were processed as quickly as possible. 
On January 15th, the Department approved $12 billion in assistance to 
employees of these twelve large passenger carriers and dispersed $6.1 
billion in initial payments.
    While we are appreciative and grateful for the Department's quick 
processing of these applications to support the workforce of these 
carriers, RAA is deeply concerned that as of the writing of this 
statement, over 150 carriers and operators have not received their 
awards. Four of RAA's members have had either very minimal or no 
contact with the Department about their application and do not know 
when or if they will receive their awards. Because of this, these 
carriers have been unable to sufficiently plan their business 
operations. As this hearing takes place, some airlines have hundreds of 
employees still waiting to be recalled. Others, who have managed to 
avoid furloughing employees to date, have no choice but to contemplate 
furloughs because of this delay in relief. It is deeply inappropriate 
that the assistance made available to other carriers has not yet been 
made available to them. Many of the carriers facing these circumstances 
are the same carriers who were initially undercompensated under the 
first round of relief. These same carriers are now experiencing 
untenable delays to their second round of funding, rather than the 
correction Congress intended. Overall, the rollout of PSP2 awards marks 
a notable departure from the Department's approach under the CARES Act, 
where it prioritized awards to small air carriers because they viewed 
them as the most vulnerable to the financial impacts and disruptions 
caused by the pandemic.
    RAA believes that the Department has a very small window of time to 
speed up its awards processing or they risk doing further harm to small 
carriers. As you know, the American Rescue Plan Act contains a third 
PSP extension, and the Congress appears to be on a path to pass this 
third COVID relief package by mid-March. Under the legislation, the 
Department will have effectively until the end of March to process all 
PSP3 payments, which are entirely based on the PSP2 amount awarded to 
air carriers. However, if the Department has not finished awarding all 
PSP2 payments, PSP3 awards will be delayed for some, which could 
further imperil these small carriers' financial health. Given the 
dramatic decline in passenger air travel over the last year, small 
carriers do not have the cash reserves to support their full payroll 
for a prolonged period without assistance. RAA asks the Committee to 
communicate to the Department of Treasury the urgency of processing any 
remaining PSP2 awards immediately and, upon passage of the American 
Rescue Act Plan by Congress, processing all PSP3 awards before the end 
of March.
    Lastly, utilizing discretionary authority granted to it under the 
CARES Act, the Department of Treasury imposed an additional condition 
on the payroll support awards for large carriers, which required 
carriers to provide financial instruments for compensation in the form 
of an unsecured loan for a portion of the PSP1 and PSP2 awards above 
$100 million. In short, carriers must pay back a portion of their award 
even though the carrier acts as distributor of the aid to its eligible 
employees, excluding corporate officers. While we greatly appreciate 
the appropriate exclusion of small regional airlines from these 
requirements, the categorization erroneously captured a few regional 
airlines because of the size of their payroll and subjected them to 
disadvantageous conditions of aid. However, unlike other large 
carriers, these regional airlines do not issue tickets or derive 
revenue directly from passengers. RAA's position is that the warrant 
requirement is completely counterproductive to the recovery of the 
industry and its workforce; carriers have taken on large amounts of 
debt in response to the pandemic and the industry has not yet achieved 
a breakeven cash flow. The Department's decision to add to this debt 
burden will only serve to further delay the industry's economic 
recovery and the return of air service and employment levels to those 
reached prior to the pandemic. Accordingly, RAA is very disappointed 
that the House Financial Service Committee turned this discretionary 
condition into a mandatory requirement as part of the American Rescue 
Plan Act. We hope that we can work with the Congress in the future to 
ensure that the warrant requirement does not impede the industry's 
recovery and the growth of our workforce after the pandemic abates.
                      Small Community Air Service
    RAA deeply appreciates the Committee's support of small community 
air service throughout the pandemic. While regional airlines provide 
valuable service to communities of all sizes, 409 U.S. airports (about 
two-thirds of our nation's commercial airports receiving scheduled air 
service) are too small to support air service from larger airlines with 
larger aircraft and are only served by regional airlines. While larger 
cities, with historically high yield, higher density traffic may be 
confident that air service will return with widespread vaccinations, 
those US airports served exclusively or primarily by regional airlines 
are vastly more vulnerable. This risk to small and medium sized 
community air service could have an outsized impact on state and local 
economies, where businesses need reliable air service to remain viable. 
The economic consequences of leaving these communities behind are not 
insignificant. In 2018, regional airline service to the nation's 
smallest airports alone (non-hub and small hub) drove a conservatively 
estimated $134 billion in annual economic activity and supported more 
than 1 million jobs, with $36.4 billion in earnings at the state and 
local level, according to Delta Airport Consultants.
    The resource strain detailed above imperils air service to smaller 
communities moving forward. Historically, some markets may not have 
survived on their own but as part of the whole they brought value. In 
strong years, these marginal routes could survive if they supported the 
network overall. Under today's unparalleled resource strain, decisions 
are likely to turn on highest, best use. This means marginal markets 
are exposed to higher risk with faster consequences than before. A 
review of historical trends ratifies this concern. According to the DOT 
Working Group on Small Community Air Service, between 2007 and 2016, as 
the industry grappled first with the Great Recession and next with 
workforce shortages, the impact on air service was sharply uneven 
between small and large communities. The Working Group found that non-
hub and small-hub airports saw departures reduced by a factor five 
times worse than reductions at large hub airports. During the same 
period, smaller communities lost more than 31 percent of their 
scheduled departures and more than 50 airports lost scheduled air 
service altogether.
    Thus, the Committee's inclusion of Section 4005, Continuation of 
Certain Air Service Language in the CARES Act and Sec. 407, Minimum Air 
Service Guarantees in the Consolidated Appropriations Act, 2021 
prevented many small communities from completely losing air service 
during the pandemic. Air service data drawn from the period between the 
expiration of the Continuation of Air Certain Service Agreements 
associated with the CARES Act and the start of the Minimum Air Service 
Agreements associated with the Consolidated Appropriations Act, 2021 
offer a glimpse of what might have taken place if the Committee hadn't 
insisted on the protection of small community air service. Four 
communities in Destin, FL; Morrisville, VT; Worcester, MA; and Meyers 
Chuck, AK completely lost air service during this short period. We 
further believe that the full impact of these air service drawdowns was 
substantially muted by the ongoing extension negotiations at that time, 
which influenced ticketing carrier decisions.
    RAA understands that language related to Minimum Air Service 
Guarantees is not included in the American Rescue Plan as part of the 
PSP extension because of the legislative drafting limitation imposed by 
budget reconciliation and are aware that the Transportation and 
Infrastructure Committee and the Senate Commerce, Science, and 
Transportation Committee believe the Department of Transportation can 
utilize its existing authority under the Consolidated Appropriations 
Act, 2021 to extend the air service commitments until the end of 
September 2021 to align with the third PSP extension under the American 
Rescue Plan Act. Absent an extension of the service guarantees, many 
communities not presently EAS-eligible are at risk for total air 
service loss without intervention. While RAA does not advocate for 
hold-in policies, we firmly believe no community should face the 
economic peril of losing all scheduled air service due to the pandemic. 
As you know, The Federal Aviation Administration Modernization and 
Reform Act of 2012 (P.L. 112-95) provided that for locations outside of 
Alaska and Hawaii to remain EAS-eligible, they must have participated 
in the EAS program at some time between September 30, 2010, and 
September 30, 2011. This decision to restrict the EAS program could not 
have contemplated the air service risk communities would face in 
recovering from a global pandemic. RAA therefore urges the Committee to 
support expanding EAS eligibility to at-risk communities that would 
otherwise meet EAS program criteria but are restricted from the program 
by virtue of non-participation during the aforementioned dates. We 
envision this expansion as a temporary measure until market conditions 
stabilize.
    Furthermore, as part of the FY2022 appropriations process, we hope 
that Members of the Transportation & Infrastructure Committee will 
continue to demonstrate strong support for the EAS and SCASDP programs 
by urging the House Appropriations Committee to include full funding in 
the FY2022 Transportation, Housing, and Urban Development 
Appropriations Bill. These programs are vital to protecting small 
community air service, which is severely threatened by the sustained 
drop in passenger air travel demand caused by the pandemic. Lastly, 
Congress should continue to urge DOT to work with carriers who 
participate in the EAS program to ensure flexibility and responsiveness 
in light of cost increases and plummeting revenues that impact 
underlying, fixed contracts.
                    Commitment to Health and Safety
    Regional airlines have continuously taken substantial steps to 
protect the health, safety and wellness of their passengers and 
employees since the World Health Organization (WHO) declared the novel 
2019 coronavirus outbreak and COVID-19 infection a public health 
emergency of international concern. On January 31, 2020, the President 
issued Proclamation 9984 directing the Department of Homeland Security 
and other executive departments to take certain actions in response to 
the coronavirus threat and to protect the interests of the United 
States. Since then, RAA has been at the forefront of daily interactions 
and discussions with multiple government agencies, including the 
Federal Aviation Administration (FAA), the Centers for Disease Control 
and Prevention (CDC), the Transportation Security Administration (TSA), 
and the Cybersecurity and Infrastructure Security Agency (CISA) to 
ensure all our member carriers have the latest information necessary to 
follow the public health guidance.
    Following safety guidelines issued by the FAA in collaboration with 
the CDC, all RAA member airlines are proactively mitigating safety 
risks posed by the COVID-19 outbreak, both independently and by working 
closely with their mainline partners. These safety measures are either 
in compliance with or exceed CDC's recommended protocols. Such examples 
include, but are not limited to, crew members wearing face coverings 
and other PPE as appropriate, providing PPE kits and enhanced Universal 
Protection Kits (UPKs) on board aircraft, conducting aircraft cleaning 
with approved cleaning agents during operations and electrostatic 
cleaning or fogging during overnight maintenance. In addition, 
passengers are required to wear face coverings to uphold the overall 
safety and protection of the travelling public and crew members, which 
regional airlines initiated as airline policy and continue to support 
as a federal mandate.
    RAA continues to facilitate member airline discussions, through our 
Councils and Committees, and sharing of information and best practices 
related to upholding the health and safety of employees and passengers. 
Further, RAA believes the utilization of crucial safety programs and 
systems in place today, namely through Safety Management Systems (SMS), 
allow airlines to quickly assess emerging and changing safety and 
health risks and implement mitigations using a data-driven approach. 
Airlines utilized existing safety programs such as the Aviation Safety 
Action Program (ASAP) to collect safety information directly from their 
employees and added COVID risk categories to their complex safety risk 
matrix to analyze and reduce those risks. RAA and our member airlines 
are key stakeholders in the national safety programs such as the 
Commercial Aviation Safety Team (CAST) and the Aviation Safety 
Information Analysis and Sharing (ASIAS) program. Recognized globally, 
CAST is particularly well-suited for advancing solutions given the 
broad participation and collaboration in the program by air carriers, 
manufacturers and employee groups who empower the industry to meet the 
urgency of emerging safety issues.
    As our country continues to battle this ongoing public health 
crisis, regional airlines will remain vigilant, placing the health and 
safety of their crew and passengers first. Further, RAA will continue 
to work with this Committee, government agencies and our member 
airlines and their employee partners to help our members proactively 
meet and respond to evolving concerns with appropriate safeguards. We 
ask the Committee to view RAA as a resource as you consider proposals. 
Our team stands ready to assist and share our ideas, expertise and 
insights.
    Mitigating Pandemic Harm to Supply of Commercial Airline Service
    While it may seem surprising to discuss a potential shortage of 
airline pilots at a time when the industry is still contemplating tens 
of thousands of furloughs, we do expect the pilot shortage to return as 
a limiting factor during recovery. In fact, today's furloughs stand to 
worsen matters. If the Committee will recall, following the September 
11th attacks on the United States, industry furloughs at that time 
correlated to reduced interest in the professional pilot career path. 
The resulting sharp decrease in new student pilots entering the 
pipeline meant far fewer eligible pilots were entering the career path 
than were needed, especially as a large complement of baby boomer 
pilots began to reach mandatory retirement age. While the pandemic has 
driven a temporary reprieve in the pilot shortage, a national crisis 
impacting the perceived attractiveness of airline career paths could 
deter another generation from the pilot profession, making the shortage 
worse when it returns.
    The actions taken by this committee to protect aviation workers, 
and in support of healthy airlines, will help ensure the industry 
remains attractive to future generations. Additionally, today's lull in 
hiring presents an opportunity to open up education opportunities for 
pilots, including many who have been dramatically underrepresented in 
the flight deck and today cannot afford or finance training. RAA is 
backing legislation to make the pilot profession more accessible 
through the provision of additional federal financial aid to students 
seeking pilot training. Today, the cost of pilot education and training 
is higher than the available federal student aid dollars, which 
effectively reserves the career path for those with access to private 
wealth or capital. RAA has been working with lawmakers on the relevant 
House and Senate Education committees and anticipates legislation will 
be introduced this Congress. Given this Committee's jurisdiction over 
aviation and interest in the matter, we ask for your support. By 
shoring up outreach efforts and ensuring the pilots we reach can access 
the education and training for the profession, we can welcome new and 
more diverse aviators into the profession for generations to come.
                               Conclusion
    Thank you for your leadership in securing the vital assistance 
needed by carriers in response to the COVID-19 pandemic over the past 
year. Your actions have stabilized the financial health of our 
country's aviation system and have ensured the preservation of our 
workforce so that we are in a position to support our country's 
economic recovery. As vaccination levels increase and passengers return 
to air travel over the course of the year, regional airlines will 
continue to treat the safety and health of our customers and 
crewmembers as our top priorities. We look forward to working with you 
to make sure we can continue to keep small community air service 
healthy and supported.
    Thank you for this opportunity to provide comments.

                                 <F-dash>
Statement of the Travel Management Coalition, Submitted for the Record 
                          by Hon. Rick Larsen
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dear Chairman Larsen and Ranking Member Graves:
    The COVID-19 pandemic has been nothing short of devastating to the 
aviation industry. Congress has rightly recognized this, appropriating 
$42 billion in relief directly passenger airlines and their 
contractors, as well as $12 billion for airports. And while the CARES 
Act authorized the Department of Treasury to provide loans to travel 
agents and others dependent upon aviation, the program authorized 
failed to meet the needs of eligible businesses that lack hard 
collateral or could not forecast future growth due to the pandemic.
    As a result, travel management companies--companies that help 
businesses and individuals manage complex global travel needs--have 
seen revenue drop by some 95% and continue to live off debt. Congress, 
as it prioritizes vaccine distribution, COVID treatment, and other 
mitigation measures, such as masking requirements for air travel, 
should work with President Biden's administration to:
    <bullet>  Support electronic verification of international 
arrivals' negative COVID-19 tests;
    <bullet>  Examine risk-based, scientifically-supported alternatives 
to blanket quarantine requirements and countrywide travel restrictions; 
and
    <bullet>  Join the global community in adopting ``health 
passports'' and establishing internationally-recognized standards for 
vaccine and testing verification.

    Since the outset of the COVID-19 pandemic, the U.S. air travel 
industry has worked closely with the federal government to formulate 
and implement an array of public health protocols to ensure the safety 
of the air travel experience. By applying an extensive, multi-layered 
set of biosafety measures, including enhanced cleaning, optimized 
ventilation, and masking requirements, the risk of COVID-19 
transmission has been reduced to the extent that the World Health 
Organization (WHO) has acknowledged that air travel is safe, a 
conclusion supported by Department of Defense research.
    Moreover, aviation industry leaders continue to pursue federal 
policy ideas that will reduce the human and economic cost of the 
pandemic, which is why we have persistently advocated for international 
testing requirements supported by a standardized, electronic-based 
verification framework. The Centers for Disease Control and Prevention 
(CDC) January 12 Order is a significant step, but implementation 
measures must be taken to guarantee that testing labs are able to send 
travelers' results electronically, via a QR code or similar function, 
directly to appropriate authorities. Relying on paper copies for COVID-
19 (or vaccine) results is simply not scalable and is subject to fraud.
    Given the complexity and dynamic nature of this crisis, 
economically-impactful policy measures should be continuously 
reevaluated. When more effective, less disruptive, and scientifically-
supported measures become available, they should be quickly adopted in 
place of defunct measures. Blanket quarantines and country-wide travel 
restrictions must be reexamined accordingly.
    A year into the pandemic, quarantine measures in the U.S. continue 
to hinder the recovery of the air travel industry, as they frustrate 
travelers and run counter to the purpose of travelling for business or 
leisure. These blanket quarantines are in place, despite the WHO's 
recommendation that asymptomatic travelers should self-monitor for 
symptoms, rather than be required to undergo quarantine, and CDC's 
acknowledgement that vaccinated individuals do not need to quarantine. 
Similarly, countrywide travel restrictions were an effective tool to 
curb the early spread of the pandemic, but they are now far too blunt 
an instrument, especially since COVID-19 test and vaccine accessibility 
is continuing to expand worldwide.
    To be clear, we do not expect all quarantine and travel bans to be 
lifted tomorrow, but the federal government should have a plan in place 
to lift these restrictions once established benchmarks or goals are 
achieved. The status quo of indefinite restrictions and ad-hoc 
decision-making is exacerbating our industry's financial plight and the 
job security of our workforce.
    Furthermore, the future of air travel depends on the ability of 
governments to confidently determine the COVID-19 health status of 
travelers, which is why countries around the world are adopting health 
passports. Health passports are mobile platforms that enable travelers 
to demonstrate their receipt of a COVID-19 vaccination or negative test 
prior upon arrival at airports. The U.S. should join the international 
community in this effort, which we believe is essential to global 
economic recovery.
    We are entering an exceptionally critical point in the pandemic, 
and urgent, risk-based thinking is needed from the federal government. 
Millions of American jobs and the $2.6 trillion American travel 
industry hang in the balance.
    Although some of the policy measures outlined above are 
traditionally executive branch considerations, the House Committee on 
Transportation and Infrastructure can play an important role in 
advancing them, both legislatively and politically. We look forward to 
working with you and stand ready to assist in any way we can.

                                 <F-dash>
  Letter of March 2, 2021, from Scott Kirby, Chief Executive Officer, 
     United Airlines, Submitted for the Record by Hon. Rick Larsen
                                   United Airlines,
                                    233 South Wacker Drive,
                                          13th Floor-WHQLA,
                                        Chicago, IL, March 2, 2021.
Hon. Peter DeFazio,
Chairman,
2134 Rayburn House Office Building, Washington, DC.
Hon. Sam Graves,
Ranking Member,
1135 Longworth House Office Building, Washington, DC.
Hon. Rick Larsen,
2163 Rayburn House Office Building,
Washington, DC.
Hon. Garret Graves,
2402 Rayburn House Office Building,
Washington, DC.

    Dear Chairman DeFazio, Ranking Member Graves, Chairman Larsen, and 
Ranking Member Graves:
    Thank you for holding today's hearing entitled, ``COVID-19's 
Effects on U.S. Aviation and the Flightpath to Recovery.'' As you know 
well, the aviation industry was among the first to be impacted by the 
COVID-19 pandemic. Recognizing the devastating impact and the 
importance of the industry's workforce, the service we provide and our 
role as a driver of the economy, Congress acted quickly and in a 
bipartisan way to approve the Coronavirus Aid, Relief, and Economic 
Security Act (CARES Act), which enabled the industry to survive the 
most disruptive crisis in commercial aviation. We are very grateful for 
the CARES Act and its Payroll Support Program (PSP) that provides much-
needed relief to aviation workers. We are also very grateful for the 
extension of the successful PSP and support its further extension 
through September 30. While the financial path ahead for the industry 
is challenging, we are confident that with strong government and 
industry collaboration, innovative approaches to health and safety and 
a commitment to improving our nation's infrastructure, we can and will 
be able to provide service, jobs and significant economic contributions 
once the pandemic is behind us.
    United is committed to the safety of our customers and our 
workforce. In response to the pandemic, United launched our CleanPlus 
program. Teaming up with Clorox and experts at the Cleveland Clinic, we 
are putting cleanliness, health and safety at the forefront of the 
passenger experience and redefined our cleaning and disinfection 
procedures at each step of a passenger's journey. United also led the 
industry in requiring passengers and crew to wear masks onboard the 
aircraft and in the airport as a vital aspect of our layered approach 
to safety. Other highlights include using HEPA filters on United 
aircraft that circulate the air and filter out 99.97 percent of 
airborne particles. United is the first and only airline to maximize 
ventilation systems by running the auxiliary power on mainline aircraft 
during the entire boarding and deplaning process. We also deploy 
electrostatic sprayers to disinfect the aircraft cabin--floor to 
ceiling--before departures.
    United's response to the pandemic also includes supporting the 
transport and delivery of the COVID-19 vaccine. In fact, United was the 
first airline to safely transport the first delivery of Pfizer and 
BioNTech's COVID-19 vaccine into the U.S. Through a combination of 
cargo-only and passenger flights, United has transported more than 401 
million pounds of freight, which includes 87 million pounds of vital 
shipments, including 7 million COVID-19 vaccines, medical kits, PPE, 
pharmaceuticals and medical equipment. We also provided free 
transportation for more than 2,900 first responders and medical 
professionals to areas in need.
    United continues to lead and innovate as we respond to the pandemic 
and the disruption it has brought to the industry and our customers. 
One example is our new ``Travel-Ready Center''--a new, digital solution 
where our customers can review COVID-19 entry requirements, find local 
testing options and upload any required testing and vaccination records 
for domestic and international travel, all in one place. United is the 
first airline to integrate all these features into its mobile app and 
website, and the first airline to voluntarily collect contact tracing 
data for both international and domestic passengers in partnership with 
the Centers for Disease Control and Prevention (CDC). We are also 
committed to providing top-level service to our customers during this 
uncertain time, and United was first among U.S. global airlines to 
permanently eliminate change fees on all standard economy and premium 
cabin tickets for travel within the U.S. In addition, now any United 
customer can fly standby for free on a flight departing the day of 
their travel regardless of the type of ticket or class of service.
    We believe accurate and reliable testing is essential in safely 
restoring global travel and promoting our recovery. We believe pre-
departure testing is an important tool that can open access to global 
markets in lieu of existing quarantines and travel restrictions. That 
is why United is leading numerous pilot programs and investing in 
testing and digital data health management solutions. United launched 
the world's first free transatlantic COVID-19 testing pilot for 
customers; was the first U.S. airline to launch a COVID-19 testing 
program for customers traveling on United from San Francisco 
International Airport to Hawaii; and introduced customer COVID-19 
testing from Houston to Latin American and Caribbean destinations.
    As we focus on our recovery from the pandemic, United remains 
committed to operating the safest, most efficient, and most sustainable 
airline. We are encouraged by the bipartisan interest in an 
infrastructure bill and the Administration's Build, Back, Better Plan. 
We look forward to working with Congress and the Administration to 
modernize air traffic management through the Next Generation Air 
Transportation System (NextGen) to improve aviation fuel usage and 
efficiency. United remains focused on health and safety while ensuring 
that our company's priorities and future growth are managed in a 
sustainable and responsible manner. United has pledged to reduce 
greenhouse gas emissions by 100 percent by 2050 through industry-
leading investments in carbon capture and sequestration technology and 
the use of sustainable aviation fuel--a first among airlines. We are 
committed to continue making Diversity, Equity and Inclusion a 
cornerstone of our culture--including through our new Aviate Flight 
School to establish the next generation of aviators--and making 
meaningful contributions in the communities we serve.
    We are grateful for your support and interest in aviation and our 
workers during this immensely challenging time. As Congress works 
toward full public health and economic recovery, please know that 
United Airlines is ready to support your efforts.
        Sincerely,
                                               Scott Kirby,
                                           Chief Executive Officer.


                                Appendix

                              ----------                              


Questions from Hon. Garret Graves to Heather Krause, Director, Physical 
         Infrastructure, U.S. Government Accountability Office

    Question 1. What kinds of long-term adjustments is the industry 
implementing to adapt to the new reality of a post-COVID world?
    Answer. Based on our ongoing audit work reviewing the effects of 
the pandemic on the aviation industry, we have found that many industry 
stakeholders are still in the process of responding and adapting to the 
COVID-19 pandemic; however, some of the changes they are making in 
response to the pandemic are likely to be longer-term. For example, 
some representatives told us their airports are installing touchless 
technology--such as elevators with foot controls--and making 
improvements to their heating, ventilation, and air conditioning 
systems. In addition, according to representatives from one credit 
rating agency, airlines are likely to use fewer employees to provide 
services in the future due to the implementation of contactless 
technologies such as those at check-in and bag check. Representatives 
from one repair station operator told us that large repair station 
operators are likely to diversify their customers and offerings moving 
forward in an effort to reduce the economic risks they might face due 
to disruptions in the aviation industry, such as possible future 
pandemics.
    Looking forward, as we noted in our statement, the federal 
government is exploring the use of digital health passports for use in 
international travel, but the standards, solutions, and information 
security issues for such digital health passports or other measures are 
not yet defined. Representatives from one airport association told us 
that airports are beginning to consider how they will integrate health 
passports into their operations, and that a number of airports have 
been working with airlines on the implementation of these passports. 
However, it is not yet clear if health passports or other proof of 
vaccination or COVID-19 testing will be a temporary or longer-term 
solution. Twenty-seven travel industry associations recently urged the 
White House COVID-19 Recovery Team Coordinator to partner with them to 
develop federal guidance for temporary COVID-19 health credentials.

    Question 2. What kinds of assistance, outside of financial aid, can 
Congress and/or the Federal government provide to help in the 
industry's recovery effort?
    Answer. Various industry stakeholders have expressed opinions about 
how the federal government could help the industry recover, such as 
implementing policies to improve the public's confidence in the safety 
of air travel. For example, representatives from two airlines we spoke 
with told us that policies and assistance that increase the public's 
confidence in the safety of air travel, limit travel restrictions, and 
boost the economy would all support recovery and increase the demand 
for travel. Officials from a credit rating agency also told us that any 
action that increases the public's propensity to fly--including COVID-
19 testing programs, alleviating travel restrictions, or better 
targeting travel restrictions through testing corridors--would be 
beneficial. As noted in our response above, 27 travel industry 
associations recently urged the White House COVID-19 Recovery Team 
Coordinator to partner with them to develop federal guidance for 
temporary COVID-19 health credentials that cover both testing and 
vaccinations.
    We noted in our hearing statement that airlines, airports, and 
other aviation businesses responded to reduced demand for air travel 
by, in part, reducing their labor costs through measures including 
early retirement and voluntary separation programs, voluntary unpaid 
leave, freezing non-essential hiring, involuntary furloughs, and 
layoffs. Representatives from an aviation manufacturer told us that key 
skill sets could be lost as businesses reduce employment and skilled 
workers migrate to other industries. Given concerns about the 
availability of a highly-skilled workforce to support an eventual 
industry recovery, mechanisms other than financial assistance such as 
worker retention incentives, aviation workforce retraining, and efforts 
to strengthen the pipeline of new applicants for careers in aviation 
manufacturing and maintenance, among others, could help prepare the 
workforce to be ready as air travel demand returns.

    Question 3. How much interest was there from aviation businesses in 
the CARES Act loan program, and what has GAO observed with 
implementation and use of this program?
    Answer. Treasury received 193 applications from aviation businesses 
for the loan program--102 from air carriers, 41 from repair stations, 
and 50 from ticket agents. The demand from aviation businesses, 
excepting cargo air carriers, exceeded the amount available for loans.
    As we reported in December 2020, the Department of the Treasury 
(Treasury) prioritized evaluating applications from the 10 largest air 
carriers, and some of these carriers we spoke with felt Treasury's 
implementation of the program fit their needs.\1\ However, outside the 
largest airlines, we found that other businesses that applied generally 
found the process to be frustrating, notably the program's long 
implementation timeline and Treasury's decision to encourage some 
applicants to apply to the Main Street Lending Program before 
continuing to pursue a Treasury loan. As we stated in December 2020, 
Treasury viewed itself as a lender of last resort but did not state 
this view in published documents. These challenges contributed to 
relatively fewer loan agreements being closed with these smaller 
businesses. Treasury executed 24 loan agreements with aviation 
businesses under the program that totaled $21 billion of the $29 
billion available--7 with large passenger air carriers, and 10 with 
other air carriers, 5 with repair stations, and 2 with ticket agents.
---------------------------------------------------------------------------
    \1\ GAO, Financial Assistance: Lessons Learned from CARES Act Loan 
Program for Aviation and Other Eligible Businesses, GAO-21-198 
(Washington, D.C.: Dec. 10, 2020).
---------------------------------------------------------------------------
    We also found that while Treasury's design and implementation for 
the loan program were generally consistent with internal control 
standards, there were lessons that can be applied to future emergency 
lending programs. These lessons include setting and communicating clear 
program goals and timelines to better align lender and borrower 
expectations.

    Question 4. In your interviews of aerospace stakeholders, what was 
the most creative or ``outside-the-box'' response to the pandemic 
shared with your team?
    Answer. During our ongoing work, a few industry stakeholders have 
shared examples of their ideas and efforts to bring in new revenue or 
assist suppliers during the period of reduced passenger demand. For 
example, representatives from some airlines told us they flew cargo on 
board empty passenger planes to help meet the increased demand for air 
cargo transportation. One passenger airline also added a network of 
cargo-only flight options. Representatives from one airport told us 
they had discussions about using closed long-term parking lots to show 
drive-in movies. Representatives from two aerospace businesses 
discussed efforts they made to help companies in their supply chain, 
while also protecting themselves from possible supply chain 
disruptions. For example, representatives from one business told us 
they worked with suppliers to accelerate purchase orders to ensure 
their business would have sufficient materials on hand to continue 
production without interruption. The representatives also told us they 
organized webinars to explain to companies in their supply chain how 
those companies could apply for federal assistance such as Paycheck 
Protection Program loans.

    Question 5. In your written statement, you indicated that 
``Congress could consider some additional near-term steps to preserve a 
minimum level of service to small communities until the airline 
industry more broadly recovers.'' What steps do you believe Congress 
should consider in order to help small communities maintain air service 
through and after this crisis?
    Answer. In the near term, Congress should consider any steps to 
address service reductions stemming from the pandemic. The impact of 
the COVID-19 pandemic on the airline industry is likely to lead to 
further elimination in service to small communities, especially if 
minimum service obligations expire before the industry fully recovers. 
Near-term measures to maintain air service could include providing 
additional funding for Essential Air Service (EAS) and the Small 
Community Air Service Development Program (SCASDP), or subsidizing 
greater use of Part 135 unscheduled service, such as air taxis, to 
companies providing service in small communities without scheduled 
service; however these measures could require additional 
appropriations.
    In the longer term, service declines to small communities have 
grown over the last two decades despite assistance provided through EAS 
and SCASDP.\2\ DOT reported in 2017 that over 50 communities had lost 
all scheduled air service since 2007 and another 150 communities were 
at risk of losing all or nearly all service.\3\ Determining the steps 
needed to address the long-term issues with small community air service 
may involve a complete reexamination of how small communities are 
connected to the national transportation system. Subsidizing air 
service to only a handful of communities has not only grown more 
expensive, but also less effective. Other solutions, such as 
nonscheduled air service and bus or shuttle service, should be 
evaluated for their efficiency and effectiveness.
---------------------------------------------------------------------------
    \2\ The Consolidated Appropriations Act, 2021 appropriated 
approximately $165 million for EAS and $10 million for SCASDP to remain 
available until expended.
    \3\ Department of Transportation, Report of the Working Group on 
Improving Air Service to Small Communities (Washington, D.C.: May 9, 
2017). According to the report, smaller communities lost over 31 
percent of scheduled departures, 17 percent of seats, and 13.4 percent 
of total connectivity from 2007-2016.

    Question 6. During your survey and interviews of stakeholders, was 
there any concerns raised with how the U.S. Treasury Department was 
implementing the COVID relief laws? How was communication with 
stakeholders? Was there any difference between how smaller and larger 
businesses were being treated through the application process?
    Answer. In our reviews of the two programs authorized by COVID 
relief laws and administered by Treasury--Section 4003 Loan Program and 
Payroll Support Program (PSP1)--we found concerns with how Treasury 
implemented the programs. Specifically, stakeholders were concerned 
about the slow pace of each program's roll-out and awarding of 
assistance, quality of Treasury's guidance, and lack of consistent 
communication from Treasury. In response to these criticisms, Treasury 
officials stated that Treasury faced an unprecedented challenge of 
standing up a new financial assistance program in a condensed time 
frame. Treasury officials also said that they published email addresses 
where applicants could direct questions and notified applicants if 
there was an update on the status of an application.
    Treasury officials acknowledged that they prioritized larger 
businesses, namely the largest passenger airlines, in implementing 
these programs. Generally, larger businesses' applications were 
processed faster and they had more direct communication with Treasury 
staff. Smaller businesses' applications faced longer processing time 
and did not have the same access to points of contact within Treasury 
to answer questions or address concerns. We will continue to monitor 
Treasury's implementation of the Payroll Support Program extension 
(PSP2).

    Question 7. What, if any, actions are airlines and airports taking 
to prepare for a future pandemic? Have any airlines or airports started 
implementation of GAO's recommendations for a pandemic preparation 
plan?
    Answer. Our prior work has shown that airports and airlines have 
individual plans to respond to specific emergencies, including disease 
outbreaks, whereas the federal government lacks an overall plan to 
coordinate and respond to disease threats. Specifically, as we reported 
in December 2015, all of the 14 airports and three airlines we reviewed 
had plans for responding to communicable disease threats from abroad. 
However, the United States lacked a comprehensive national aviation-
preparedness plan aimed at preventing and containing the spread of 
diseases through air travel.\4\ We concluded that the absence of a 
national plan undermined the ability of the public health and aviation 
sectors to coordinate on a response or to provide guidance to airlines 
and airports and recommended that the Department of Transportation 
(DOT) work with relevant stakeholders, such as the Department of Health 
and Human Services (HHS) and the Department of Homeland Security (DHS), 
to develop a national aviation-preparedness plan for communicable 
disease outbreaks.
---------------------------------------------------------------------------
    \4\ GAO, Air Travel and Communicable Diseases: Comprehensive 
Federal Plan Needed for U.S. Aviation System's Preparedness, GAO-16-127 
(Washington, D.C.: Dec. 16, 2015).
---------------------------------------------------------------------------
    While the DOT agreed that a plan is needed, as of March 2021, no 
such plan had been developed. Since our report, DOT has maintained that 
because HHS and DHS are responsible for communicable disease response 
and preparedness planning, respectively, these departments should lead 
any efforts to address planning for communicable disease outbreaks, 
including for transportation. GAO maintains that DOT is in the best 
position to lead a multiagency effort to develop a national aviation-
preparedness plan and that such a plan is critically needed. In absence 
of progress to develop a national aviation preparedness plan, we urge 
Congress to take legislative action to require the Secretary of 
Transportation to work with relevant agencies and stakeholders to 
develop such a plan.\5\
---------------------------------------------------------------------------
    \5\ GAO, COVID-19: Opportunities to Improve Federal Response and 
Recovery Efforts, GAO-20-625 (Washington, D.C.: June 25, 2020).
---------------------------------------------------------------------------

    Questions from Hon. Mike Gallagher to Heather Krause, Director, 
     Physical Infrastructure, U.S. Government Accountability Office

    Question 8. Is GAO concerned about the speed at which Treasury is 
processing Payroll Support for air carriers? Per the Treasury's 
website, as of 2/25 there are 320 applications and they have only 
processed and reached agreement with not even half of them. In January 
alone, they only processed 12--all of which were larger carriers who 
were set to receive some of the largest awards. These delays have 
really put a lot of pressure on small carriers like AirWisconsin which 
is headquartered in my district. Even Captain DePete admits in his 
testimony that three ALPA carriers have shut down as a result of the 
pandemic. All three of those carriers were smaller regional type 
carriers. These type of carriers can't afford unnecessary delays in 
processing the Payroll Support. https://home.treasury.gov/policy-
issues/cares/preserving-jobs-for-american-industry/payroll-support-
program-extension-payments
    Answer. Industry associations representing smaller businesses that 
applied to PSP have raised concerns about the speed with which Treasury 
reviewed applications and awarded funds through PSP1 and more recently, 
the Payroll Support Program extension (PSP2). We have also noted these 
concerns in our prior work on PSP1. For example, in September 2020 we 
reported on some actions industry associations said their members took 
while their PSP applications were under review.\6\ These actions 
included that some members furloughed and laid off employees, and in 
one case, filed for bankruptcy after applying for PSP funds. We will 
continue to monitor concerns related to Treasury's implementation of 
PSP2.
---------------------------------------------------------------------------
    \6\ GAO, COVID-19: Federal Efforts Could be Strengthened by Timely 
and Concerted Actions, GAO-20-701 (Washington, D.C.: Sept. 21, 2020).

    Question 9. Does the GAO think that the PSP2 funds are on track to 
be fully distributed by then? Now that will likely be extended as a 
result of the most recent relief package (assuming it passes the Senate 
and is signed into law), but Treasury doesn't get all of PSP2 out until 
sometime in April, then that will likely cause further delays with 
PSP3.
    Answer. As noted above, stakeholders have raised concerns about the 
speed with which Treasury reviewed applications and awarded funds for 
PSP1 and PSP2. For PSP1, Treasury started to award funds in late April 
2020 but did not finish awarding funds until mid-October 2020. Treasury 
officials said they must balance the need to award funds quickly with 
the need to ensure all statutory requirements are met. We will continue 
to monitor the pace of awards and any concerns related to Treasury's 
implementation of PSP2, and we will provide an update on PSP2 
implementation in our late March report on the federal response to the 
COVID-19 pandemic.

  Questions from Hon. Steve Cohen to Nicholas E. Calio, President and 
             Chief Executive Officer, Airlines for America

    Question 1. Will A4A members issue refunds to consumers who had to 
cancel travel due to the COVID-19 emergency?
    Answer. Since the onset of the COVID-19 pandemic, airlines have 
worked with customers regarding their individual travel needs and have 
done so in strict accordance with all federal laws and regulations.
    Specifically, on the issuance of refunds, according to Department 
of Transportation (DOT) data, eleven U.S. passenger airlines issued 
$12.84 billion in cash refunds in 2020, which constituted a 72 percent 
increase from $7.46 billion in 2019 and amounted to nearly 20 percent 
of airline revenues.
    While individual policies vary from carrier-to-carrier, A4A member 
carriers are committed to working with every customer to address his/
her circumstances.

    Question 2. For nearly a year, the airlines have been holding on to 
Americans' money--if they aren't able to travel again and/or need that 
money for other purposes, why should airlines be holding on to those 
funds?
    Answer. U.S. airlines are routinely issuing refunds in accordance 
with all federal laws and regulations and, as the DOT data shows, 
eleven U.S. passenger airlines issued $12.84 billion in cash refunds 
last year alone. These refunds are also on top of billions of dollars 
of travel credits issued to customer's e-wallets.

    Question 3. Some travelers are seeing vouchers nearing their 
expiration dates--will A4A members commit to ensuring that no vouchers 
expire for as long as the pandemic emergency is ongoing?
    Answer. Individual air carrier business decisions are subject to 
strict antitrust laws and as a trade association we have no insight 
into those type of specific business decisions. However, based on 
publicly issued statements and airline website reviews, while policies 
and details vary carrier-to-carrier, all A4A passenger carrier members 
have issued voucher redemption extensions allowing flexibility well 
into the future.
    Airlines will continue to evaluate their respective policies and 
work with each and every customer to address their travel needs. 
Airlines continue to strive to make all aspects of the travel 
experience positive for their customers, including voucher utilization.

 Questions from Hon. Garret Graves to Nicholas E. Calio, President and 
             Chief Executive Officer, Airlines for America

    Question 1. What role do you see these sustainable aviation fuels 
playing in the industry's recovery and future?
    Answer. Prior to the pandemic, even as we transported a record 2.5 
million passengers and 58,000 tons of cargo per day, U.S. airlines 
contributed just 2 percent of the nation's greenhouse gas (GHG) 
emissions. As the U.S. airlines recover from the devastating COVID-19 
crisis and help restore travel across the U.S. and around the world, we 
know our customers and our country want that recovery to be an 
environmentally responsible one--and so do we.
    Sustainable aviation fuel (SAF) can play a key role in our efforts. 
To date, our members' keen focus on fuel efficiency has accounted for 
the vast majority of the industry's emissions savings. Indeed, they 
have dramatically improved fuel efficiency and reduced GHG emissions by 
investing billions in fuel-saving aircraft and engines, innovative 
technologies like winglets (which improve aerodynamics) and cutting-
edge route-optimization software. As a result, U.S. airlines have 
improved their fuel efficiency over 135 percent since 1978, saving over 
5 billion metric tons of carbon dioxide (CO2), which is equivalent to 
taking more than 27 million cars off the road on average in each of 
those years.
    But recognizing that improving fuel efficiency with today's 
petroleum-based energy supply can only take us so far, A4A and our 
members have been helping lead the effort to develop and deploy SAF, 
which could be a game-changer in terms of aviation's output of GHG 
emissions while supporting U.S. jobs and enhancing U.S. energy 
independence and security.
    Through initiatives such as the Commercial Aviation Alternative 
Fuels Initiative (CAAFI), a public-private partnership we co-founded 
(in 2006) and co-lead with the Federal Aviation Administration (FAA) 
and other stakeholders, we have established rigorous processes to 
ensure that SAF is safe and environmentally beneficial. Although we 
have made significant progress in advancing the SAF industry, 
substantial challenges remain in scaling up cost-effective supply. At 
present, SAF is available in the U.S. (and globally) in extremely 
limited quantities. The U.S. Environmental Protection Agency (EPA) 
reports (under the Renewable Fuel Standard program) that 2,428,369 
gallons of neat (100%) SAF were produced in the U.S. in 2019, which 
compares to the 21.516 billion gallons of conventional jet fuel used by 
U.S. airlines in 2019--thus indicating that SAF comprised just over 
0.01% of the nation's total jet fuel supply that year. On top of this, 
the SAF that is available is 3-5 times more expensive than conventional 
jet fuel.
    The aviation industry and would-be SAF suppliers are on the cusp of 
creating a viable SAF industry, but government support is needed in the 
near term to provide financial bridging and other tools necessary to 
help us get over the cusp. It is critical that Congress and the 
Administration continue to provide positive support for alternative 
fuels programs and for public-private initiatives with SAF projects 
such as CAAFI, FAA's Continuous Lower Energy, Emissions & Noise (CLEEN) 
program, and the FAA-led Center of Excellence for Alternative Jet Fuels 
and the Environment. Moreover, after years of providing tax incentives 
and other support to ground-based alternative fuels (in some cases 
reaching back into the 1970s), Congress should establish SAF-specific 
tax incentives and SAF-specific loan guarantee and grant programs to 
support our efforts. By working together and across the fuel supply 
chain, Congress can support our efforts to further address GHG 
emissions, while allowing commercial aviation to continue to serve as a 
key contributor to the U.S., global, regional, and local economies as 
we work to recover from the devastating impacts of the COVID-19 crisis.

    Question 2. Are you finding that most passengers are cooperating 
with your airlines' COVID policies?
    Answer. Yes, last spring, major U.S. airlines voluntarily 
implemented face covering requirements for passengers and employees as 
a critical element of the multiple layers of protection that A4A 
carriers have employed to mitigate risk of transmission and protect 
travelers and crew. Carriers have been vigorously enforcing those 
policies. Any passenger who does not comply can be prohibited from 
flying that airline for the duration of the pandemic. Thousands of 
passengers have been barred to date. Fortunately, an overwhelming 
majority of passengers comply with the requirements.
    However, to address the small population of passengers who simply 
do not want to comply, we supported a temporary facial covering mandate 
on interstate modes of travel. The temporary federal mandate has 
strengthened our flight crews' ability to enforce requirements with the 
goal of achieving universal compliance. We appreciate the government 
and industry collaboration on these issues.

    Question 3. In your written testimony you state, ``PSP [Payroll 
Support Program] could be used as an example of a government program 
that works.'' Can you explain why you believe the bipartisan Payroll 
Support Program has been so successful?
    Answer. PSP is an example of a government program that works 
because it has effectively met the goals and intended purpose of the 
program--to preserve aviation jobs. The PSP is, as the CARES Act and 
subsequent extensions clearly state, financial assistance provided to 
eligible air carriers that is ``exclusively for the continuation of 
payment of employee wages, salaries, and benefits'' for employees 
defined as individuals at those carriers that are not corporate 
officers. More simply, airlines serve as a pass through of PSP funds to 
airline workers.
    The program also has the downstream benefit of helping federal/
state/local income tax revenues, along with Social Security and 
Medicare tax contributions. The program also helps avoid billions of 
dollars' worth of unemployment claims at both the state and federal 
level. Finally, the PSP also supports multiple billions of economic 
spending in the U.S. economy--as every dollar spent of airline wages 
generates additional spending as the recipients spend that income in 
their local economy.

    Question 4. In your written statement you wrote, ``With the reality 
of a pandemic now painfully apparent, boardrooms, workers and investors 
will all expect even stronger airline balance sheets than before, 
allowing these companies to tap capital markets fully and swiftly in 
the future--without depending on federal assistance--while avoiding 
extreme distress and painful cuts for employees.'' In what way will 
this new reality change what ``recovery'' looks like for major 
airlines?
    Answer. While the passage of time will provide much more clarity, 
we believe the new reality will manifest itself in many ways, 
including:
    <bullet>  100 Year Flood Events. Airlines will rethink how they 
manage balance sheets broadly, and cash specifically, to withstand a 
future crisis of the unprecedented magnitude of COVID-19. Before 9/11, 
the rule of thumb was to keep 10-15% of trailing 12-month revenues in 
the form of cash. Post-9/11, that rose to 20-25%. It has yet to be 
determined what the right metric is, let alone the right amount, but it 
is certainly something that will be seriously evaluated.
    <bullet>  Credit Ratings. Creditworthiness will likely be more 
important than ever, as carriers who enjoy better ratings are generally 
able to borrow larger sums of money at lower interest rates. Liquidity 
will be examined in close conjunction with creditworthiness. Having too 
much liquidity on the balance sheet is an inefficient way to run a 
business but having too little can put companies at undue risk of 
bankruptcy. Coming up with the right balance will be an important 
consideration moving forward as the major rating agencies assess 
financial health.
    <bullet>  Sustained Profitability. One important and simple 
solution to recovery entails giving airlines the freedom to right their 
own ships--to allow them to achieve sustained profitability, with 
meaningful margins--over an entire business cycle--rather than 
consistently trailing the U.S. average. Allowing the marketplace to 
work will be essential to mitigate future risk.

    Question 5. What do you mean by the phrase ``do no harm'' in the 
context of COVID pandemic recovery?
    Answer. While the PSP program has been a tremendous success for our 
employees and their livelihoods, during the CARES Act and subsequent 
PSP extensions, many proposals were put forth on extraneous issues that 
were punitive and legislatively opportunistic attempts to rehash broad 
policy questions or re-regulate our industry at its most vulnerable 
time in history.
    With vaccinations increasing and the travel sector showing modest 
progress toward a recovery period, it is important policy makers 
understand that even if passenger traffic rebounds in the near term, it 
will take air carriers years, not months, to pay off the massive amount 
of debt they have accumulated over the course of the pandemic. We are 
on a long road to recovery.
    `Do No Harm' means we respectfully request that policymakers 
refrain from adopting punitive policies such as tax or fee increases or 
onerous rules and regulations that will otherwise cause harm to our 
debilitated industry. Doing so will only hamstring our ability to 
recover and undermine the basic underpinnings and purpose of the relief 
provided to our labor workforce. This crisis was not caused or brought 
on by the airlines and should not be used for convenient legislative 
opportunism to reregulate or refashion what was a highly competitive 
and burgeoning well-paid job creator prior to the pandemic.

    Question 6. Do your member carriers remain concerned about a 
shortage of professionally trained aerospace workers? If so, how can 
the Government and industry work together to ensure we do not lose 
sight of this issue during COVID and COVID recovery?
    Answer. The industry is still concerned about workforce challenges 
and continues to work with coalition partners to find solutions to 
address workforce issues and expand diversity. Prior to the pandemic, 
the industry had embraced an outlook done by Boeing, showing a demand 
for 739,000 new maintenance technicians, 763,000 new civil aviation 
pilots over the course of the next 20 years, amongst others. While 
COVID-19 may impact those calculations, provided traffic comes back to 
pre-pandemic levels there will be undiminished concern.
    Government and industry continue to work together through 
apprenticeships, scholarships and recruiting. Much of this work is done 
at the secondary education level. We believe expanding education 
opportunities and exposure to aviation professional careers at the K-8 
level will help close the gap. Industry, along with Federal, State and 
local governments should be encouraged to provide opportunities such as 
shop classes, where kids can learn at an early age that they can work 
with their hands and enjoy it.
    Continued work at the secondary level is also necessary, expanding 
unsubsidized federal student loan aid to cover costs associated with 
flight education and training programs at accredited institutions of 
higher education would be a good start to providing the broader 
educational opportunity needed to meet sector specific challenges.

    Questions from Hon. Garret Graves to Captain Joseph G. DePete, 
         President, Air Line Pilots Association, International

    Question 1. Several media articles have identified that at least a 
dozen pilot flying errors and mishaps since May 2020, have at least 
been in part attributed to pilots being out of practice due to the 
pandemic. Aviation experts and representatives have acknowledged that 
when pilots are inactive for several months, their skills and 
proficiency deteriorate. How accessible is recurrent training to pilots 
should they not feel confident in their skills/feel they have gotten 
``rusty''? How accessible is this training to returning pilots?
    Answer. ALPA safety representatives along with FAA and airline 
safety representatives have been monitoring safety reports submitted at 
each airline as well as nationwide ``aggregate'' reports available 
through CAST and ASIAS. We have been monitoring for adverse trends 
since the start of the pandemic and are confident that the U.S. airline 
aviation system remains safe. During the start of the pandemic airlines 
have increased access to and use of simulators for pilots to maintain 
landing currency as well as maintaining proficiency in flight 
procedures and flying skills. There are functions, operations and 
controls across the system to ensure a high level of safety to which 
pilots are critically and intrinsically linked. The most notable safety 
feature on any aircraft is the presence of at least 2 highly trained, 
skilled, and well rested pilots on the flight deck.

    Question 2. How has the pandemic affected the pilot shortage issue? 
How is this issue to be addressed in the recovery?
    Answer. Since the start of this pandemic and the resulting loss in 
demand for passenger travel, ALPA has had 3 airlines cease operations, 
causing thousands of pilot furloughs. These furloughed pilots add to 
the number of excess pilots who were already available for airline 
employment. Looking ahead, we reiterate that no one is more invested in 
a strong, well prepared pilot pipeline than the Air Line Pilots 
Association. To that end, we are committed to breaking down barriers 
and ensuring the piloting profession represents the diversity of 
America.

    Question 3. In your written testimony you state that ``industry is 
on firmer footing,'' This is welcomed news from such a major labor 
group. To what do you attribute the ``firmer footing?''
    Answer. Because of the recent stimulus packages--the American 
Rescue Plan and the CARES Act PSP extensions--we are seeing a better-
than-expected economic outlook. Coupled with the high level of efficacy 
of the vaccines and the accelerating rate of vaccinations around the 
world, we are seeing an uptick in personal travel as well as small 
improvements in the level of business travel. As a result, many 
carriers are projecting to be cash burn neutral by this Summer.

    Question 4. How has ALPA worked with aircraft manufacturers 
throughout the pandemic?
    Answer. The cleaning and disinfecting procedures and standards 
developed has been a very collaborative process not only between ALPA 
and the manufacturers but also airlines and government.

    Question 5. You stated that the U.S. government needs to intercede 
on behalf of airline pilots who are transporting critical health 
supplies and vaccines to help the world recover. How can the U.S. 
government be most helpful?
    Answer. Airline pilots are frontline workers in transporting PPE 
materials, medical professionals, and the vaccine itself. 
Unfortunately, airline pilots are not considered frontline workers as 
far as vaccine priority in every state, despite our work in every state 
and across the world. Congress should reiterate pilots' critical role 
in helping recover from the pandemic to encourage priority vaccine 
access as frontline employees.

  Questions from Hon. Garret Graves to Peter J. Bunce, President and 
  Chief Executive Officer, General Aviation Manufacturers Association

    Question 1. What kinds of long-term adjustments is the industry 
implementing to adapt to the new reality of a post-COVID world?
    Answer. In light of the pandemic, our companies took significant 
action to protect their workforce. Additionally, our companies are 
taking the initiative and developing technologies which will have a 
long-term impact on the aviation industry. These include:
    <bullet>  Developing touchless technologies at airports to help 
screen travelers quickly and safely.
    <bullet>  Modifying aircraft to carry vaccines in extremely cold 
storage;
    <bullet>  Implementing ways to sanitize and clean without impacting 
the airworthiness of the aircraft. This includes using machines to mist 
disinfectants that kill viruses but do not harm finishes and avionics 
throughout the aircraft fuselage;
    <bullet>  Research into new disinfection methods for the cabin--
looking at thermal and other non-abrasive chemicals that do not erode 
or destroy fixtures;
    <bullet>  Implementing clean air ionization systems that provide 
clean air while continually sanitizing aircraft surfaces throughout the 
flight; and
    <bullet>  Looking at more touchless and anti-microbial surfaces, 
which are in bathrooms today, and looking at other high-touch areas as 
well.

    Question 2. In your written testimony, you state that ``[s]upply 
chain issues appeared at the outset of the pandemic and they have 
continued to persist, particularly with critical parts and equipment.'' 
Can you describe in greater detail what the issues are and why the 
pandemic had such an impact from your perspective?
    Answer. Nearly 70% of the respondents to a recent GAMA survey 
reported they are experiencing supply-chain issues, which is causing a 
slowdown in production and deliveries. While supply chain issues 
appeared at the outset of the pandemic they have continued to persist, 
particularly with critical parts and equipment. The aviation supply 
chain, which is vast in nature, is important given aircraft often 
involve numerous parts, platforms, and systems. If a supplier needs to 
be replaced, it could be a lengthy process given FAA certification of 
the new supplier's product may be required. GAMA companies have worked 
extensively with suppliers to provide information about programs like 
the payroll protection program as well as providing procurement and/or 
other business advice.

    Question 3. In your statement you discuss the FAA's use of remote 
technologies for inspections, test, and oversight. Can you describe 
what these remote technologies are and how they benefitted industry and 
the FAA?
    Answer. The FAA has been working with industry for several years to 
develop policy and guidance material that builds on past successes and 
facilitates the continued safe use of remote and virtual technologies 
in the performance of certain tests, witnessing, and inspections. It is 
important to recognize that the use of remote technology in the 
performance of tests or inspections has been used for decades (e.g., 
engine borescopes, engine test facilities, flammability tests, etc.) 
and we continue to expand the scope of activities as technological 
advancements offer continued opportunities.
    The most common application of virtual inspections utilizes a 
combination of video/audio equipment accompanied by any necessary 
sensors (temperature, pressure, etc.) to transmit data to a remote 
device which is most often viewed on a computer. With the advent of 
higher internet speed and access, high resolution portable equipment, 
availability of online digitized data, and higher data retention and 
distribution parameters, certain tests or inspections can be conducted, 
recorded, and transmitted remotely thereby reducing the overall 
resource and financial burdens of in person tests. FAA development of 
guidance documents to facilitate broader use of remote technologies was 
underway prior to the COVID-19 pandemic, but it was quickly issued as 
part of FAA's mitigation plan and shown to be extremely effective in 
performing safety oversight activities and efficiencies necessary to 
maintain operations and economic activity during a time of significant 
travel restrictions. The use of remote technologies has also been 
extremely important between FAA and bilateral partners such as EASA to 
support continued validation activities necessary to maintain U.S. 
manufacturing and export of aviation products through the pandemic. FAA 
policy and guidance documents for the use of remote technologies are in 
place on a permanent basis and will continue to support effective 
safety oversight and efficiency improvements where appropriate.

    Question 4. While not this Committee's jurisdiction, it is 
important that Members understand the issue, therefore, can you explain 
what the National Interest Exception (NIE) waiver is, why it is 
important for the aerospace industry, what issues have arisen during 
the COVID pandemic, and how Congress can help?
    Answer. A number of countries have enacted border restrictions as 
part of health measures implemented in response to the COVID-19 
pandemic, including Canada, various European Union member states, and 
the United States.
    The U.S. approach to controlling borders for certain persons is 
enacted under the authority of the Immigration and Naturalization Act 
as it relates to restricting certain non-U.S. persons entry (so called 
``212(f) authority''). In spring 2020, several Presidential 
Proclamations were issued that restricted travel to the U.S. by persons 
(``non-citizens'') who were physically present during the 14-day period 
preceding their entry into the United States. Specifically, 
Presidential Proclamations 9984, 9992, 9993, and 9996 provided 
restrictions for non-U.S. persons travelling from the European Union 
(Schengen area), the Republic of Ireland and United Kingdom, and 
Brazil. The Proclamations provided certain exceptions including for air 
crew and when in the national interest of the United States.
    GAMA, in coordination with several member companies, worked to 
advance a framework for travel to the United States to support aircraft 
exports, maintenance, and training of aviation personnel during spring 
and summer 2020. The activities involved engagements with the 
Department of State (DOS) and the Department of Homeland Security 
(Customs and Border Protection) which were identified as the lead 
agencies for the implementation of the restrictions as well as other 
agencies.
    The DOS and CBP guidance helped establish several considerations 
for travel to the United States including that the ``air crew'' 
exception may only be used by pilots entering into the U.S. while 
operating the aircraft or on a ``dead head'' flight where they would 
operate the aircraft out of the U.S. following arrival.
    Since a number of GAMA member activities involve aviation personnel 
traveling to the U.S. where the ``air crew'' criteria are not 
necessarily met, attention shifted to the national interest exception 
(NIE) waiver pathway in the Proclamations and entered into the U.S. 
under a B1/B2 visa. The NIE waiver guidance was issued by different 
U.S. Embassies on their respective websites starting in July 2020 
through October 2020, and addressed travel by persons from most of 
Schengen, the Republic of Ireland, and the United Kingdom. Waivers, 
however, have not been available for Brazil--except for humanitarian 
travel which to date has only covered two pilots involved with taking 
delivery of an aeromedical equipped aircraft and A-visas (e.g., 
personnel from ANAC). (Additional guidance has also been issued by some 
U.S. Embassies for certain student visas, including F- and M-
categories.)
    On January 18, 2021 the country restrictions were terminated. On 
January 25, however, a new framework of country restrictions was 
introduced by the White House in a Proclamation on the Suspension of 
Entry as Immigrants and Non-Immigrants of Certain Additional Persons 
Who Pose a Risk of Transmitting Coronavirus Disease. The new 
Proclamation is mostly similar to earlier restrictions but groups the 
Federal Republic of Brazil with jurisdictions for which NIEs have been 
provided since May 2020 and also adds South Africa. The implementation 
of the new Proclamation is under the authority of the Secretary of 
State, Secretary of Homeland Security, Secretary of Health and Human 
Services (HHS by way of Centers for Disease Control), and the Depart of 
Transportation and is specifically subject to a monthly review for its 
continuation, modification, or termination.
    GAMA has engaged with agencies involved with the interagency 
working group responsible for the implementation of the new 
Proclamations since late January, including through the FAA team that 
is part of the group. Providing a pathway for foreign nationals travel 
to the United States is important to the economy, but more importantly 
to the safety of U.S. state of design aircraft that are operated by 
foreign nationals that must be subject to training often only available 
in U.S. domestic locations.

    Question 5. In your written statement you expressed support for 
both advanced air mobility and sustainable aviation fuels. How do you 
see these new technologies changing air transportation and its impact 
on the environment?
    Answer. Advanced Air Mobility (AAM) represents a new and innovative 
frontier of aviation. The aircraft under development for AAM use 
electric propulsion, which will reduce emissions and dependence on 
fossil fuels. These aircraft, such as electric vertical take-off and 
landing (eVTOL) aircraft, are designed to be safer and quieter than 
traditional airplanes and helicopters and will be able to transport 
passengers or cargo at low/medium altitudes in urban, suburban, rural, 
and regional environments. AAM has the potential to facilitate new 
transportation options, create jobs and economic activity, advance 
environmental sustainability and new technologies, and support 
emergency preparedness and competitiveness. We want to thank you again 
for your leadership in this area by sponsoring legislation to ensure 
the federal government is effectively engaged and coordinated 
internally with industry and other stakeholders to recognize the broad 
benefits of this developing and transformative aviation sector. We are 
also glad to see that a companion bill has been introduced in the 
Senate by Sen. Moran and Sen. Sinema.
    Sustainable Aviation Fuel (SAF) will have a significant impact on 
the environment if it can be produced in quantities large enough to 
meet the increasing demand. As you know, the Business Aviation industry 
since 2009 has committed to a long-term goal of reducing by 50% our CO2 
emissions in 2050 relative to 2005. We expect to make strides toward 
meeting this goal on multiple fronts, such as newer aircraft and 
aircraft engine technologies, operational and infrastructure 
improvements, and some market-based measures. However, the single 
greatest factor that has the potential to reducing our CO2 emissions 
today is through SAF. SAF is a drop-in fuel that is safe to use and 
currently available. While newer technologies such as electrification 
and hydrogen show promise in reducing CO2 emissions, there is still 
significant work to be done before they are brought to market in mass 
quantities. Therefore, SAF plays a key role today in our sustainability 
push and will continue to play a key role for many years. However, SAF 
production cannot keep up with demand and we hope that Congress can 
help spur the private sector investment needed through incentives such 
as an aviation specific SAF Blender's Tax Credit and other efforts.

 Question from Hon. Sam Graves to Peter J. Bunce, President and Chief 
     Executive Officer, General Aviation Manufacturers Association

    Question 6. EU-US Bilateral Safety Agreement: Mr. Bunce, in your 
written statement you indicate that going forward international safety 
agreements will be essential to promote and improve safety and address 
``potential hazards in the exchange of aviation products, parts, 
repairs, maintenance, and pilot training.'' I couldn't agree more. 
Recently, after seeing remarks by the Director-General of the European 
Union Aviation Safety Agency (EASA) announcing a drastic change in how 
EASA will review all U.S. manufactured aircraft and products, Ranking 
Member Garret Graves and I sent a letter to Secretary Buttigieg urging 
him to seek an immediate clarification of EASA's plans, to ensure that 
EASA's plans do not violate the US-EU bilateral safety agreement, and 
to unequivocally and publicly express support of and confidence in the 
FAA's certification process and professionals. To date we have not 
received a response. Can you share with us why international safety 
agreements are so important?
    Answer. Thank you for asking this very important question. As we 
move forward, international regulatory cooperation will be even more 
important in raising the level of aviation safety and effectively 
addressing ever evolving technologies and appropriately dealing with 
unexpected challenges like the pandemic. The U.S.-European Union (EU) 
bilateral and other arrangements are global cornerstones of 
international aviation safety cooperation and focus on promoting and 
improving safety by addressing potential hazards in the exchange of 
aviation products, parts, repairs, maintenance, and pilot training. We 
must ensure that these agreements continue to work effectively. There 
is significant coordination in establishing confidence in respective 
safety certification and oversight processes and acceptance based on 
experience and safety performance. Bilateral implementation procedures 
focus safety authority resources and involvement in safety areas based 
on risk criteria, regulatory differences and new technologies.
    Our members are experiencing increasing European Union Aviation 
Safety Agency (EASA) involvement in validations to re-review or 
recertify the FAA's work, particularly in areas focused on system 
safety assessment and human factors. The FAA is also increasing 
involvement on EASA and other bilateral partner validations in these 
same areas. These actions comply with procedures under the US-EU 
bilateral for risk-based involvement in safety critical and new/novel 
design or technologies. However, regulators must ensure that such 
involvement focuses only in these areas to the extent necessary to 
resolve the risk-based technical issues and build confidence in their 
respective safety systems in accordance with the bilateral agreement. 
It is essential that this involvement does not migrate to all 
validation activities, which would squander safety resources and add 
unnecessary costs and delays to the process. Any delay in the 
validation and acceptance of new aviation products is a delay in 
introducing the latest designs, capabilities and technologies which 
most often bring safety enhancements, particularly across the broad 
scope of general aviation products in commercial and private operations 
for business, passenger, cargo, flight training, personal and 
recreational transportation.
    Despite some public rhetoric, at the working certification 
directorate level, we believe there is a good relationship and strong 
commitment between the FAA and EASA for continued cooperation and 
collaboration under the EU-US bilateral. GAMA and our member companies 
will continue to work with FAA, EASA and regulators globally to 
facilitate safety cooperation for the safe and effective certification 
of aviation products. We look forward to working with you on this 
critical matter.

 Questions from Hon. Garret Graves to Lance Lyttle, Managing Director, 
    Seattle-Tacoma International Airport, on behalf of the American 
                   Association of Airport Executives

    Question 1. What public health guidelines are the airports 
following to keep passengers safe and healthy?
    Answer. Since the beginning of the pandemic, airports have made 
significant investments in public health enhancements to protect 
workers and passengers at their facilities, and to restore confidence 
in air travel. These investments follow guidelines issued by the 
Centers for Disease Control and Prevention (CDC) on cleaning, 
disinfecting, and ventilation; on ways to mitigate the virus in the 
workplace; and that specifically address workforce protections for 
airport personnel. In addition to CDC guidance, airports have been 
abiding by guidelines issued from the Environmental Protection Agency, 
the Occupational Safety and Health Administration, and the 
Transportation Security Administration, as well as any public health 
guidelines issued by their states or localities.
    At SEA, we implemented a wide range of new FlyHealthy initiatives 
based on current public health guidelines and are committed to 
retaining these enhanced health protocols in the future. Specifically, 
we have:
    <bullet>  Increased cleaning and sanitization efforts, with 
frequent disinfection with medical-grade cleaning products;
    <bullet>  Secured accreditations for our cleaning practices, which 
includes frequent training of our personnel on these methods;
    <bullet>  Required passengers, visitors, and workers to wear face 
coverings in the public areas of our facility well before the federal 
mask mandate went into effect;
    <bullet>  Added over 280 hand sanitizer stations throughout the 
terminal;
    <bullet>  Invested in a wide variety of innovative technologies for 
seamless, contact-free travel;
    <bullet>  Installed nearly 650 plastic protective barriers that 
buffer interactions between travelers and airport employees;
    <bullet>  Displayed 8,000 signs and stickers to remind passengers 
of physical distancing; and
    <bullet>  Opened an on-site COVID-19 testing location for non-
symptomatic travel testing needs.

    Question 2. In your written statement you indicate that airports 
``have seen signs of gradual improvement over the last six months.'' 
What improvements have you seen?
    Answer. Although far below 2019 levels, enplanements have continued 
to improve in recent months, generating more revenue for airports. We 
have a long way to go before we get back to pre-pandemic levels. But 
rising vaccination rates and declining coronavirus cases are prompting 
more people to travel. The Transportation Security Administration 
screened more than one million passengers for several consecutive days 
in March and reached almost than 1.4 million on March 12--the highest 
level since March 15, 2020. At SEA, we ended 2020 down 61% compared to 
2019, but will be ``only'' down 30-40% in 2021 compared to 2019; while 
this is progress, we do not expect to return to 2019 levels for at 
least three to five years.
    Congress also helped by passing coronavirus relief packages 
including the American Rescue Plan, which included an additional $8 
billion for airports. Due, in part, to increasing vaccination rates and 
additional federal funding for airports, Moody's recently upgraded its 
financial outlook for airports from negative to stable. Although new 
variants could help contribute to another spike in coronavirus cases, 
the Moody's report is another sign that the outlook for airports is 
improving.

    Question 3. You stated that ``overall airline costs will be lower 
in 2021 than in 2020.'' What actions have airports taken to achieve 
this reduction?
    Answer. Airports around the country have taken numerous steps to 
help the airlines and concessionaires during the pandemic. As I 
mentioned in my testimony, the Seattle-Tacoma International Airport has 
tried to assist our airline partners by accelerating cost-sharing 
payments and by lowering landing fees. For those reasons, we expect 
airline costs will be lower in 2021 than in 2020. We have also helped 
concessionaires by deferring rents and fees and by adjusting leases.
    Many other airports have taken similar actions to help airlines and 
concessionaires during these difficult times. When the pandemic began a 
year ago, Dallas Fort Worth International, Hartsfield-Jackson Atlanta 
International, Orlando International, and other airports announced 
their decisions to reduce or defer landing fees to help their airline 
partners. We're all part of the same aviation ecosystem, and airports 
are eager for airlines, concessionaires and their other partners to get 
through the current crisis so we can we work together on the recovery 
ahead.

    Question 4. Please describe the results of the Harvard Aviation 
Public Health Initiative's report on the risk of COVID transmission in 
airports.
    Answer. On February 11, 2021, Harvard's Aviation Public Health 
Initiative (APHI) issued a comprehensive report on the risk of 
coronavirus transmission in airports, after completing a ``curb-to-
curb'' study on airport operations. To understand the airport 
environment during COVID, Harvard developed a questionnaire that 
focused on ``airport operations in a public health emergency; screening 
of passengers, visitors, and employees; cleaning and disinfection; 
ventilation; physical distancing from pre-departure to arrivals; 
innovations, and behavioral issues.'' A total of 25 airports, 23 within 
the United States (U.S.) and two internationally, responded to the 
questionnaire and a subset of these airports were interviewed. The 
sample of U.S. airports reflected different areas of the country, 
airport sizes, and international and domestic facilities. Seattle-
Tacoma International Airport was one of the airports reviewed.
    Overall, Harvard found that the probability of being infected in an 
airport was very low. According to APHI, airports made ``consistent and 
impressive commitments to reduce the risks of disease transmission in 
their facilities'' between passengers, employees, concessionaires, 
contractors, and visitors through layered, interlinked, risk-mitigation 
strategies that, when used together, can effectively control the risk 
of exposure. The report highlighted enhanced cleaning and frequent 
disinfection regimens; upgrades to ventilation delivery and air 
handling systems (including increasing filtration efficiency); adoption 
of various means to encourage physical distancing (e.g., floor decals, 
barriers, signage, communication); the promotion of compliance with 
wearing masks or face coverings; and the use of technology to support 
contactless procedures in certain circumstances.
    The Harvard report made clear that there is no one-size-fits-all 
approach that works in all instances, given the nature of the virus and 
the complexity and diversity of airports across the country. It 
concluded that protective efforts must remain in place as air travel 
volumes increase and even as more and more people get vaccinated to 
reduce the transmission of this disease. SEA and other airports across 
the United States are committed to continuing these protective 
mitigation efforts to ensure passengers and workers are safe as 
possible.
    APHI also found that while information developed for addressing the 
pandemic was helpful to airports, the absence of federal guidance early 
in the crisis and variable state and local practices in the U.S., meant 
that each airport has largely been responsible for determining its 
approach to COVID-19 response protocols and the evolving science. Among 
the airports surveyed and interviewed, most commented on a desire to 
see greater consistency across the industry through federal 
requirements, noting this would help passengers know what is expected 
of them, improve passenger confidence and compliance, and enable 
targeted financial investments in support of faster industry-wide 
recovery.
    This report was the second by Harvard to assess the risk of 
transmission in air travel. The first report was issued in October 2020 
and focused on the risks on aircraft. APHI acknowledged that the 
airport environment is much more complex, as compared to aircraft, when 
studying transmission risks and mitigation efforts.

    Question 5. Have any airports sought out new sources of revenue?
    Answer. Airports are always considering new ways to generate non-
aeronautical revenue, but those opportunities have been significantly 
limited during the pandemic. Traditionally, airports rely on 
aeronautical revenue, non-aeronautical revenue, Passenger Facility 
Charges and federal funding. Unfortunately, revenue from the first 
three sources declined dramatically in 2020. As I mentioned in my 
testimony, ACI-NA estimates that airports are projected to experience 
at least $40 billion in lost revenue and increased costs from March 
2020 through March 2022. That is why airports are so grateful that 
Congress stepped in and provided an influx of federal funds to help 
offset some of those unprecedented financial losses.

    Question 6. In your written testimony you ``urge Congress to do 
more to ensure that the thousands of nonprimary commercial service and 
GA airports . . . have the resources they need to respond to the 
pandemic.'' How can Congress help these airports in particular?
    Answer. Airports are grateful that Congress approved three 
coronavirus relief packages in the past year that included funding to 
help airports during the pandemic. The final version of the American 
Rescue Plan, which the House approved on March 10, included an 
additional $100 million for nonprimary commercial service and general 
aviation airports. It also included language to eliminate the local 
match requirement for Airport Improvement Program (AIP) grants in 
Fiscal Year 2021. Both provisions will help nonprimary commercial 
service and GA airports in the months ahead. But that is not nearly 
enough to cover the needs of 3,000 airports around the country and 
especially those traditionally busy general aviation airports with 
significant annual operations.
    Aside from providing another round of coronavirus relief funding, 
Congress could take steps to help GA and commercial service airports in 
the upcoming infrastructure bill and the annual appropriations process. 
H.R. 2, which the House passed last year, proposed to increase the AIP 
authorization level from $3.35 billion to $4 billion annually. It also 
proposed to provide up to $4 billion annually in additional funds for 
airports with broader flexibility. Including both provisions in an 
infrastructure bill this year would help airports of all sizes prepare 
for increasing operations, rising passenger levels, and the recovery 
ahead.
    Finally, Congress could help nonprimary commercial service and GA 
airports that participate in the FAA Contract Tower Program by: 1) 
increasing funding for the program in the Fiscal Year 2022 DOT 
appropriations bill; 2) including funding in the infrastructure bill to 
help contract tower airports repair or replace aging towers; and 3) 
passing H.R. 1283, the CONTRACT Act, a bipartisan bill that would 
address staffing challenges at contract tower airports. We deeply 
appreciate your longstanding support for the FAA Contract Tower Program 
and thank you for cosponsoring the CONTRACT Act again in the 117th 
Congress.

  Questions from Hon. Garret Graves to Edward M. Bolen, President and 
    Chief Executive Officer, National Business Aviation Association

    Question 1. What kinds of long-term adjustments is the industry 
implementing to adapt to the new reality of a post-COVID world?
    Answer. While the COVID-19 pandemic continues to create 
unprecedented challenges for business aviation, our industry is 
resilient and adapting to the new normal. For example, NBAA has 
developed best practices for aircraft cleaning and disinfection, which 
the industry has embraced to provide passengers greater confidence when 
traveling. We also developed relationships with the CDC and other 
health-related agencies to provide the latest guidance on vaccines to 
pilots who must ensure they meet stringent FAA medical requirements.
    Air charter operators are also rapidly adapting to changes in 
commercial airline schedules that have reduced service to many small 
and mid-sized communities. Aircraft have been redeployed to serve new 
markets, and operators are working to educate potential customers about 
the benefits of business aviation. As additional customers are exposed 
to the benefits of business aviation, NBAA is working to provide 
educational opportunities designed for these new entrants.
    Finally, with the remarkable development of effective COVID-19 
vaccines we have a potential path forward for business aviation, even 
as we continue to deal with day-to-day pandemic-related challenges. 
With that in mind, we are looking to the future with a focus on 
advanced technology, sustainability, and diversity. This positive 
future will bring our country closer together and generate high-skill, 
good-paying jobs right here in the United States.

    Question 2. In your written statement you indicate that while you 
``understand challenges for the Treasury Department in administering 
PSP, [smaller operators] have experienced significant delays in the 
second round of funding.'' To what do you attribute these delays and 
what impact are they having on small businesses? How can this 
Subcommittee help?
    Answer. We applaud the dedication of Treasury employees to quickly 
stand up the Payroll Support Program (PSP), which has provided 
assistance to hundreds of small businesses. For small air charter 
operators, the lack of a specific contact at Treasury to address PSP-
related questions continues to be a challenge. Understanding that there 
are limited resources, it would be helpful if Treasury could identify a 
dedicated staff person (or group) to work with general aviation 
operators.
    If Treasury could provide additional certainty/transparency as to 
when applicants could expect PSP awards, that would be helpful. After 
submitting a PSP application, there is no timeline or tracking process 
for applicants to understand when awards will be issued. This 
uncertainly is very challenging for small businesses that are retaining 
employees with the expectation of receiving PSP assistance.
    Through the Subcommittee's work with Treasury, we would appreciate 
you raising the idea of a dedicated contact for small operators working 
through the application process. Also, a request from the Subcommittee 
for a timeline or estimated PSP award date that small operators can 
consult after their application is received would be helpful.

    Question 3. How would you describe ``recovery'' for your segment of 
the aerospace industry?
    Answer. Recovery for business aviation continues to be uneven, with 
some airports still dealing with 50%declines in aircraft operations and 
fuel sales. Based on our conversations with NBAA members, business 
travel is still down significantly from pre-pandemic levels. There is 
no consensus about what business travel will look like post-pandemic, 
so while we are optimistic, there are continuing concerns.
    Also, PSP continues to provide critical support for air charter 
providers and other general aviation commercial operators. We 
appreciate the recent PSP-extension and look forward to continuing the 
discussion on future needs as we have more data on the impact of the 
vaccine rollout on demand for business aviation.

    Question 4. In your written statement you expressed support for 
both advanced air mobility and sustainable aviation fuels. How do you 
see these new technologies changing air transportation and its impact 
on the environment?
    Answer. Sustainable Aviation Fuel (SAF) is widely considered to 
hold the most significant potential for reducing GHG emissions from 
aviation. SAF reduces lifecycle GHG emissions by up to 80% compared to 
conventional jet fuel. While there continue to be significant 
advancements in battery technology and electric propulsion, those 
options are not yet viable for many business aircraft. SAF represents 
the best path to decarbonize the aviation industry as we work towards 
electrification and other advanced propulsion technologies.
    For shorter haul trips and in urban areas, advanced air mobility 
(AAM) offers significant opportunities to reduce congestion and utilize 
electric propulsion. The ability for AAM to connect passengers with 
multimodal hubs and reduce congestion on the ground has the potential 
to deliver significant environmental benefits. Through targeted 
infrastructure and planning investments, the U.S. can be the world-
leader in AAM and its promise of zero-emission aerospace.

    Question 5. Do your members remain concerned about a shortage of 
professionally trained aerospace professionals? If so, how can the 
Government and industry work together to ensure we do not lose sight of 
this issue during COVID and COVID recovery?
    Answer. We appreciate the Subcommittee's continued interest in our 
aerospace workforce. For the United States to maintain its position as 
the world leader in aviation, we need a growing and highly-trained 
workforce. The COVID-19 pandemic has created significant challenges for 
our workforce, but that does not mean we should stop planning for the 
future.
    We look forward to the reintroduction of the Promoting Service in 
Transportation Act during this Congress. This legislation would 
authorize the Department of Transportation to develop a series of 
broadcast, digital and print public service announcements to promote 
career opportunities and increase diversity in the transportation 
workforce. Through these public service announcements, we will raise 
awareness of careers across all transportation modes, including 
aviation, and create excitement and interest in these careers at an 
early age.

Questions from Hon. Sam Graves to Edward M. Bolen, President and Chief 
       Executive Officer, National Business Aviation Association

    Question 6. COVID relief for small operators: Mr. Bolen, in your 
written statement you indicate that while you ``understand challenges 
for the Treasury Department in administering PSP, [smaller operators] 
have experienced significant delays in the second round of funding.'' 
To what do you attribute these delays and what impact are they having 
on small businesses? How can this Committee help?
    Answer. We applaud the dedication of Treasury employees to quickly 
stand up the Payroll Support Program (PSP), which has provided 
assistance to hundreds of small businesses. For small air charter 
operators, the lack of a specific contact at Treasury to address PSP-
related questions continues to be a challenge. Understanding that there 
are limited resources, it would be helpful if Treasury could identify a 
dedicated staff person (or group) to work with general aviation 
operators.
    If Treasury could provide additional certainty/transparency as to 
when applicants could expect PSP awards, that would be helpful. After 
submitting a PSP application, there is no timeline or tracking process 
for applicants to understand when awards will be issued. This 
uncertainly is very challenging for small businesses that are retaining 
employees with the expectation of receiving PSP assistance.
    Through the Subcommittee's work with Treasury, we would appreciate 
you raising the idea of a dedicated contact for small operators working 
through the application process. Also, a request from the Subcommittee 
for a timeline or estimated PSP award date that small operators can 
consult after their application is received would be helpful.

                            [all]
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
